No. 20-637
IN THE

DARRELL HEMPHILL,

Petitioner,
v.
NEW YORK,

Respondent.
On Writ of Certiorari
to the Court of Appeals of New York
JOINT APPENDIX
Noah J. Chamoy

Assistant District Attorney

OFFICE OF THE BRONX
COUNTY DISTRICT ATTORNEY
198 East 161st Street
Bronx, New York 10451
Telephone: (718) 838-7142
Chamoyn@bronxda.nyc.gov

Counsel of Record for
Respondent

Jeffrey L. Fisher

STANFORD LAW SCHOOL
SUPREME COURT
LITIGATION CLINIC
559 Nathan Abbott Way
Stanford, CA 94305
(650) 724-7081
jlfisher@stanford.edu
Counsel of Record for
Petitioner

Petition for Writ of Certiorari Filed: November 6, 2020
Certiorari Granted: April 19, 2021

i
TABLE OF CONTENTS
RELEVANT DOCKET ENTRIES
Supreme Court of New York, County of
Bronx, Ind. No. 1221/2013 .............................. 1
Supreme Court of New York, Appellate
Division, First Department, Ind. No.
1221/2013 ........................................................ 2
State of New York Court of Appeals, APL2019-00202 ..................................................... 3
MATERIALS IN THE SUPREME COURT OF THE STATE OF
NEW YORK: CRIMINAL TERM, PART T-11, IN PEOPLE OF
THE STATE OF NEW YORK V. NICHOLAS MORRIS, IND.
NO. 1674-2006
Transcript of State’s Opening Statement on
April 10, 2008 ................................................. 4
Transcript of Allocution Proceedings held on
May 29, 2008 ................................................. 18
MATERIALS IN THE SUPREME COURT OF THE STATE OF
NEW YORK: CRIMINAL TERM, PART 60 IN PEOPLE OF
THE STATE OF NEW YORK V. DARRYL HEMPHILL,
IND. NO. 1221/2013
Transcript of Jury Trial Proceedings held
on September 21, 2015 ................................. 41
Transcript of Jury Trial Proceedings held
on October 2, 2015 ........................................ 52
Transcript of Jury Trial Proceedings held
on October 7, 2015 ........................................ 58
Transcript of Jury Trial Proceedings held
on October 16, 2015 ...................................... 62
Transcript of Jury Trial Proceedings held
on October 26, 2015 ...................................... 64

ii
Transcript of Jury Trial Proceedings held
on November 5, 2015 .................................. 100
Transcript of Jury Trial Proceedings held
on November 12, 2015 ................................ 110
Transcript of Jury Trial Proceedings held
on November 13, 2015 ................................ 125
Transcript of Jury Trial Proceedings held
on November 16, 2015 ................................ 137
Transcript of Jury Trial Proceedings held
on November 18, 2015 ................................ 163
Transcript of Jury Trial Proceedings held
on November 19, 2015 ................................ 182
Transcript of Jury Trial Proceedings held
on November 20, 2015 ................................ 189
Transcript of Jury Trial Proceedings held
on December 2, 2015 ................................... 210
Transcript of Jury Trial Proceedings held
on December 3, 2015 ................................... 299
Court’s Exhibit III admitted on November
20, 2015 ....................................................... 363
Court’s Exhibits VII – XIII (Jury Notes 1
through 7) admitted between
December 3 – 7, 2015 .................................. 364
MATERIALS IN THE COURT OF APPEALS, STATE OF NEW
YORK IN PEOPLE V. DARRYL HEMPHILL, APL-201900202
Appellant Darryl Hemphill’s Rule 500.11
Letter Brief submitted December 12,
2019 ............................................................. 371
Appellant Darryl Hemphill’s Rule 500.11
Reply Brief submitted March 6, 2020 ........ 400

1
IN THE SUPREME COURT OF NEW YORK
COUNTY OF BRONX: CRIMINAL TERM

People of the State of New York v. Darrell Hemphill
Indictment No. 1221/2013

RELEVANT DOCKET ENTRIES
Date Filed

Docket Description

04/23/2013

Information / Indictment filed

09/21/2015

Trial commences

12/07/2015

Jury verdict

01/06/2016

Judgment

01/08/2016

Notice of appeal to Appellate
Division

2
IN THE SUPREME COURT OF NEW YORK
APPELLATE DIVISION, FIRST DEPARTMENT

People of the State of New York v. Darrell Hemphill
Indictment No. 1221/2013

RELEVANT DOCKET ENTRIES
Date Filed

Docket Text

01/08/2016

Notice of appeal filed

03/16/2019

Oral argument

06/11/2019

Judgment filed

06/17/2019

Application for review in the
Court of Appeals

3
IN THE STATE OF NEW YORK COURT OF APPEALS

People of the State of New York v. Darrell Hemphill
APL-2019-00202

RELEVANT DOCKET ENTRIES
Date Filed

Docket Text

06/17/2019

Application for review filed

06/25/2020

Opinion issued

4
[148]
SUPREME COURT OF THE STATE OF NEW YORK
COUNTY OF BRONX: CRIMINAL TERM:
PART T-11
THE PEOPLE OF THE STATE OF NEW YORK,
- against NICHOLAS MORRIS,
Defendant(s).

x
:
:
:
:
x

April 10, 2008
BEFORE:
HONORABLE MICHAEL GROSS, Justice
(Same appearances as previously noted.)
****
[207:20]
THE COURT: So noted. Were the parties ready for
the jury to be returned for the People's opening
statement?
COURT OFFICER: All rise, jury entering.
(Whereupon, the sworn jurors enter the courtroom
and take their respective seats.)
THE COURT: All parties may be seated. The
record [208] will reflect all jurors are present and
properly seated.
Good afternoon ladies and gentlemen of the jury.
It’s nice to see you after this two day break. At this
time, as I indicated to you earlier in the week, we will
be hearing the prosecutor’s opening statement.

5
Mr. Karen, you may deliver your opening.
MR. KAREN: Thank you, Judge. Good afternoon.
As the judge told you, it is the People’s obligation to
tell you in openings what we intend to prove and this
is it.
On Easter Sunday, April 16, 2006, a bright, sunny
Easter Sunday at about 1:45 in the afternoon on
Tremont Avenue, a busy street with lots of people on
the street and lots of cars going by, Joanne Cinabria,
the mother of two-year-old David Pacheco Jr. was
driving a Honda Odyssey van with her two-year-old
baby strapped in the back seat and other family
members. She was going to pick up her husband,
David Pacheco Senior and they were going to church
and to dinner. She was driving on East Tremont
Avenue near Harrison Avenue in the Bronx when that
man, Nicholas Morris, opened fire on a totally different
group of people. A group of five young Hispanic men
and women.
A bullet that Morris intended for that group of
people, and there were several shots fired, went
through the side sliding door of Ms. Cinabria’s Honda
and it virtually, instantly killed two-year-old David
Pacheco, Jr. [209] You’ll hear about the attempts to
save him and to resuscitate him. But for all intents and
purpose, he was dead when he was shot, as the medical
examiner, Dr. Gill, will tell you when he testifies early
next week.
Now, there were a group of five eyewitnesses who
were being shot at and all of them will testify here, the
intended target of the Defendant Morris, were Marisol
Santiago, twenty years old, her boyfriend Juan Carlos

6
Garcia, 24 years old, her mother Brenda Gonzalez, 41
years old, Brenda’s boyfriend Jose Castro, 27 years old,
and their cousin John Eric Vargas, 24 years old.
You’re going to learn that four of these
eyewitnesses separately and independently viewed a
lineup on April 18, 2006, the day of the arrest. Three
of the eyewitnesses, Brenda Gonzalez, Marisol
Santiago, John Eric Vargas, independently and
separately identified that man, Nicholas Morris. The
fourth witness, Juan Carlos Garcia did not identify
anybody, did not identify anybody. And you will learn
that several nine millimeter shell casings were
recovered by the crime scene unit, and various pieces
of ballistics, damaged bullets, bullets recovered from
various areas and the bullet that actually killed the
baby. And you’re going to learn that there was a
ballistics comparison made. And although no gun was
recovered, the ballistics expert, Detective Fontanez
can tell you all of [210] the ballistics could be matched,
the casings and the bullets, with sufficient
characteristics all came from the same gun, one gun.
Interestingly, what was used here was a nine
millimeter gun. And you will learn that there was a
search done of the defendant’s bedroom and we
recovered in that search, live nine millimeter
ammunition in his bedroom. But aside from a live nine
millimeter round, and some [.]357 ammunition, that’s
a different type of gun. You will learn that under his
mattress we recovered an assault rifle and an eight
millimeter prop or movie gun.
So, you’re going to have a lot of eyewitness
testimony and the ballistics evidence. And if you would
like to hear the defendant’s side of the story, because

7
we’re going to be introducing different statements that
the defendant made.
Now, some people might say if the statements are
made —
MR. BARKET: Objection, Judge. I have an
objection and an application.
THE COURT: Both Counsel may approach.
(Whereupon, an off the record discussion was
held.)
THE COURT: The objection is overruled at this
time[.] [211]
MR. BARKET: I’m sorry, Judge. I didn’t state the
basis of the objection on the record.
THE COURT: There will be a full record, I’m just
not going to shuttle the jury in and out, but there be
will be a full record as to the basis of the objection.
MR. KAREN: We’re going to introduce three
different statements made by Nicholas Morris. Only
one of them was made to the police, and I’m going to
be going through all of them in the opening. One was
made to Channel 12 News. It was broadcast, I’m going
to show it to you. No police there. One was made to
another inmate. You’re going to hear from that inmate.
One was a written statement made to the police.
Now, you’re going to hear from Anthony Gonzalez
and he’s going to tell you that he had a conversation
with Nicholas Morris around July 4th of 2006 and that
man, Nicholas Morris, told Anthony Gonzalez, who
knows nobody in this case, no family members, no
eyewitnesses, no defendants, no anybody and who will

8
tell you he had read nothing about the case. Morris
admitted that he did the shooting. It was a revenge
shooting, and Gonzalez will tell you this is what I was
told by the defendant. And you’ll hear that the
information given to Anthony Gonzalez could only
come from somebody who was present, could only come
from somebody involved, from a shooter with [212]
information that even the eyewitnesses don’t know.
And Mr. Gonzalez, you’ll hear about his
background. He has a criminal record, but he will
testify here and he will testify that he requested
nothing from the prosecution to cooperate on this case.
Now, that man, Morris, tells Gonzalez that he
opened fire on this group of Hispanics. Morris claims
there were two other perpetrators involved, Ronell
Burger Gilliam, who you will hear has been separately
arrested and Darryl Hemple. According to that man,
Morris, Morris claims that Darryl Hemple pulled a
gun and Morris said to him, hell no, let me get that.
And Morris told Gonzalez he took the gun and he
opened fire, firing at least three shots at the group of
Hispanics that had been involved in an earlier fight.
Morris then tells Gonzalez, Hemple took the gun back
and fired four more shots in the direction of one
particular Hispanic, that according to Morris was
running into or getting into a van. Morris doesn’t say
what bullet killed the baby or even that they were
aware that a baby was killed. There is one eyewitness
who will testify as to which bullet hit the van.
Juan Carlos Garcia had gone to a grocery store to
get a bottle of water for John Eric Vargas, who had
been injured in the earlier fight and we will talk about
that. He was crossing the street when Morris opened

9
fire, and he [213] will tell you the first bullet fired is
the bullet that hit the victim’s van as it was going
down Tremont Avenue. According to what Morris told
Gonzalez, Morris Burger or Gilliam, and Hemple ran
to Burger's apartment where they decided that Burger
would get rid of the murder weapon. That’s his story.
It's interesting the eyewitnesses will testify and tell
you that Morris is the shooter.
Everybody who testifies here and who’s a witness
will put Burger there. The evidence will show that
Burger was a distinctive individual, weighing about
400 pounds, having one bad eye and long dreadlocks,
but no eyewitness will place this Darryl Hemple at the
scene. It is that man, Morris, who claims that he did
the shooting with Darryl Hemple. Morris told another
story.
He surrendered to Channel 12 News on April 18,
2006 and he gave them a long interview which you will
see, I believe, next Thursday. No police were involved
and you will see that the questions being asked were
what one might call, to use a baseball phrase, softball
questions. And you’ll see that in that interview Mr.
Morris places himself at the scene of the shooting. He
never mentions this Darryl Hemple. The only person
he mentions is Burger. And you’ll also see that on April
18, 2006 Morris gave Detective Jiminick a written,
signed statement and we will put that into evidence,
and as you examine that statement [214] you will see
there is no mention of Darryl Hemple.
What I’m going to do now is to go through the
charges or some variation will be presented to you at
the end of the case, and then I’m going to tell you
specifically what the People’s proof will be. The

10
charges are contained in an indictment. It reads as
follows. Supreme Court of the State of New York,
County of Bronx. The People of the State of New York
against Nicholas Morris, Defendant.
First count, the grand jury of the County of the
Bronx by this indictment accuses the Defendant,
Nicholas Morris, of the crime of murder in the second
degree committed as follows: The Defendant, Nicholas
Morris, on or about April 16, 2006 in the County of the
Bronx, under circumstances evincing a depraved
indifference to human life, did recklessly engage in
conduct which created a grave risk of death to another
person, and thereby caused the death of David Pacheco
Jr. by firing a loaded pistol in the direction of a group
of people, and thereby shooting and killing David
Pacheco Jr. That murder count is known as depraved
indifference murder.
The second count is a different theory of murder,
and in all likelihood one or the other will be submitted
to you at the end. The second count is intentional
murder. It reads as follows: The defendant, Nicholas
Morris, on or [215] about April 16, 2006 in the County
of Bronx, with intent to cause the death of a person,
did cause the death of David Pacheco Jr. by firing a
loaded pistol at a group of people, and thereby shooting
and killing David Pacheco Jr.
The third count is another homicide count. It’s
called manslaughter in the first degree. And the
charge is that Morris, on April 16th, Easter Sunday
2006 in the Bronx killed two-year-old David Pacheco
while acting with intent to cause serious, physical
injury to a person, and he did this by firing a loaded

11
gun towards this group of people who were on the
street on Tremont Avenue.
The last charge involves the weapon. And it’s
charged that on Easter Sunday, ‘06 in the Bronx,
Morris possessed a loaded gun with intent to use it
unlawfully against another. Those are the charges. Let
me give you who the key parties are, and then I’ll tell
you what the proof will be. The victim, as I said, is twoyear-old David Pacheco Jr., his mother is Joanne
Cinabria. She will testify here first. The assigned
detective is Detective Ronald Jiminick of the 46
Precinct. It was his case. There are five eyewitnesses
who will tell you they were fired at, and they are
Brenda Gonzalez, Marisol Santiago. Marisol will likely
be our second witness. We start testimony Monday, we
will start with Ms. Cinabria, the mother of the
deceased, and then an eyewitness, Marisol [216]
Santiago. Brenda Gonzalez, Marisol Santiago, Jose
Castro, John Eric Vargas, Juan Carlos Garcia. There
are other witnesses. And Anthony Baez will tell you he
observed the fist fight. There was a good samaritan,
Angelo Cruz. He was an off-duty emergency medical
technician who tried to save the life of the baby, and
actually took the baby and the mother to the hospital,
flagging down a cab. He’s going to testify, I think, on
Tuesday. The medical examiner is Dr. James Gill. The
evidence will show that man, Nicholas Morris, is the
killer. You’ll hear about Ronell Burger Gilliam, Morris’
good friend, a man about five ten to six feet, over 350
pounds who had been separately arrested. You will
hear about Darryl Hemple, that’s Gilliam or Burger’s
cousin. And you will hear from Anthony Gonzalez, the
man who tells you Morris told him what happened in
July of 2006.

12
So, let’s start at the beginning. Here’s what the
testimony will show. It’s a warm, sunny Easter
Sunday just before two p.m., April 16, 2006. On East
Tremont Avenue and Harrison Avenue there are a lot
of people on the street and a group of five people who
had just been shopping are simply walking on the
street. Marisol Denise Santiago, her mother Brenda
Gonzalez, Marisol’s boyfriend, Juan Carlos, Brenda’s
boyfriend, Jose Castro and John Eric Vargas. They
were walking down the street when that man, Morris,
across [217] the street yelled, what is up, to them. John
Eric Vargas responded back, what is up. But all the
witnesses will tell you they didn’t know this guy. There
were some words exchanged and the group of five, two
women and three men, kept walking. Shortly
thereafter, Morris starts walking up the street behind
this group with Burger, the 400 pound guy. You’re
going to learn that Morris is approximately six three,
six foot four. Morris and Burger tower over the group
that they are approaching, but they didn’t win the fist
fight. You’re going to hear that Morris and Burger
initiate a fight with John Eric Vargas and Juan Carlos
Garcia. It’s a fist fight, but at one point John Eric
Vargas is pushed into the street and is actually hit by
a passing vehicle and is knocked down, and he gets up
and he continues fighting.
The fight ends when, according to the witnesses,
Morris runs off being followed by John Eric. The
testimony will be that Morris runs towards University
Avenue, and you will learn that Morris lived at 1962
University Avenue. You’re going to hear about the
search of his bedroom. Burger never leaves the scene.
So, you have the eyewitnesses at the scene and Burger
at the scene.

13
About fifteen minutes later, the witnesses will tell
you that man, Morris, comes walking back and he has
a gun. And he pulls the gun and he fires, witnesses will
[218] tell you, anywhere from five to seven shots at
them. Now, the witnesses will tell you that they don’t
stick around watching every shot. Depending on who
the witness is, they either see Morris fire one shot or
two, and then they are scrambling. They ran into a
building, I believe 1731 Harrison, but the witnesses
will tell you they saw that man, Morris, fire. They’ll
tell you they saw only one man with a gun, the
defendant.
Now, two days later Morris surrenders and he’s
taken to a lineup. You will actually see photos of the
lineup, and you will hear that four of the eyewitnesses
were round up and they were brought in one at a time
to view the lineup. Three witnesses pick that
Defendant, Morris, out of the lineup. The four
witnesses. Juan Carlos makes no identification.
Burger will be placed at the scene by everybody.
No eyewitness will place Darryl Hemple at the scene.
Now, the circumstances of the arrest will be brought
out. You will learn that Detective Jiminick went to the
defendant’s apartment or what he believed to be the
defendant’s apartment, looking for a picture of him
from his mother. You will also learn about
observations made in the bedroom, and a search
warrant, and you will learn in the defendant’s
bedroom he had a live nine millimeter cartridge, at
least three live 357 cartridges, an assault rifle under
his [219] mattress, and sticking out from under his
mattress, an eight millimeter prop or movie gun,
which you will see looks exactly like a real gun.

14
Burger is arrested for this case several months
later. Now, the defendant will surrender on April 18,
2006 and he’ll have a full interview with Channel 12
News, which is where he’s arrested.
Now, let me give you specific details of what you’re
going to hear from the witnesses and from the exhibits.
Anthony Gonzalez will tell you that he was an inmate
with Nicholas Morris in protective custody around
July 4, 2006. He will tell you he knew nothing of this
case. He didn’t read about it. He will tell you that he
had recently been brought down from upstate. He was
in jail, and you’re going to hear about his record, and
he has a criminal record, there is no doubt about it.
But he’s going to say he met Morris when they were
playing basketball in the prison yard at Riker’s Island,
and Morris basically asked Mr. Gonzalez to do him a
favor, and Morris told his story to Gonzalez. Gonzalez
is in his forties, he doesn’t know the victim’s family, he
doesn’t know any eyewitness. He didn’t know Burger,
he didn’t know Hemple, he didn’t know Detective
Jiminick, he didn’t know Morris. He didn’t know
anybody involved in this case. What he’s told is this.
Morris said on Easter Sunday 2006 he was [220] home,
when he got a phone call from Ronell Gilliam.
According to Morris, Gilliam says me and Darryl or
Darryl Hemple were involved in a gang fight with
Latin Kings over drug turf. This is Norris’ story to
Anthony Gonzalez. According to Morris, Burger said
that he and Darryl left to get a black semi-automatic.
Burger asks Morris to meet them at Tremont and
Harrison Avenue. Then, according to Morris, he’ll say
he got dressed, he went down and now he’s standing
with Burger and Darryl Hemple. And he’s asking who
are the people you’re hassling with? Then, according to

15
Morris, Darryl Hemple pulls a gun. Morris says to
Hemple, let me do this, and he takes the gun and
Morris will tell Gonzalez, he fired at least three shots
at the group of Hispanics across Tremont Avenue.
Then Morris says something interesting. He says that
Hemple takes the gun back and fires four more shots
at a Hispanic gang member getting in a van. According
to Morris, he didn’t know anybody was killed or a baby
was killed until later.
Additionally, Morris told Anthony Gonzalez that
Burger, Hemple and Morris ran up to Burger’s
apartment after the shooting, and that it was decided
that Burger, Ronell Gilliam, would dismantle the gun
and get rid of it. You’re going to hear that Anthony
Gonzalez wrote a letter to the district attorney that he
came in, that he gave all the details, and that he never
asked for anything in return [221] for his testimony on
this case. You will be told that he was offered two
things. That a letter would be written to the parole
authorities on his case. He’s currently in jail for a plea
to grand larceny, and that when he gets out of jail, an
attempt would be made to arrange to get him housing.
Now, you’re going to get other evidence. You’re
going to hear from the medical examiner, Dr. Gill, the
ballistics expert, Detective Fontanez, crime scene
detective, Detective Cunningham, and you’re going to
learn interesting details. Every shot was fired from
one gun, the same gun, a nine millimeter gun, and that
matches the confession that Morris gave to Gonzalez
and that matches the live nine millimeter round found
in the defendant’s bedroom.
Now, let’s take a brief look at some of the other
statements that you’re going to hear from the

16
defendant. The Channel 12 News interview will be
offered, there are no police there. He is not yet under
arrest. He is arrested at the end of, or during the
interview. During that interview, and it’s somewhat
lengthy, there is no mention of Darryl Hemple.
According to Morris, when he speaks to Channel 12, it
is Morris and Burger. Morris places himself at the
scene. He said the night before he was partying and
drinking. He was hung over, and he said that it’s
Sunday [222] and he was asleep at 1:30 when he got a
wake-up call to come down and join Burger, who
claimed that he had been jumped.
Morris claims that he went to the scene to back up
Burger, and as he got to the scene, he heard shots, but
saw nothing. In fact, when asked, Morris says and this
is a quote, I have no theory about what happened, but
he does admit meeting up with Burger and going up to
Burger’s apartment. You’re also going to see a written
statement that the defendant gave to the police after
the Channel 12 interview. In that statement, Mr.
Morris said that he was sleeping when Burger phoned
him sometime around 1:30 on Sunday. Again, there
will be no mention of Darryl Hemple, but Morris says
Burger told him some dudes tried to jump him. Morris
says I get dressed, I go to Harrison and East Tremont
Avenue. When the shooting occurs, Morris says that
he goes with Burger to Burger’s apartment. What he
says is I didn’t see the shooting. I hear shots, we see
Burger, we go up to the apartment and in Burger’s
apartment, which is and you’ll hear, possibly a half
block or so from the scene of the shooting. Morris says
he asks Burger or actually Burger’s brother for a
change of clothing. And then Mr. Morris says he goes
home.

17
When Detective Jiminick was talking to that man,
Nicholas Morris, on April 18, 2006, Jiminick made an
[223] interesting observation. It is the claim in all the
statements you’ll hear introduced by the People, that
Morris denies being in a fight, being in a fist fight.
However, Detective Jiminick observed on April 18,
2006 that Morris had bruised knuckles on his hands,
as though he had recently been in a fist fight.
And so, you’re going to get the five eyewitnesses,
the intended target of this Brenda, Marisol, John, Eric,
Jose, Juan Carlos, several other civilians who were
present either where the baby ended up being shot or
who were at the scene. The medical examiner, the
crime scene detective, Detective Jiminick, the
ballistics expert, the lineup testimony, testimony
regarding search of the defendant’s bedroom and what
was found, and several police officers who had been at
the scene. And you’ll hear about that man’s confession
to Anthony Gonzalez, and when you add it all up, guilt
of that man, Nicholas Morris, for murdering two-yearold David Pacheco Jr. Will be proven beyond any
reasonable doubt, guilty of murder. Thank you.
THE COURT: Mr. Karen, thank you. [223:20]
****

18
[1]
SUPREME COURT OF THE STATE OF NEW YORK
COUNTY OF BRONX: CRIMINAL TERM:
PART T-11
THE PEOPLE OF THE
STATE OF NEW YORK,

x Indictment:
: 1674-2006
:
- against : Plea
NICHOLAS MORRIS,
:
Defendant(s). x
Supreme Courthouse
265 East 161st Street
Bronx, New York 10451
May 29, 2008
BEFORE:
HONORABLE MICHAEL GROSS,
JUSTICE
APPEARANCES:
ROBERT T. JOHNSON, ESQ.
For the People
District Attorney – Bronx County
BY: DANIEL MCCARTHY, ESQ. &
EDWARD TALTY, ESQ.
Assistant District Attorneys
BARKET, MARION, EPSTEIN &
KEARON, LLP
Attorney for the Defendant
666 Old Country Road, Suite 700
Garden City, New York 11530
BY: BRUCE BARKET, ESQ.

19
SHAMEEKA HARRIS, CSR, RMR,
RPR
Senior Court Reporter
[2]
COURT CLERK: 1674 2006, Nicholas Morris.
MR. MCCARTHY: Daniel McCarthy.
MR. BARKET: Bruce Barket.
THE COURT: Mr. Barket, I understand you wish
to waive your client’s production for the limited
purpose at this time.
MR. BARKET: I do indeed. We want to advise the
Court as far as the status of the case.
MR. MCCARTHY: Your Honor, after some
extensive conferences between myself and Mr. Barket,
what we would like to do, with the Court’s indulgence,
Mr. Morris has agreed to speak with the office of the
district attorney about the case and pending the
outcome of the – those proceedings we would ask the
Court to call the case again this afternoon at which
time we will continue with the case.
THE COURT: So noted. Mr. Barket, anything you
wish to add to the record at this time with respect to
the request for a second call?
MR. BARKET: No, I think that makes a great deal
of sense. I know Mr. Talty worked hard over the last, I
guess, four or five weeks to get to the point where,
hopefully, this matter will be resolved as it relates to
Mr. Morris at the conclusion of business today.
THE COURT: The matter will be second call
during [3] the afternoon session at which time Mr.

20
Morris will be produced in this part. Second call for
more information in the part.
(Whereupon,
proceedings.)

there

was

a

pause

in

the

COURT CLERK: This is a recall of indictment
1674 of 2006, People of the State of New York against
Nicholas Morris.
Appearances.
MR. BARKET: For Mr. Morris, Bruce Barket.
Good afternoon.
MR. MCCARTHY: Office of Robert Johnson by
Daniel McCarthy and Edward Talty and Mr. Talty will
be here momentarily.
THE COURT: Mr. McCarthy, good afternoon.
MR. BARKET: Judge, would you like us to
approach?
THE COURT: I prefer to have all discussions on
the record. Mr. McCarthy, are you prepared to state
the People’s position on the record?
MR. MCCARTHY: I prefer to defer to Mr. Talty on
that because he is 100 percent speed on that.
THE COURT: What position are you?
MR. MCCARTHY: Seventy-five.
MR. BARKET: The application we made is
dependent upon the Court’s inclination to go on.
THE COURT: While awaiting the arrival of [4]
Mr. Talty, both parties may be seated. Both counsel
may approach. The record will reflect Mr. Talty has
now entered the well area. Please approach.

21
(Whereupon, there is a discussion held off the
record, at the bench, among the Court, both assistant
district attorneys and Mr. Barket.)
(Whereupon, the following discussion takes place
on the record in open court.)
THE COURT: This matter was second call from
this morning when the parties indicated to the Court
in the absence of the defendant, Mr. Morris, that
further investigation was being undertaken by the
People with respect to the viability of the homicide
prosecution. The parties well remember that the
matter was sent to this court for hearing and trial, that
a hearing was conducted in March of 2000 and actually
it was sent just for trial. There was a hearing ordered
with respect to a Massiah issue that was continuing
during trial but the jury selection was completed
during a period late March of this year through April
4th and the trial actually commenced with opening
statements on the 11th of April.
At that point, Mr. Barket had a meeting with the
district attorney and ultimately was successful,
apparently, in persuading the district attorney to take
a second more detailed look at the proof in this case.
[5] Accordingly, when the defense asked for a mistrial
on April 14th of 2008, the district attorney – well, not
joining in the motion – had no objection and a mistrial
was declared and the matter has been now pending for
the next approximately six weeks. Mr. Talty.
MR. TALTY: Your Honor, at this point, we have
had the conference that I mentioned on the record
earlier. We came to court this afternoon believing that
there would be a disposition of this case.
THE COURT: Why don’t you outline what your

22
proposed disposition is.
MR. TALTY: My understanding of the disposition
was that the defendant would plead guilty to a class D
violent felony specifically criminal possession of a
weapon in the third degree for a gun that he possessed,
for a loaded and operable gun that he possessed on the
day in question, April 17th – April 16th of 2006. As a
result of that application, should the court accept that
plea of guilty, the People were prepared to dismiss the
current indictment on the – currently before the Court.
THE COURT: And, perhaps, you can explain, Mr.
Talty, why you prepared paperwork for a plea on a
Superior Court Information involving the charge
criminal possession of a weapon third degree
notwithstanding the fact that the fourth count
indictment against Mr. Morris [6] includes, as count
four, criminal possession of a weapon in the second
degree.
MR. TALTY: Your Honor, the proof before the
grand jury, which resulted in the indictment currently
before the Court, was proof relative to a .9-millimeter
handgun. The grand jury heard evidence of that and
indicted Mr. Morris based upon the strength of that
evidence for a charge of 265.03. This charge 265.02
refers to a different gun, to a .357-magnum revolver
that the People alleged the defendant possessed on
that day.
THE COURT: And —
MR. TALTY: So I do not believe that we can enter
into a plea of guilty to the current count of the
indictment and, therefore, that count would be among
the counts that we would be asking the Court to
dismiss should the defendant plead guilty.

23
THE COURT: And what is the district attorney’s
position with respect to the viability or the possibility
of prosecution of Mr. Morris for the other three counts
in the indictment, the murder in the second degree
under a both intentional and depraved indifference
theory as well as manslaughter in the first degree?
MR. TALTY: Your Honor, I prefer to address the
viability of all four counts following a plea of guilty by
Mr. Morris. [7]
THE COURT: And were this proposed disposition
to go forward, what would your recommended sentence
be on a plea by Mr. Morris to the D violent felony of
criminal possession of a weapon third degree related
to a .357-magnum revolver?
MR. TALTY: At that point, we would recommend
to the court a sentence of time served. Mr. Morris has
been in jail for, I believe, 25 months since the day in
question.
THE COURT: And you are persuaded that under
the law in effect at the time of this incident that a D
violent felony offense may lawfully have a sentence of
time served?
MR. TALTY: I am.
THE COURT: Mr. Barket.
MR. BARKET: Well, Judge, let me put on the
record Mr. Morris’ position which controls but differs
sightly from my own. He is willing to enter into this
disposition today on the condition that he be released
today now from this courthouse, not that he be brought
back to River Bay and processed there for however how
many hours or days until they figure out that he ought
to be released, that he actually gets out now. That’s his

24
primary motivation in pleading guilty to this charge in
addition to, I think, admitting his criminal culpability
for that day to a crime which he knows they otherwise,
at this point, cannot prove. [8]
And he would do that with the understanding that
the District Attorney’s Office would dismiss the
murder indictment permanently with prejudice under
the provisions of Article 210 of the CPL. That would
prevent pre-prosecution for the murder under any
circumstances. It’s my and Mr. Morris’ position had
been, since April 16th of 2006, that he was not the
person who fired any guns that day let alone a gun that
ended up taking the life of a two-year-old boy by the
name of David Pacheco.
All along, we have maintained that the fatal bullet
was fired by Darrell Hepel and to Mr. Johnson, Robert
Johnson’s credit, he aborted a murder trial in what
was a relatively high-profile murder and reassigned
the case and had it reinvestigated and there to be
credited for taking on what prosecutors must take on
to go through those steps.
But at this point, I don’t want to leave the
courtroom today or I should say the courthouse today
without Mr. Morris being free and without the murder
indictment being permanently and forever dismissed
so that he no longer has to endure the burden of those
allegations in the fear of that penalty.
THE COURT: Well, to the extent you are seeking
some kind of guarantee from the Court, that guarantee
cannot be had. I would, with the prosecutors’ consent,
[9] parole Mr. Morris or there to be a plea. I have no
control over the Corrections authorities. So to the
extent you are – you have placed your client’s condition

25
on the record, that is a condition that is beyond this
court’s capacity to satisfy accordingly.
MR. BARKET: I’m sorry, Judge. You said beyond
this court’s capacity to satisfy. The Court can’t order
him released now.
THE COURT: I can order him released. Whether
Corrections, in processing, you made the statement on
the record that your client has to walk out of this
courtroom today.
MR. BARKET: Courthouse. My understanding is
that he be released from downstairs which is fine.
THE COURT: I have no control over the
processing of the City Department of Corrections or
given the unusual circumstance because of the
apparent threat that your client – that caused his
housing to be transferred from the New York City
Department of Corrections system to the Suffolk
County Corrections system. I am not the chief warden
of either of those agencies. So to the extent you are
requiring, as a condition of this disposition, a some
kind of an order, that order is beyond this court’s
power to —
MR. BARKET: Can I have a moment. [10]
THE COURT: Certainly.
MR. BARKET: Can I have a moment with the
prosecutor.
THE COURT: Certainly.
(Whereupon,
proceedings.)

there

was

a

pause

in

the

THE COURT: Have you parties had ample time to
continue their consultations?

26
MR. BARKET: I think we need another minute or
two. I know the hour is running late.
THE COURT: There is no time limit at all.
Mr. Talty, just with respect to your claim that
there is a sentence of time served is permissible under
70.02 for a violent felony offense, I’ve checked certainly
under the current Penal Law. I don’t see that as a
permissible disposition. Perhaps, you can give me
specific statute or the provision.
MR. TALTY: Your Honor, the defendant has
served two years. I believe if he got a sentence of less
than 25 months, he would, in effect, be getting a served
sentence.
THE COURT: The question is what is the
minimum mandated sentence that must be imposed
under the Penal Law under 70.02. You have
represented that your understanding of the law is that
a sentence of time served is legally permissible. I am
asking if you can refer me to the [11] provision of the
Penal Law that supports that claim.
MR. TALTY: I will do my best to comply.
THE COURT: Because looking at 70.02 of the
Penal Law subdivision (2) dealing with authorized
sentences, (c), the statute seems to read for a class D
felony under 70.02, the violent felony section, the term
must be at least two years and must not exceed seven
years. I am asking the parties to –
MR. BARKET: I think there is a – I hate to ramble
on about the law with[out] having looked at it.
THE COURT: There is mitigation that the parties
are, if, in fact, the parties are relying on the mitigation
section, that should be placed on the record as well as

27
to a claim that somehow the crime is committed under
circumstances in which the defendant’s responsibility
is somehow mitigated. I would want to hear what the
parties deem to be appropriate mitigation if that is the
People’s —
MR. TALTY: We may come to that. As you can see,
at this point, I don’t even know if the defendant is
pleading guilty. I’ve made the offer if he decides to
plead guilty and ask the Court to accept it, then I may,
in fact, make it a mitigation record for the Court to
accept. It may not be necessary.
THE COURT: I understand. I would refer the [12]
parties to Penal Law section 60.01 subdivision (2)(a).
That may be the authority you were speaking to of the
Court to exercise.
MR. BARKET: Judge, Sorry. 60.01.
THE COURT: (2)(a) subparagraph (i) with a
further reference to Penal Law 65.05. Mr. Barket,
while you and your adversary are checking the statute,
you should be made aware of the fact that the sergeant
in this part has undertaken to speak to the captain of
Corrections to make further inquiry as to the
processing to see if, in fact, if the Court orders release
on his recognizances following a plea by Mr. Morris,
whether Corrections will assure the Court that Mr.
Morris would be released from this courthouse today
without the necessity to return him to Suffolk County
where he is now being housed. We do not yet have
definite word on that.
Counsel, please approach. Perhaps, I can assist in
this inquiry.

28
(Whereupon, there is a discussion held off the
record, at the bench, among the Court, both assistant
district attorneys and Mr. Barket.)
(Whereupon, the following discussion takes place
on the record in open court.)
THE COURT: There has been a conference at the
bench. The parties seem to be in agreement as to the
[13] following. It is the position of the District
Attorney’s Office that the law, in effect, in 2006 –
which is not now before court. I am reviewing the 2008
New York criminal statute and rules – the People have
taken the position that a sentence of a conditional
discharge is, in fact, a lawful sentence for the crime
criminal possession of a weapon third degree.
If the Court makes certain findings – this court has
not reviewed the statute that was governing the
sentencing for CPW-3 during the time in question,
April of 2006 – so if there is a plea at this time, at the
time of sentence which would be some weeks from now
after a pre-sentence report had been prepared, I would
have to be fully satisfied by my own review of the
statutes in effect at the time, that would be Article 60,
65 and 70 of the Penal Law that such a sentence were,
in fact, lawful.
Mr. Barket, while we await word as to whether
your condition will be satisfied and will be satisfied
today and he be released from this courthouse today,
if you wish to proceed with the paperwork on the
Superior Court Information at this time, that’s fine. If
you wish to wait until —
MR. BARKET: Why don’t we wait. You mean,
have him waive the indictment.

29
THE COURT: Yes. [14]
MR. BARKET: Why don’t we wait on that.
THE COURT: Mr. Barket, if I may make the
following inquiry. In the event that your condition
cannot be satisfied, what will the parties request then
for this matter?
MR. TALTY: Your Honor, may I step outside the
well?
THE COURT: You may.
(Whereupon,
proceedings.)

there

was

a

pause

in

the

THE COURT: Mr. McCarthy, can you summons
Mr. Talty in the courtroom? By the way, the record
should reflect that upon further review of the
sentencing provisions in 70.02, there is, in fact, an opt
out provision in 70.02 of the Penal Law section (2),
section (2)(c) for convictions of criminal possession of a
weapon in the third degree as defined in subdivisions
4, 5, 7 or 8.
It specifically allows a deviation from either state
prison or city jail if the Court, having regard to the
nature and circumstances of the crime in extreme
character of the defendant, finds on the record that
such other sentence, either probation or the condition
that such imprisonment sentence would be unduly
harsh and that the alternative sentence that either
probation or conditional discharge would be consistent
with public safety and does [15] not deprecate the
seriousness of the crime. So the People’s proposed
disposition is, in fact, lawful under 70.02 (2)(c).

30
MR. BARKET: Sorry, Judge. What were the
subdivisions that were applicable to that under
265.02[?]
THE COURT: 4, 5, 7 and 8 and the SCI prepared,
apparently, involve subdivision (4) of 265.02. The
record should reflect that the sergeant has returned to
the part and has brief counsel as to the position of the
Department of Corrections. There seems to be no
guarantees of release though it does seem to be much
more likely than not.
Mr. Barket, how do you wish to proceed?
MR. BARKET: It’s not a choice, Judge. Whether it
was my choice, he wouldn’t be taking this plea. It’s his
choice.
THE COURT: How does your client wish to
proceed?
MR. BARKET: He indicates that, over my strong
advice, he will take the plea. Just so the record is clear,
it’s my understanding that the district attorneys the
nature of the proof that exist with respect to this gun
count that my client is about to plead to is not
sufficient for them to obtain an indictment. The only
way they will be able to make out the limits of this
crime is through my client’s admissions which I
suppose he will be willing to make, it seems, so that he
can get out of jail today. [16]
And I actually think that as good as the district
attorney has been about investigating and
reinvestigating the murder to pursue the person who
actually did the shooting, to hold up the dismissal of
the murder indictment for which they know my client
did not commit in order to extract the plea on the gun

31
charge which they know they can’t prove, is not a
course of conduct that I would recommend to my client.
But I only get to recommend. I don’t get to decide. He
has decided to go forward.
THE COURT: Do you wish then to have the
Superior Court Information paperwork, you have that
before you?
MR. BARKET: I do, Judge. Mine does not or at
least I can’t see the subdivision of 265.02 which is why
I asked. I could be missing it.
THE COURT: I was relying on the felony
complaint which has been filed and assigned a docket
number.
MR. BARKET: I haven’t seen that, but I trust the
Court that it[’]s subdivision (4).
MR. TALTY: Your Honor, just so the record is
clear, the district attorney’s position here is that we
have agreed to dismiss the murder indictment upon a
plea of guilty to a crime that I’m sure the court will ask
the defendant he actually committed. I know of
nothing unethical in that.
Frankly, at this position, I resent the speeches [17]
being made. What we are asking Mr. Morris to do is to
admit to, frankly, what all the parties here know he
did. Everything else is just making speeches. We’ve
made our position clear to the Court without the
district attorneys or my personal opinion of the case or
of anything else. I don’t think that the court is a proper
place for Mr. Barket’s opinion at this stage. As he says,
it’s his client’s decision. His client is a grown man. His
client is making a decision which, frankly, is probably
in his best interest if not in the opinion of Mr. Barket.

32
Thank you for your immediate opportunity to at
least clarify the record. I am ready to proceed.
THE COURT: Mr. Barket, have you had an
opportunity to discuss the Superior Court Information
documents with Mr. Morris?
MR. BARKET: Yes, Judge. You want him to stand
for this.
THE COURT: After he signs, I will have an
allocution.
MR. BARKET: Yes, Judge.
THE COURT: I will ask then both Mr. Morris and
counsel to execute the waiver of the case’s presentation
to the grand jury and once that waiver has been
executed, that is the second page of the packet, I will
then allocute your client. [18]
Mr. Morris, please rise. Mr. Morris, do you know,
if you can see from there, is that your signature on the
line near the bottom of that sheet of paper right now
where I am pointing?
THE DEFENDANT: Yes, it is.
THE COURT: Have you had an opportunity to
speak with Mr. Barket about what signing that
document means for you, Mr. Morris?
THE DEFENDANT: Yes, I have.
THE COURT: Mr. Morris, do you understand that
by signing this waiver you are agreeing to be
prosecuted at this time by a Superior Court
Information. This means you are giving up your right
to force the prosecutor to present this charge, this
weapon possession felony charge, against you to a
grand jury of your peers so that the grand jury might

33
then decide whether or not to vote an indictment as to
this charge against you.
By signing this waiver, you’re giving up your right
to have the case – this charge be heard by a grand jury.
Do you understand that, Mr. Morris?
THE DEFENDANT: Yes, I do.
THE COURT: Do you further understand you
have a right, if you so chose, to testify in your own
behalf before a grand jury with a view toward
persuading the grand jurors not to vote any criminal
charge at all against you [19] with respect to this
criminal possession of a weapon allegation? By signing
this waiver, you give up that right as well. Do you
understand that, Mr. Morris?
THE DEFENDANT: Yes, I do.
THE COURT: The Court accepts for filing the
waiver which has been executed in open court by Mr.
Morris after consultation with his counsel in the
presence of this court. Do you have an application at
this time with respect to the charge on the SCI, Mr.
Barket?
MR. BARKET: It’s my understanding that Mr.
Morris is prepared to enter a plea of guilty to the one
count in the Superior Court Information charging
criminal possession of a weapon in the third degree
under subdivision (4) of section 265.02 of the Penal
Law. He does this with the understanding that at the
time of sentence he will be sentenced to a period of
time already served and that the District Attorney’s
Office is going to dismiss the indictment number 1674
of 2006 with prejudice so that that indictment will be

34
dismissed permanently under the
provision of CPL section article 210.

appropriate

THE COURT: Are there not further conditions of
the plea, Mr. Barket, concerning the release on his own
recognizances?
MR. BARKET: Thank you, Judge. I also
understand that the court is going to release Mr.
Morris today on his [20] own recognizances on the
Superior Court Information pending sentence.
THE COURT: As well as on the indictment.
MR. BARKET: Yes, as well as on the indictment.
THE COURT: And the, People, it is your request
that Mr. Morris be released today on both assuming
we proceed with his plea on both the indictment and
the SCI?
MR. TALTY: That is correct, your Honor. As part
of our agreement on this disposition, we made it clear
that upon this plea of guilty to or we believe Mr. Morris
is actually guilty of we would move to dismiss the
current indictment. That being said, I cannot ask the
Court to continue to hold him in jail. He has been in
jail, as we said before, for 25 months which we believe
is an appropriate sentence for the class D violent
felony offense he is about to plead, he is about to
allocute to.
THE COURT: Mr. Morris, your attorney has
indicated that at this time you would like to enter a
plea of guilty under the Superior Court Information
which has been filed with this court to a class D violent
felony offense criminal possession of a weapon under
subdivision (4) of Penal Law 265.02. Is that what you

35
want to do, sir, plead guilty to a class D violent felony
offense?
THE DEFENDANT: Yes, I do.
THE COURT: Have you had enough time to speak
with [21] Mr. Barket about this plea?
THE DEFENDANT: Yes, sir.
THE COURT: Are you satisfied with the advice
and counsel that you’ve received from Mr. Barket
while he has been representing you both on the
indictment as well as this new investigation leading to
this plea?
THE DEFENDANT: Yes, I am.
THE COURT: Are you now taking any medication
or drugs of any kind, Mr. Morris, that might affect your
ability to think and concentrate in this courtroom
today?
THE DEFENDANT: No, I am not.
THE COURT: Under the Superior Court
Information, which has been filed with this court, Mr.
Morris, the prosecutor has alleged that on the 16th day
of April of the year 2006 at approximately two in the
afternoon, further, it is alleged that this conduct took
place in the vicinity of Harrison Avenue and Morton
Place within Bronx County. It is alleged that at that
time and place you knowingly possessed a loaded
operable firearm and further that that possession was
not in either your home or place of business. Is that
allegation about you true, Mr. Morris?
THE DEFENDANT: Yes, sir.
THE COURT: What was the loaded operable
firearm which you possessed on April 16th of 2006?

36
THE DEFENDANT: .357. [22]
THE COURT: Is that allocution acceptable to the
People?
MR. TALTY: Yes, it is, your Honor.
THE COURT: Mr. Morris, do you understand that
by pleading guilty to a crime as you are now doing you
give up a number of rights. Among the rights you give
up is the right to a jury trial. At that trial, the
prosecutor would have the burden of proving your guilt
beyond a reasonable doubt. Your attorney, Mr. Barket,
would be by your side throughout any trial to confront
every witness; that is, to cross-examine, to question
closely every witness the prosecutor would bring in to
testify against you.
Mr. Barket would also be there to help you put in
any available defense. By pleading guilty at this time,
you are giving up each of those rights. Do you
understand that, Mr. Morris?
THE DEFENDANT: Yes, sir.
THE COURT: You also have a right to remain
silent at trial at here in court today. By pleading
guilty, you give up that right to silence as well. Do you
understand that, Mr. Morris?
THE DEFENDANT: Yes, sir.
THE COURT: Mr. Morris, other than the promise
that you will be released on both the indictment 1674
of '06 as well as o n this new weapon charge, other than
the [23] promise you would be released on both and
that if you meet the conditions that I am about to
describe, that you will receive a sentence of time
served plus a conditional discharge. Other than that,
have any other promises of any kind been made to you

37
by anyone in connection with your plea in this
courtroom today?
MR. BARKET: I believe, Judge, also that the
indictment charging the murder, the ‘06 indictment,
will be dismissed with prejudice.
THE COURT: And the People, you have —
MR. TALTY: Yes, I already indicated that.
MR. BARKET: That is also the condition.
THE COURT: Other than that, if you meet the
conditions and t hat you will receive a sentence of time
served and a conditional discharge and further the
indictment 1674 of ‘06 will be dismissed with prejudice
on the sentence date. Other than that, have any other
promises of any kind been made to you by anyone in
connection with your plea in this courtroom today?
THE DEFENDANT: No, your Honor.
THE COURT: Finally, Mr. Morris, do you
understand that when you are sentenced upon this
plea, at that point, you will become a predicate felony
offender which means should you get into trouble with
the law after sentence, if you are both accused and
convicted of a new felony offense, [24] you will face a
significantly harsher punishment on any new case
because of the plea and sentence on this case. Do you
understand that as well, Mr. Morris?
THE DEFENDANT: Yes, I do.
THE COURT: People, at this time, I will ask you
to respond to the Court’s inquiry from earlier as to
your belief or your assessment of the viability of the
prosecution of all four charges in the indictment.

38
MR. TALTY: Your Honor, since it is our intention
to dismiss the four counts of that indictment on the day
of sentence, I could say, at this point, that after an
investigation it was the District Attorney’s
determination that we could not prove, beyond a
reasonable doubt, any of the four counts of the
indictment. We did that – we came to that belief based
on a number of factors among which was Mr. Morris
himself and his willingness to provide us with a
truthful explanation of what happened including his
own criminal conduct that day which he has just done
in public in this courtroom.
That being said, the investigation did disclose that
there is no proof, beyond a reasonable doubt, at this
moment, that Mr. Morris fired the fatal shots that
killed David Pacheco on April 16th and that is how the
evidence, underlying this indictment, was presented to
the grand jury. So on the day of sentence, we will
recommend to the [25] Court that indictment 1674 be
dismissed with prejudice.
THE COURT: Please arraign Mr. Morris upon the
plea in the Superior Court Information.
COURT CLERK: Mr. Nicholas Morris, do you now
plead guilty to criminal possession of a weapon in the
third degree under SCI 184 9-2008? Is that what you
wish to do?
THE DEFENDANT: Yes, ma’am.
THE COURT: Mr. Morris will be paroled both on
the Superior Court Information 1849-08 as well as
indictment 1674 of ‘06. This is with the consent of the
People and really at their request.

39
MR. TALTY: This is the People’s recommendation.
THE COURT: Mr. Morris, my promise of time
served and a conditional discharge will be binding
upon the court provided you meet the following
conditions:
First, you must return to this courtroom for
sentencing on the 28th of July if that day is acceptable
to both sides.
MR. TALTY: It is.
MR. BARKET: What day of the week is that?
THE COURT: The last Monday in the month of
July.
MR. BARKET: Could I have the 30th, please?
THE COURT: That day is also acceptable to the
People? [26]
MR. MCCARTHY: Yes.
THE COURT: Mr. Morris, you must return to this
courtroom for sentencing on the 30th of July. Second,
you must cooperate with the Department of Probation
in preparing a, before the court, a pre-sentence report.
You will receive some paperwork, presumably today,
perhaps, tomorrow, through your attorney. He will
inform you as to your obligation to go to the
Department of Probation so that the proper report may
be prepared.
Beyond just going to probation, Mr. Morris, your
obligation will be, if you choose to discuss the facts of
this case – this case meaning the criminal possession
of a weapon in the third degree – you must describe it
to the Department of Probation your involvement in

40
this crime exactly as you have described it to the
Court.
Third, you must stay out of trouble. There must be
no new incidents with the law of any kind between
today’s date and the date of sentence. If you meet those
conditions, Mr. Morris, you will receive the promised
sentence of time previously served and a conditional
discharge. Do you understand that, Mr. Morris?
THE DEFENDANT: Yes, sir.
THE COURT: On the other hand, sir, if you
violate one or more – one of those conditions, you will
not be permitted to withdraw your plea which has been
lawfully [27] entered here today and in the event of
such violation you will receive a sentence of jail or
prison time depending upon the nature of the violation
which is brought to my attention. Do you understand
that as well?
THE DEFENDANT: Yes, I do.
THE COURT: Mr. Morris is paroled on both
matters for sentencing in this courtroom on the 30th
of July with a report from probation.
MR. BARKET: Thank you, your Honor. I want to
express to the Court our appreciation to the Court for
its courtesy today and in extending late into the day
well past 5 o’clock to resolve this matter and the court
staff which has been very, very good in following up a
number of items for us during the course of the day.
We do appreciate it. I don’t want that to go unnoticed.
THE COURT: This proceeding is closed for the
day.
****

41
[1]
SUPREME COURT OF THE STATE OF NEW YORK
COUNTY OF BRONX: CRIMINAL TERM:
PART 60
THE PEOPLE OF THE
STATE OF NEW YORK,
- against DARRYL HEMPHILL,
Defendant.

x
:
:
:
:
x

INDICTMENT
NO.
1221/2013
JURY TRIAL

265 East 161st Street
Bronx, New York 10451
September 21, 2015
BEFORE:

HON. STEVEN L. BARRETT
Supreme Court Justice

APPEARANCES:
ROBERT T. JOHNSON, ESQ.
DISTRICT ATTORNEY OF BRONX COUNTY
BY: ADAM OUSTATCHER, ESQ.
Assistant District Attorney
- and BY: SUZANNE CARMODY, ESQ.
Assistant District Attorney
ERIC M. SEARS, ESQ.
Attorney for the Defendant
115 Broadway, Suite 1704
New York, New York 10006
ADRIANNE TIRADO, R.P.R.
Senior Court Reporter

42
(Whereupon, the following takes place on the
record, in open court, in the presence of the Court,
ADA Oustatcher, ADA Carmody, Mr. Sears, and the
Defendant:)
THE CLERK: This is Calendar 14, Darryl
Hemphill. Also appears under the motion calendar as
Number 3. Appearances.
MR. SEARS: Eric
Sears,
Manhattan for Mr. Hemphill.

115

Broadway,

MS. CARMODY: Suzanne —
THE COURT: Can I go back and get appearances
on the record?
MR. SEARS: I just put mine on.
THE COURT: You did?
MS. CARMODY: Suzanne
People.

Carmody

for

the

THE COURT: Can I get a spelling on that?
MS. CARMODY: Sure. Suzanne is S-U-Z-A-N-NE. Carmody is C-A-R-M-O-D-Y.
MR. OUSTATCHER: Adam Oustatcher for the
Office of Robert T. Johnson. Good afternoon.
THE COURT: Good afternoon. A couple of
preliminary matters. I indicated to counsel the next
adjourn date will be Thursday. We will pursue other
preliminary issues.
With respect to the motions before, we had a
chance to discuss those. I ask both of you to have your
[3] comments on the record so that my – so that your

43
positions are known, both for the record, as well as to
the Court.
There are two motions that are before me now by
Mr. Sears on behalf of Mr. Hemphill. The first motion
concerns the use of the opening statement of the
district attorney in a related case, People versus
Nicholas Morris, Indictment 1674 of ‘06. I have
reviewed the statement as well as the authorities that
have been cited.
Counsel, I will hear your argument.
MR. SEARS: I couldn’t hear you, Judge.
THE COURT: I will hear your argument.
MR. SEARS: Judge, it’s our position, as I think
was made clear in the filing, in the submission, and as
we discussed at the bench that we are addressing now
the opening statement in the Morris case.
THE COURT: Yes.
MR. SEARS: That the opening statement from
that case should be admitted in this trial as a party
admission. The circumstances surrounding the
application are that this homicide occurred on Easter
Sunday back in 2006, and the person named Nicholas
Morris was arrested and was prosecuted by the Bronx
County District Attorney’s Office. They chose to indict
him, and they chose to bring him to trial, convinced
that the proof against him was overwhelming and
certainly beyond a reasonable doubt, or [4] they would
not have moved the case to trial.
The district attorney made an opening statement
to the jury in which the district attorney outlined the
case that they were going to present, outlined the

44
evidence against Mr. Morris, and explained to the jury
why that evidence would convince them beyond a
reasonable doubt of Mr. Morris’ guilt. In that trial
there was a mistrial declared after opening
statements, and Mr. Morris eventually was permitted
to plead to an unrelated weapons charge.
It’s my position, as I indicated in the papers, that
that opening statement constitutes a party admission,
and the cases that I cite in my submission I would
suggest support the proposition that where a party in
a litigation, and that party being the district attorney,
the same party that prosecuted Mr. Morris and the
same party that is prosecuting this case, where that
party takes in the current trial a position that is
entirely inconsistent and diametrically opposed to a
position that that party took in the previous trial and
made clear in the opening statement, that the opening
statement is a party admission and should be admitted
as evidence in this trial.
The courts frown on the practice of taking – of a
party in a case taking inconsistent and opposing
positions in two related litigations. That’s exactly [5]
what’s happening here. I think the jury is entitled to
hear that as evidence in this case.
THE COURT: Actually, wouldn’t that be more
applicable when the party is taking inconsistent
positions simultaneously? I mean, isn’t it quite distinct
when the inconsistent positions are sequential so that
it’s at least explicable that the party has come in to
information that has created a legitimate belief that
their original position was incorrect and that their new
position is correct, as opposed to inconsistent positions

45
simultaneously where it’s evident that the party is
taking positions that cannot be correlated?
MR. SEARS: Well, I – no. I don’t think the case is
– I don’t think —
THE COURT: The cases don’t address this issue.
MR. SEARS: — the cases require that the
inconsistency need be in the same proceedings. In fact,
I think they say other than that, it can be in a later
proceeding in the same case or in a different case.
THE COURT: In what respect, what decisions are
we talking about?
MR. SEARS: I believe the ones that I have cited in
my submission.
THE COURT: Give me – I don’t need you to give
me the name of the case as much as the rationale or
the [6] reasoning in the case. I know that you cited
cases that suggest that there can be questions raised
by
inconsistencies,
particularly
in
criminal
proceedings, but I am not sure that any of these cases
stand for proposition that that is a remediable
situation.
MR. SEARS: Well, one of the cases, People against
Brown, said that an informal judicial admission is a
declaration made by a party in the course of any
judicial proceeding, whether in the same case or
another case, inconsistent with the position the party
now assumes. Such an admission is not conclusive, but
is merely evidence of the fact or facts admitted. I am
not suggesting that it’s conclusive or it bars the
prosecution, but it is evidence of the facts that were
admitted.

46
THE COURT: Well, I will come back to your
comments in a moment. Let me hear from the People.
MR. OUSTATCHER: May I?
THE COURT: Yes.
MR. OUSTATCHER: I oppose this application on
a few grounds. First, I would note, as I think was
alluded to, if not stated, none of the authorities cited
by defense supports the proposition that an opening
statement is a judicial admission nor should it be
admitted into evidence at a subsequent proceeding or
trial.
I would note, embedded in the CJI preliminary [7]
instructions for every jury trial in New York State is
the following instruction to a jury, an opening
statement is not evidence.
I would note that different than other judicial
admissions is the relationship of a prosecutor to
witnesses, and to that end, there is no formal
relationship between a prosecutor to a witness. The
witness is not his or her client. There is no agency
relationship between a prosecutor and a witness as
there is with a defendant or a client in a civil setting.
So that distinguishes the case law that is at all
favorable to the defendant that he relies upon in this
case.
I would note at the prior proceeding, Allen Karen,
the former ADA, spoke to witnesses, and based upon
those witnesses and his conversations with them, he
made an opening statement, which is a legally
compelled statement in which a prosecutor forecasts,
guesses what he thinks the evidence will prove at that

47
future proceeding. So there are multiple levels of
hearsay embedded in the defense application, and to
the extent this is a judicial admission, an extra judicial
admission, there still is a level of hearsay which is a
communication between the witnesses and Mr. Karen,
and there is no exception for that level of hearsay.
THE COURT: Well, you are saying it’s not an [8]
admission?
MR. OUSTATCHER: It’s – I am saying —
THE COURT: An admission is an exception to the
hearsay rule. You are saying they are not admissions?
MR. OUSTATCHER: I think that what Mr. Karen
said in open court in the opening statement is not an
admission. But even if it were an admission, what the
witnesses told Mr. Karen, that conversation that
informs what he says to the jury, that is hearsay, and
there is no exception to that hearsay, and there is a
case I cite.
THE COURT: Because it’s not an admission. I
mean, I think one of my problems with counsel’s
position in this case is that he speaks of the importance
of this as being an admission by the prosecutor rather
than the underlying admission of the witness. I, first
of all, do not believe it’s an admission by the witness. I
don’t believe that that is a proper characterization of a
victim of a crime or another witness to a crime, that
anything they say to a prosecutor is an admission, but
I also think it’s more fundamentally problematic to
speak of the prosecutor as making an admission. A
prosecutor is not a fact witness, not merely because the
rules say that he is not, because, in fact, a prosecutor
does not have any personal knowledge of the events,

48
and for that reason any belief or anything he says or
otherwise is a position taken [9] by an advocate, and it
is not subject to a determination that it has factual
relevance to a particular case and to the resolution of
that case.
The fundamental flaw I find with the defense
argument today is that it suggests that what a
prosecutor says can at some point be taken for its truth
and measured. Essentially, it’s being characterized as
evidence, and it is not evidence, not only because the
jurors are told that it’s not evidence, it’s not only
because we have historically said it’s not evidence, it’s
not evidence because it does not come from a fact
witness. It is a statement made by an advocate.
To allow this to be presented is, in my judgment,
to elevate legal argument to the category of factual
evidence and will mislead the jury terribly and have
no proper relevance, and for that reason I am quite
confident that this is not something that should be
presented to the jury in any fashion whatsoever,
particularly as an admission of a party which is, in
effect, an invitation to the jury to consider it for the
truth of the content. That is an exception to hearsay. I
will not allow that [to] be presented to the jury in this
case.
MR. SEARS: Judge, I would only add in response
to what’s been said that it’s – I would make the
analogy to when an attorney submits a motion, and it’s
clear that [10] statements made in a motion can be
deemed to be party admissions in that litigation and
in subsequent related litigations. The fact that the
attorney is basing the motion on information given by
his client is, in my opinion, analogous to the fact that

49
the district attorney in their opening statement is
giving the jury information that is given to him by his
witnesses. So I don’t think a hearsay analysis is really
a proper analysis.
THE COURT: That’s the whole point of party
admission analysis. Party admission analysis is
fundamentally hearsay analysis.
MR. SEARS: That’s right.
THE COURT: But I think the problem that you
are making —
MR. SEARS: It’s always hearsay.
THE COURT: I think that the problem you are
presenting here is that you are drawing too many
analogies to civil proceedings where there are two
parties and where each one is in a comparable position
so that statements by a lawyer that are
representations of what their client has said can
themselves be deemed admissions by the client. It’s
not the attorney whose credibility is being measured.
It is essentially the inference that a statement by a
lawyer of a type that can only represent an admission
by the client is, in fact, an admission, even though it
comes [11] out of the attorney’s mouth. That would be
applicable to a defendant and/or plaintiff in a civil
action.
It also, I think, has bearing and is appropriate to
utilize that analogy and that principle to a criminal
defendant who is a party to the criminal action. I don’t
believe it’s appropriate to characterize the district
attorney as a party to a criminal action, however. I
don’t think that the analogy that you have drawn to

50
civil proceedings works with respect to the district
attorney being a party.
MR. SEARS: I would just reiterate what I said in
my submission where I allude to Wigmore. On page 2,
I quote, “It may be added that, conformably to the
general doctrine by which the rules of evidence are no
different in criminal cases, the admission of an agent
may equally be received in a criminal charge against
the principal.” So I would take exception to Your
Honor’s position that the rules of evidence are
applicable in a civil case.
THE COURT: You have an exception to all the
rulings I have made thus far, the basis of my rulings,
but in any event I deny the application to present to
this jury the district attorney’s opening statement in
the People versus Nicholas Morris, a prior prosecution.
I will say only the following. I am not barring you
in an appropriate way from presenting to the jury in
[12] this case information about the prior case in which
somebody else was prosecuted. As to any witness, it is
my understanding the district attorney is going to be
presenting many of these witnesses in this trial. Those
witnesses’ exculpatory, either directly exculpatory or
inferentially exculpatory, statements regarding your
client will be before this jury.
Moreover, as to any witness who does not testify in
that fashion, you will be permitted to introduce as to
any prior statements by that witness their prior
inconsistencies and present those for impeachment
purposes. These, in fact, would seem to me to be, as
any witness who testifies here, the very substance of
what would be in the prosecutor’s opening statement.

51
Of course, under the law, that kind of
inconsistency by a fact witness is admissible for
impeachment purposes, not for its truth, and that is a
further reason why I think that your effort to use the
prosecutor’s opening to essentially elevate the value of
a prior inconsistency, which properly is impeachment
evidence into factual evidence that should be
considered for its truth is an unacceptable argument
on your part. You have an exception.
Let’s move to the second motion. This has to do
with a –
****

52
[58]
SUPREME COURT OF THE STATE OF NEW YORK
COUNTY OF BRONX: CRIMINAL TERM:
PART 60
THE PEOPLE OF THE
STATE OF NEW YORK,

x

Ind. No.
1221-2013

- against DARRYL HEMPHILL,
Defendant.

x

265 East 161st Street
Bronx, New York 10451
October 2, 2015
BEFORE:

HON. STEVEN L. BARRETT
Justice of the Supreme Court

(Appearances same as previously noted.)
LAURA ROSEN
SENIOR COURT REPORTER
****
[98:3]
[MR. OUSTATCHER]: * * * * That being said, I
have no objection to it being elicited before this jury
that the police, Detective Jimick specifically, arrested
Nicholas Morris and charged him with the murder of
David Pacheco, the child.
And at this point, Mr. Sears and I have had a
conversation that I’m not sure what evidence he’s
seeking to elicit and I’d like to hear, but as far as the
indictment of Mr. Morris for this crime and any legal
proceedings, if Mr. Sears seeks to elicit that before this

53
jury, I do have a motion in limine because I think it is
legally improper for that information to come before
this jury.
THE COURT: Well, for what to come before this
jury?
MR. OUSTATCHER: The fact that Nicholas
Morris was indicted for the murder of the David
Pacheco. The fact that he was prosecuted by Bronx
DAs. The fact there was an opening statement. Really,
any of the legal proceedings, to my mind. And I’ll put
forward my factual basis but I’m not sure to what
evidence Mr. Sears would seek to elicit, so I’ll make my
motion in limine if there is a desire to elicit that
information.
THE COURT: Counsel, do you wish to respond?
MR. SEARS: Well, yeah. I think that the jury is
[99] entitled to know, and first of all, I appreciate that
the DA is calling the witnesses, at least the three lineup witnesses that identify Nicholas Morris, so the
jury’s gonna hear their testimony. And and I think the
jury’s entitled to know through the law enforcement
witnesses that Nicholas Morris was indeed arrested,
what information or what evidence they had at the
time that led them to arrest Nicholas Morris, and that
he was indicted and brought to trial for this crime.
THE COURT: You’ve actually mixed two things in
the same sentence and this is where I’d like to get a
clarification. The fact that witnesses have identified
Mr. Morris, witnesses allegedly to the events in
question, is significant and it’s totally relevant to the
determination whether your client or Mr. Morris or
somebody else committed this crime.

54
The fact of whether a deliberative body, whether it
be the grand jury or the district attorney’s bureau or
anybody else evaluated that evidence in a particular
way is not, at least not on a first glance, relevant in the
same way as the findings and beliefs of the witnesses
themselves. It’s once removed. In other words, it’s
almost vouching, it’s almost like trying to create a
negative inference by vouching for mistakes.
I don’t know if that makes any sense, but what I’m
[100] trying to say is that whether the district
attorney’s office believes that there was any merit to
this case, and I think we discussed that in connection
with the discussion about the openings to the jury,
whether the district attorney’s office believes or
whether the grand jury believes that there was any
merit is sort of beside the point. Just as if the jury had,
for example, heard the entire case before Morris and
acquited [sic] him would have been, I think, beside the
point too. I mean, they could be right, they could be
wrong, but their judgment is sort of not the point. The
point is the judgment and belief of the people who
actually saw the events.
And so I have, I think there is a distinction that
can be made between eliciting evidence. The fact that
Morris was arrested I think I would have to
acknowledge should be presented but that simply in
order to put the entire point into context, and to allow
the issue of Morris and his prosecution previously to
be understood by the jury. The fact that witnesses
identify him as the person who committed this crime
totally is appropriate for you to elicit that into
whatever ex tent you think is appropriate, but the
indictment and the trial, those two things, I think, are

55
distinguishable. I’m not sure that they have any
relevance to what this jury’s being asked to do.
MR. SEARS: Well, putting aside for a moment the
[101] question of the indictment and the trial, the
jury’s going to hear from witnesses that identified Mr.
Morris and
THE COURT: They’re going to hear from the
district attorney’s side, but if the district attorney
wasn’t calling those witnesses you could call them.
MR. SEARS: That’s right, one way or another.
And they are going to know that Morris was arrested
for this homicide. I think part and parcel of that is I
think the jury is entitled to know the basis upon which
Morris was arrested, what led the police to arrest
Morris.
MR. OUSTATCHER: That’s fine by me.
MR. SEARS: What information they were
crediting and what information they were not
crediting.
THE COURT: Well, because then you’re moving
into the realm of what the police believed. And again,
it doesn’t matter what the police believed here. What
matters is what this jury believes on the basis of what
people with firsthand knowledge of the events, or
allegedly firsthand knowledge of the events have
presented. So you’re right up to the point where you
start talking about the basis for the police arresting
him.
The basis of the police arresting him is essentially
that these people made an allegation and whether
every single police officer did or did not credit what

56
they’ve said. What put this prosecution in motion were
the [102] statements by the witnesses, not the
conclusions of the police.
MR. SEARS: Well, fair enough. I’m not sure we
can address, you know, each and every potential line
of inquiry that one is going to take during the trial. For
instance, when detective, the case officer, Detective
Jimick, he interviewed a number of witnesses who
gave him conflicting stories, changed their version of
events. And that is information which, perhaps, the
district attorney’s going to elicit on direct, I would
certainly want to elicit on cross. And I think that, you
know, that is certainly relevant information for this
jury to know.
THE COURT: Absolutely, but his conclusion as to
who to believe as to well, which account to believe is
not evidence that which should come in. His opinion,
in other words.
MR. SEARS: I understand the distinction your
Honor’s making and whether or not this jury’s entitled
to know there was an indictment and a trial as opposed
to that Morris was arrested and what the jury does
with that information, and when they’re left to just,
you know, wonder, well, Morris was arrested, charges
people, you know, what happened to that? I mean, the
jury’s going to wonder about that and I fear that it’s
incumbent upon us to address that in someway.
[103]
THE COURT: Well, it’s possible that there’s
someway to address it, but the only way I think is, the
way I would think at first blush it should be addressed

57
is with an instruction to the jury that Mr. Morris was
ultimately not prosecuted and convicted of this crime.
MR. SEARS: I probably wouldn’t want that. If
your Honor’s going to go, you know, to give some sort
of instruction —
THE COURT: Or a stipulation.
MR. SEARS: I’ll probably request they be told
they’re not to speculate, you know, what happened to
Morris.
THE COURT: I’d happily draft that application. I
think the other way, of course, would include is also a
stipulation between the parties, the language that you
two agree to as to that point. I think that you’re right,
that the jury should be told not to speculate, but I can
go further and invite you to agree on something.
MR. SEARS: We’ll take that under advisement.
MR. OUSTATCHER: That sounds like a good
idea. I hope to have a stipulation.
****

58
[155]
SUPREME COURT OF THE STATE OF NEW YORK
COUNTY OF BRONX: CRIMINAL TERM:
PART 60
THE PEOPLE OF THE
STATE OF NEW YORK,

INDICTMENT
NO.
1221-2013

- against DARRYL HEMPHILL,
Defendant.

JURY TRIAL

265 East 161st Street
Bronx, New York 10451
October 7, 2015
BEFORE:

HON. STEVEN L. BARRETT
Supreme Court Justice

(Appearances same as previously noted.)
LAURA ROSEN
SENIOR COURT REPORTER
* * * * * * * *
(Whereupon, the following took place in open court
in the presence of the defendant, defense counsel, and
the assistant district attorneys.)
THE CLERK: This is calendar four, Darryl
Hemphill. Appearances, please.
MR. SEARS: Eric Sears, 115 Broadway for Mr.
Hemphill. Good morning.
MS. CARMODY: Good
Carmody for the People.

morning.

Suzanne

MR. OUSTATCHER: Adam Oustatcher for the
Office of Robert T. Johnson. Good morning all.

59
THE COURT: Counsel, of the issues that were
[156] remaining for discussion and for ruling, the first
pertains to the evidence that Morris was seen to be in
possession of a number of guns and ammunition at the
time of a search or an execution. The argument by the
defense is that evidence of this nature suggests that
Morris was more likely to be a shooter by reason of his
possession of firearms.
Any further arguments by defense?
MR. SEARS: Well, no, your Honor. Just to
emphasize again what I did the other day, we're not in
a situation where we’re concerned about protecting the
rights of a defendant, which I think shifts the focus
somewhat and makes this, it reinforces the application
to admit this evidence for the reasons that I discussed
the other day.
THE COURT: Anything further from the People?
MR. OUSTATCHER: Nothing further, Judge.
THE COURT: Okay, thank you.
All right. Ultimately, the determination along
these lines, in my judgement, requires that there be
some logical basis for the inference that is being
presented. I don’t think it's enough to say that this
does not pertain to a defendant whose rights must be
protected above all, and that with respect to any other
witness there is no requirement to protect their rights.
The point here is not that the Court would seek to
protect Mr. Morris’ rights, in that point I might very
well [157] agree with defense counsel’s analysis, but
the point is better made in terms of the relevance and
accuracy of the inference than is being presented, and

60
the greater concerns that I have is that a jury not be
asked to draw conclusions that are illogical and that
are speculative.
In this instance, I consider the inference that is
being offered, the underlying inference which is the
basis for the offer of proof to be purely speculative and
to be illogical with one exception, and that is with
respect to the existence of the nine-millimeter bullet.
The existence of the nine-millimeter bullet does
have some, although slight, connection to the crime
committed in this case in so far as the weapon that was
utilized appears to be one that uses that form of
ammunition. And for that reason, the defense may
elicit from an appropriate witness that a search of
Morris’ premises yielded a nine-millimeter bullet.
The existence of the other items; the rifle, starter’s
pistol, some other ammunition and I think maybe one
other item, doesn’t in any way logically connect Mr.
Morris to this crime, but invites the jury to speculate
and to guess and to play detective, all of which are
consequences which I think are to be avoided in this
case as in any case. So I do not grant the application
to elicit the evidence of those other weapons or
ammunition with [158] respect to Mr. Morris. An
exception is granted to defense.
Another issue open has to do with the viewing of
the television and statements by several witnesses
regarding what they viewed on television the day
before identification procedures were conducted.
Specifically, the district attorney has indicated that
they intend to present witnesses who were initially
parties to present testimony regarding the prosecution

61
of Mr. Morris for this homicide. These witnesses do not
appear to have any testimony that would incriminate
Mr. Hemphill, and at least to this Court it’s unknown
whether they do or do not maintain the belief that Mr.
Morris was in fact the perpetrator in this crime.
It is my understanding that the district attorney
wishes to call these witnesses in order to ensure that
there is no inference drawn by the jury that the People
are seeking to mislead or withhold information
relevant to the jury’s consideration. I think that’s an
appropriate action by the district attorney.
I think the district attorney also is seeking to
present evidence which pertains to the quality of the
evidence against Mr. Morris so as to meet what is
anticipated to be a claim of a defense that Mr. Morris
is the correct target of this prosecution in lieu of Mr.
Hemphill.
****

62
[125]
VOIR

DIRE

SUPREME COURT OF THE STATE OF NEW YORK
COUNTY OF BRONX: CRIMINAL TERM:
PART 60
THE PEOPLE OF THE
STATE OF NEW YORK,

INDICTMENT
NO.
1221-2013

- against DARRYL HEMPHILL,
Defendant.

Jury Selection

265 East 161st Street
Bronx, New York 10451
October 16, 2015
BEFORE:
HONORABLE STEVEN L. BARRETT
Justice of the Supreme Court
APPEARANCES:
(Same as previously noted.)
Gladys Joshua
Senior Court Reporter
****
[165:4]
[THE COURT]: In addition to the named
witnesses or other names that I’ve given you, you will
hear evidence at this trial concerning a person named
Nicholas Morris. Including that three people identified
Morris as the person who shot and killed David

63
Pacheco, Jr. on April 16th, 2006. I instruct you now
and I will instruct you again later that you’re not to
speculate about the status of Nicholas Morris. That
evidence is only being admitted for your consideration
in determining the guilt or non-guilt of this defendant
Darrel Hemphill as I have a further instruction for
you.
****

64
[1]
SUPREME COURT OF THE STATE OF NEW YORK
COUNTY OF BRONX: CRIMINAL TERM:
PART 60
THE PEOPLE OF THE
STATE OF NEW YORK,

INDICTMENT
NO.
1221-2013

- against DARRYL HEMPHILL,
Defendant.

Jury [Trial]

265 East 161st Street
Bronx, New York 10451
October 26, 2015
BEFORE:
HONORABLE STEVEN L. BARRETT
Supreme Court Justice
APPEARANCES:
(Same as previously noted.)
Gladys Joshua
Senior Court Reporter
****
[THE PEOPLE’S OPENINGS]
[12:2]
MR. OUSTATCHER: Thank you, counsel, your
Honor, members of the jury, good morning.
JURY PANEL: Good morning.
MR. OUSTATCHER: Joanne Sanabria dressed
David up right that Sunday April 16th, 2006 Easter.

65
David had just turned two years old. Little David,
David Junior actually, was her pride and joy. Her only
son in a minivan full of children. He was handsome
and he had that sparkle in his eyes that only little boys
have. Joanne was doing that thing that we do on the
holidays once we have kids. Up early they were
visiting family. First her sister in Richmond Plaza.
Joanne put David in the car seat in the back of a
minivan and strapped him in, she made him safe.
And then she drove down to her aunt’s place across
town. She drove down Tremont a ride that she – a ride
that most of us have driven on or walked down too
many times to count. And as she crossed over Harrison
she heard a sound. The kind of sound that many of us
who have spent our whole lives in the Bronx are so
used to hearing.
MR. SEARS: Objection.
THE COURT: Overruled.
MR. OUSTATCHER: It’s almost as if we don’t
notice it. You hear a pop, you hear a bang, it used to be
a car backfiring but that doesn’t happen anymore. A
firecracker, [13] a rock being thrown, or something
else. It’s almost a reflex. You hear the pop, you look
around briefly, everything is okay and you keep it
moving. But everything wasn’t okay. David, her child,
was having trouble breathing after she crossed over
Harrison.
Joanne looked back David looked shocked. That
pop was something. Joanne didn’t know it at the
moment but a piece of lead, a 9 millimeter caliber
bullet, had shot through her car. It went right through
David’s car seat and entered his little body. It pierced

66
his soft skin, entered the torso, went through the left
lung, went through the heart. And as Joanne looked in
her rearview mirror, as she looked over her shoulder
as she had done hundreds of times to make sure David
was okay, David was not okay. David was to[o] young
to know what was happening he was fighting for his
life. He was having trouble breathing because his lung
had been punctured. That bullet had destroyed his
vital organs in seconds. As Joanne pulled her car over
David, her two year old, was bleeding out.
The bullet that entered David’s body was meant to
kill. It was fired at chest level, chest level for an adult
male. The man who pulled the trigger on the that fired
that bullet had murder on his mind. Bullets don’t have
names on them. And while that murderer didn’t know
David, the moment he pointed that gun and pulled the
trigger, he [14] wanted a body. His intent was to
murder. Not just to murder but to murder with
depravity and utter indifference to human life.
And as Joanne drove through that intersection on
Tremont and Harrison she drove right in front of a
man she had never met before. A stranger standing
right in the middle of the intersection. A man name
Juan Carlos Garcia holding a bottle of water, looking
straight at another man pointing a gun right at Juan
Carlos, and poised to fire that gun just as the minivan,
Joanne’s minivan, drove right in front of Juan Carlos.
Juan Carlos was unarmed. The man with a gun was
wearing a bright blue sweater with a hat pulled low on
his head. And that man with the blue sweater with the
gun had a motive to kill Juan Carlos. To find out why
that man wanted to kill Juan Carlos you have to go

67
back a short time, maybe 20 minutes maybe 30
minutes. A few car lengths up Harrison.
Juan Carlos was about to become a father. I’m not
sure if he knew it on that Easter Sunday but it was in
motion. He had just gone shopping at some stores on
Burnside with the soon-to-be mother of his child
Denise Marisol Santiago, her mother Brenda,
Brenda’s husband Jose, and a cousin of Juan Carlos
named Jon Erik. They were walking back home. I’m
going repeat those names because you’re going to hear
them often; Juan Carlos Garcia, Juan [15] Carlos’
cousin Jon Erik Vargas, the mother of Juan Carlos
then unborn son Denise Marisol Santiago, Marisol’s
mother Brenda Gonzalez, and Brenda's husband Jose
Castro.
They lived on Harrison and Tremont a building on
the southwest corner. They were walking home down
Harrison on the west side of the street. There was a
guy standing in the street, a stranger, on the phone.
Someone looked at someone too long and made eye
contact, nothing happened, but it was disrespect so
there [w]as a fight. The usual stupidity that as we get
older we learn to walk away from. But in this case it
became a fistfight. This stranger, he had that blue
sweater on – a bright blue sweater on and the fabric
had a design on it. The sweater stood out. He had a hat
pulled low. He was losing a fistfight. The fight spilled
out into the street. Jon Erik and Juan Carlos was
winning, Jose was nearby. Brenda and Marisol were a
little further away. The guy in the blue sweater’s
friend joined in, shorter and heavier, braids, a lazy eye,
no hat, but still they were losing. The guy in the blue
sweater ran down Morton it runs parallel to Tremont.

68
Jon Erik chased the guy in the blue sweater across
Morton over to Andrews when he lost him and then the
fight ended. There were words exchanged but no one
was hurt to badly only bruised egos, not broken bones
or bloody noses —
Jon Erik came back and saw Juan Carlos, Jose,
[16] Brenda and Marisol following the heavy guy on
Morton, down University and back to Tremont almost
where the fight started. The heavy-set guy stopped to
cross the street and he made a phone call.
Juan Carlos, Jose, and Jon Erik and Marisol and
Brenda started going into their building. Jon Erik felt
weak and he sat down on the ramp outside his
building. He thought it might be heart palpitations.
Brenda, Marisol and Jose were near him on the
southwest corner of Harrison and Tremont. Juan
Carlos went diagonally across the street to the bodega
to get a bottle of water.
The heavy-set guy was still on Tremont and a car
pulled up. A guy got out. Same build as the guy who
lost the fight. Same bright blue sweater with the
fabric. He stood on the northwest corner of Harrison
and Tremont and pointed a 9-millimeter pistol right at
Jon Erik, Jose, Brenda and Marisol a distance across
the street and he started shooting. Not just once he
sprayed the block with bullets. Then Juan Carlos came
out of the bodega and started across the intersection
with a bottle of water for Jon Erik. He was walking
diagonally across the intersection, so he was right in
the middle of the street looking at the guy he had just
beat up in the blue sweater, pointing a gun right at
him. Juan Carlos was trapped and he thought he was
going to be shot when that minivan, that [17] minivan

69
with Joanne’s son little David strapped in the back
seat, drove right in front of him.
So now that you know why and the who back to
Joanne Sanabria. Maybe she knew. Maybe she knew
her child was dead maybe she didn’t. Or maybe
something kicks in as a parent that tells you, no he’s
not, even though logic and common sense make it clear
he is. A good samaritan, an off-duty EMT ran to the
car. Angel Cruz he did what he could. He flagged down
a livery cab, he tried to save the child’s life, and got
David to the hospital in minutes.
Even though she pulled the car over a few blocks
away from Harrison and Tremont, word spread back
to the neighborhood in minutes. This wasn’t just
someone firing a gun into the air on the corner to prove
he’s a man, a baby had been shot. A baby had been
killed. The police were coming and they were going to
shut down the block. The innocent stayed. Those who
had nothing [sic] to hide, the guilty, fled. They changed
their clothes, disposed of the murder weapon, and got
as far away as The guilty grabbed what they could and
left everything else behind. Some left their families
and children and got out of the Bronx, out of New York
City. They knew what they did and they were running
from it. They ran down to North Carolina while Joanne
Sanabria was at Bronx Lebanon praying, hoping
against hope, the shooter was making arrangements
doing what he had [18] to do to get away with murder.
And this wasn’t your typical murder investigation.
It wasn’t two drug dealers or a couple of gang members
fighting over turf on the corner it was an innocent
child. So as afraid as people are and reluctant to come
forward people came forward. The shooter wore a hat

70
low and the shooting happened quickly but names
popped up. The heavy guy, the guy who helped out in
the fight, who lost the fight – not the shooter in the
blue sweater, but the guy who did wear a hat he let
people see his face and he was easy to ID. His
nickname is Burger. He Government name is Ronnell
Gilliam.
The police went to an apartment on Harrison
where he and his buddies hang out. His brother
William was there. His brother let the police in and
showed them to a closet. And even though Ronnell
wasn’t the shooter wearing the blue sweater the blue
sweater was in that closet in that apartment on
Harrison. Ronnell called to speak to his brother when
the police were in the apartment. He spoke to a
detective and Ronnell was gone. He was one of the
people who went down to North Carolina.
Ronnell hung out with a group of people in the
neighborhood. One of those people were Nick Morris.
The police got a photo of Nick Morris. They went
looking for Nick Morris. No one ever picked Nick
Morris out of a six [19] pack of photo arrays and said
that’s the shooter. No one said that Nick Morris was
the shooter, the man in the blue sweater. The closest
they came was one witness thought Nick Morris looked
like the shooter. But that witness refused to picks him
out of a six pack of photos.
Now even though no one identified Nick Morris as
the shooter, no one picked him out of a photo array, no
one in the neighborhood where he lived said they saw
him fire a gun, Nick heard the police were looking for
him. He walked into the News 12 Studio in the Bronx
to let the police take him in. He didn’t run to North

71
Carolina, he didn’t hire a lawyer. As soon as he heard
the police were looking for him he came to the police.
He invited on the air to come and arrest him. The
police put Nick Morris in a line-up.
MR. SEARS: Objection we’re getting into things
that are not going to be testified to at trial, Judge.
THE COURT: The objection is overruled. No
explanation just object.
MR. OUSTATCHER: The police showed it to four
of the people involved in the fistfight and three of them
picked him out, Marisol, Brenda, and Jon Erik just two
days after the shooting. Three of them said, that's him,
that’s the shooter I’m certain one didn’t. That was
Juan Carlos and Jose couldn’t make it to the precinct
for the line-ups because he was working that day. But
three people, Marisol [20] Santiago, her mother
Brenda Gonzalez, and Jon Erik Vargas identified Nick
Morris, picked him out of a line-up, five person line-up.
And then, a few days later, Ronnell Gilliam came
back from North Carolina. He walked into the district
attorney’s office with a lawyer named George
Vomvoulakis and made a statement to the police and
to two district attorneys. Not to me not to Ms. Carmody
but to two other district attorneys back in April of
2006.
Gilliam or Burger he was the other guy in the
fistfight with a man in the blue sweater. He was a guy
and he describes he didn’t know the names they’re all
strangers, he described Jon Erik and Juan Carlos and
the shooter. The guy with the gun. The guy in the blue
sweater. Gilliam said it’s Nick Morris and he’s my
friend. So that’s it right? It’s a wrap. Three people pick

72
him out of a line-up. Another guy, his friend, his lifelong friend, implicates him. It’s over. Five days after
the shooting the case is closed, right?
It would have been back in the 80’s, back in the
90’s definitely, back in the 60’s and 70’s before we
knew what we know now there would have been no
doubt. But we’re better than that. We’re smarter than
that. And sometimes you have to work a little harder
to get to the truth. My grandfather had two favorite
quotes. One was “if something [21] looks to[o] good to
be true it probably is.” And in no case is that statement
more true than this one. My grandfather’s other
favorite quote was “don’t trust anyone” and that really
speaks to the kind of person he was more than
anything else. But it serves jurors well and it will serve
you well on this case.
The witnesses you will see over the course of the
trial are all strangers to you. And no matter how nice
they look or convincing the sound don’t trust any one
witness, even witnesses I call, until you’ve had a
chance to kick the tires on their testimony. To look
under the hood to see if what they say happened
matches up with other evidence. To see if it’s
corroborated. Just because something sounds nice
doesn’t mean it’s true.
And unlike what you see on T.V., D.N.A., doesn’t
happen just like this. It takes more than one day to
test something, to see if there’s D.N.A. on a piece of
evidence. And it can take even longer, sometimes
years, to find out whose D.N.A. that is. Especially
when that person flees.

73
[B]efore I get to that let me take a step back. That
lawyer that Ronnell Gilliam walked into the D.A.’s
office with that wasn’t really his lawyer. Ronnell didn’t
hire him, Ronnell didn’t choose him, someone else
chose that lawyer for Ronnell. Someone else paid for
that lawyer to walk Ronnell into the D.A.’s office for
Ronnell to say Nick [22] Morris was the shooter. The
first time Ronnell ever met that lawyer was about 15
minutes before he walked into the D.A.’s Office on the
corner of 161st and the Concourse just before Ronnell
walked in the D.A.’s Office. And the man who chose
that lawyer for Ronnell was Darrel Hemphill. The man
sitting at that table.
And Nick Morris didn’t run after the shooting.
Nick didn’t leave the city. Nick didn’t leave the Bronx.
He didn’t do what you expect a guilty man to do. Nick
walked himself into the News 12 Studios without a
lawyer to wait for the police to come. That’s not what
a murderer does.
Ronnell Gilliam went down to North Carolina with
the defendant Darrel Hemphill and Darrel’s then
girlfriend Aida Llanos. They then met up at one of
Darrel’s friend’s places in Brooklyn, a man named
Vernon Matthews, and they drove down south to
North Carolina. Darrel chose North Carolina Ronnell
didn’t know anyone in the state. They kept Ronnell in
a room and they fed him information. They said Nick’s
snitching he’s saying we shot the kid. You have to go
back up to New York and tell the cops Nick did it. I’ll
get you a lawyer. The defendant Darrel Hemphill is
Ronnell’s cousin, his older cousin, they’re blood.
Ronnell trusted him.

74
So Ronnell me the lawyer on the corner of 161st
[23] and the Concourse and did just what he was told.
But a few days later he realized Nick didn’t snitch.
Nick wasn’t there for the shooting. He was on his way
to the location where the fight happened because
Ronnell had called him but he never made to the
corner of Harrison and Tremont. So Ronnell, on his
own without an attorney, walked into the 46th
Precinct – he actually wasn’t alone he walked in with
the defendant’s brother Stephen Hemphill. And
Ronnell Gilliam told the cops the truth. Nick Morris
wasn’t the shooter Darrel Hemphill was shooter, the
man in the blue sweater. Darrel lost the fight. Darrel
was the shooter.
And when Ronnell is in the precinct that lawyer,
George Voumvalakis, called the precinct. He called the
precinct because he got a call from the defendant
because Ronnell stopping following orders. Because
the truth was being revealed.
But no one believed Ronnell because he was acting
in concert with the shooter because he fled. Because
days earlier he had said something different. Because
there was no evidence to corroborate his story.
Now you’re going to hear from Gilliam. And not
only going to hear from him you’re going to see him.
You’re going to be able to eyeball him from that jury
box. I spoke to most of you very quickly about a
cooperator. The cooperator in this case is Ronnell
Gilliam. Even though he [24] never pulled the trigger,
even though he never touched a gun before the
shooting happened, he plead guilty the Acting in
Concert Attempted Murder of David Pacheco, Jr. Not
only did he plead guilty but he did four years jail for

75
someone else's body – for a murder someone else
committed. And his story is not yet finished. If he
fulfills his agreement, if he testifies truthfully, he still
has to do another year. And if he doesn't testify
truthfully, if a judge – Judge Gross on the sixth floor
of this building, finds out that Ronnell Gilliam lies in
the smallest sense before any of you, Ronnell gets 25
years no questions asked for a murder in which he
never touched the gun.
I’ll get to the D.N.A. soon but one more thing about
Gilliam. He did touch a gun that day. After the murder
everyone met up at that apartment on Harrison I
mentioned not far from the shooting. The defendant
Darrel Hemphill had an argument with his girlfriend
Aida Llanos and he took off his blue sweater and the
guns were dropped off. Gilliam was the man who was
supposed to get rid of the guns and the sweater. He
took the guns but he forgot the sweater.
So now back to Nick Morris because he didn’t just
walk into the precinct and surrender. Before he did
that he went to Bronx 12 and he gave an interview. He
rolled up his sleeves during the interview, and this is
taped, the people [25] involved in the fistfight they saw
the forearms of the guy in the blue sweater, the
shooter. And he had a tattoo on his forearm. A
prominent tattoo. And this is back in the days before
everyone and their grandmother had a tattoo. That
tattoo stood out it looked like numbers. When Nick
Morris was talking to News 12 he rolls up his sleeves
and he shows the world that he didn’t have the tattoos
that the [g]uy in the blue sweater had and he didn’t.
An this was the day after the murder. So Morris didn’t
have the time to have his tattoos removed. I’m going to

76
play that video for you with the sound off. You’ll see
that video. You’ll have the same view everyone who
saw that video had and you’ll see Nick Morris’ face and
you’ll see his body.
That video is important for more than just that.
It’s not just what he displayed it’s who saw it. Because
everyone on the other end of the fistfight, everyone
except for Jon Erik, saw that video the night before
they saw the line-up in which Nick Morris was seated
in Position Number 2. And each of them, Brenda,
Marisol, and even Jose, thought that’s not him. That’s
not the shooter. That’s not the guy in the blue sweater.
One day after the shooting happens this is their first
chance to see the person who might have been the
shooter and it’s not Nick Morris. Nick Morris is black
African American but his skin tone is lighter than the
shooter. And Nick Morris has a scar, and [26] you’ll see
it a prominent scar under his right eye, it’s pretty big.
The guys in the fistfight saw him. She saw the
shooter’s face. Doesn’t have the scar, it’s not the
shooter.
And the next day when they see the line-up
Brenda, Marisol, and Jon Erik pick out Number 2 Nick
Morris as the shooter. Juan Carlos looked at the lineup didn’t pick anyone out. Realize, too, that Juan
Carlos, because he was caught in the middle of the
street, was closest to the shooter and had the best view
of the shooter’s face. Juan Carlos saw the line-up with
Nick Morris in it. The shooter, the man in the blue
sweater, wasn’t in that line-up. And based on that
evidence and nothing more the police arrested Nick
Morris and charged him with the murder of David
Pacheco, Jr.

77
So how could it be? How could these three people
pick out someone from the line-up when the night
before two of those people saw the T.V. and realized
immediately that’s not him that I can tell you. For the
answer to that question you’ll have to wait for Marisol,
Brenda and Jon Erik to tell you themselves and in
their own words. While these line-ups are happening
that blue sweater has been vouchered. You’ll see the
sweater yourself. You’ll see the big paper bag. Right
there sitting in the precinct when Nick Morris is being
arrested. [27] D.N.A. on that sweater will not begin
until July 2006.
Three people have picked out Nick Morris in that
line-up who cares what’s on the sweater? But when
you take a closer look at the witness and this evidence
it might matter because Brenda Gonzalez she needed
glasses to see distances. She needs glasses now. She
needed them back in 2006. And when that shooting
happened, when she saw the shooter from a distance
across a very large intersection, she’s not wearing her
glasses. So how could she see the shooter? And her
daughter Marisol, the shooter was wearing a hat
pulled low. A shooter had a gun held straight out from
the chest, right up front of the face. Marisol thought
she might be shot and right then and there and she
started running. She also didn’t see the shooter’s face.
So how could she pick out the shooter if she never saw
his face? And Jon Erik never actually saw the
shooting. That ramp that he was on it’s not outside the
building it’s actually internal it’s inside the building.
So when the shooting is happening he hears a popping
sound but he never sees the shooter at all. What
happens is after the shooting stops he comes out and
he chases a guy with a blue sweater but that man in

78
the blue sweater never turns around. So it is unclear –
it’s actually impossible for Jon Erik Vargas to actually
have identified the shooter in this case.
And even during the fistfight – when Jon Erik is
[28] having the fistfight essentially almost like a oneon-one Jon Erik, for the most part, fighting Burger the
heavy-set guy, he’s focused on him he’s not even
looking at the guy in the blue sweater. The three
people who picked out Nick Morris as the shooter
never saw the face of the shooter and that’s what the
evidence will prove.
That blue sweater was tested and they got D.N.A.
off that sweater. They got one person’s D.N.A. off that
sweater. A man’s D.N.A. And after they got that
D.N.A. they got Nick Morris’s D.N.A. and put a fancy
Q-tip inside of the mouth and developed his D.N.A.
profile. And they compared Nick Morris’ D.N.A. to the
D.N.A. on that sweater and Nick Morris’ D.N.A. was
not on the blue sweater. There was one man’s D.N.A.
on that sweater and it wasn’t Nick Morris. The D.N.A.
evidence exculpated Nick Morris. It proved that he
was not the man in the blue sweater who killed that
child.
One more thing about Nick Morris, he wasn’t
guilty of this murder but make no mistake about it he
was not some innocent man. He and the defendant and
Burger before April 16th, and even up to April 16th
that Easter Sunday, those three were a team. Burger
and Darrel are blood. And Nick Morris was as close to
them —
MR. SEARS: Objection.
THE COURT: Overruled. [29]

79
MR. OUSTATCHER: — as someone can be
without being related. And when Burger was on that
corner before the defendant came back with his 9millimeter, Burger called Morris. And Morris was on
his way with a gun, a .357 he just got there too late.
So after the D.N.A. evidence proved Nick Morris
wasn’t the murderer, the police went down to North
Carolina. Because after that child was shot and killed
Darrel Hemphill never came back to the Bronx. And
the police went through Darrel’s garbage and picked
up some bottles they thought he might have drank
from, but no one ever saw him drink from. That was
worthless. But then the police got a search warrant to
put a swab in Darrel Hemphill’s mouth and in 2011
they pulled him over as he was driving. They showed
him the search warrant, and they got his D.N.A. And
wouldn’t you know it, the D.N.A. on the sweater was
Darrel Hemphill’s D.N.A. The only D.N.A. on that blue
sweater was Darrel Hemphill’s D.N.A. Looks like
Ronnell Gilliam was telling the truth.
You are going to hear from a number of witnesses
over the course of the next month. Some saw a little,
some saw a lot. Some saw the first fight, some saw the
shooting. Some weren’t even in the Bronx when this
happened. Some will come before you because it’s the
right thing to do. Some will likely have to be forced to
come into court. [30] Every witness who comes before
you will give you a piece of information. And when you
put this information together you will have a mass of
evidence. And within that mass of evidence lies the
truth of what happened on the corner of Tremont and
Harrison that afternoon. And truth be told, there’s just

80
too much evidence in this case for me to discuss this
opening statement.
I want you to pay attention to all the evidence that
comes before you. But I want you to pay special
attention to these questions and the answers that
follow.
Because each eyewitness will answer them
differently. How close or how far away was the witness
from the shooter? Was anything blocking the witness’
view of the shooter’s face? Was the witness under the
influence of alcohol or drugs? Where was the witness
looking at the gun or the shooter’s face? Did the
witness know the shooter or was the witness a
stranger to the shooter? And what I mean by that is,
was the witness familiar with the shooter’s facial
characteristics before the shooting? How long did the
witness look at the shooter’s face while the shooting
was happening? What was the witness’ state of mind
during the shooting? Meaning was the witness being
shot at or was the witness not being shot at? And so
the witness had a chance to look at the shooter. And,
finally, did the witness need glasses? And was the
witness wearing those [31] glasses?
Because when you have the answers to those
questions you will know not only what crimes were
committed but who really committed that crime.
After all the witnesses have come before you and
testified this case, jurors, will he yours. And as many
witnesses as you will see and as much evidence as you
will hear the question put to you will be quite simple,
who shot and killed David Pacheco, Jr., on Easter
Sunday 2006.

81
This case, as with every case, is about choices,
conduct, and responsibility. One man introduced a gun
to a fistfight. One man had a motive to kill. One man
fired that 9-millimeter pistol. One man shot and killed
David Pacheco, Jr., and one man bears responsibility
for this murder. And when all this evidence is before
you and all the witnesses have testified I’m going to
come before you again and ask you for a verdict. And
by this verdict I’m going to ask you to hold that man
responsible for his choices and his conduct on that
fateful day. Thank you ladies and gentlemen.
****
[DEFENSE’S OPENINGS]
[32:1]
MR. SEARS: And when I talk about the extent, I
want you to keep in mind what we spoke about.
Another thing we spoke about during jury
selection which was this description, recognition.
Remember when we spoke about that and how you
may not be able to describe somebody so well, but you
would certainly recognize somebody that you had
spent some time with. And although Mr. Oustatcher
wants you to concentrate on a few moments that the
witnesses were looking at the shooter and getting a
pretty good look at him, and you will see the view that
they had. He wants you to concentrate on those few
moments and suggest to you, well, that’s the only time
they had to see that person.
But you are going to learn that that’s not true. You
are going to learn that the same people that identified
the shooter in that lineup because they could see the

82
shooter so well are the same people that were involved
in the altercation with that shooter some 10 minutes
earlier, and during that altercation they were very
close to that shooter for a lengthy period of time and
they interacted with that shooter and they spoke with
that shooter and they had time to observe the body
characteristics and the facial characteristics and all
the things that you take in about a person that makes
you able to recognize that same person 10 minutes
later. [33] So when the shooting happens they are not
just saying oh there is a stranger doing a shooting.
They are saying that’s the guy that I was just
interacting with 10 minutes ago; that’s how I know it’s
the same person; and that’s Nicholas Morris; and
that’s powerful, powerful testimony.
You are going to hear during the trial from Jose
Castro, one of the people whose name you heard, and
he is going to tell you about the altercation he had with
Burger and Nicholas Morris. He is going to tell you
that Nicholas Morris hit him. He is going to tell you –
that it was another person joined in the fight and he
tried to stop it. He is going to tell you that Morris
stumbled backwards. He’s going to tell you a lot of
details about the fight that he had and other people
that he was with had with Nicholas Morris. Not with
Darrell Hemphill.
Nobody. Not a single witness to this day, to this
day, with all the investigations and everything that’s
been done and all the going back to people and talking
to them about maybe you were wrong about that other
thing and will you change your mind and all these
other stuff that’s happened in the last nine years, not
a single witness other than Ronnell Gilliam, who we

83
will talk about, and who also said in his statement it
was Nicholas Morris. Not a single witness has said
that Darrel Hemphill fired that shot.[34]
So you are going to hear Jose Castro who is going
to tell you how Morris stumbled backwards and ran
and came back some minutes later and how Morris
stood across the street, right across the street. It
wasn’t anything in between them. It was a bright,
sunny, well-lit day. Castro is going to tell you, you
could see straight across the street.
What was happening? The person across the street
had a gun out, had a gun pointed directly in his
direction and that he could see it clearly. It’s his words
‘cause he is asked about that. He says I can see it
clearly, it was Morris, it was the same guy. And that’s
what Jose Castro is going to tell you.
You are going to hear from Marisol Santiago,
another person who the DA mentioned, on whose
identification they relied for years and now they are
saying oh, wait a minute, that must have been
mistaken.
She’s also going to describe the fight, taller, skinny
person with the gun, Burger. Burger. Ronnell is very
different from Morris from Hemphill and his
appearance. He is not somewhat shorter, but he is a
huge 350, 400 pounds. He is a big guy. So everyone
knows who Ronnell is, and Marisol is going to tell you
about seeing Morris with a weapon, with a gun. That
nobody else had a gun. The gun wasn’t handed off or
given to somebody else. There weren’t [35] two
shooters. There was only one shooter, Nicholas Morris.

84
And Marisol will tell you, she will tell you about
the lineup. Saw him two days later in a lineup. And a
lineup is not just a bunch of photos that they lay in
front of you in a police precinct. A lineup is a carefully
orchestrated procedure and the purpose of the lineup
is to get a fair, accurate ID. That’s why they have
them, that’s why they are permissible, and that’s why
they rely on them. It’s the best way we know to get an
accurate identification, and that’s what happened
here.
And you will hear about the lineup, and Marisol is
going to tell you that she identified Nicholas Morris as
the shooter, the guy that was right across the street
when he fired the shots; that he was holding the gun
in his right hand, which she could see that, and those
are purple bruises on his face, and when she saw the
lineup she recognized him as the shooter. She is asked
if she was sure and she says I am sure, no one else out
the way.
You are going to hear from Brenda Gonzalez. She
is also involved in the initial altercation. She also gets
plenty of opportunities to observe the person that
comes back with the gun and does the shooting. She is
going to tell you that Morris started talking to John
Erik, another of the people involved in altercation.
Morris threw a punch to John Erik, fight breaks out,
Morris comes back. She sees him [36] standing on the
corner, the same as the other witnesses say, during the
shooting. She sees Morris take out a gun. They all
describe a gun. A bright gun. A shiny gun. Maybe you
can see the sun glinting off the gun. He was across the
street, pointed it.

85
In her words, he was right there across the street,
I saw him clearly when he took out the gun. She is
asked because they want to make sure that if she got
any doubt, talking in her criminal trial about
reasonable doubt when a person is guilty, she is asked
if she got any doubt two days afterwards that that guy
in the lineup is the shooter and she says she has no
doubt.
And you will hear from John Erik Vargas. He is
going to tell you about the fight, about the shooting,
about the lineup and about Nicholas Morris.
None of them. Not a single witness back then, and
you can bet how many witnesses they spoke to, you
know what kind of investigation they did. A shooting.
It was a child. They are canvassing hundreds of people.
Everybody in the neighborhood. Not an eye witness or
anybody else at any time during the investigation then
or now other than Burger says that Darrel Hemphill
had anything to do with the shooting.
This was a terrible, terrible tragedy. You are going
to see pictures. The District Attorney in his opening
statement, in his first remarks, he is talking to you
about [37] the emotional impact, about driving, it’s
Easter Sunday, the child is the backseat and all that.
That’s right. That’s right. But this is not the person to
be held responsible for that shooting, and that’s what
the evidence is going to show.
Now, why do I pick the same people the District
Attorney picked to highlight my opening statement?
Jose Castro and Marisol and John Erik, Brenda
Gonzalez. Why do I talk about those people just like

86
Mr. Oustatcher did? For the same reason that
Detective Jimick.
And you are going to hear him testify. He was the
case detective. It was his case. He was in charge. For
the same reason Jimick is going to tell you he picked
those people to put in the lineup, and he is going to tell
you that he picked those people to put in the lineup,
and the District Attorney spoke about this and I am
speaking about those people, because they were the
best witnesses that he had. The best witnesses
available.
They were the ones who interacted with the
shooter, who were close to the shooter, the ones that
had the opportunity to get the best look at who the
shooter was, and that’s why Jimick chose those people
to put in the lineup. He is going to tell you.
So the best witnesses that they have, not nine
years later, but two days later, put in a lineup. They
seen the shooter and they identified the shooter and
they choose [38] him. And think about that, at the end
of the case, when you are considering whether you
have a reasonable doubt that Darrel Hemphill was
involved.
Now, I’d like you to just, as you hear the evidence,
contrast – excuse me for a second.
As you hear the evidence – you already heard
about the witnesses that identified Morris, picked him
out of the lineup, witnesses who observed the events
in question, witnesses who are not related to any of the
parties, have no motive, no ax to grind, no cooperation
agreement, none of that baggage that Gilliam brings

87
to court. Contrast those witnesses with Ronnell
Gilliam.
He comes to let’s see. Okay. Ask yourselves when
you are listening to Ronnell’s testimony – and, again,
we discussed this in voir dire. Some of the things you
would consider when you judging a person – whether
he has said different things on different occasions;
whether he has said this person in one occasion that
person in another occasion and whether an outright
lie; whether he has a motive to tell the truth; whether
he has a motive to lie and wants this cooperation
agreement that we talked about.
First of, you are going to find out when Gilliam’s
testifies that he is a liar, okay. Now, everybody lies,
right? If you say something that you know – a child.
You don’t want to tell your child something or
somebody telling a [39] story, a kid makes it up, or you
don’t want somebody to feel bad. You look okay and the
person doesn’t look okay.
Everybody lies. But that’s not what we are talking
about. What we are talking about is someone who lies
about important events in this case and for his own
advantage, and Gilliam those that over and over again.
And that’s the witness, the only witness to say that
Darrel Hemphill is involved in the shooting, and that’s
the one that they are asking to you rely upon as oppose
to the other witnesses that we’ve discussed.
And what kind of baggage does he bring?
You are going to hear that he makes three
different statements about what happened and they
are all contradictory. The first statement, which I
submit is the best statement, he comes in with a

88
lawyer and he meets with the District Attorney. So it’s
all being formalize. That the lawyer is there to make
sure that everything goes the right way, that words
aren’t put in his mouth, that what he is saying is the
truth, that he discussed probably before with his
lawyer before he talked to the police ‘cause no lawyer
brings a guys into the police unless they know what it
is they are going to say.
And he describes what happens and he says that
Nicholas Morris is the shooter. And then Jimick or the
DA, I forget exactly whom, who is listening to him, are
you just [40] saying that because you want to protect
your cousin and so you are saying that Morris was the
shooter? And Ronnell says, no, I wouldn’t do that not
in anything this serious. I am saying that because
Nicholas is the shooter. And that’s his first statement.
He comes back a couple of weeks later after Nick,
who is his lifelong best friend, tells him, hi, Ronnell,
you better get me out from underneath, I am in jail
now, get me out from underneath.
How do we know that Morris puts Gilliam up to
that? Because, get this, when Morris goes back – I am
sorry. When Gilliam goes back to make that second
statement, to change his mind, you know, to come
clean and say Darrel did it, while he is at the precinct
he gets a call from who? From Nicholas Morris saying,
hi, Ronnell, are you at the precinct? Are you changing
your story? Are you telling them?
So Morris not only knows that Gilliam is going to
be changing his story, he knows when – he know when
he is going to be at the precinct because from jail he

89
calls him, and make sure you get me out of this. Make
sure you putting it on Darrel.
And nobody believes him. Jimick doesn’t believe
him. The DA doesn’t believe him. And part of the
reason they don’t believe him is because they know he
is lying. He [41] is not only lying about who did the
shooting, he already told them the correct version, the
version that’s corroborated by all the witnesses that
you rely on and made identification, but he lies to
them.
And Jimick will tell you this. He lies to them about
what he did with the gun. He makes up three different
stories. He lies to them about how he got back from
North Carolina. He lies to them about a variety of
other things because he is a liar.
And when you go in and you say something that
isn’t true you can tell because it doesn’t pan out. You
contradict yourself. He is not smart enough to get your
story together and do them the right way. So they
arrest Morris. They charge Morris. They believe
Gilliam’s first statement. They don’t believe his later
statements when he changes his mind, and they
believe his first statement because it corresponds and
it’s corroborated by all the all the other evidence that
they have in the case. I just don’t mean the other eye
witnesses that we have spoken about, all of whom
identified Morris, because there is other evidence.
There is what I would call hard evidence, that you
don’t have, as oppose to what somebody says, okay.
When after the shooting happens the police are
doing their investigation and they go to Nick’s
apartment because Nick is a suspect right off the bat,

90
and they go to [42] Nick’s apartment and they search
Nick’s apartment. The District Attorney wants to talk
a lot about a blue sweater, and I will come to that. But
they go to Nick’s apartment the same day. I think it’s
either later that same day or maybe the next day, and
they search Nick’s apartment.
And what do you think they find in Nicholas
Morris’ bedroom? They find a 9-millimeter bullet. A
live round. And guess what kind of a gun killed David
Pacheco just a few hours before that? Guess what kind
of a bullet? And the ballistic people will tell you they
recovered from David Pacheco Junior’s body and find
other evidence of at the scene? A 9-millimeter.
So shortly after this shooting when they go to
Nicholas Morris’ apartment there is a bullet that’s
exactly the same kind of bullet as the one that killed
the child. And so, yeah, you know, they are putting this
evidence together. And our eye witnesses, you know,
are they accurate? Well, yeah. And is Burger telling us
the same thing initially? Yeah. And there is a bullet
that’s the same as that. I think got the right guy.
And when Nicholas Morris comes in and is
arrested, you remember the shooter was involved in
the initial altercation, right? He was involved in a fist
fight which at least everybody tells about that. And
when you are involved in a fist fight and you are
punching, I don’t know if anybody [43] has ever been
involved in a fist fight, what happens is you get you get
bruises on your hand, on your knuckles from that. And
guess what? When Nicholas Morris gets arrested later
that day or the next day, guess what Jimick and the
police notice about his hand? He’s got bruises on his
knuckles.

91
Now, I guess he could like punch the wall or
something and gotten bruised on his knuckles. I don’t
know many people that do that, but one of the ways
you would get bruises on your knuckle is if you had
just been in a fight with John Erik and Juan Carlos
and all the other people who identified you as the guy
they had a fight with and you happen to have bruises
on your knuckles.
So they know he has been in a fight. They know
he’s got the same kind of ammunition that fired the
bullet. He has been identified by reliable, independent
people and they are convinced that he is the guy and
there is plenty of good reason for believing that.
So think about those things when you hear the
evidence, think about the witnesses who identified
Nicholas Morris, compare them to what you are going
to learn about Ronnell Gilliam and how reliable,
unreliable you think he is, and about his lies and his
different stories and him being the only person that
you are going to hear say that Darrel Hemphill did the
shooting. [44]
And on top of all that, the real kicker, when you
hear Ronnell Gilliam, the District Attorney mentioned
this, is this, you know, cooperation. What that
cooperation agreement means to a guy like Ronnell
Gilliam who will say anything for his own interest,
protect somebody, not protect somebody, put this
person in trouble, that person in trouble, who knows
what he will say on any given day. That cooperation
agreement is a get out of jail free card. Remember that
Monopoly game, you get the card you get right out,
okay.

92
So this guy who will say anything that suits his
purposes. He is sitting in jail. The District Attorney
will tell you, sitting in jail for four years. I don’t know
why. He didn’t shoot anybody. He didn’t have a gun.
So what is he doing sitting in jail for four years, I don’t
know. But, anyway, he is offered this deal. If you say
that Darrel Hemphill did the shooting you go home. If
you say that Nicholas Morris did the shooting you do
another 25 years.
So what do you think – I mean, maybe not, maybe
not just Ronnell Gilliam given that choice. But what
do you think Ronnell is going to do? Let’s see. Nicholas
Morris I get 25 years, Darrel Hemphill I go home.
Okay.
Treat that cooperation agreement, you know.
When the DA says he has this agreement, he is going
to come in here and tell the truth, he is going to say
whatever they [45] want him to say ‘cause that’s going
to get him out of jail, that’s going to save him 25 years.
He ain’t going to do 25 years for anybody.
So what does it boils down to? The District
Attorney talked a lot about a blue sweater, okay. A
blue sweater. There is a sweater. Where is it found? In
Ronnell Gilliam’s apartment.
And you are going to hear what happened after the
shooting. You are going to hear that Darrel came there
with his wife at about the time the shooting was
happening. He got out of his car and he heard the shots
and he knew these guys. He knows these guys. He
knows Ronnell. He knows Nick. He grew up in the
neighborhood and he hears shooting, and these guys
are running and he runs.

93
And, you know, let’s be grown ups about this, okay.
The idea that somebody of color, in Bronx County, who
knows the players that are involved and is running
from the scene might get arrested and charged with,
somebody who didn’t do it, I mean, that is not such a
strange idea in Bronx County unfortunately.
And he freaks out, and his wife Aida freaks out.
They have been having some problems. They were
planning to go down to North Carolina where he has
family, still has family. Is this the time? Maybe we
should go. This is really scary. You know they are
asking questions about [46] everybody. Let’s go out of
here.
Is that the right thing to do, the wrong thing to do?
I don’t know. Is that an understandable thing to do?
Do innocent people get charged? Isn’t that what this
very case is about? It’s not just it’s a crazy idea. So he
goes with Aida and the kids. They go to North
Carolina.
What does he do there? He doesn’t change his
identity. Does he hide away? Does he get a new name?
He goes down there and they get a place to live under
their own names. He has a business. He comes to New
York any number of times to do business. He is not
running away. He is not hiding. They know where he
is.
His – when I say they, them, they, the law
enforcement knows, knows his address. They know
how to reach him the whole time. If they want to take
a swab, they go down there. They know where he is
living. He had – he gives them the swab. This is the –
not a person, quote, running away from committing

94
murder in the days after the crime when he is
concerned about, you know, what’s going to happen to
him.
And he gets a lawyer, and the lawyer contacts the
police, and this is on the same day or the next day. And
you will hear this from Jimick, the case detective. He
says, Detective Jimick, if you want – do you want to
talk to Darrel about this? Do you want to interview
Darrel? Jimick [47] says, no, that’s not necessary. And
the lawyer says, well, look, if you want to talk to him,
if you ever want to talk to him about the case,
interview him or whatever I will make him available,
okay.
So when the District Attorney suggest to you this
is a murderer running from a homicide, you know, just
consider the fact that he stays put, he has his business,
he has his family, he takes care of his kids, they know
where is he, he has the same identification. He comes
to New York on business. He has his own driver’s
license. And he got his lawyer, if you ever want to talk
to him he is available, okay. So just see that for what
it is.
So let’s go back to the sweater which the shooter,
the shooter in all likelihood was not even wearing the
sweater like the one they got from Gilliam’s
apartment. And why do I say that? Because the many
of the witnesses that you will hear talk about being
able to see the right forearm of the shooter.
Now, some of them will say that the shooter had a
tattoo, a number of tattoos, Oustatcher did, on the
right forearm, okay. They may or may not be correct
about that. They’re probably wrong about that which

95
is – by the way, you will see the District Attorney is
going to show you some video of Nicholas Morris. He
apparently doesn’t have – I’ve never met him, but he
apparently doesn’t have a tattoo on his [48] right
forearm, but you're also going to see Mr. Hemphill’s
right forearm and he doesn’t have a tattoo on his right
forearm either. So to the extent that the shooter may
or may not have a tattoo it certainly doesn’t point to
Mr. Hemphill.
If you are wearing the sweater that they are going
to show you, it’s big, loose, kind of long sleeve sweater,
you are not even going to see the person’s forearm
anyway. So that’s an indication that if they are saying
forearm that the shooter is not wearing that kind of a
sweater.
And you are going to hear people, some of the same
witnesses we have talked about, yeah, some of the
people, some of the witnesses are going to say shooter
was wearing a sweater like that, but some of them are
going so say that he was wearing a t-shirt and some of
them are going to say he was wearing a golf shirt. And
the evidence, like a lot of evidence in this case, is going
to be conflicting on it.
And these are issues, all these issues are things to
consider when the Judge tells you about reasonable
doubt and what kind of a verdict you have to bring in
if you have doubts about the evidence.
And then you are going to find out why I say that
that sweater probably had nothing to do with this case
is that when they find the sweater one of the things
that you want to look for, and the police will tell you
about this, if you are a shooter and you are shooting a

96
9-millimeter, right, [49] and you are firing five, six, I
don’t know exactly how many shots the witnesses are
going to say they heard, there is going to be what they
call gunshot residue.
Gunshot residue is like stuff that gets emitted
from a weapon when you fire it and gets on you. Maybe
you can’t necessarily see it unless you are an expert
and know what you are looking for, and that’s what
happens and the police are aware of that.
So when they get the sweater they know that’s
something significant to look for and so they send the
sweater – they have some suspicion that there may be
gunshot residue. It turns out they are wrong. They
send to the police lab and they get a report back from
the lab, and you will see the report or you will hear it,
excuse me, and the report says there is no indication
that this sweater was involved in a shooting. That’s
what the reports says. And that’s the sweater that
they’re kind of hanging their hook on.
So when I say this sweater probably wasn’t even
involved in the shooting, it appears that it was not
because you are not going to see forearms, you are not
going to think there is a tattoo. There is no gunshot
residue. There is no connection.
And when you listen – and then you are going to
hear about DNA and, you know, you got to be really
careful [50] about that because – I am getting mess[ed]
up here.
Okay. You are going to hear about DNA, and DNA
is a big catch word now. Oh, DNA, wow, it must be a
real case because they have DNA. Well, just listen
carefully to the DNA evidence because DNA can

97
establish certain things and certain things it doesn’t
establish, okay.
If – you are going to hear this from the DNA
person. If you wore a sweater like ten times, right, and
I wear it once then they do a swab, guess whose DNA
they are going to find? Yours. ‘Cause you worn it so
many times. They are not going to find mine. I don’t
know where it goes.
So DNA really doesn’t tell you whose worn that
sweater. All it tells you – the DNA in this case, all it’s
going to tell you is at some point, they can’t say when
you’ve heard of DNA, you know, they get it 20 years
later, 10 years later, right? Innocent. That’s what he
was talking about.
All the DA is going to tell you is that at some point,
we can’t say when, Darrel Hemphill wore a sweater
found in Gilliam’s apartment that probably had
nothing to do with the shooting, and you will hear that
that was his sweater and he gave it to him, and he
wore it many number of times. I am sure you can find
his DNA on it.
So that DNA, all it tells you is that at some point
he wore that sweater and they can’t say whether it was
[51] the day before or the week before or the year
before or 10 years before, and they can’t say whether
that sweater was worn at a shooting or it was just
worn by somebody sitting in the closet. The DNA
doesn’t tell you anything that adds to the proof in this
case. That’s significant.
So just in closing, I have to, please, you know, keep
an open mind after you hear all the evidence in this
case. Again, we are just lawyers. If I make a suggestion

98
to you that you don’t think makes any sense, just reject
it. You are the folks that count. If I say something that
does make sense then, you know, you can use that
argument and apply it when you hear the evidence in
this case.
You are going to have witnesses that positively
identify somebody other than Darrel Hemphill in the
days after this shooting happened, and the memories
and recollections and ability to recognize were fresh.
Not nine years later.
You are going to have ballistic evidence from
Morris’ apartment, you are going to have bruises on
his knuckles, you are going to have substantial,
substantial reasons to question the proof in this case,
you know.
It’s – we talked about this in jury selection. It’s a
hard thing to be a juror in a case like this, but the fact
of the matter is some cases simply aren’t proven. In
some cases the person sitting at that table is not the
person [52] to be held responsible.
You are going to hear some things about Darrel
Hemphill during this trial, and they are significant
things. You are going to hear a little bit about who he
is and his life and his children that he takes care of.
He is one of the good guys. He works. He comes home.
He is not a killer. He is not a shooter.
Some cases, as I said, never get proven. It’s
nobody’s fault. It’s not Mr. Oustatcher’s fault. It’s not
your fault. Not the Judge’s fault. Some cases never get
proven and that’s very frustrating, and it’s awful for
the People involved, for the family, but it’s no reason
to convict an innocent person.

99
Ladies and gentlemen, this case is riddled with
mistakes for nine years. Witnesses that believed, that
not believed, witnesses that have believed, not
believed. All sorts of questions. Legitimate, legitimate
questions that you can have about the proof. And that’s
– it’s just not the way we do justice. We don’t guess.
You don’t do what’s convenient. You just don’t choose
what you think may have happened.
A tragedy occurred on April 16, 2006. A young
innocent child was killed. A mother who is from a
community, from our community, and that’s a tough
thing. Our guts tell us somebody has to pay for it.
That’s a powerful, powerful [53] feeling, but it’s a
dangerous feeling. And you can’t let that feeling affect
your view in this case.
You can’t convict Darrel Hemphill of this crime, I
submit to you, and I will again at the end of the trial,
but don’t add to the ongoing tragedy of what happened
on that day in April. Thank you.
THE COURT: Ladies and gentlemen, you heard
the openings by counsel. I remind you, you have not
heard any testimony, you have not heard any evidence
and don’t make any speculations about any relevant
facts on this case. Our projections are not the same
thing as evidence. You will have to hear the evidence
to determine whether any of the allegations have been
proven.
****

100
[398]
SUPREME COURT OF THE STATE OF NEW YORK
COUNTY OF BRONX: CRIMINAL TERM:
PART 60
THE PEOPLE OF THE
STATE OF NEW YORK,

INDICTMENT
NO.
1221-2013

- against DARRYL HEMPHILL,
Defendant.

Jury Trial

265 East 161st Street
Bronx, New York 10451
November 5, 2015
BEFORE:
HONORABLE STEVEN L. BARRETT
Supreme Court Justice
APPEARANCES:
(Same as previously noted.)
Gladys Joshua
Senior Court Reporter
****
[506:1]
MR. OUSTATCHER: The date of grand jury
testimony.
THE COURT: What he needs is the name of the
reporter.
MR. OUSTATCHER: What I will do, I will make
the reporter available to him and I will stipulate. We
can do it that way.

101
THE COURT: That’s fine.
MR. OUSTATCHER: In fact, I may stipulate once
I read the transcript, see if what’s appropriate and
legal grounds as such. So I would address, on my own,
by way of e-mail, to Mr. Sears over the weekend once I
see the transcript.
MR. SEARS: That’s fine. I think there are two
different dates that she testified.
MR. OUSTATCHER: And one more thing, I am
not sure how we want to do it. I have informed Mr.
Sears of this previously by way of e-mail. I am not sure
if you want to do it tomorrow by way of arguments. I
don’t want to delay trial testimony, but based upon the
nature of openings I have decided that I am going to
seek to introduce the allocution of Mr. Morris
regarding the gun he possessed.
Defense has the transcript. I can come in whenever
and discuss it and get a ruling before I try to do it.
Tomorrow or whenever.
THE COURT: Just give me a highlight of what
this [507] pertains to.
MR. OUSTATCHER: So Mr. Morris ultimately
pleads guilty in this case, not as on the murder
indictment, but an SCI because the charge he plead
guilty to was not contained on the murder indictment.
The initial murder indictment, I think, had Murder 1,
maybe two counts, as well as a weapon possession
count, CPW 2 or 3, the time confuses me. I think two
as to a 9 millimeter. Ultimately, Mr. Morris plead
guilty to another weapon charge, the .357 charge.
THE COURT: That’s on the indictment?

102
MR. OUSTATCHER: Well, it was an SCI. So
they’re consolidated.
THE COURT: Separate matters though?
MR. OUSTATCHER: Separate instrument. SCI
consolidated with murder indictment. He plead guilty
to the possession on August 16, 2006 of a .357, and we
had the case on before.
It’s statements against penal interest. This is a –
he had no prior record. He suffered a felony conviction,
was put on parol[e], ultimately he was deported
because of this.
And I would note this, the transcript is against the
advice of counsel that he plead guilty, and as well as
in the transcript no independent evidence by which he
could be convicted of .357. [508]
So I can address it at length further. There is case
law on point as to this.
THE COURT: I apologize. Again, this was not a
proceeding before this Court; am I correct?
MR. OUSTATCHER: Judge Gross.
THE COURT: And the .357 did it exist? I mean,
we are talking about a weapon that exists in the real
wor[l]d?
MR. OUSTATCHER: Yeah. He was bringing the
gun, as indicated in openings, to this fight and there
will be further testimony about the .357.
THE COURT: What I mean to say, was he
arrested in possession of that gun?
MR. OUSTATCHER: No. He plead guilty —

103
THE COURT: Was that gun ever recovered?
MR. OUSTATCHER: No.
THE COURT: Okay.
MR. OUSTATCHER: So it’s the kind of case no
evidence that could prove him guilty or even charge by
way of indictment, yet he walks into court, puts his
hand up in the air and swore, plead guilty to a felony
that put him on post release and ultimately got him
deported.
THE COURT: Post release?
MR. OUSTATCHER: Supervision.
THE COURT: Post release of what? Did he also
get a determinative sentence? [509]
MR. OUSTATCHER: He did. Ultimately it turns
out something of time served. He was in jail for about
two years. So it did allow – he was released by way of
corrections after he plead guilty. So I will address it
further. As he plead – I will read the transcript and
case law.
THE COURT: Are you the Assistant who offered
the plea?
MR. OUSTATCHER: It was Dan McCarthy, Ed
Talty. I am not sure who took the plea. I was not
present in court.
MR. SEARS: Judge, first of all —
THE COURT: I am sorry. Before I get to hear from
you, okay.
So what is the offer of proof here?

104
MR. OUSTATCHER: It establishes what firearm
Mr. Morris possessed on August 16, 2006.
MR. SEARS: Judge —
THE COURT: I see. So you are asking – what does
this have to do with the opening?
MR. OUSTATCHER: There was, and I will read
them again, there was much talk about Mr. Morris
possessing a 9 millimeter, and I will note —
MR. SEARS: The bullet. The bullet recovered from
his apartment.
MR. OUSTATCHER: I will open the door to this
as [510] well. There was a .357 bullet in his home
recovered too. And I am– ‘cause I read Mr. Sears’
opening earlier as to the earlier application, but it was
the possession of the firearm in the area for the
purpose, and what Mr. Gilliam will say, as indicated
in opening, is that he called Nick Morris to come after
the defendant left, ran, while on University and Nick
Morris did come. Everyone meets up. The defendant,
Aida Llanos, his then girlfriend, Gilliam as well as
Nick Morris, and both guns are dropped off in the
apartment and Gilliam disposes —
THE COURT: They meet up after or before the
shooting?
MR. OUSTATCHER: After the shooting they all
—
THE COURT: What
shooting?

happened

before

the

MR. OUSTATCHER: Before the shooting Morris
comes from a different direction.

105
THE COURT: But is he coming to the same
location?
MR. OUSTATCHER: And that’s what Gist said. I
think I saw Nick Morris in the area after the shooting,
yes.
THE COURT: So the notion here is that Morris is
coming to assist, but he is not the actual shooter and
then ultimately the guns are surrenders, guns are
hidden at the location?
MR. OUSTATCHER: It establishes that; what
gun he possessed on that date. [511]
THE COURT: Your offer of proof is offer testimony
through who?
MR. OUSTATCHER: I will call the court reporter
down in Manhattan as to the allocution. It’s a certified
court transcript as a statement against penal interest.
I prefer to address it formally when I have the
transcript and case law in hand. I prefer to give notice.
THE COURT: Yes, counsel.
MR. SEARS: I am not saying address it at all, but
I will, and it’s – first of all, let me note something I
think inaccurate. I don’t think Morris was deported. I
think he made – the year he got out, left the country
and not able to get back in because of – excludable
because of his conviction.
But in any event, you know, I am really at a lost
here as to understanding the basis upon which the
District Attorney is seeking to do this. Number 1,
given the fact that he – that they argued at length and
ultimately successfully comes out the evidence
concerning Morris possession of a .357 is not only

106
irrelevant with this case, and your Honor agreed with
that and prevented me from bringing that out. I see no
basis for admitting Morris plea to possession of a .357
weapon. It’s not probative of anything. Plus the fact —
THE COURT: Well, it’s probative of one fact. [512]
Whether or not admissible is a different question, but
it is probative of the fact that counsel alleges that you
put at issue. I don’t know that’s so, but counsel’s
allegation —
MR. SEARS: I know —
THE COURT: Excuse me. Excuse me. Let me
finish my statement.
Counsel’s statement is that you put in play the
question of whether or not Morris was in possession of
a 9 millimeter; and therefore, is in fact the responsible
party for shooting. And counsel says that Morris
acknowledgment of possessing a .357 refutes what he
says you put in play. So as far as the subject it may
very well be in play. As to the manner in which it can
be presented, that may be a different question.
MR. SEARS: No. My concern is my – what I call
putting in play about Morris being the shooter. As I
said in opening statements it’s based on testimony of
the eye witnesses, it’s based on the fact that he had
bruised knuckles in the fight and based on the fact that
a 9 millimeter live round was recovered from his
apartment.
I was precluded from saying anything about .357
because your Honor ruled that it was irrelevant,
whether or not he possess a .357 was not relevant. And

107
question whether he did the shooting in this case,
that’s where we are on that issue. [513]
And so it seems to be entirely irrelevant whether
or not he says that he possessed the .357. The District
Attorney says even in the allocution there is no
evidence that he did that. Just makes a deal so he can
get out of jail. So not even a statement against penal
interest. It’s clearly hearsay and deprived of an
opportunity of cross-examination, and any number of
reasons why the application should be denied.
THE COURT: Well, there are certain exceptions.
But what occurs to me, unfortunately, is that these are
statements that would be testimonial in nature, and
under Crawford would present confrontation problems
whether or not they satisfy hearsay exception. At least
on the first question that we see Crawford was
precluded from these motions.
Is this statement in colloquy?
MR. OUSTATCHER: I will take it further once I
have the proper authority on this point. I just want to
bring it to the Court’s attention and defense. I will email —
THE COURT: Was it Crawford?
MR. OUSTATCHER: I believe so, yes.
THE COURT: You have to look very closely. Rules
of the game have change.
MR. OUSTATCHER: Perpetually. [514]
THE COURT: And what was once would need to
be appropriate under hearsay exception and

108
contemplating confrontation issues no longer are
necessarily so.
MR. OUSTATCHER: I will e-mail Mr. Sears my
authority, I will give the Court my authority, we can
address it.
THE COURT: The question is, I think as I said, to
think at this point, as I said to Mr. Sears now, I think
the issue is relevant. Just I don’t think the way in
which you propose to prove is proper.
The fact that there is an issue in the case doesn’t
mean you can prove it any way possible. I still think
that it is conceivable that the evidence, should there
be a way of proving the evidence that Morris was in
possession of a .357 not a 9 millimeter is relevant in
the case.
So, for example, if Mr. Morris were available and
was called as a witness I will not preclude his
testimony on the ground of immateriality. I find it is
probative to call and introduce that evidence. The
problem arises because you don’t have a constitutional
language in which to offer that evidence. It’s really
academic as to whether it’s relevant and —
MR. OUSTATCHER: I think under the authority
it is. So I guess at the appropriate juncture. [515]
THE COURT: Sorry, again?
MR. OUSTATCHER: I think based on the
authority I have, I have to gather, there’s a
constitutional way of doing it. It’s allowed and proper.
THE COURT: I think you do, I think, but it’s not
for me to tell you how to do it.

109
MR. OUSTATCHER: Understood. I will give
authority to everyone and we will argue at the
appropriate time if that's okay with the Court.
What time Monday morning?
THE COURT: 10:15 I ask the jurors to be here.
You can be here at the same time.
MR. OUSTATCHER: Thank you. And a full day?
THE COURT: Mostly. Couple of things in and out,
but I think I can handle them appropriately.
MR. OUSTATCHER: Thank you.
(Whereupon, Court is recessed and the case
adjourned to Monday, November 9, 2015 at 10:15 a.m.)

110
[624]
SUPREME COURT OF THE STATE OF NEW YORK
COUNTY OF BRONX: CRIMINAL TERM:
PART 60
THE PEOPLE OF THE STATE
OF NEW YORK,
- against -

INDICTMENT
NO.
1221-2013

DARRYL HEMPHILL,
Defendant.
265 East 161st Street
Bronx, New York 10451
November 12, 2015
BEFORE: HONORABLE STEVEN L. BARRETT,
ESQ., Justice of the Supreme Court (and
a jury)
APPEARANCES:
(Same as previously noted.)
****
[645:8]
[MR. OUSTATCHER]: And the last point is
this. We have had arguments about, and I’m thinking
now I won’t do it right now, but later, to put in Morris’s
allocution about the .357 based upon statements made
by counsel in his opening statement.
Earlier in the case, I received a ruling from
this Court about the non-admissibility of certain
ballistic evidence recovered from Mr. Morris’s home,
specifically .357 ammo, an inoperable .22, a starter
pistol and certain photos.

111
Based upon arguments advanced in opening
statements, I’m seeking to give up a small piece of that
beneficial motion and I am going to seek to put into
evidence the fact that three rounds of ammo, the .357,
should come into evidence at this trial, and the reason
I do that is because they are now under Primo and its
progeny linked to this case because the .357 is a gun
that Morris was bringing to the scene that Mr. Gilliam
will testify [646] that he threw away after the fact, so
I’m going to, on my case, give up a small piece, without
giving up everything, regarding the three .357 ammo
rounds, and I would note —
THE COURT: Respecting again testimony of
this witness?
MR. OUSTATCHER: Yes, yes, because he
actually — I have told counsel the crime scene cop is
retired. He’s not coming in. The vouchering cop is
retired. He’s not coming in, so I’m seeking to open up
the envelope right here in which both the .9, the round
of 9-millimeter that is live and the three rounds of .357
are included, and that’s what I seek to introduce.
THE COURT: Do you have any objection to
that?
MR. SEARS: Well, yes, of course. The district
attorney wants to have it both ways. Whatever suits
his case at the moment in a ruling he seeks. We
litigated this issue —
THE COURT: But you were in favor of
admitting the .357?
MR. SEARS: Judge, it’s irrelevant to the
argument now. Your Honor ruled evidence concerning

112
the .357 was not relevant to this trial. Okay? That is
the ruling Your Honor made.
THE COURT: Does it become relevant when
there’s a change of circumstances? [647]
MR. SEARS: There has not been any change
of circumstances.
THE COURT: Counsel says there has been on
the basis of your opening.
MR. SEARS: I don’t know what in my opening
indicates a change of circumstances with regard to the
.357. Whether – whether – there’s a whole bunch of
issues that have to do with the allocution and the
admission of the allocution, and we can address all of
those issues now or we can do it at a later time, but
there are numerous reasons why Mr. Morris’s plea
allocution should not be admitted in this Court and
why – and that Your Honor’s ruling on the .357 is
correct.
THE COURT: Well, I’m just – I’m a little
confused.
MR. SEARS: If you want to address all these
issues now, I’m happy to do it, but it’s a long
conversation.
THE COURT: Well, we’re not having a long
conversation. I agree with you on that. I don’t believe
there has been a ruling on the allocution, and I think
—
MR. SEARS: That’s correct.
THE COURT: I’m not even going to get to the
merits at this point. I’m getting to the point that the

113
district attorney – I guess I’m just a little confused by
[648] the topsy-turvy nature of the position taken by
counsel.
The district attorney wants now to admit
something that you wanted to admit before, and now
you’re objecting. I guess that’s what’s throwing me.
MR. SEARS: That’s right. That’s right. That’s
right.
THE COURT: I understand it’s right. I just
don’t understand it.
MR. SEARS: Number one, the situation has
changed. And, number two, it’s being offered for
different reasons, and I think those reasons are
inappropriate. They’re not probative and, you know, so
that’s my position, and I’m happy to make clear what
my position is on the allocution.
THE COURT: I don’t know we have gotten to
the point that we are going to be talking about the
allocution.
MR. SEARS: Well, I don’t know what’s coming
up in Jimick’s direct testimony.
THE COURT: All right. I’ll tell you what. Let’s
start the testimony now, and when we have a break we
will deal with this at a break, but this is an awful lot
to discuss while the jury is sitting there and actually
waiting.
MR. SEARS: I do have my one issue that I
wanted to address.
****

114
****
[650:10]
THE CLERK: Case on trial, People of the
State of New York versus Darrel Hemphill. All counsel
and defendant are present. All sworn jurors are
present and properly seated.
THE COURT: Good
gentlemen.

morning,

ladies

and

Proceed with trial. People call the next
witness.
MR. OUSTATCHER: The
Detective Ronald Jimick.

People

call

****
[DIRECT EXAMINATION OF DETECTIVE RONALD
JIMICK]
****
[BY MR. OUSTATCHER]:
Q. And was Mr. Morris, Nicholas Morris, present
inside the apartment when you gained entry?
A. No, he was not.
Q. Who was present? What people were present in
that apartment when you gained entry?
A. His mother was inside the apartment, his
brother, a cousin and, I believe, his brother’s
girlfriend.
Q. And did they allow you to look in the
apartment?
A. Miss Morris did, yes, she did.

115
Q. Specifically, where did you look in the
apartment?
A. I requested a current picture from Miss Morris
of Nick or Nicholas, and she let us into his bedroom,
which was the first as you proceeded down the
hallway.
Inside the bedroom on the back far wall there were
several pictures located there, and she was trying to
locate a current photograph.
Q Did you recover any ammunition, ammunition
from that bedroom?
A. Yes.
MR. SEARS: May we approach, Judge?
THE COURT: Yes.
(Whereupon, the following discussion is held, at
the side bar, among the Court, Mr. Sears and
Assistant District Attorneys.)
THE COURT: Okay. [670]
MR. SEARS: We’re at that point.
THE COURT: What items are you seeking to
offer through this witness?
MR. OUSTATCHER: Four
ammunition in the little envelope.

items

of

MR. SEARS: Keep your voices down.
MR. OUSTATCHER: Four
items
of
ammunition in the envelope. There is one ninemillimeter round, and there are three .357 rounds I
seek to put into evidence.

116
THE COURT: A prior ruling was made with
respect to an application in limine by defense counsel,
strike that, by the prosecutor, to limit the items that
were recovered from Morris’ apartment to consist
entirely of a —
MR. OUSTATCHER: Just the nine.
THE COURT: One nine-millimeter round and
to exclude the three .357 rounds on the grounds that
at the time the .357 rounds were irrelevant because
the shooting was attributed to a nine-millimeter
firearm. The Court granted that application.
At this time, the People have amended their
request, withdrawn, in fact, actually affirmatively
sought the introduction of the .357 rounds. I’ll ask you
for an explanation of why when you previously moved
to preclude that evidence why you’re now moving to
include the .357 [671] rounds.
MR. OUSTATCHER: It’s really two reasons. A
lot is based on the nature of the opening statements,
which is still in play, based on my motion to strike,
attribution of defense to the value of these nine
millimeters as well as to second issue, which is now in
play, which is the admissibility of the allocution by
Nick Morris as to his guilty plea to the .357.
You told me when you said at first blush you
were not favoring my motion for .357, that I was open,
I could put in other evidence of his possession of the
.357. And this ammunition links to that evidence as
well as William Gilliam will testify after the shooting
he meets up with Nick and Darrel and Bill and
ultimately after, under his mattress takes the .357 and
nine and disposes of them.

117
THE COURT: Gilliam is going to testify there
were two firearms, nine and .357, and he disposed of
both?
MR. OUSTATCHER: Correct. The .357 from
Nicholas Morris, the nine from the defendant.
THE COURT: Okay. The reason why it’s
important to attribute a .357 to Morris is what, in light
of the fact that is not the murder weapon?
MR. OUSTATCHER: It shows what weapon
he possessed on that day. [672]
THE COURT: Why is that relevant?
MR. OUSTATCHER: Well, because he also
has the nine here. And in the opening statement, it
was he had the nine ammo in his room is the same
ammunition as the gun that killed the child, which is
conceded, but I would note nine are the most popular
weapons, illegal weapons, in New York City. This
ammunition was never linked and cannot be linked to
the gun that fired the murder shot of the child.
THE COURT: .357 or nine?
MR. OUSTATCHER: Nine, itself. Defense
said he had nine ammo in his room. That’s the same
ammunition. That’s the gun used in the murder.
Under that same logic, the possession of .357
establishes what weapon he actually had.
THE COURT: Why is his weapon relevant?
MR. OUSTATCHER: It shows, it actually
counters the defense argument.

118
THE COURT: Remind me of the argument
made, counsel made you are attributing to him in
opening.
MR. OUSTATCHER: In the opening, they
found a nine-millimeter round of ammunition in Nick
Morris’ apartment and that the murder weapon is a
nine. He had same the ammo that killed the child.
THE COURT: Right. And so now you wish to
show [673] that Morris, in fact, was in possession of a
.357 on the basis of the allocution as well as on the
basis of the —
MR. OUSTATCHER: Possession of the ammo
as well as Gilliam’s testimony.
THE COURT: I’ll
hear,
counsel,
your
opposition. You had at one point wanted this evidence
in to support the claim that Morris was more likely
than not to be the shooter, because he had a particular
relationship with the ballistics materials. And now
your position is what?
MR. SEARS: My position is that the – it’s his
– the fact that he has a .357 recovered in his apartment
some time after the incident is not relevant to whether
he fired the fatal shot that killed David Pacheco, as
your Honor found and in the previous ruling.
The district attorney’s application is based on
part on his intention to link up in some fashion this
evidence with Morris’ plea allocution, which he at
some point intends to offer and will be my position for
a number of what I consider to be very powerful
reasons concerning the law in regard to that, as well
as the circumstances under which that allocution was

119
taken, under which that plea was entered that this
court will preclude the introduction of Morris’ plea
allocution.
THE COURT: We haven’t reached that point
yet, though. [674]
MR. SEARS: I know that, but I have to –
you’re asking me for a position.
THE COURT: Position as to the ammunition.
In other words, at this point —
MR. SEARS: So my position —
THE COURT: Other than the fact that you
will be arguing against the allocution, what’s the basis
for arguing against these bullets alone?
MR. SEARS: I only mention that because of
the district attorney’s statement that he intends to
link this evidence
THE COURT: That’s what he’s hoping is —
MR. SEARS: – with the allocution and my
position is he’s not going to be able to do that.
THE COURT: What’s your opposition,
notwithstanding the fact you still have the opportunity
to be heard fully on the allocution issue? What is your
opposition to the admission of these bullets,
particularly given the fact that you previously had no
opposition to them? Where is the harm to you? I mean,
obviously, if there is evidence that counsel successfully
presents to the jury pertaining to the allocution, he
does take away an argument that you made, at least
in part, at least answers an argument that you made

120
that Nick Morris is the shooter with the ninemillimeter. [675]
And it seems to me that although there may be
formal issues with respect to the propriety of
introducing the allocution, which I have not yet made
a ruling on, certainly, if that were admissible, the
argument by the district attorney would be
appropriate to meet argument that you’ve made and
that you’ve indicated previously that you will be
making that Morris is the right person as the shooter,
and your client is the wrong person.
That being said, presentation of evidence
establishes that Morris was in possession of a different
type of firearm, two firearms used, would at the very
least refute your position in part and would allow for
the possibility that there were two weapons at the
scene, one possessed by Morris, but not the weapon
that resulted in the death of the child. So it seems to
me to be relevant as an issue.
Whether or not it can be established through
the allocution is something that we’re going to have to
discuss, and that will introduce questions of an
evidentiary nature, bullet as an issue.
If the People can in that fashion or some other
fashion prove that Morris was in possession of the
.357, seems to me to be a perfectly relevant issue to
this case, in light of the argument that you have made,
which in all respects are fair argument, nonetheless,
are arguments [676] that go to the heart of this case
and the district attorney, I believe, has an opportunity
to at least try to meet them.

121
MR. SEARS: Okay. It’s my position, make it
clear, at this point in the trial, before there has been
any ruling with regard to admission of the allocution,
it’s my position that whether or not Morris, in Morris’
apartment at some time after the homicide the police
recovered, I think you said under the mattress or some
place like that, a .357, is not relevant to the issue as to
whether – as to who Morris or whomever shot Dave
Pacheco with a nine millimeter, as evidence stands
now. It’s my position that the recovery of that item in
that location is not relevant.
THE COURT: Okay. I would make the
following ruling on the basis of arguments that we
have heard as to the position you’ve taken and position
that you’ve taken expressly in the presence of the jury,
the existence of this evidence. The .357 is relevant in
this case and is relevant to the question of what
Morris’ actual conduct was in this case.
And even if the allocution doesn’t come in,
although the argument the district attorney has been
making is substantially weakened, at the very least,
he has the . claim that Morris was not exclusively in
possession of the [677] nine-millimeter ammunition
and can at least refute any arguments that you make
that Morris was necessarily a person in possession of
the nine-millimeter gun because of the nine-millimeter
ammunition. So I have to grant you exception, and I
will allow the district attorney at this time to introduce
this evidence.
MR. SEARS: I want to add that I believe the
Court’s position, with due respect, the Court is now
taking, given the state of the evidence, a position that

122
I am – opposite to the position that the Court took with
regard to the prior applications on this issue.
THE COURT: As are you. As you are. And
that’s because both of us are operating on a different
application. It’s a very different issue now, and my
position is based on the application that’s made as to a
different principle and different point, as is your
application, as well.
MR. SEARS: It’s my position that absent the
plea allocution, the position and situation with regard
to this evidence has not changed.
THE COURT: Okay. You have an exception.
(Whereupon, the following takes place on the
record, in open court in the presence of the jury, among
the Court, Mr. Sears, the defendant and Assistant
District Attorneys.)
[678]
MR. OUSTATCHER: Can I have this item
marked as 111 for ID?
(Whereupon, the item previously referred to is
received and marked People’s Exhibit Number 111 for
identification.)
THE COURT OFFICER: People’s
marked for ID.

111

is

DIRECT EXAMINATION (Cont’d)
BY MR. OUSTATCHER:
Q. Show it to the witness, please.
(Whereupon, the item was handed to the witness)

123
Q. We’re going to leave it in a sealed envelope in
front of you.
Before I ask you questions about 111 for ID, about
what time on what date did you first gain entry into
Mr. Morris’ apartment on University Avenue?
A. We arrived there in evening time hours of the
16th and gained entry to the apartment just around
midnight or little bit thereafter.
Q. Did you ultimately secure a search warrant to
search the apartment?
A. Yes, we did.
Q. And about when did you, do you recall, do you
leave the apartment, if you remember?
A. After we contacted uniformed officers to
respond and [679] secure the apartment, we left there.
I’d have to venture a guess. I don’t want to do that, but
it was at least an hour or so after our arrival.
Q. Does that bring you into the 17th now?
A. Yes.
Q. I’m going to ask you just about ammunition.
Did you observe any ammunition inside that
apartment?
A. Yes, I did.
Q. And how many pieces of ammunition did you
recover from the apartment?
A. Four.
Q. And what was the caliber of the four pieces of
ammunition you recovered from the apartment?

124
A. .357 caliber and nine millimeter.
Q. How many nine millimeters were there?
A. There was one nine millimeter.
Q. And how many .357s were there?
A. Three.
Q. And did you, yourself, observe these four pieces
of ammunition?
MR. SEARS: Objection to this. I have an
objection to the testimony for reasons discussed at
sidebar.
THE COURT: Noted.
****

125
[708]
SUPREME COURT OF THE STATE OF NEW YORK
COUNTY OF BRONX: CRIMINAL TERM:
PART 60
THE PEOPLE OF THE STATE
OF NEW YORK,
- against -

INDICTMENT
NO.
1221-2013

DARRYL HEMPHILL,
Defendant.
265 East 161st Street
Bronx, New York 10451
November 13, 2015
BEFORE: HONORABLE STEVEN L. BARRETT,
ESQ., Justice of the Supreme Court (and
a jury)
APPEARANCES:
(Same as previously noted.)
****
[CROSS-EXAMINATION OF DETECTIVE JIMICK]
[BY MR. SEARS]
[742:3]
Q. So this smell that you told the district attorney
about yesterday, did you consider that to be
significant?
A. I did.
Q. Okay. And, generally speaking, I would think
as a careful detective who has been on the force for a

126
long time, you would note significant things in your
DD-5s? That’s what they’re for; are they not?
A. They are.
Q. Yet you failed to note this significant thing in
any of the paperwork on this case; correct?
A. That’s correct.
Q. And the laboratory analysis that you just
referred to did not find anything to suggest that;
correct?
A. That’s correct.
Q. What is it that first led you to consider Nicholas
Morris as a suspect in this case?
A. His association with Ronnell Gilliam and his
physical characteristics that matched the descriptions
that were initially put out through the 911 system.
Q. Well, you recall interviewing a person by the
name of Michelle Gist?
A. I do.
Q. And you recall – and was that interview of her
in her [743] apartment? Do you recall where that was?
A. I believe it was in her mother’s apartment on
Harrison Avenue.
Q. What day was that?
A. That was the day of the incident.
Q. Right. And do you recall when you spoke to
Miss Gist on that day that she told you that she had
seen the initial argument, fight?
A. That’s correct.

127
Q. And did she describe to you the two male blacks
that she said were in that fight?
A. She did.
Q. And did she say that she knew those two male
blacks from the neighborhood for 15, 20 years?
A. She stated to me pretty much that she had
known one of the people as Burg and that she had
known him for close to 20 years, that she had seen him
in the neighborhood, and described another person, an
associate of Ronnell’s, and described him as a tall male
black and having the first name, I believe, of Nick.
Q. Nick, isn’t that correct?
A. That’s correct.
Q. Right. So when you spoke to Miss Gist on the
day that this happened in the apartment there, the
two names that she gave you as being involved in the
initial altercation, people that she had known from the
neighborhood for years, were Burger [744] and Nick; is
that correct?
A. Burg.
Q. Burg and Nick?
A. Burg and Nick, yes, correct.
Q. And she did not give you the name of Darrel
Hemphill or Dee when she spoke to you that day;
correct?
A. That’s correct, no, she did not.
Q. And as a matter of fact, your arrest of Nicholas
Morris was based upon this identification by Miss
Gist; isn’t that correct?

128
A. No, that is not correct.
Q. Okay. Do you recall testifying at a hearing in
this case a long time ago?
A. I do.
Q. Okay. And at the hearing you were testifying.
You were under oath; correct?
A. That’s correct.
Q. And you were being asked questions by an
attorney; correct?
A. That’s correct.
Q. And you were telling the truth; correct?
A. Yes, sir.
Q. Okay. Do you recall being asked this question
and giving this answer, or these questions and giving
these answers?
“QUESTION: Detective,” that’s you, “what
was the [745] basis for arresting Mr. Morris?
“ANSWER: We had an eyewitness that had
identified him.
“QUESTION: Who?
“ANSWER: That would be a person we know
as Michelle Gist.”
Do you recall being asked that question and giving
that answer —
Q. Yes, I do.
A. — in that hearing?

129
Okay, so at least when you testified back at this
hearing, on 10/29/07, a long time ago, you told the
Court that the arrest was based – the arrest of
Nicholas Morris was based upon the eyewitness
identification by Miss Gist; correct?
A. I don’t know that you’re interpreting
Q. Would you like me to read that again?
A. No, I don’t need you to read it again. Thank you,
though, counselor.
Q. Were you asked those questions and did you —
MR. OUSTATCHER: Judge, can the witness
be allowed to answer?
THE COURT: You have a question before you.
You may answer it.
A. I don’t believe you’re interpreting that answer
in the whole context of the hearing. Miss Gist’s
statement at the [746] scene was a brief statement
that led us to Mr. Nicholas Morris.
Q. Okay.
A. The probable cause that we developed to arrest
him —
MR. SEARS: Judge, please.
A. — to arrest him and charge him with murder
—
MR. SEARS: Judge, may —
A. — was
identifications.

based

upon

three

eyewitness

130
MR. SEARS: — we ask the witness to stop
lecturing to the jury?
THE COURT: Let’s wait for a question.
THE WITNESS: Okay.
Q. I don’t want to parse words, but in this brief
interview you had of Mr. Gist – Miss Gist that day, she
gave you two names. One was Burg and one was Nick;
correct?
A. That’s correct.
Q. And neither person that she named was Darrel
Hemphill, or Dee; correct?
A. That’s correct.
Q. And you told the hearing people that that was
important in your reasoning for arresting Nick;
correct?
A. That’s correct.
Q. Now, in your initial investigation you spoke to
a number of people who had witnessed what occurred,
correct, various parts of what occurred?
A. I spoke to several detectives who had done
interviews [747] with people that had witnessed what
had happened.
Q. All right. Did you come to understand that
there were a number of people who had observed the
initial fight and also the shooting?
A. That’s correct.
Q. Okay. Do you recall the names of those people
that you came to understand as witnesses to that?

131
A. I do.
Q. Who were they?
A. I’m going to have to refer to my notes.
Q. Yes, that’s fine.
A. Jon Erik Vargas, Jose Castro,
Gonzalez, Juan Carlos, Marisol Santiago.

Brenda

Q. Anyone else?
THE COURT: Who was the third that you just
named?
THE WITNESS: Oh, I’m sorry, Judge. We had
Jon Vargas, Jose Castro, Brenda Gonzalez.
THE COURT: Thank you.
THE WITNESS: Okay.
Q. Okay. And Juan Carlos, what’s his last name?
A. Juan Carlos Garcia.
Q. And a number of those people you asked to look
at lineups, to look at a lineup; correct?
A. Yes, sir. [748]
Q. And who did you ask to look at a lineup?
A. We attempted to get all of them to look at the
lineup, but we were only able to get four.
Q. Which four were those?
A. Again referring to my notes, Juan Carlos
Garcia, Jon Erik Vargas, Brenda Gonzalez and
Marisol Santiago.

132
Q. I think you told the district attorney that Jose
Castro was working or something that day and so he
couldn’t do it?
A. I believe that was the understanding I had that
day; he was unable to be there to view the lineups
because of work.
Q. And would you say that those witnesses were
chosen to look at the lineup because you considered
them to be the best witnesses that you had available
to what occurred?
A. That’s correct.
Q. And before these people and before that
determination was made, those witnesses you say
were interviewed by detectives that were participating
in this investigation?
A. That’s correct.
Q. And then a determination was made that these
are the people that we are going to ask to come and
look at the lineup; correct?
A. That’s correct.
Q. Now, in addition to these eyewitnesses, you
also had some other evidence implicating Mr. Morris;
correct? [749]
A. That’s correct.
Q. And among that other evidence that you had,
you had done a search of his apartment; did you not?
A. Yes, I did.
Q. And you participated in that?
A. I did.

133
Q. And in his apartment you told the district
attorney you recovered some ballistics evidence that
you thought was significant; is that correct?
A. I did.
Q. Among that evidence that you recovered was a
9-millimeter bullet; correct?
A. Correct.
Q. And where was that in the apartment?
A. It was on like a nightstand next to the bed area.
Q. Whose bed area was that?
A. Nicholas Morris.
Q. So on – next to his bed there’s a little
nightstand, and on that nightstand is a 9-millimeter
bullet; correct?
A. Yes.
Q. And that was significant in your investigation;
was it not?
A. It was.
Q. All right. Was it your understanding that the
round that was recovered from the hospital and that
killed David [750] Pacheco, Jr. was a 9-millimeter
bullet?
A. That’s correct.
Q. And so on the nightstand, Nicholas Morris’s
nightstand, which, by the way, when did you execute
this warrant?
A. That was executed in the early morning hours
of the 17th.

134
Q. So that would be some 12 hours or so after the
shooting, approximately?
A. That’s correct, approximately.
Q. So 12 hours after the shooting on a nightstand
in Nicholas Morris’s bedroom is the very same type of
bullet that killed David Pacheco?
A. Same caliber bullet, yes.
Q. Same caliber bullet, capable of being fired from
the same kind of gun?
A. Correct.

****

[751]
Q. And would you figure that somebody who has a
9 millimeter bullet on his night table might also have
access to a weapon that can fire that bullet? Does that
make sense?
A. That would be a reasonable conclusion, yeah.
Q. Okay. I think you also was it your
understanding that from the witnesses you spoke to –
I’m sorry, excuse me. I know I do this a lot. Just no
choice – that this incident began with an altercation
that led to a fistfight?
A. That’s correct. That was my understanding.
Q. And from your discussion with Miss Gist, you
told us that she had told you, when you interviewed
her, that the two male blacks involved in the fight were
Nick and Burg, correct?
A. She identified Burg as being involved in the
fight. She identified Nick as being there.

135
Q. Okay. Well, was it your understanding that,
from the witnesses that you spoke to, that Burg was a
big, heavy guy; was he not? Like 350, or a big, heavy
guy.
A. Yes, he was.
Q. Okay. And then the second male black was
supposed to have been a taller, thinner guy than Burg,
correct?
A. Correct.
Q. And was it your understanding that the taller,
thinner sorry – the taller, thinner guy had been
involved in a fight at some point during the incident?
A. That’s correct. [752]
Q. All right. Now, when was it that you – when
was it that you first met Nicholas Morris?
A. At the News 12 in Soundview.
Q. All right. And what day was that? was that the
17th?
A. That was the 17th, correct.
Q. The day after the incident?
A. That’s correct.
Q. And did you notice anything that you noted,
because you felt it was significant, about his hands?
A. Yeah. He had bruising on his knuckles.
Q. And did that suggest to you that he had been in
a fight recently?
MR. OUSTATCHER: Objection.

136
THE COURT: Allowed.
A. It would be reasonable to conclude that, that
yes, he was in a fight recently.
Q. All right. Now, in your investigation, were you
– one of the things you were looking for, based upon
your investigation, was somebody with a letter tattoo
on their right forearm; is that correct?
A. I believe one of the witnesses or two of the
witnesses had stated that one of the people involved in
the fight had a tattoo on his inner left forearm.
Q. Well, would it be a letter tattoo on the right
forearm?
A. I believe it was a numerical tattoo, as a matter
of [753] fact. I believe it may have even been a zip code.
MR. SEARS: May I have a moment?
****

137
[835]
SUPREME COURT OF THE STATE OF NEW YORK
COUNTY OF BRONX: CRIMINAL TERM:
PART 60
THE PEOPLE OF THE STATE
OF NEW YORK,
- against -

INDICTMENT
NO.
1221-2013

DARRYL HEMPHILL,
Defendant.
265 East 161st Street
Bronx, New York 10451
November 16, 2015
BEFORE: HONORABLE STEVEN L. BARRETT,
ESQ., Justice of the Supreme Court (and
a jury)
APPEARANCES:
(Same as previously noted.)
****
[889:16]
(Whereupon, there is a discussion held off the
record, at the bench, among the Court, Mr. Sears and
the Assistant District Attorneys.)
****
[890:2]
THE COURT: The jury has left. At this time we’ll
proceed with any further legal argument.
Before we get to that, anything you need to raise?
Mr. Oustatcher?

138
MR. SEARS: I had one thing.
THE COURT: You wanted to go first.
MR. SEARS: It may be what your Honor was
talking about. It’s just we left off in terms of I read
portions of the hearing transcript with Detective
Jimick, and the district attorney was going to review
that and see if he was going to stipulate on the
transcript. I’m following up on that.
THE COURT: Okay.
MR. OUSTATCHER: I need to review. I got the
transcript this morning. My inclination is to stipulate.
I just want to give it a look.
MR. SEARS: That’s fine.
MR. OUSTATCHER: I’ll do that this afternoon.
THE COURT: Anything further, counsel?
MR. SEARS: I don’t have anything further.
THE COURT: Do
Oustatcher?

you

have

anything,

Mr.

MR. OUSTATCHER: I do. As noted, I’m still
looking to put into evidence the allocution of Mr.
Nicholas Morris when he pled guilty to the possession
of the firearm [891] in this case, possession of a
firearm, .357 on April 16, 2006, as a statement against
penal interest.
I would note I’m really relying at this point on the
defense’s memo of law, because the elements are
pretty simple for a statement against penal interest.
We both concede that Mr. Morris, by the nature of
his allocution, the fact that he was, I think it’s

139
deported, he had no prior felony conviction before he
allocuted to the conviction I seek to present.
He went back to Barbados, to my understanding,
for a family matter, possibly a funeral , and when he
tried to come back into the country, he was stopped
and ultimately, he was deported back to Barbados. So
he’s unavailable.
So that I think to put in the portion of the
allocution sufficient to give this trial jury
understanding of where Mr. Morris was, that being in
a courtroom under oath, he was advised of his rights,
that he was present and admitted to possessing a
firearm on April 16, 2006, that being a .357.
I think we, as we addressed before, it’s been to a
degree found that is relevant, that which the issues
that this jury will confront.
So as I see it, the issue is really one of Crawford,
which is what the Court brought up when I first [892]
raised this issue.
In looking at Crawford, I looked at People versus
Thomas, People versus Hardy and even most recently,
2013 case out of the First Department, which is People
versus Soto.
I would note that I think we can’t agree on much,
we can agree this is a very, very unique fact pattern of
the case. It presents many, many unique issues of law
and facts for us and for the jury.
The most normal – the only other kind of instance
in which I’ve seen a prosecutor try to introduce an
allocution as a declaration against penal interest is a
case in which you have codefendants in a certain

140
action, a rob two, which is robbing another without
another person, actually, person, or murder cases
where people are acting in concert in which the
allocution of a codefendant not on trial is sought to be
introduced by a prosecutor to establish either that a
crime was committed, that a robbery, acting with
another was committed, or by way of the allocution, to
elicit the name of the trial defendant as a person who
committed the crime with the witness who was
unavailable.
And in those cases, those violate Crawford and
that has been found in People versus Thomas, People
versus Hardy and number of other cases. Because in
those cases, [893] you have an individual who can’t be
crossed who is incriminating a defendant on trial by
the nature of his plea and allocution.
The fact pattern we have here really stands apart,
because Nicholas Morris is not alleged to be a coconspirator with the defendant in this case. In fact,
there really is no evidence in this case in which –
unless Mr. Sears calls Anthony Gonzalez, the jailhouse
informant who is available to him, but at this juncture,
by the People’s presentation of evidence, there is no
evidence that Mr. Morris was acting in concert with
the defendant in the murder of David Pacheco, Jr.
There is one shooter in this case. It is the man in the
blue sweater, and it is my theory the man in the blue
sweater is Darrel Hemphill.
So this is a unique fact pattern where an allocution
of someone who is unavailable for trial is presented to
a jury not to incriminate a defendant, therefore, not
violate a Crawford, but to establish a fact that is an
issue before this trial jury, which is what weapon was

141
Nicholas Morris possessing on April 16, 2006 at the
time this murder was committed. So this allocution
establishes all the elements of a declaration of penal
interest. It does not violate Crawford. Mr. Morris, as
conceded, is unavailable, and that is my basis for
seeking [894] to present this evidence before this jury.
THE COURT: Was a .357 recovered from Morris’
apartment when it was searched?
MR. OUSTATCHER: No.
That’s
interesting,
because if you did read the allocution, I have it here,
there is .357 ammunition recovered from the
apartment as Detective Jimick testified to. Mr. Gilliam
will testify that he disposes of both the nine and the
.357. And both those items are surrendered at the
apartment on Harrison Avenue from which the blue
sweater is recovered. Mr. Gilliam takes those items
and disposes of them with some help.
So that is also part of the strength of the
allocution, because at the allocution, it was admitted
by the prosecutor, who wasn’t me, it was Mr.
McCarthy, as well as Mr. Talty present in court, that
Mr. Morris could not allocute to any of the charges
contained in the indictment against him, that being
the murder of David Pacheco, manslaughter of David
Pacheco or the possession of the nine-millimeter
firearm that killed Mr. Pacheco and as well, there was
no evidence that the People could present to a jury by
which an indictment could be secured against Mr.
Morris for possession of the .357.
The sole basis for proving the .357 was Mr. Morris’
is the allocution. He chose to admit a crime to the

142
commission of the felony for which there was no other
[895] evidence against him.
I would note Mr. Morris’ attorney, Mr. Bruce
Barket, at that allocution saying he’s doing it against
my advice, because there is no evidence against him.
There was to be an SCI, which was consolidated with
the murder indictment, to allow Mr. Morris to plead in
the case. That speaks to the nature of the strength of
the statement by Mr. Morris.
He had no felony convictions. There was no
evidence against him. It was only by his admission in
court under oath, the commission of a crime arising
from the possession of the .357 from which he could
suffer his first felony conviction and suffer the
consequences of a felony conviction that ultimately led
to his being kicked out of this country where he has
family and children.
THE COURT: Have you ever been in touch with
Mr. Morris?
MR. OUSTATCHER: I have. I spoke to him about
two months ago.
THE COURT: Is he willing to come to court and
testify?
MR. OUSTATCHER: A, he’s not willing and B, the
Department of Justice, there’s a special visa that the
Department of Justice can grant to certain individuals
to allow them to come back to court and to testify. And
that [896] visa is granted sparingly, especially to state
prosecutors, because the concern, as has been told to
me by members of the Department of Justice, is that a
person can be allowed to return to the U.S. who has

143
been deported for the commission of a violent felony,
this being a violent felony, and even though they’re in
the custody of NYPD detective or other law
enforcement, while on U.S. grounds, they can then
declare that they are somehow the victim of political
wrongdoing. Politically wrongdoing in their home
occurred in seeking asylum here. If that is not granted
by the relevant judge, it will keep him in this country
in a facility for months or for years.
So I spoke to Mr. Morris. He would not come back
to the country, and it’s not clear that I could even bring
him back to the country if he was so inclined.
THE COURT: Counsel, your response.
MR. SEARS: First of all, I think I take exception
with the district attorney’s representation that he’s
not offering this evidence to incriminate Mr. Hemphill.
That’s the sole reason he would be offering any
evidence during this trial.
That being said, I do want to focus on the
standards for admission of this type of evidence and
the rules that apply to statements against penal
interest.
And I have a number of cases. And as the district
[897] attorney quite rightly pointed out, there are no
cases that I have found where the fact pattern is
analogous to this case. I’ve just given peculiarities of
this case. There’s probably no case where the facts are
analogous. So the Court can’t look at precedent
factually similar to this case and say okay, I’m relying
on that.

144
The cases do talk about the standard which the
Court should apply and emphasize how careful, careful
the Court should be in applying these standards
because of the significance of the right that is being
taken from the defendant, probably the most
fundamental right an accused perpetrator has in a
criminal trial, which is to confront and cross-examine
his accuser.
And, for example, in People against Blades, 93
NY2d 166, the analysis of admissibility calls for a casespecific examination of the particular guilty plea
allocution statements. The statement, meaning the
allocution statement, must establish that a declarant,
in making the statement, compromises an interest
that is of sufficient magnitude or consequence to the
declarant to all but rule out the motive to falsify.
It’s a very high standard that the courts apply,
given the importance of the right that is being
surrendered.
THE COURT: How would you characterize this
one? [898]
MR. SEARS: Sorry?
THE COURT: How would you characterize
acknowledgment of possession of a .357 magnum
firearm, which is a violent felony offense that results
in not only punishment but deportation?
MR. SEARS: It doesn’t result in deportation. He
left the country and was denied re-entry. And to
answer your Honor’s question, the best way is to go to
the transcript, itself, because the transcript, itself,
makes quite clear the motivation of Mr. Morris in

145
entering a plea to a crime for which there was no
evidence of his commission and against the advice of
his attorney was anything but against his penal
interest. It was opposite of that, and the allocution
makes that clear.
I’m quoting now from the allocution. First of all, it
was clear that upon the plea to the Supreme Court
Information that was going to be filed on this case for
which there was no evidence and which the, which the
prosecution could not even present to a Grand Jury.
This is all confirmed in the allocution.
The first thing is that it’s clear that upon entry of
that plea, the homicide indictment, much more serious
indictment pending against Mr. Morris, was going to
be dismissed.
On Page 5, Mr. Talty, who is one of the district
[899] attorneys says: [“]As a result of that application,
should the Court accept the plea of guilty, the People
were prepared to dismiss the current indictment.[”]
THE COURT: Does that necessarily establish that
if the defendant had not pled to that charge, the People
would have proceeded with the indictment?
MR, SEARS: I have no idea. I’m just reading from
the transcript. I don’t know what the district
attorney’s intent.
Assistant district attorney goes on to say in regard
to the murder indictment that’s currently before the
Court that the proof relative to the nine-millimeter
handgun, the assistant district attorney heard
evidence that entitled Mr. Morris, based upon the
strength of that evidence, charged with 265.03, talking

146
about the weapons charge that was contained in the
murder indictment.
In regard to the plea, that Mr. Morris was going to
enter to the unrelated and unprovable weapons count,
the district attorney, this again, Mr. Talty, we
recommend to the Court a sentence of time served.
His, Mr. Morris’s attorney, Mr. Barket, wants to
make clear that his client is getting the benefit that he
is seeking by entering this plea.
And Mr. Barket says he is willing to enter into
[900] this disposition today on the condition that he be
released today now from this courthouse. That’s his
primary motivation in pleading guilty to this charge,
admitting his criminal culpability and which he knows
otherwise at this point they cannot prove. So it’s clear
THE COURT: What was that last few words?
MR. SEARS: Admitting
his
culpability
something which he knows they cannot prove.

to

THE COURT: Thank you.
MR. SEARS: So it’s clear, at least in terms of his
own attorney’s evaluation, that Mr. Morris’ primary
motivation in entering this plea is the promise that he
would be released from custody that day.
THE COURT: That’s counsel’s opinion.
MR. SEARS: Sorry?
THE COURT: That’s counsel’s opinion.
MR. SEARS: Yes, that’s counsel’s opinion.
THE COURT: It’s an opinion of somebody – I
mean, even though in close relationship, opinion of

147
someone other than the individual who is entering the
plea.
MR. SEARS: Yes. I have no reason to think that
what Mr. Barket is saying about what he’s trying to
get for his client doesn’t also apply to the client. I think
that
would
be
something,
inappropriate
interpretation, but that’s just my reading of the
transcript, Judge. That’s [901] what it says, that’s
what his lawyer is saying.
THE COURT: Again, I have a different question
for you. That is —
MR. SEARS: Can I just continue on with the rest
of this?
THE COURT: Sure.
MR. SEARS: The district attorney confirms or it’s
confirmed with the understanding that the district
attorney’s office will dismiss the murder indictment
permanently, permanently with prejudice.
This is later on in the colloquy where they’re
talking about dismissing the murder indictment.
Again, Mr. Barket, Mr. Morris’ attorney:
Just so the record is clear, it’s my understanding
that the district attorneys – the nature of the proof
that exists with respect to this gun count that my
client is about to plead is not sufficient for them to
obtain an indictment. The only way they will be able
to make out the limits of this crime is with my client’s
admission, which I suppose he would be willing to
make, it seems, so he could get out of jail today.
There’s a lot of colloquy between the Court and
parties to make sure that that release today is from

148
the courthouse, that Mr. Morris does not even have to
go back to Riker’s to be released. [902]
THE COURT: Nonetheless,
consequences, right?

there

are

MR. SEARS: The consequences are he’s going to
be released from custody.
THE COURT: And he’s going to have a violent
felony conviction and that he may very well deny,
subject to deportation, whether or not he was deported
or deportation followed a period of time that he left the
country voluntarily and sought re-entry is sort of
besides the fact. He had – he did face the possibility of
deportation.
MR. SEARS: What he may have faced is
consequences is a different issue than what is
motivating. The important thing for, I would suggest
for the Court to consider is what is motivating the
person who is making the statement. And it seems
clear what’s motivating Mr. Morris in making the
statement is a positive for him. The murder indictment
is going to be dismissed for all time, and he’s going to
go home. It seems to me clear that that’s his
motivation. Whatever collateral consequences may
attach to a criminal conviction, it seems clear to me
from the allocution that that is what is motivating
Morris, is the fact that he’s going to win the murder
indictment, that’s going to be dismissed and he’s going
to go home. Those are his two primary concerns, and
that’s what the colloquy [903] addresses.
The second —

149
THE COURT: Is it not evident that the assistant
district attorney was ultimately going to dismiss the
murder charges against him?
MR. OUSTATCHER: That’s what it says.
MR. SEARS: That’s the condition upon which the
plea is entered.
THE COURT: No. Is it independently of the plea
not evident that the district attorney was not going to
proceed against Mr. Morris because they had made the
determination after having commenced that trial that
they had the wrong guy?
MR. SEARS: I’m only going by what’s contained in
the allocution. That is not a fair reading of the
allocution.
THE COURT: What you’re trying to do is read in
part on the basis of a third party’s statements what
was in the head of Mr. Morris. And if you’re going to
try to discern what was in his mind based on, for
example, statement by his lawyer, is it not also
appropriate to try to discern what’s in his mind on the
basis of other information available, for example,
whether or not it was evident that the murder charge
was about to be dismissed against him as he was the
wrong individual? [904]
MR. SEARS: Well , I think that if we’re going to –
what we’re talking about is what’s motivating Mr.
Morris to enter the plea that we’re talking about. I
think we’re on a lot safer ground, a lot firmer ground,
a lot more proper ground to the allocution surrounding
the plea and not speculate about other things he may
or may not have had in mind. That’s my —

150
THE COURT: I understand your position, but
you’re looking beyond the allocution. You’re looking at
statements made by the lawyer. The lawyer is not
being allocuted during the plea. You’re making
statements made by the individual not bound by the
allocution and not participating in the allocution,
rather than as an attorney representing the individual
who is allocuting.
You feel the allocution is a place to begin the
analysis of what was intended, what was in the mind
of Mr. Morris, but it would seem to me that you’re not
on particularly good ground when you identify
statements by another person as being the insight that
is necessary but – and disregard other information
that’s available to try to make a determination as to
what Mr. Morris was thinking.
MR. SEARS: All right. It’s my position —
THE COURT: Let me just — Mr. Oustatcher, do
you have any information? [905]
MR. OUSTATCHER: This is Page 23 of the
proceedings. During the course of the plea, Judge
Gross, who took the plea, turns to the People, who at
that time were represented in court by Edward Talty,
who was then and is now the chief of homicide in the
Bronx district attorney’s office, and Judge Gross says:
“Finally, Mr. Morris, do you understand
that when you are sentenced upon this plea,
at that point, you will become a predicate
felony offender, which means should you get
into trouble with the law after sentence, if
you are both accused and convicted of a new
felony offense, you will face a significantly

151
harsher punishment on any new case
because of the plea and sentence on this
case? Do you understand that as well, Mr.
Morris?
“THE DEFENDANT: Yes, I do.
“Judge Gross: People, at this time, I will ask
you to respond to the Court’s inquiry from
earlier as to your belief or your assessment
of the viability of the prosecution of all four
charges in the indictment.”
Parenthetically, that is the murder indictment
with charges to possession of the nine-millimeter
weapon.
Back to the transcript, Page 24, line nine Mr. Talty
says:
“Your Honor, since it is our intention to
dismiss [906] the four counts of that
indictment on the day of sentence, I could
say at this point that after an investigation,
it was the district attorney’s determination
that we could not prove beyond a reasonable
doubt any of the four counts of the
indictment. We did that – we came to that
belief based on a number of factors, among
which was Mr. Morris himself and his
willingness to provide us with a truthful
explanation of what happened, including
his own criminal conduct that day which he
has just done in public in this courtroom.
That being said, the investigation did
disclose that there is no proof beyond a

152
reasonable doubt at this moment that Mr.
Morris fired the fatal shots that killed David
Pacheco on April 16, and that is how the
evidence underlying the indictment was
presented to the Grand Jury.”
That is the statement made before the Court
during the course of the plea by Mr. Talty on behalf of
the Bronx district attorney’s office about the nature of
the against – proof against Mr. Morris and reason for
the dismissal of the murder indictment.
THE COURT: So viewing that, counsel, it may
very well be that the attorney’s comments give some
insight into what Mr. Morris was thinking, but isn’t it
also the case that Mr. Talty’s comments give some
insight into what he [907] must have been thinking
and what he must have been thinking, I’m not going to
be convicted of any of the charges in this indictment,
People have indicated that they cannot prove it beyond
a reasonable doubt and notwithstanding my pleading
guilty to a VFO and making statements that implicate
me in this crime, it is a violent felony offense and
present me with potential issues of deportation and
possibly enhanced punishment in the future as a
predicate and any other number of consequences?
MR. SEARS: Judge, it’s my – I think the cases
make clear that if what your Honor is suggesting, then
any guilty plea would automatically qualify, it seems
to me, as a declaration against penal interest because
the person would be facing the consequence of the
criminal conviction.
The cases make clear, I can quote, that that’s not
the case, that there is no per se rule that because a

153
person is entering a plea of guilty which has
consequences of the guilty plea that the statement
qualifies as declaration against penal interest.
I think my position, I think it’s reflected fairly in
the transcript, that the primary motivation of Mr.
Morris is to go home and get out of jail.
THE COURT: No, no. Let’s go back.
MR. SEARS: If I could finish. [908]
THE COURT: I know. You said this five times. I
know what your position is. You repeatedly cited the
statements by the lawyer as your indication of what
you believe is insight into Mr. Morris’ thinking. I
understand that position. You’ve said it.
I’m asking you a different point you just made,
another point, that is, that there is significant
authority or at least what I understand you to say,
there’s authority that establishes that a plea
allocution whereby an individual admits their guilt of
a particular crime does not constitute a declaration
against penal interest. I’m wondering what
distinguishes those admissions of guilt of a crime that
are declaration against penal interest from those that
are not.
MR. SEARS: Well, it’s the factors that I’m quoting,
again, just so you don’t have to seem like it’s my word,
this is from People against Thomas, 68 NY2d 194,
where the Court makes clear, quote, not all plea
allocutions or statements contained in plea allocutions
meet this criteria, meaning the criteria for admissions
against penal interest.

154
THE COURT: Explain it. What do they say? Do
they explain what they mean by that?
MR. SEARS: Yes, they do.
THE COURT: Explain it to me. [909]
MR. SEARS: Okay. What they mean by that is the
Court has to be, has to be careful and before this
important right of sacrifice —
THE COURT: Which important right? You’re
talking about confrontation?
MR. SEARS: Right to confront.
THE COURT: You’re talking about confrontation.
We haven’t reached the point of confrontation yet. I’m
asking preliminary question, repeatedly asked.
Before we get to confrontation, Crawford issue,
before we get to the Crawford issue, we got to first
make a determination of whether this satisfies a
traditional exception to the hearsay rule.
MR. SEARS: That’s right. The requirements or
declaration against penal interest, four requirements,
the two that I think we’re focusing in on, number one,
whether it’s against his penal interest, that’s one I was
discussing up to this point.
And second requirement is that there be other
indicia of reliability concerning the statement. In this
case, we have no other indicia of reliability concerning
the statement. As a matter of fact —
THE COURT: What about .357 bullets?
MR. SEARS: If could I just finish.
THE COURT: Sorry. Excuse me. [910]

155
MR. SEARS: My position is the allocution makes
clear there is no evidence against Mr. Morris
underlying this plea that he’s admitting, so that
there’s no other evidence that, to support what he’s
admitting to. That’s made clear in the allocution. And
there’s no testimony from any witness that there are
two guns involved or acting in concert or passing of
guns. The testimony from all the witnesses is there
was one gun, and it’s a nine-millimeter.
THE COURT: Are you finished now?
MR. SEARS: I think the statement fails, number
one, because it’s not declaration against penal interest
and two, because there are no reliability, other indicia
of reliability to support the statement, itself.
THE COURT: With respect to your first point, I
have already spoken at great length about the fact that
a plea to a violent felony offense certainly has
significant both direct and collateral consequences to
an individual. And I reject the notion that it’s not
against penal interest to admit that he was guilty of a
violent felony offense.
With respect to your second point, there’s indicia
of reliability. I believe that there’s two significant
points of reliability, one is presence of the .357 bullets
in his home and the second is the statement by Burger
that [911] he disposed of the .357 magnum firearm in
conjunction with also disposing of the nine-millimeter.
Now, I don’t disagree – wait. Remember respecting
the point that you make that there’s no indication here
that there were two guns involved in the shooting or
that there’s no indication of an acting in concert plan

156
here, you might very well be correct in that point. I’m
inclined to believe that you’re right.
I believe there may have been the thought that,
that there was a second gun that could be summoned
by the perpetrators of this crime in addition to the nine
millimeter. There was the guy they knew and were
friends who had a .357 who was subject to being
brought into the frame. Doesn’t mean that he was. It
just means that there was this very sort of loose
association or potential association. I don’t think that
matters one bit in this case.
I think that the important fact, I think that the
absence of evidence that they were acting in concert is
actually a point in favor of its admissibility and a
representation of the Crawford point, which I think we
can turn it now having found or you – my finding is
this, that this is plainly declaration against penal
interest in this particular case.
The Crawford point may implicate questions about
[912] the acting in concert. And in point of fact, I agree
with you that there is no indication that the parties
were acting in concert, that there was evidence here
that the other gun was on the street ready to go, it was
fired, perhaps, or anything else like that. I think that
would be speculative and is not established by any of
the evidence that I’ve heard about.
But, again, I think that that may also indicate why
there’s no Crawford problem in this case.
I’ll hear you on that point now if you wish.
MR. SEARS: Well, firstly, in regard to Burger,
who hasn’t testified yet, we don’t have – we don’t know

157
how that’s going to go or what exactly he’s going to say
in regard to what assumptions are being made during
this discussion.
I would also like to point out that in terms of the
.357, that Burger made at least three conflicting
statements in which he referred to getting rid of the
gun, meaning the nine-millimeter, in various places,
all different, from places where he said he had done
that time before, version of events are all different on
three different occasions.
And on all three occasions when he speaks to
Jimick, he doesn’t mention a .357 and doesn’t mention
a .357 until much later on in the case when he’s being
[913] prepared for the events of this trial, I believe.
So there are, there is at least substantial reason
not to credit Burger’s statement with regard to the
.357, because he makes three previous statements, two
of which the district attorney is relying on in which he
doesn’t refer to that weapon or disposing of it in any
way.
THE COURT: So you believe that after his
testimony is presented, we might be in a better
position to assess that particular point?
MR. SEARS: I mention that only because —
THE COURT: No. I am – it’s not a trick question.
I’m asking, do you feel after I hear his testimony and
his cross-examination that I’ll be in a better position to
determine whether or not he corroborates or does not
corroborate the notion that there was a .357 that was
possessed by what’s his name? Morris.

158
MR. SEARS: Right. Well, number one, yes and
number two, I want to make clear, because there have
been references to Burger’s testimony, I don’t want to
have the Court deal with this issue under the
impression that there’s consistent reliable testimony
from Burger on this issue, because the fact that is it’s
otherwise —
THE COURT: Was it your understanding that or
was it your intention to cross him on this point so that
I [914] would have an opportunity to make any
assessment of his reliability?
MR. SEARS: It’s my, it’s my intention to crossexamine Burger on every single inconsistent
statement he ever made. There’s many, many in this
case, some of which have to do with disposing of
weapons, yes.
THE COURT: Well, then, that being so, I do, I do
think that Burger’s account of disposing of the .357 in
the event this does hold up is an important factor in
determining that there is indicia of reliability with
respect to the statements against penal interest. So at
that point, I’m willing to hold my final resolution of the
– at this point pending his testimony. That settled
that. Sorry.
That raises the question about whether or not it is
a declaration against penal interest. I do think we
should go forward, arguendo that this is declaration
against penal interest and address the Crawford issue
or whether Crawford is an issue in this case.
And, again, I offer you the opportunity to add
anything to what you’ve already said or rest on the
arguments that you already made, likewise, Mr.

159
Oustatcher, whether anything else you want to make
as far as argument about Crawford. Are you satisfied
you made your statements? [915]
MR. SEARS: I just would add it’s not exactly in
response to that, but I think it’s relevant. I don’t know
at this point how your Honor is going to resolve this
issue, but in the event that your Honor does find that
the district attorney can bring the statement out as
declaration against penal interest, then I think we’re
going to have substantial issues to address as to how
much of the allocution should be admitted, because the
cases do make clear that there’s, that there’s a serious
context question to be addressed.
And, you know, if your Honor were going to rule in
that fashion, then I would want to include in what’s
being offered much of what I have described indicating
what his motivations were and statement made in the
allocution to that effect.
THE COURT: I imagine you have the right to
have that included.
MR. SEARS: So in any event
THE COURT: I think that, I think you’re also
right this would be a matter for you and Mr.
Oustatcher to at least initially try to work out together
and see if perhaps you’re not going to be – there
wouldn’t a dispute.
I want to go back to the Crawford issue, unless you
weren’t finished with your argument about Crawford.
[916]
MR. SEARS: I don’t – I don’t want to suggest what
I just said I’m in any way conceding it’s —

160
THE COURT: I appreciate that. I’m not making a
ruling. I’m saying arguendo if the finding of the Court,
based on hearing the testimony of Burger, do you have
any further points that you wish to make about
Crawford?
MR. SEARS: Well, I think it is Crawford violation.
I think the evidence is being offered to incriminate Mr.
Hemphill. I’m being deprived of the opportunity to
examine Mr. Morris, and I don’t see how it would not
be a Crawford violation.
THE COURT: Mr. Oustatcher, anything else you
want to add?
MR. OUSTATCHER: I just reiterate briefly,
nowhere in the allocution does anything Mr. Morris
say incriminate or point a finger at all against Mr.
Hemphill. Nothing in the allocution establishes a
single element nor single fact that proves that Mr.
Hemphill committed this murder. So I don’t see how it
could violate Crawford.
THE COURT: My initial feeling is as follows, I will
put it in the form of final determination. Again, I still
do have to make a determination after hearing
Burger’s testimony about the issue regarding
declaration against penal interest.
This is my view: In the event that, that Burger’s
[917] testimony does establish a basis for finding
indicia of reliability with respect to the admission
made by Morris in his plea allocution, I do not think
that this is Crawford case. And that’s because I think
that Crawford requires that there be a confrontation
question, in other words, a statement made by a
witness that implicates a defendant and by which his

161
right of confrontation
compromised.

is

effected

[sic]

and

This is, as far as I’m concerned, at least first blush,
simply a statement that pertains to his own criminal
liability for a particular violent felony offense. And in
this respect, in no way does it implicate the
defendant’s right of confrontation.
Now, that’s not to say it’s not relevant to this case.
Point of fact, the district attorney, but also particularly
defense counsel, we have been addressing in your
examination of the People’s witnesses the question of
whether Mr. Morris is in fact the shooter. And your
position is I don’t think you question this conclusion
that Mr. Morris is the right man, as opposed to your
client being the right man to have been the gun
wielder that resulted in the death of the child.
So I don’t deny in any respect that a statement by
Morris admitted to the jury that he was in possession
of a gun that could not be linked to this shooting is not
a [918] relevant – it is not relevant to the very issues
that’s been litigated. It is central to the issue, to the
issue being litigated in this trial. However, I do not –
and this is the point I will have to think about more
but at first blush, it does not occur to me that that
makes this a confrontation question. That does not
make this a Crawford question. In form, this is the
kind of statement that is testimonial.
And there’s no question that People versus Hardy,
Court of Appeals made quite clear that the type of
statement made in a plea allocution qualifies as a
testimonial statement and, therefore, one that is
within the purview of Crawford but that suggests that

162
the statement by its content raises confrontation
questions.
Aside from issues of relevancy, a statement made
in a plea allocution that does not pertain to a
defendant, and I imagine we can hypothesize a
statement that deals with an ancillary issue in that no
way implicates the defendant does not become a
confrontation issue simply because it’s contained in
the plea allocution.
The point of Hardy and ultimately of Crawford is
that the types of statements that are precluded are
those which directly relate to matters the defendant
has a right to cross-examine on and for which the
failure to have that opportunity violates his right of
confrontation. [919]
And I would imagine, to use an extreme example
of what the individual in allocution stated, that on the
date in question it was raining out and perhaps that
would be relevant to the ability of other people to make
identifications, but if that was the statement made in
plea allocution, I am hard pressed to say that that is
the kind of confrontation question that Crawford
concerns with.
Again, you have correctly stated that this case is
entirely sui generis and hard cases may lose
sometimes. And I reserve decision on that point, as
well.
And we’ll take this up again later. See you at 2:25,
please, counsel.
****

163
[944]
SUPREME COURT OF THE STATE OF NEW YORK
COUNTY OF BRONX: CRIMINAL TERM:
PART 60
THE PEOPLE OF THE STATE
OF NEW YORK,
- against -

INDICTMENT
NO.
1221-2013

DARRYL HEMPHILL,
Defendant.
265 East 161st Street
Bronx, New York 10451
November 18, 2015
BEFORE: HONORABLE STEVEN L. BARRETT,
ESQ., Justice of the Supreme Court (and
a jury)
APPEARANCES:
(Same as previously noted.)
****
[967:7]
MR. OUSTATCHER: The People call Ronnell
Gilliam.
THE COURT: Did you send somebody to get
him, the officer?
MR. OUSTATCHER: The
where he is.

sergeant

THE COURT: Thank you.
THE SERGEANT: Witness entering.

knows

164
(Whereupon, the witness enters the courtroom.)
THE COURT OFFICER: Remain standing.
Raise your right hand. Face that way.
R O N N E L L G I L L I A M, a witness called on
behalf of the People, after having been first duly sworn
and having stated his county of residence as Bronx
County, took the witness stand and testified as follows:
THE CLERK: Please be seated. Sir, in a loud
clear voice please state your name, spell your name
and then just give us the county of your residence.
THE WITNESS: Ronnell Gilliam, R-0-N-N-EL-L, G-I-L-L-I-A-M, Bronx, New York.
THE COURT: Good morning, sir. [968]
THE WITNESS: Good morning.
THE COURT: Direct examination.
DIRECT EXAMINATION
BY MR. OUSTATCHER:
Q. Good morning, Mr. Gilliam.
A. Good morning.
Q. How old are you?
A. Thirty-five.
Q. How far did you go in school?
A. I graduated out of DeWitt Clinton and a
semester of Bronx Community College.
Q. Are you employed?
A. Yes.
Q. What kind of work do you do?

165
A. A super for AAC Management.
Q. Are you single or married?
A. Single.
Q. Do you have any children?
A. No.
Q. Have you ever testified for a judge or a jury trial
before like this?
A. No.
Q. Are you here today of your own free will?
A. Yes.
Q. That is pursuant to a cooperation agreement?
[969]
A. Yes.
Q. What do you understand that agreement to be?
A. I testify and I have to do five years.
Q. If you testify truthfully?
A. Truthfully, yes.
Q. What happens if you do not testify truthfully?
A. I receive 25 years.
Q. In what courtroom is
agreement in your case pending?
A. Judge Gross.
Q. That is in this courthouse?
A. Yes.

your

cooperation

166
Q. Who in the end will decide if you testify
truthfully or not?
A. Judge Gross.
MR. SEARS: Objection.
THE COURT: Counsel, just briefly step up.
(Whereupon, there is a discussion held off the
record at the bench among the Court, defense counsel
and the assistant district attorneys.)
(Whereupon, the following takes place on the
record in open court in the hearing and presence of the
jury.)
MR.

SEARS: Actually, can we approach

again?
(Whereupon, there is a discussion held off the [970]
record at the bench among the Court, defense counsel
and the assistant district attorneys.)
(Whereupon, the following takes place on the
record in open court in the hearing and presence of the
jury.)
Q. So if you testify truthfully you get five years;
correct?
A. Yes.
Q. How much time have you done in this case?
A. Four years and I think two months.
Q. So even if you testify truthfully and Judge
Gross finds you do, you still step back in jail; correct?
A. Yes.
Q. For how much time?

167
A. Eight months and 13 days.
Q. Right now you’re at liberty, you’re not in jail;
correct?
A. No, sir.
Q. Tell the jury why you’re at liberty.
A. Well, if I get locked up, I’m a rat. I’m a snitch,
and I’d be – what’s the word?
MR. SEARS: Objection.
THE COURT: Overruled. You may answer.
THE WITNESS: Excuse me, sir?
THE COURT: You can answer the question.
[971]
A. Well, if I’m in jail when I testify against
somebody, you’re basically the lowest form, so you’re
in jeopardy of something happening to you.
MR. OUSTATCHER: This is premarked. I
showed it to counsel this morning. Its People’s 118 for
ID.
MR. SEARS: May we have a side bar, Judge?
THE COURT: Can I see the document first?
Come to the side for the record.
(Whereupon, the following discussion takes place
on the record, at the bench, in the presence of the
Court, the defense counsel, the assistant district
attorneys and out of the hearing of the jury.)
THE COURT: Yes, counsel.
MR. SEARS: It’s my position that the witness
can testify as to what his understanding is in terms of

168
the conditions under which he is testifying here today.
I believe he’s already done that.
The cooperation agreement itself is a selfserving document prepared by the district attorney. It
basically vouches for the witness, and it’s not proper
as evidence in this case.
THE COURT: Counsel.
MR. OUSTATCHER: I don’t see it as selfserving or vouching. It’s actually the best evidence.
This is the actual contract entered into by which his
testimony was [972] secured in this case, so I don’t see
how it’s self-serving in any way or vouches in any way.
THE COURT: Give me a second. Stay at the
side bar.
MR. OUSTATCHER: I’m not going anywhere.
(Whereupon, there is a pause from the record.)
THE COURT: Counsels, I reviewed this
document. It is as far as I can tell consistent with his
testimony as to the agreement that he reached and, as
such, does not present any issues or statements from
out of court that are offered for their truth that are not
available through his testimony and not available for
confrontation purposes. It has its independent value
as to demonstrating the formality and obligation upon
which the witness testifies. For that reason, I’ll admit
it in evidence.
(Whereupon, the following takes place on the
record in open court in the hearing and presence of the
jury.)

169
Q. Mr. Gilliam, look at all three pages of the
document, first, second and third. Read it.
(Whereupon, there is a pause from the record.)
Q. Did you recognize the document?
A. Yes.
Q. What is that?
A. It’s a cooperation agreement. [973]
Q. Is that your cooperation agreement in this case?
A. Yes.
Q. Is that a photocopy of the original?
A. Yes.
Q. The original being up in Judge Gross’s
courtroom?
A. Yes.
MR. OUSTATCHER: I would move it into
evidence as People’s 118.
THE COURT: Anything you wish to say? Any
questions?
MR. SEARS: I have nothing to add to what we
said at the side bar.
THE COURT: Thank you,
admitted as People’s 118 in evidence.

counsel.

It’s

(Whereupon, the item previously received and
marked for identification is received and marked in
evidence as People’s Exhibit 118.)
THE COURT OFFICER: People’s 118 now in
evidence.

170
MR. OUSTATCHER: I will put it on the
monitor. I’m going to put it on the monitor, if I can.
Judge, can I approach the screen?
Q. I’ll come back to this later, Mr. Gilliam. I just
want to show the jury what we are talking about
briefly at this point.
****
[1026:8]
[CROSS EXAMINATION OF RONNELL GILLIAM]
[BY MR. SEARS
Q. So sometimes you told us you lie in order to
protect people, and sometimes you lie in order to do the
opposite; correct?
A. Yes, sir.
Q. And sometimes you lie because it’s good for you;
correct?
A. Yes, sir.
Q. You mentioned to the district attorney that you
have this cooperation agreement; right?
A. Yes.
Q. And do you know what date you signed that
cooperation
A. I think it was 11/22, if I’m not mistaken, 11/23.
Q. What year?
A. 2010.
Q. 2010, so that was about four years after this
happened; right?

171
A. Yes, sir. [1027]
Q. And when you – back in 2006, you told the
district attorney you made certain statements. You
went in and you spoke to the district attorney, you
spoke to Detective Jimick; correct?
A. Yes, sir.
Q. Okay. And you did that three different times;
did you not?
A. Yes.
Q. And that was back in 2006; correct?
A. Yeah.
Q. And that was when Nicholas Morris was in jail
—
A. Yes.
Q. — for this; right?
A. Yes.
Q. And after those three conversations that you
had, Nicholas Morris stayed in jail; correct?
A. Yes.
Q. And they didn’t arrest Mr. Hemphill until
2013; correct?
A. Yes.
Q. So it wasn’t as though you went back in on your
second or third statement, whichever it was, and you
said, hey, it wasn’t Nick, it was Darrel, they didn’t go
right out and arrest Mr. Hemphill and let Nick go; did
they?

172
A. No, sir. [1028]
Q. All right. Now, when you went in and you spoke
to the district attorney and to the detectives those
three times, did you tell different stories when you did
that?
A. Yes, sir.
Q. And the first time you went in, the first time
you went in, that was I think April 26th of 2006;
correct?
A. If you say so, sir.
Q. Well, I do say so. Would you like to check that
or do you want to take my word for it?
A. No, sir, I will take your word for it.
Q. Okay. And you went in with an attorney;
correct?
A. Yes.
Q. And you brought the attorney with you, I
assume, because you felt it was the right thing to do at
the time; is that right?
A. Yes.
Q. You’re a pretty big fellow. You can take care of
yourself; can’t you?
A. Yes, sir.
Q. You can think for yourself; right?
A. Yes, sir.
Q. You don’t impress me as a guy that just does
what somebody else tells him to do; right?

173
A. No, sir.
Q. Right. So you went in with an attorney because
you [1029] felt you should go in with an attorney;
right?
A. No, sir, I felt that I was scared and —
Q. You were scared.
A. And Mr. Hemphill told me that Nicholas was
telling the police that I did the shooting.
Q. Well, you’re laying a lie, it seems, of things that
you did, decisions that you made on Mr. Hemphill. Is
that what you’re doing?
A. No, sir.
Q. Okay. You have a mind. You can think for
yourself; can’t you?
A. Yes, sir.
Q. And back then you were what, 26 years old?
You were a big boy.
A. Yes, sir.
Q. Okay. And when you went in to make that first
statement, that first statement had to do with your
best friend that you grew up with; right?
A. Yes, sir.
Q. And was that a hard thing for you to do, to go
in and say that your best friend that you grew up with
for 20 years was a shooter? Was that a hard thing for
you to do?
A. Yes.
Q. You bet.

174
MR. OUSTATCHER: Objection
colloquy, [1030] Judge, the commentary.

to

the

THE COURT: Yes. After the answer, no
comments.
Q. As a matter of fact, in that first statement that
you made you were asked are you just saying that to
protect your cousin, and you told them how you would
never do that because this is such a hard thing for you
to do, to say something about Nick; right?
A. Yes.
Q. And that was a hard thing for you to do; was it
not?
A. Yes.
Q. And at that time you knew that Nick was in
custody and had already been arrested; correct?
A. Yes, sir.
Q. As a matter of fact, when you went in to make
that second statement without your lawyer, Nick had
told you that he wanted you to go in and clear him;
right?
A. No, sir.
Q. Well, when you were at the precinct, you went
in without your lawyer for that second statement;
right?
A. Yes.
Q. And you’re at the precinct; right?
A. Yes.

175
Q. And was it just a coincidence that Nick called
while you were at the precinct, or did he know when
you were going to be there? [1031]
A. Coincidence, sir.
Q. Just a coincidence?
MR. OUSTATCHER: Again, objection to the
commentary.
THE COURT: Counsel, stop it.
Q. And he called from prison; did he not?
A. Yes, sir.
MR. SEARS: Excuse me, Your Honor.
Q. And he spoke to you on the phone to make sure
that you were there getting him out from under; right?
A. No, sir.
Q. Well, he spoke to you on the phone; did he not?
A. Yes, sir.
Q. And he knew when he spoke to you on the
phone where you were; correct?
A. Yes, sir.
Q. And he knew what it was that you were
supposed to be doing there; correct?
A. No, sir.
Q. Well, what did he say to you?
A. He called me – actually, he called on Stephen’s
phone, and Stephen handed me the phone, and I say,
yo, Nick, I’m sorry for what I just did to you, I’m going
to make it right.

176
Q. Right, okay. And I guess Nick was happy to
hear that; was he not? [1032]
MR. OUSTATCHER: Objection.
THE COURT: Overruled.
A. I guess so.
Q. I guess so. And Stephen, you used Stephen’s
phone because, as you say, you didn’t have your phone
anymore; right?
A. Yes, sir.
Q. So if Nick wanted to call you, he couldn’t do
that; could he?
A. No, sir.
Q. So when he called on Stephen’s phone, he knew
that you were with Stephen and where you were; did
he not?
A. No, sir.
Q. Right. Did he ask to speak to you?
A. Yes, sir.
Q. Now, I might have already asked you this. Do
you have any idea, can you tell the jury if you have any
idea how many lies you have told during the nine years
or ten years of this investigation?
MR. OUSTATCHER: Objection.
Q. Do you have any idea how many lies you have
told?
THE COURT: Objection sustained.
MR. SEARS: Can we approach?

177
THE COURT: No.
Q. During this investigation you have lied
repeatedly to the district attorney and detectives;
correct? [1033]
A. Yes.
Q. And as you sit there now, can you tell us all the
things that you lied about or is it too many?
A. I lied about what happened to the gun, sir, and
I lied about who was the shooter.
Q. Well, when you say you lied about – let’s take
one of those. Okay?
You say you lied about what happened to the guns.
Did you tell the district attorney this morning –
withdrawn.
How many different stories have you told about
what happened to the guns?
A. Two.
Q. And did you say at one point to the detectives –
do you remember the name Detective Jimick? Is that
a name you know?
A. Yes.
Q. He was the investigating officer?
A. Yes.
Q. He was there when you spoke to the DAs?
A. Yes.
Q. And when you went to the precinct?
A. Yes.

178
Q. Okay. Do you remember what you first told
them about the guns?
A. Yes. [1034]
Q. Or the gun?
THE COURT: Excuse me one second. I
apologize for interrupting you. Just bear with me.
Craig, can I see you?
THE CLERK: Yes.
(Whereupon, there is a pause from the record.)
Q. When you say – did you say the guns or the
gun?
A. Guns, sir.
Q. Plural?
A. Yes, sir.
Q. Well, when did you first – isn’t it a fact, Mr.
Gilliam, that in the three statements you made on
April 26th, on May 9th and May 10th of 2006, you talk
only about one gun? Isn’t that a fact?
A. Repeat the question, sir.
Q. Yeah. In the three statements that you made,
the original three statements you made, on April 16th,
on May 9th, when you go to the precinct by yourself,
and on May 10th, when you go and you make another
statement with your lawyer, in those three statements
you only mention one gun?
A. Yes.

179
Q. Okay. And that this second gun, this .357 or
whatever it is, you didn’t mention until at least 2010
with your agreement; isn’t that correct?
A. I want to say yes, sir, but I’m almost positive I
[1035] came – once I came in the second time, sir, I told
everything that was truthful. Like there was nothing
else to lie about.
Q. Oh, really? The second time, you mean on May
9th?
A. When I walked in by myself, sir.
Q. Well, okay. On May 9th, let’s see, is it not a fact
that on May 9th, when you walked in by yourself to
come clean, that what you said about the gun is that
Darrel threw it in the East River? Does that ring a
bell?
A. No, sir.
Q. You don’t remember saying that?
A. I don’t remember say it. I’m not saying I didn’t
say it, sir. I don’t remember saying it, sir.
Q. You might have said that?
A. I might have said that, sir.
Q. And this is the day when you went in yourself
and you just told us you’re going to come clean and tell
the whole truth; right?
A. Yes, sir.
Q. Well, if you said that, that would be another lie;
would it not?
A. Sir, I said I don’t know if I said that, sir. If it’s
on the papers, sir, I said it.

180
Q. You said you might; right?
A. Yes.
Q. You might have said it? [1036]
A. Yes.
Q. It might have been another lie?
A. Yes, sir.
Q. You can’t remember; right?
A. No, sir.
Q. Okay. Well, look at this. I’m just going to show
you this, and take a look at it and read the section
toward the middle. You can see it’s kind of highlighted.
Just read through that and tell me when you’re done.
Okay?
(Whereupon, there is a pause from the record.)
Q. Have you read that?
A. No, sir – I read it.
Q. Does that refresh your memory as to whether
on the 9th you said that Darrel threw the gun in the
river? Does that refresh your memory?
A. No, sir.
Q. You don’t remember that. You might have said
it, but you don’t remember; is that right?
A. Yes, sir.
Q. Well, let me ask you this. Was it true that
Darrel threw the gun in the river?
A. No, Darrel did not throw the gun in the river.

181
Q. Well, sir, why would you have said that if it
wasn’t true?
A. I lied, sir. [1037]
Q. Oh. I thought you told us that you came clean
and said everything true that day. Isn’t that what you
just said a few minutes ago?
A. Sir, you showed me a piece of paper stating my
statement, and I’m telling you I’m almost positive I did
not say that. It makes no sense.
Q. You’re almost positive?
A. It makes no sense, sir.
Q. Well, that’s correct. I agree with that a hundred
percent.
THE COURT: Counsel, don’t do that anymore.
Q. You went back in on the 10th, right? There was
more talk. That’s the following day. There’s more talk
about the gun; right?
A. Yes.
Q. Did you tell them the truth on the 10th about
the gun?
A. My lawyer told me not to speak about the gun,
sir.
Q. Your lawyer told you not to speak about the
gun?
A. Yes.
Q. Did you speak about the gun?
A. No.* * * *

182
[1076]
SUPREME COURT OF THE STATE OF NEW YORK
COUNTY OF BRONX: CRIMINAL TERM:
PART 60
THE PEOPLE OF THE STATE
OF NEW YORK,
- against -

INDICTMENT
NO.
1221-2013

DARRYL HEMPHILL,
Defendant.
265 East 161st Street
Bronx, New York 10451
November 19, 2015
BEFORE: HONORABLE STEVEN L. BARRETT,
ESQ., Justice of the Supreme Court (and
a jury)
APPEARANCES:
(Same as previously noted.)
****
[1128:13]
THE COURT: All right. I want to return to the
issue of the Morris plea allocution. We have been
discussing that in terms of a number of points. One of
the points is whether or not it is or is not covered by
Crawford.
As noted, the Hardy case establishes as a
general proposition the fact that a plea allocution is,
generally speaking, the testimonial statement that
falls within the rules articulated in Crawford versus
Washington, however, the Hardy case involved a

183
statement and allocution that by reason of the extent
of detail and particularity of detail corresponded to
other testimony in the trial in such a way as to, in
effect, implicate the defendant on trial even [1129]
though the defendant on trial was not identified in the
allocution that was admitted. And for that reason,
error was found in admitting the plea allocution. I’ll
read a few excerpts from Hardy.
The only evidence directly inculpating the
defendant was the testimony of Robert Quarrels, who
had a long criminal history, regarding defendant's
alleged admission. Other than the victims, there were
no eyewitnesses to the shooting. Moreover, Mrs.
Garcia never identified the defendant as her assailant.
In fact, her initial description of the assailant
conflicted with defendant actual’s appearance.
It is obvious that Gennaro’s plea allocution
was used precisely to stitch all the evidence together,
both direct and circumstantial, in order to secure a
conviction and compel the jury to convict. The
allocution corroborated most of the People’s evidence,
including the date and chronology on the Beaver Dam
shooting.
The redacted allocution submitted to the jury
described the robbery in great detail. According to
Gennaro’s recitation, he was wearing a mask when he,
along with another individual, robbed an elderly
couple on Beaver Dam Road. His account was nearly
identical to Mrs. Garcia’s description of the robbery.
Gennaro described grabbing Mrs. Garcia, pushes her
and the other [1130] individual confronted Mrs.
Garcia. Strike that. Mr. Garcia.

184
He also claimed that after the robbery, he and
the other individuals retreated to Daisy’s house where
they split the money.
The Court went on to observe how important
this allocution was to the People’s case.
Now, acknowledging this was part of the
harmless error analysis, nonetheless, is instructive in
looking at the redacted allocution of Morris in this
case, and that is relevant here because under the Reid
decision, even an allocution, which as I said,
presumptively testimonial, can be admitted and
notwithstanding Crawford’s rule on the following
principle. I’ll read from Reid now: This appeal raises
the question of whether a defendant can open the door
to admission of testimony that would otherwise be
inadmissible under the confrontation clause of the
United States constitution. We hold that he can and in
this case did.
It’s apparent from the examination of
witnesses thus far and from the defense counsel’s
opening that a significant aspect of the defense in this
case is that Morris, who is originally prosecuted for
this homicide, was, in fact, the actual shooter and that
as such, the defendant, Hemphill, was excluded as the
shooter. There [1131] is, however, evidence contrary to
the argument presented by the defense in this case
that Hemphill may have possessed a different firearm
than Morris and that Morris’ firearm cannot be
connected to this shooting.
Morris’ allocution during his plea relates to his
possession of a .357. The weapon that caused the death
in the case was a nine millimeter.

185
In my judgment, the defense’s argument,
which in all respects is appropriate and under the
circumstances of this case probably a necessary
argument to make, nonetheless, opens the door to
evidence offered by the state refuting the claim that
Morris was, in fact, the shooter.
I will note that the district attorney’s office is
relying on evidence that has not been published to this
jury or made determination after the opening of the
Morris trial that Mr. Morris was not, not responsible
for the shooting. The Court is not privy to the
conversations that were conducted in the district
attorney’s office that led to that conclusion,
nonetheless, a determination was made that Mr.
Morris was not involved in the shooting.
Additionally, the testimony we heard
yesterday of Burger indicates that Mr. Morris’
involvement was one of a potential assistant but one
who did not effectuate any actual participation in this
instance and that he, in fact, [1132] provided a .357
weapon for disposal when defendant Hemphill
provided a nine millimeter weapon for disposal.
In my judgment, there is a reliable basis for
concluding, as per the testimony we heard yesterday,
that Mr. Morris’ allocution was a reliable statement,
one that reaches an appropriate threshold of reliability
for admissibility in this case.
Further, the defense arguments in this case
that we heard and arguments I anticipate, open the
door to the admission of Morris’ allocution or, at least
a portion of Morris’ allocution, to the extent that it
acknowledges that he was in possession of a weapon

186
but that that weapon was a .357 magnum and not a
nine millimeter.
And finally, that under the analysis that I
have made reference to in the Hardy case, to the extent
that Morris’ allocution can be redacted in a way that
does not constitute the level of particularity and
significance that was present in Hardy, any Crawford
considerations would not give rise to error.
For that reason, I invite the attorneys to
review Morris’ allocution and to see if they can agree
on portions of the allocution that can be presented to
this jury.
I will note that in anticipation and in
discussions, defense counsel has made reference to the
fact there’s certain portions of the allocution that he
wished [1133] to have included and, therefore, I think
I indicated to him that was proper and that those
portions of the allocution that he thought were
necessary for a fair assessment should be included.
If that is your position still, counsel, I will
endeavor to include those portions of the allocution in
conjunction with other portions. At this point,
however, I ask the attorneys to see if they can in some
way offer a redacted portion of the plea allocution that
satisfies both, recognizing, of course, that defense has
an exception to this ruling.
I do want to incorporate one other thing into
this ruling. This is something that we discussed on a
prior occasion and which was the predicate for
reaching the Crawford confrontation clause question,
and that was whether or not this was a statement that
satisfied a traditional hearsay exception and that is

187
that this be declaration against penal interest. Of
course, that does not establish admissibility under
Crawford, but I believe it is an important component
in determining a predicate basis for even reaching the
Crawford issue in this case. And I incorporate by
reference my comments with respect to Morris’
statement, that being that it was under the
circumstances a declaration against penal interest.
Counsel, we’ll adjourn until tomorrow and,
again, [1134] I ask that the two of you at least make
an effort to reach an agreement as to the portions of
the Morris allocution that will be admitted,
recognizing that you’re not conceding any points by
participating in this effort.
Mr. Sears, nonetheless, I think since you have
previously indicated that there’s portions you do want
to include, it would be helpful to the Court to know
which portions of the allocution you’re asking for.
We are finished with Mr. Hemphill for today.
Thank you.
MR. SEARS: Your Honor, two other things.
THE COURT: We’re not finished.
MR. SEARS: Mr. Gonzalez is a witness that’s
being held in custody. I want an update on his status,
since I will be seeking to make him available, have him
available.
MR. OUSTATCHER: He’s available Monday.
He should be produced Monday, so if I rest, even in
that order, he can testify after the jury visit. I’ll
confirm it. I filed that order to produce a couple of
weeks ago. I’ll confirm this afternoon. He has been

188
produced in this courthouse on prior occasions on my
order, so I will e-mail counsel , but —
THE COURT: May I ask the People whether
they expect to finish their case tomorrow or Monday?
****

189
[1136]
SUPREME COURT OF THE STATE OF NEW YORK
COUNTY OF BRONX: CRIMINAL TERM:
PART 60
THE PEOPLE OF THE STATE
OF NEW YORK,
- against -

INDICTMENT
NO.
1221-2013

DARRYL HEMPHILL,
Defendant.
265 East 161st Street
Bronx, New York 10451
November 20, 2015
BEFORE: HONORABLE STEVEN L. BARRETT,
ESQ., Justice of the Supreme Court (and
a jury)
APPEARANCES:
(Same as previously noted.)
****
[1137]
THE COURT: At this time, I think we are still
awaiting jurors. Is that right, Sergeant?
THE SERGEANT: Correct.
alternates 4 one and two.

We’re

missing

THE COURT: Alternates one and two. Well,
that gives us a few minutes to discuss the issues that
we started to discuss yesterday, and I was advised
before the record opened that there are some issues
between counsel.

190
MR. OUSTATCHER: So,
I
have
three
witnesses today. Two are here. My first is Mr. Anthony
Baez. My second is court reporter Shameeka Harris
regarding the allocution of Nicholas Morris.
Yesterday, in court, I told Mr. Sears the
portions of the allocution that I thought were relevant.
I have a copy for Your Honor, if you would like.
I think it is page 20, line 17 to page 24, line
four, so I offer to Mr. Sears, based upon issues raised
earlier in the case about the jury not knowing what
happened to the —
THE COURT: Page 17 was that?
MR. OUSTATCHER: Page 20.
THE COURT: Page 20.
MR. OUSTATCHER: Line 17, ending page 24,
line four.
THE COURT: Okay. Before you go any
further, [1138] Mr. Sears, is your objection that it’s
under or over-inclusive?
MR. SEARS: Both. I’ve said to the DA – I’ve
prepared – I sent a copy to the District Attorney. I have
a copy for the Court – the parts of the Morris – if, Your
Honor, over my objection admits the Morris allocution,
which I understand the Court to do, I have the lines –
the pages and the lines that I am suggesting —
THE COURT: Before I hear your points, let
me just review these pages.
(Whereupon, there is a pause from the record.)

191
THE COURT: So the People want I see where
you start, which I think makes sense, but do you want
to go beyond page 20, line four?
MR. OUSTATCHER: Well, what I offered to
defense if he wanted —
THE COURT: Well, my sense is that the meat
stops on page 22, line three.
MR. OUSTATCHER: Judge, when you say
“meat,” you’re correct, because that is the strict
statement against penal interest. You’re correct.
Giving more would give context, but I have no
problem stopping at line 20 – page 22, line three. Page
22, line three.
THE COURT: Okay. Let’s assume we are
going to [1139] stop there. Now, counsel, are there
additional lines you would like to include, and, if so,
may I ask you to state them?
MR. SEARS: I will state them. I would like to
give a printed version to the Court and have it marked
as a court exhibit.
THE COURT: That is agreed.
MR. SEARS: And I will read them for the
record.
THE COURT: We already have a court
exhibit. This should be number II.
THE CLERK: Yes.
THE COURT: Thank you.
MR. SEARS: I think the transcript itself
might have been the Court Exhibit I.

192
MR. OUSTATCHER: The stipulation is Court
Exhibit I. There was a suggestion that this transcript
be a court exhibit. I think there was an agreement, but
it was never actually marked as an exhibit.
THE COURT: This will be a court’s exhibit
then, and your notes will also be a court exhibit.
MR. SEARS: So the transcript and the —
THE COURT: Exactly.
MR. SEARS: “Should the Court permit the
district attorney over defense objection to offer into
evidence the plea allocution of Nicholas Morris entered
on May 29, 2008, [1140] defense requests the following
portions of the allocution be read. Page seven, line 17,
beginning with ‘he is willing’, to page seven, line 25.
Page 15, line 18, beginning with, ‘Just so the record is
clear,’ to page 15, line 25. Page 19, line 24 beginning
with, ‘I also understand,’ to page 20, line two. Page 20,
line 17 through 24, page 21, lines 12 through 25, page
23, line 14, beginning, ‘You will receive,’ to line 15
ending with, ‘conditional discharge,’ and page 23, line
21 to page 24, line four.”
It’s my position, and I think the cases make
clear, that when a declaration like this is being
admitted that it should also – parts of the allocution
that are relevant to the context and motivation should
also be admitted in fairness, and I believe the sections
that I quoted are necessary so that the jury
understands the context and the motivation
underlying the plea that was entered.

193
THE COURT: Thank you, counsel. All right,
you have requested line – page 20, line 17 to 24. That
is within the request of the district attorney.
MR. SEARS: I believe so, but I think the
district attorney requested more of that same part.
THE COURT: Right.
MR. SEARS: I’m only requesting the part that
— [1141] I think it’s only appropriate the part that I
put in my submission should be read.
THE COURT: I think that the portions that
you’ve excluded in that group should be included. I
don’t see any appropriate basis for excluding them
from a continuing portion of allocution which I have
characterized before as being the meat of the
allocution, so you have indicated 17 to 24 on page 20.
That is included in the request of the People.
Page 21, lines 12 to 25, that is included in the
request of the People. The People have originally
asked for page 23. I have indicated that I don’t see any
reason to have that, but I will read your request. My
indication was that this should stop on page 22, line
three. You included page 23, line 14.
MR. SEARS: Yes, where it says, “... you will
receive a sentence of time served and a conditional
discharge.” That is the section that I want read so that
the jury understands.
THE COURT: I don’t know that that is
necessary in light of the other portion of the allocution,
where the agreement is stated.
Additionally, you asked for line 21 to 24.

194
MR. SEARS: On what page?
THE COURT: Page 23, line 21. [1142]
MR. SEARS: That’s correct.
THE COURT: And, again, just as I indicated
when Mr. Oustatcher had requested the allocution, I
see no reason, unless we are going to include the entire
recitation of rights, to include a portion on page 23,
line 21 to page 24, line four.
MR. SEARS: Okay, then I’ll withdraw that.
THE COURT: Okay, so you also asked for line
page 15, line 18.
MR. SEARS: That’s correct. 15, line 18, “Just
so the record is clear,” that should be – after “clear”
should be a close quote – I omitted that on the
submission – to page 15, line 25.
THE COURT: Yes. This is includable. This is
appropriate and consistent with defense, I think with
the essential part of the defense request, so I grant
that application.
Page 19, line 24 —
MR. OUSTATCHER: Can I have that again,
Judge? You granted?
THE COURT: I’m granting his request page
15, line eight to page 15, line 25.
MR. SEARS: I believe it’s line 18, Judge.
THE COURT: I’m sorry. You’re absolutely
right, line 18. [1143]
MR. SEARS: Now, we’re going to which one?

195
THE COURT: Now we’re going to page 19,
line 24.
MR. SEARS: Right, or we could stop on page
20, line one after “recognizances.”
THE COURT: Give me a second.
(Whereupon, there is a pause from the record.)
THE COURT: All right. First of all, it’s
somewhat repetitive on the request for page seven,
line 17 to page seven, line 25. My inclination is that
that is not going to be included, and that being said I’m
inclined to grant your request for page 19, line 24 to
page 20, line two.
MR. SEARS: It’s —
THE COURT: So, let me reiterate my
judgment as to the appropriate inclusion. I think that
for – I think I’m going to authorize the following: 19,
line 24, then continuing – we haven’t discussed
previously the first part of page 20, but I think for
purposes of putting the page 19 to 20 that I have just
authorized into context and to have a smooth
transition into the other portion that I have
authorized, we will read through page, and inclusive,
to line 22 – to page 22, line three.
MR. SEARS: I’m sorry. Can I —
THE COURT: And then with respect to the
first part we are going to read — [1144]
MR. SEARS: Can you just say that again,
page 19, line —

196
THE COURT: The first thing we will read
would be – let me just review this to see that this
works.
MR. SEARS: Judge, the problem is that
references to dismissing the indictment are
problematical, because that is the murder indictment,
and I don’t think that this jury should be given
information that the murder indictment against
Morris is being dismissed.
THE COURT: I don’t see why. It’s part of the
agreement.
MR. SEARS: I specifically – that is why I
excluded those portions from the parts that are going
to be read.
THE COURT: No, I think it’s part of the
understanding in the agreement, so we will start with
page – okay, let me just tell you so you can then make
your record and state your objections, but we would
start with page 15, line 17.
MR. SEARS: 15, line 17.
THE COURT: We will continue to read it to
page 15, line 25.
MR. OUSTATCHER: Can I get the ending
point again, Judge, if you could?
THE COURT: 15, 17 through 25. [1145]
Do I assume that neither of you feel that line
one through nine of page 16 should be included in that
reading?
MR. SEARS: What page?

197
THE COURT: Page 16, continuing from what
I have just authorized, from page 15 continuing for the
next paragraph that is actually the continuation of the
lawyer’s statement.
MR. SEARS: Yes, I certainly think that —
THE COURT: You do or do not want that in?
MR. SEARS: I’m sorry?
THE COURT: You do or do not wish that in?
MR. SEARS: Page 16, lines one through
which?
THE COURT: Nine.
MR. SEARS: I do not want that in.
THE COURT: Okay. People, do you have any
strong objection to leaving that out?
MR. OUSTATCHER: I will concede to defense
wishes, that’s fine.
THE COURT: Okay, so it will be restricted to
page 15, line 17 to 25, and then we will pick it up on
page 19, line 24, and read inclusively to page 22, line
three. That will be the entirety of the reading.
People, any comments, any objections?
MR. SEARS: Can I just have a moment to
review? [1146]
THE COURT: Yes. DA, anything?
MR. OUSTATCHER: The People have no
comments, no objections.
THE COURT: Very well. May I ask somebody
to have a copy of the transcript available so that we

198
can mark it as a court exhibit, and I have defense
counsel’s request. I will make that a part of the court
exhibit as well.
MR. OUSTATCHER: I have a photocopy. I can
get the original.
THE COURT: No, we don’t need the original
for a court exhibit. Do we have all our jurors now?
THE COURT OFFICER: Yes.
MR. SEARS: Judge, so you’re in effect denying
the remainder of my requests?
THE COURT: I am, sir. As I indicated, I’m not
actually denying all of them. Some of your requests are
included in the reading that I have authorized,
although if you wish to make the request that you have
made as exclusive then I have in fact authorized other
portions, but your requests for portions of line 20 and
21 are granted, and I believe your request for page 23
has been withdrawn. The two requests on page 23
have been withdrawn. I’ve denied your request on page
seven. I granted your request for page 15. [1147]
MR. SEARS: The request on page 23 has not
been —
THE COURT: Do you have an extra copy of
that so I can write on it?
MR. SEARS: Yes.
THE COURT: Okay, so let me just recite from
your papers.
MR. SEARS: Okay.

199
THE COURT: Page seven, denied. Page 15,
the second line that you requested, granted.
MR. SEARS: Right.
THE COURT: Page 19, granted. Page 24 in
effect granted.
MR. SEARS: I’m sorry. I don’t see page 24 at
all.
THE COURT: Page 20. I’m sorry. I apologize.
Page 20 granted in effect, and page 21 —
MR. SEARS: When you say “granted in
effect,” you mean it’s included in what the DA is
asking?
THE COURT: It’s included in what I’m
authorizing, yes.
MR. SEARS: Okay.
THE COURT: Page 23
MR. SEARS: What about page 21?
THE COURT: Page 21 is granted in effect.
[1148]
Page 23, withdrawn.
MR. SEARS: It’s not withdrawn.
THE COURT: You just said it was withdrawn.
MR. SEARS: I don’t believe so.
THE COURT: I heard the words from your
very articulate mouth. If you wish to withdraw that,
withdraw your withdrawal, I’ll consider it, but I
believe you said you withdrew your request.

200
MR. SEARS: Maybe
there
was
a
misunderstanding. I didn’t. I didn’t think I had
withdrawn that. I don’t see why I would.
THE COURT: You would because, as we
indicated —
MR. SEARS: Unless it was included in what
the Court was already reading.
THE COURT: No. What I said, and I’ll refresh
your recollection, I said that there was no necessity of
isolating that one particular portion of the allocution.
This is – the section of the allocution on page
23, which was part of the DA’s request that I asked
them to withdraw, simply included the allocution as to
rights. I felt that allocution as to rights was not
necessary with respect to the – what I call the meat of
the allocution.
Thereunder, I also indicated that your request
simply to have a portion of the warnings read, which
is on page 23, was unnecessary in light of the fact that
I took [1149] out all the other portions of the district
attorney’s request as to the defendant’s right. That’s
the form in which I understood you to say you
withdraw the request.
MR. SEARS: Well, if that’s it, I might have
misunderstood it. I mean, I don’t recall it exactly that
same way, but, in any event, just so the record is clear,
the portion on page 23, line 14 wherein – to line 15, the
portion that says, “... you will receive a sentence of
time served and a conditional discharge,” that’s the
section that I want read. I don’t withdraw that request.

201
I don’t think it goes to the rights. It goes to the nature
of the bargain, and I think it’s appropriate.
THE COURT: So that’s the portion of line 23
– of page 23 that you want?
MR. SEARS: There are two portions on page
23.
THE COURT: Right. So that portion you wish
for the reason you stated?
MR. SEARS: Yes. Just on line 14 to line 15 is
the part that says, “... you will receive a sentence of
time served and a conditional discharge.” That’s one
section of page 23 that I’m requesting.
THE COURT: Let me take a look. If it’s not
redundant, I’ll grant your request.
MR. SEARS: Okay. And the other section of
page 23 that I was requesting is line 21 to page 24, line
four. [1150]
THE COURT: That was the portion that I
focused on earlier saying that I wasn’t going to isolate
that single indication of rights without going through
all the other rights that had been excluded.
MR. SEARS: I believe it’s that part that I said
that I withdraw.
THE COURT: Exactly, right.
MR. SEARS: Not the previous.
THE COURT: So that you will withdraw?
MR. SEARS: The line – page 23, line 21 to
page 24, line four.

202
Let me take one second, so I can just read it
again.
(Whereupon, there is a pause from the record.)
MR. SEARS: Yes, I withdraw the request on
page 23, line 21 to page 24, line four.
THE COURT: Thank you.
MR. SEARS: So —
THE COURT: Let me just read this over one
more moment.
(Whereupon, there is a pause from the record.)
THE COURT: Okay, I will include page 23,
line 14 to line 15. That’s granted.
MR. SEARS: So, in effect, if I’m correct, my
last request on page 23 is withdrawn.
[1151]
THE COURT: And your first request with
respect to line – page 23 is granted.
MR. SEARS: That’s right. And all the other
requests are in effect being granted, other than the
page seven – the first one, page seven, line 17 to page
seven, line 25. That is being denied.
THE COURT: Exactly.
MR. SEARS: And specifically with regard to
that section on page seven, which I think is
particularly important, that’s the part where Mr.
Morris’s attorney is stating and making clear to the
Court that Mr. Morris is willing to enter the
disposition today on condition that he be released
today now from this courthouse, and he goes on to say

203
that that is his primary motivation in pleading guilty
to this charge and admitting his criminal culpability
for that day to a crime that he knows that they
otherwise at this point cannot prove.
I think that’s essential for the jury to
understand the nature of the bargain. That part of the
allocution should be included.
THE COURT: I’ve already approved page 19
on the bottom where it indicates that he will be
released today on his own recognizance.
With respect to the other stuff, I consider that
attorney spin and I do not regard that, as it’s not
coming [1152] from Mr. Morris’s mouth, to be reliable
and to be appropriate for the jury to hear, so I deny
that application. You have an exception.
MR. OUSTATCHER: Just on that point, I ask
for some clarification from the Judge. I agree with the
Court. I know Mr. Sears omitted the fact that in that
portion Mr. Barket says that I think, which means
that it’s his opinion. He also notes that his opinion
differs from his client’s, so it’s clear that what he’s
saying on page seven is not Mr. Morris’s statement, it
is Mr. Barket’s statement, which is contrary to Mr.
Morris’s position.
If I can just get – there was a lot of back and
forth. I have one civilian witness here. I’m going to ask
for 15 minutes to bring my two witnesses down.
Can I just get from the Court what Ms. Harris
is going to read to this jury one more time?
THE COURT: Sure.

204
MR. OUSTATCHER: I had it, and there was a
back and forth.
THE COURT: It’s going to go in the following
order.
MR. OUSTATCHER: Thank you.
THE COURT: We’re going to start off on page
15, line 18 to page 15, line 25.
MR. OUSTATCHER: Okay.
[1153]
THE COURT: Then page 19, line 24 to page
20, line two. Then we’re going to do page 20, line 17 to
page 22, line three, as I recall, and let me just confirm
that. Page 22, line three. And then ending with page
23, line 14 to line 15.
I’m going to reiterate the following in the
fashion of first the page, then the line: 15/18 to 15/25,
19/24 to 19 – to 20/2, 20/17 to 22/3 and 23/14 to 23/15.
One further note with respect to defense
counsel’s last request regarding statements of the
attorney. I have, pursuant to defense counsel’s
objections, not included page 20, line eight through
line 16, which is the district attorney’s spin, so I have
tried to keep the attorney spin out of the read back.
Okay, thank you.
MR. SEARS: Also, to the extent that Your
Honor is not reading portions that I requested and is
reading portions that I specifically did not request, I
take an exception. And I just want to note again with
regard to the portions that Your Honor is allowing to
be read, parts that refer to dismissal of the underlying

205
murder indictment, I reiterate my objection to those
parts.
THE COURT: Thank you, sir .
****
[1181]
THE COURT: Good morning. Raise your right
hand, left hand on the bible.
SHAMEEKA HARRIS, called by and on behalf
of the People, having been first duly sworn, was
examined and testified as follows:
THE CLERK: Please have a seat. State your
name for the record, occupation and county of
residence.
THE WITNESS: Shameeka Harris, Senior
Court Reporter, county of residence, Manhattan.
THE COURT: Good morning, ma’am. Direct
examination.
DIRECT EXAMINATION
BY MR. OUSTATCHER:
Q. Good morning, Miss Harris.
A. Good morning.
Q. How long have you been a court reporter?
A. Since 1996.
Q. And back in, back on May 29th, 2008, where
were you working?
A. You said where?
Q. Yes. What county?

206
A. Bronx Supreme Court.
Q. And were you taking a transcript of
proceedings in court in the case of the People versus
Nicholas Morris on that day? [1182]
A. Yes.
Q. I’m going to ask the witness be shown what is
Court Exhibit Number II.
(Whereupon, the document was handed to the
witness)
Q. Please look at the first page of that document,
if you could.
Who was the judge who heard the case for People
versus Nicholas Morris on May 29th, 2008?
A. Michael Gross.
Q. And who were the two assistant district
attorneys who appeared on that case on that day?
A. Daniel McCarthy and Edward Talty.
Q. And who was Mr. Morris’ lawyer on May 29th,
2008?
A. Bruce Barket.
Q. I’m going to direct you to specific portions of the
transcript that you made from the proceedings on that
day.
Can you please read the transcript starting at
Page, on Page 15 from line 17 to line 25.
A. You said line 17?
THE COURT: Starting at line 17 on Page
15 with Mr. Barket ending on line 25.

207
A. “MR. BARKET: He indicates that, over my
strong advice he will take the plea. Just so the record
is clear, it’s my understanding that the district
attorneys – the nature of the [1183] proof that exist
with respect to this gun count that my client is about
to plead to is not sufficient for them to obtain an
indictment. The only way they will be able to make out
the limits of this crime is through my client’s
admissions, which I suppose he will be willing to make,
it seems, so that he can get out of jail today.”
Q. That was made by Mr. Barket, Mr. Morris’
lawyer, correct?
A. Yes.
Q. Page 19, starting at line 24 through Page 20,
line two, starting with the defense, Mr. Barket.
A. “MR. BARKET: Thank you, Judge. I also
understand that the Court is going to release Mr.
Morris today on his own recognizance on the Supreme
Court Information pending sentence.”
Q. Page 20, that same page, line 17 through Page
22, line number three.
A. “THE COURT: Mr. Morris, your attorney has
indicated that at this time you would like to enter a
plea of guilty under the Superior Court Information
which has been filed with this court to class D violent
felony offense, criminal possession of a weapon under
subdivision (4) of Penal Law 265.02. Is that wat you
want to do, sir, plead guilty to a class D violent felony
offense?
“THE DEFENDANT: Yes, I do. [1184]

208
“THE COURT: Have you had enough time to
speak with Mr. Barket about this plea?
“THE DEFENDANT: Yes, sir.
Q. Continuing through line —
THE COURT: Page 22, line three is the
ending. Keep reading.
A. “THE COURT: Are you satisfied with the
advice and counsel that you’ve received from Mr.
Barket while he has been representing you, both on
the indictment as well as this investigation leading to
this plea?
“THE DEFENDANT: Yes, I am.
“THE COURT: Are you now taking any
medication or drugs of any kind, Mr. Morris, that
might affect your ability to think and concentrate in
this courtroom today?
“THE DEFENDANT: No, I’m not.
“THE COURT: Under the Superior Court
Information, which has been filed with the Court, Mr.
Morris, the prosecutor has alleged that on the 16th day
of April of the year 2006 at approximately two in the
afternoon, further, it is alleged that this conduct took
place in the vicinity of Harrison Avenue and Morton
Place within Bronx County. It is alleged that at that
time and place you knowingly possessed a loaded
operable firearm and further, that that possession was
not in either your home or place of business. Is that
allegation about you true, Mr. Morris? [1185]
“THE DEFENDANT: Yes, sir.”
THE COURT: Keep going.

209
Q. Continuing.
A. “THE COURT: What was the loaded operable
firearm which you possessed on April 16th of 2006?
“THE DEFENDANT: .357.”
Q. On to the next page.
A. “THE COURT: Is that allocution acceptable to
the People?
“MR. TALTY: Yes, it is, your Honor.”
Q. The last portion of your transcript, Page Two
starting at line 13.
THE COURT: Not Page Two.
Q. Page 23. I apologize, Page 23, line 13. Ending –
that starts at the word “if,” ending on line 15 of that
same page, ending with the word “discharge.” Who was
speaking, this one sentence?
A. “THE COURT: If you meet the conditions and
that you will receive a sentence of time served and a
conditional discharge.”
THE COURT: Thank you, ma’am. further
questions by the People?
MR. OUSTACHER: Nothing.
THE COURT: Cross-examination?
MR. SEARS: No.
****

210
[1489]
SUPREME COURT OF THE STATE OF NEW YORK
COUNTY OF BRONX: CRIMINAL TERM:
PART 60
THE PEOPLE OF THE STATE
OF NEW YORK,
- against -

INDICTMENT
NO.
1221-2013

DARRYL HEMPHILL,
Defendant.
265 East 161st Street
Bronx, New York 10451
December 2, 2015
BEFORE: HONORABLE STEVEN L. BARRETT,
ESQ., Justice of the Supreme Court (and
a jury)
APPEARANCES:
(Same as previously noted.)
****
[1499:3]
[THE COURT]:
We now turn to the summations, as I have said,
defendant’s summation first.
Mr. Sears.
MR. SEARS: Thank you, Your Honor. I just
need a minute or so to set up.
(Whereupon, there is a pause from the record.)

211
MR. SEARS: If it pleases the Court, Your
Honor.
THE COURT: Sir.
MR. SEARS: Counsel, Members of the Jury,
first off, I want to thank all of you for your willingness
to participate in this trial and be jurors. It is a difficult
thing to do. It takes a lot of your time, delays, things
like that, and we all appreciate people who will, you
know, agree to help us out in this difficult process and
reach a fair judgment, and all of us who do this on a
regular basis appreciate and continue to appreciate
the cooperation of folks like you in helping us do this
work.
Before I get into my prepared remarks, I do want
to say a few words about, you know, what occurred
yesterday in regard to Mr. Owusuafriyie, Nana, and,
you know, he certainly paid a price, you know, for
taking leave and saying the few things that he did.
Mr. Oustatcher was very thorough in peppering
him [1500] with question after question, you know,
about what occurred to him some 15 or 16 years ago,
when he was a much younger man, and, you know, he
— I’m the first to admit, he did get thrown by a lot of
those questions.
He didn’t handle a lot of those questions very
well. He wasn’t prepare for a lot of those questions.
And when I asked him in my examination have you
ever been convicted of a crime, he interpreted that to
mean a civilian criminal record, which is — that was
his interpretation of my question, as opposed to his
criminal court-martial situation, and he said no to my
question. I should have made that more clear. I should

212
have prepared him better to handle that question, but,
you know, blame me for that oversight and not so
much him.
But, you know, because of what happened 15 years
ago, you know, and I don’t mean to minimize it, he is
what he is. It is what it is. He did something wrong,
but because of that does he deserve to just be kind of
written off? I don’t think so.
How much of us honestly don’t have something in
our pasts that, you know, we are ashamed of? But look
at the 15 years — before you judge the man, look at the
15 years since then in which he has served our country,
in which he has fought overseas in two wars, in which
he has risked his life many times. He’s been promoted.
He’s been [1501] decorated. He works now in a
hospital, a military hospital clinic tending to the
wounds of veterans, and that’s who he has been for the
last 15 years, so I don’t think he is just somebody to be
written off.
In any event, if you look at his testimony, he, you
know, he didn’t come here to say, you know, to
exonerate his friend Darrel. He didn’t say I saw the
shooting, Darrel didn’t do it. He didn’t say I was there,
Morris, you know, Morris is the shooter.
He was honest and straightforward. He wasn’t
there. He doesn’t know who the shooter was, and he
said that he saw Darrel earlier in the day wearing
some jeans and a T-shirt and, you know, so what?
And the district attorney cross-examined him at
length about how do you remember, you know, nine
years ago, you know, jeans and a T-shirt, but bear
in mind that the district attorney didn’t have any

213
problems with all of his witnesses when they came in
and described various clothing that the people
involved in this incident were wearing, so people can
remember things like that.
This was a day that kind of sticks out. You know,
a two-year old got killed, so when he says this is what
he was wearing, it’s not terribly different from other
witnesses in the case that the DA called and credited
who described what people were wearing that day.
[1502]
And what else, you know, did he testify to? He said
nothing — he sees Darrel earlier in the day. He says
nothing about the rest of the day, nothing about the
shooting until later on in the day when he meets up
with Gilliam and drives Gilliam someplace else. I
forget exactly where he said, and that’s exactly what
Gilliam told you.
Gilliam, in his testimony, and, you know, it’s in the
transcript on page 982, where Gilliam says, he said
this is afterwards, you know, after the incident. They
sat there like 10, 15 minutes and then a friend of ours,
Nana, came to get me, so the testimony that he gives
about doing that is kind of the same thing that Gilliam
says.
And the only other thing he says of any
significance is that he saw that Morris had some
bruises on his knuckles, which is exactly the same
thing that Detective Jimick told you, if you recall
Jimick’s testimony, and I’ll come to it later on in the
remarks.

214
Jimick said when he arrested him on the 17th that
he had bruises on his knuckles, so everything that
Nana says about his interaction with Gilliam and
Morris is corroborated both by Gilliam and by Jimick,
so, you know, just consider that.
You know, I’m sorry he looked so bad trying to say
those few things which aren’t really in dispute, but
[1503] I’m asking you not to let that stuff detract from
what are the real issues in this case, which I’d like to
come to now.
This case is a mess. It was a mess before Darrel
Hemphill got arrested and it’s a mess now, and I think
you all know why I say that after you’ve heard the
evidence, and now I’d like to talk about some of that.
And, you know, I’m very grateful for this
opportunity, because I am, you know, disturbed, and
maybe some of you are too, by what we have seen take
place in this courtroom over the last bunch of weeks by
the way in which, as I suggest to you, and, again, the
Judge is absolutely right, it’s your view of the evidence
that counts, not mine, not Mr. Oustatcher’s, but what
I would suggest to you is that what we have seen is
how evidence over time can be changed and
manipulated to try and get a certain verdict, and you
have to be really careful about that.
And I don’t mean necessarily the witnesses
themselves. I believe some of the witnesses testified
intentionally false and I’ll talk about that, but a lot of
the witnesses were just kind of regular folk doing their
best and, you know, basically good people.
What I mean is the manner in which the evidence
was presented to you during the trial, not, I would

215
submit, [1504] to get to the truth, but to get to a certain
particular verdict, and those are two very different
things, particularly, particularly in this case.
Witnesses that were believed and credited and
found to be reliable and truthful back in 2006, 2007
and 2008, when this was a Morris case, identifications
that they obtained in lineups, the best way we know of
to get accurate reliable identifications were relied
upon in 2006, in 2007 and 2008, and now, because they
want some other verdict, now that there is a new
person being charged, those witnesses that were
perfectly credible back then on whose identifications
an arrest was made, charges are brought, now they
say, hey, those witnesses really aren’t believable, those
witnesses really didn’t see what they said they saw
and believed they saw back then, those witnesses are
all making mistakes and that evidence and those
identifications that we relied upon, you should ignore
those now because it’s a new game. Don’t be taken in
by that.
I’m sorry. I have to have some water from time to
time. I apologize.
They bring in Ronnell Gilliam, and I’m going to
talk about him later on, but whose lie, you know, upon
lie, upon lie led the detectives and the District
Attorney’s office back then when he made those
statements, when he [1505] first came in and he said
Nick’s the shooter, and then later on, a couple of
weeks, he said Darrel is the shooter, and he went back
and forth, those detectives found him back then, after
he said Darrel was the shooter, to not be believable.

216
Did they go out and arrest Mr. Hemphill back then
because Gilliam said he was the guy? Of course not,
because they didn’t think he was a reliable witness.
Now, those lies, all those lies that Gilliam told
back then and his unreliability, you know, just kind of
fades into the background. It’s a new world, new case.
He signs a cooperation agreement, and all of a sudden,
jurors, listen to Gilliam, he’s trustworthy now. He is
believable now.
And he is the only witness, and this is important,
he is the only witness to this day, in all these years,
that has identified or said that Darrel Hemphill fired
the shots. He is the only guy, you know, new,
reinvented trustworthy Ronnell Gilliam saying, you
know, what works now.
Now, let’s take a specific example of what I am
talking about about how evidence changes and gets
manipulated, you know, for your benefit, and I could
pick many of them, but here is a couple. Just imagine
the pressure. I mean, it’s understandable. Imagine the
[1506] pressure on these people, on the police, the
prosecutors. It’s nine years later. There’s a family
grieving. You know, they want, you know, someone to
pay, so imagine the pressure to build a case.
So, let’s look at the testimony surrounding
Michelle Gist. She’s a key witness. You remember,
she’s the first witness — Jimick told us this. She’s the
first witness, the first person to put the detectives on
to Nick and Burger.
She’s a key witness because she knows or she says
she knows the players for 15, 20 years. You remember
that part of her testimony? I know Burger. Grew up in

217
the neighborhood. Nick I know, and D. I don’t know
where she got that name for him. But, in any event,
she’s a witness who says that I know these people, so
we are not relying on somebody who is, you know,
looking at somebody for the first time or who is
identifying a stranger or whatever problems you might
find with some other witnesses. We are looking at
somebody who says I know these people, I’m not
making any kind of mistakes.
And let’s see how when she first says that it’s
Burger and Nick who are involved in the fight, how
that changes over time, so that by the time we’re in
this trial it’s not Burger and Nick involved in the fight
like she said in 2006, now it’s Burger and D. Let’s see
how that [1507] happened, because it’s characteristic
of the evidence.
You know from the start there’s something wrong
with the testimony, because she says that Darrel
Hemphill on that day had long hair and braids. You
remember that? She said she could see the braids
coming out of the hat. This is from the transcript of her
testimony. Indeed, Darrel, he had long hair and it was
braided.
Now, you know something’s not right, because no
other witness in the case says that, that any of the
people involved in the altercation had long hair and
braids.
But, you know, and while we’re on that, I just want
to show you People’s — I’m sorry — yeah, People’s 102
and 103 in evidence.
That’s a picture of Darrel Hemphill, and there has
been testimony from a number of witnesses that’s how

218
he looked back in 2006, and that’s a picture of Nicholas
Morris, how he looked in 2006.
You know, you can look at these. I think we passed
them around, and, you know, I don’t want to offend
anybody, but we are way, way past the time when all
people of color look alike. And you look at these photos,
okay? And you decide whether these people look alike,
whether two days after this happened you’re going to
mistake that guy for that guy. I don’t think so. But,
you know, you take a look at those.
[1508]
So, but more important than, you know, the braids
thing, and this is key with this, she tells you on direct
examination that there were two guys in the fight with
the Spanish folks. Remember that? She doesn’t see the
shooting. She’s gone by then or whatever, but she sees
the initial altercation, and the testimony is clear from
everybody that one of the people involved in the fight
is the guy who is the shooter, and she tells the district
attorney on direct examination — this is before I had
a chance to question her — that Burger and D, she
knows him 15 or 20 years from the neighborhood, that
they’re the two guys that are involved in this
altercation. And, you know, when she says that, you
know, it sounds good, she knows them from the
neighborhood, and that’s how the DA leaves it in his
examination of Ms. Gist.
Only we find out later, when I question Jimick,
okay, and Jimick is pretty good at trying to wiggle out
of things when he knows it’s not going to help the case,
but some things he can’t wiggle out of because he’s
testified previously to certain things and there’s a

219
transcript and so certain things he’s got to admit. So I
questioned Jimick, and he can’t wiggle out of it
because it’s from an earlier transcript that he said,
that he testified to, and the DA concedes in the record
that it was accurately being read by me, you know,
what do we find out that Gist [1509] actually said back
in 2006, that same day that this incident happened,
and this is the transcript.
“QUESTION: So when you spoke to Ms. Gist
on that day this happened in the apartment there,” I
think she was in her mother’s apartment, “the two
names that she gave you as being involved in the
initial altercation, people that she had known from the
neighborhood for years, were Burger and Nick; is that
correct?
“ANSWER: Burg.”
And then the question: “Burg and Nick?”
And then the answer: “Burg and Nick, yes, correct.”
And then there is some followup again. This is by
me in cross-examination after the DA left it that it was
D and Burger.
Do you recall testifying at a hearing in this case a
long time ago?
Again, this is Jimick. And he says, I do.
And at the hearing you were testifying. You were
under oath. And he says yes.
You were being asked some questions, and he says
yes. And you were telling the truth? And he says yes.
And do you recall being asked this question and
giving this answer or these questions and answers:

220
Detective, what’s the basis for arresting Mr. Morris?
And [1510] this is back on the 17th, the day
afterwards.
Answer: We had an eyewitness that had identified
him.
Answer: Who?
That would be a person we know as Michelle Gist.
Do you recall being asked that question and giving
that answer? And he admits that he did.
So, now, we are getting the truth, not the updated
version, but the truth of what Michelle Gist had to say
back in 2006 about who was involved in the
altercation.
And, again, this is Jimick.
I don’t want to parse words, but in this interview
of Gist she gave you two names.
That’s correct.
And you told the hearing people and the person
that she — I’m sorry. She gave you two names; correct?
One was Burg and one was Nick.
Answer: Correct.
And neither person that she named was Darrel
Hemphill or D?
And answer: Correct.
And you told the hearing people that that was
important in your reasoning for arresting Nick?
And answer: That’s correct.

221
So, that’s how it changes. That’s how it [1511]
happens. In 2006, Gist knows the players for 20 years
and in no uncertain terms tells Jimick in her mother’s
apartment that afternoon, hey, the guys in the
altercation, one of whom we know, turns out to be the
shooter, Burger and Nick. There’s no mention of
Darrel and D until nine years later, and we get a
different version for you folks. You decide which
version is more accurate.
Just to bring home this point now, and this is a
very important point, how evidence gets changed to try
and make a case, I want to talk about something that
Jimick said, and, you know, Jimick, again, he knows
that — he’s aware by now that this is not good if Gist
is saying that it was Burger and Nick, so, you know,
characteristically he tries to worm out of it and, you
know, there are some questions and answers where he
begins to say, you know, she said he was there, but she
didn’t say he was in a fight and, you know, he tries to
worm out of it.
I don’t know if you folks recall that, but, you know,
I could read it to you. It goes on for some pages, but in
the end, again, I pin him dawn with the — with the
transcript and he has to admit, yes, back in 2006, when
I interviewed Gist, who is an eyewitness and probably
the best eyewitness because she knows the players,
said it was Burg and Nick involved in the fight and not
Darrel and not D.
[1512]
MR. SEARS: So that’s an important example
of how we get from where we were in 2006 to where we
are in this trial.

222
Little housekeeping here.
So just think about that when you deliberate and
you talk amongst yourselves and you say to yourselves
who was involved in the initial fight? Who can we look
at to tell us that? We — the eyewitnesses, we have all
but, you have Gist in 2006 saying I know these guys,
it was Burger and Nick.
Let me give you another example of how evidence
gets manipulated and changed over the years to
something that it never was and never should be. And,
again, I’m talking about case officer Jimick.
And, you know, maybe this jumped out at you
when he testified to this, because it sure jumped out at
me. This is the transcript. He says, he’s talking about
when he’s up in the apartment and the bag with the
sweater.
Initially when I removed the bag from the closet
and opened it, I got an overwhelming smell of
gunpowder from inside the bag.
Do you remember when he testified to that?
Because it really just stuck with me. An overwhelming
smell of gunpowder from inside the bag.
Now, is Jimick saying that in 2015 in this trial
[1513] for you folks because it’s true, or is he saying
that because he wants to say something to make the
case better because he knows the other evidence on the
sweater from the lab and the witnesses and all, that is
all over the place and suggested that sweater was
never in the shooting so he’s got to do something about
this, so he makes this up. How do you know that he
makes it up? You know, man, you know, overwhelming

223
smell of gunpowder. There must have been an awful
lot of gunpowder on that sweater to have that
overwhelming smell.
Only Cunningham — remember Detective
Cunningham, first guy? He was on the stand for a long
time? Yeah, he’s a pretty savvy guy. He knows about
stuff like this. He knows about guns and ballistics and
gunpowder. And Jimick gives him the sweater for
vouchering, and he doesn’t notice any smell, any
overwhelming smell of gunpowder.
You would think that Cunningham, who is in the
business of knowing about that, if that were true, he
would notice it. And the reason he doesn’t is because
there ain’t any smell, and there ain’t any gunpowder.
That’s just made up, man, just made up for your
benefit, okay, for this trial for you, to fool you, and
don’t let them do that. And don’t just take my word for
it that it’s a lie.
You know that Cunningham didn’t pick it up.
[1514] Cunningham says, here’s Cunningham:
Well, you sent it to the lab, right? You sent the
sweater to the lab to be analyzed, did you not?
I did.
Question: The ballistics, the NYPD ballistics’
lab, correct?
Answer: I don’t know it’s the ballistics’ lab, but
it was sent for possible gun, gunshot powder residue
testing.
And as the case officer, I assume you followed up
and you got the results?

224
I’m talking to Jimick about the lab work.
So you are aware that that examination did not
show any gunpowder, any gunshot residue or any
other evidence that that sweater was involved in the
shooting or any other evidence that that sweater was
involved in the shooting? You’re aware of that, are you
not?
Yes, I am.
So, you know, and if that’s not enough to show that
Jimick was lying, the fact that the lab does not find
any of this stuff produced, this overwhelming smell,
and if you think that, that police officers don’t stretch
the truth to get a conviction, you’re not living in this
world.
He told you about DD5s. DD5s are important
things [1515] in the investigation. He’s the case officer.
And he told you that, you saw, he had a stack of stuff,
it’s DD5s, police reports. DD5s is another word for
police report. And he told you what the DD5s are for.
And what those DD5s are for are to record significant
information that you develop during the investigation,
like, for instance, the sweater had an overwhelming
smell of gunpowder.
So I ask him, you know, because I’m curious, okay,
show me the DD5 where you entered, you know, nine
years ago this key observation of yours that you made
about the sweater, which any detective worth his salt
is going to put in the DD5 because it’s important, right,
to prove — show me the DD5 from 2006 to prove that
you didn’t just make it up in 2015. Only there ain’t no
DD5. Never mentioned before anywhere in the history
of this case. And here’s what he says:

225
Question: Generally speaking, I would think as a
careful detective who’s been on the force for a long time
you would note significant things in your DD5s. That’s
what they’re for, are they not?
He says, “They are.”
Question: Yet, you fail to note this significant
thing talking about overwhelming smell of gunpowder
in any of the paperwork in this case, correct?
Answer: That’s correct.
[1516]
And the laboratory analysis that you just referred
to did not find anything to suggest that, correct?
Answer: That’s correct.
So think about that, not only for what it says about
a detective’s willingness to say something that isn’t
true, but what it says about how evidence and, again,
going back to the Gist evidence that Jimick tried to
foist on you, what it says about evidence that gets
manipulated to make a case against Darrel Hemphill
when there never, never was one and shouldn’t be one
now.
Another way of being manipulated, I think, and
again, if you guys disagree with me, that’s your call,
but this is just my thoughts.
Another way of being manipulated, how many
photos, this is a sensitive thing, I apologize, but how
many photos of David Pacheco, Jr.’s dead, injured body
did the DA put into evidence and put up on the screen
and show to the mom and people crying? One? Two?

226
Or I think it was 20 is the number. Admitted into
evidence.
Now, this is a case about who fired the shots, it’s
not a case about did the child get shot. Of course, the
child got shot. It’s not a case about did the child have
a gunshot wound. He had a gunshot wound. It’s not a
case about mechanism of death, died of gunshot
wound.
Medical examiner testified about all that. No
mystery. I [1517] had no cross-examination for any of
that evidence.
So, you know, why do you need 20 pictures or so of
the child with the stitching and the inside of his body
and the blood and all that? You know, what’s the
point? What’s the point of that?
And I would suggest, I’m sure the DA has a
different take, it’s for you to decide, but I would
suggest that, that the point of that is to appeal to your
emotions, but none of that is in dispute, and none of
that is a real issue in this case. To appeal to your
emotions and get you to bring in a verdict based on
your emotions, which is exactly what the judge
instructed you at the beginning of the trial and will
instruct you again you shouldn’t do. Okay?
And that’s another way, I would suggest, in which
you’re being manipulated toward a certain verdict in
this case.
So when you view the evidence and you think
about Gist and think about Jimick and any, about the
extent to which things have changed dramatically,
witnesses who were believed and witnesses not

227
believed and now just keep in kind that it’s not your
job as jurors to fill gaps. That’s not what you are here
to do. You’re not here to fill gaps in the district
attorney’s case. That’s not your job.
It’s not a question, the judge will tell you, he’s
[1518] already done it, what might have happened,
could have happened, may happen, which side is more
probable. It’s a question of if there’s been proof beyond
a reasonable doubt, and we’re not even close. We’re not
even in that ballpark.
So what does the prosecution’s case really boil
down to? As I see it and as you see it, it boils down to
Ronnell Gilliam, again, the only person in all this time
to say that Darrel Hemphill is the shooter. They have
never in all these years — back then after Gilliam
changed his mind said Darrel is the shooter, all these
years never put him in a lineup or photo array. Never
asked anybody is that the guy who did this, either back
then or now. I mean, think about that in a case where
you’re being asked to convict somebody of murder.
So the case basically boils down to who lied all over
the place and had this 25 years hanging over his head
if he doesn’t tow the party line and a blue sweater
concerning which the lab found that there was no
evidence that that sweater was involved in the
shooting.
It seems to me hardly the stuff of proof on which
you can convict another human being of a serious
crime and that against the evidence, which there is a
lot of, that somebody other than Darrel Hemphill is the
person that fired that shot.
[1519]

228
And keep in mind as you, please, that it’s not my
job, it’s not my function. I don’t have to prove who is
guilty. I don’t have to prove who fired those shots.
Is there evidence that Morris fired the shots?
There’s evidence that, plenty of evidence Morris fired
the shots. Is there some evidence that Hemphill fired
the shots? Yeah, that’s what Gilliam says. Is there
some evidence some guy with a lettered tattoo we
talked about fired the shots? Yes. There’s evidence
some guy like that fired the shots.
The point is you don’t know for sure, you can’t
know for sure based upon what we have heard in this
courtroom.
Now, I would submit as far as who fired the shots,
the best evidence, mostly likely evidence, easier
evidence we have is that Nick fired the shots. Was I
there? Was I a witness? Do I know? I don’t. But if you
believe that that’s what happened, then you have to
find Mr. Hemphill not guilty, If you believe it’s even
reasonably possible that Nick or someone else fired the
shots, then you have to find Mr. Hemphill not guilty.
So there’s some evidence, as I said, that Nick fired
the shots, some evidence that somebody with forearm,
lettered forearm tattoo — witnesses were quite specific
about that, which Hemphill doesn’t have, Morris
doesn’t [1520] have.
There’s evidence that somebody in a shirt, and I’ll
come back to that stipulation, about there was
evidence that Morris changed his shirt when he got up
to the apartment afterwards. And you know that
there’s a telephone call from Gilliam to his brother
saying get rid of the shirt, get rid of the shirt.

229
There’s evidence about an embroidered sweater
from Baez. He was quite specific, remember, about the
embroidery going down there. There was evidence
about long hair and braids. There’s evidence from Baez
that the shooter got out of a car and immediately
started shooting. None of the other witnesses see
anything like that, see the guy coming down the block,
no getting out of a car.
Gilliam says he was standing next to the shooter
and I told him not to shoot and then the shooting
happened, and it was like a couple of feet from the
shooter when the shooting happened. No other witness
says somebody, sees anybody standing next to the
shooter. I don’t know where that’s coming from.
As I said, there’s a lot of different versions here.
Can I prove to you which one is the correct one? I don’t
know, but that’s not my job. Can they prove to you
which one is the correct one? Absolutely not. And that’s
what you have to find.
[1521]
We do know, I mentioned this before, sorry to
repeat, in nine years of investigation, not a single
witness other than Ronnell, who they never believed
before, and even his own lawyer didn’t believe, took a
cop to that later.
Remember Vomvolakis testified he didn’t even
believe Gilliam when he changed his story?
Nobody says that Darrel Hemphill fired that shot.
All of these witnesses were known back in 2006. If they
had any suspicion even that Darrel Hemphill, even
after Gilliam came in, why didn’t they put him in the

230
lineup? Because they didn’t believe what Gilliam was
telling them.
Now, I’d like to review some of the other evidence
in the case. I’m going to read from some of the
transcript. I ask you to bear with me. It’s going to take
some time. There’s a lot to say. I don’t want to leave
anything out that is important. So just stay with me
and we’ll get through it.
There are, as far as Morris is concerned, three
types of evidence that implicate Morris, eyewitness
testimony, lineup identification, there’s ballistics
evidence, nine millimeter, and there’s physical
evidence. Remember the bruise on his knuckles? Let’s
talk about each one of those. Because each one of those
reinforces the other.
[1522]
So when you evaluate the evidence against Morris,
again, I don’t have to prove he did it. If it’s reasonably
possible Morris did it, you have to find Mr. Hemphill
not guilty, but there’s a lot of evidence against Morris,
and each piece of evidence that supports the other. It’s
not just lineups, it’s not just ballistics evidence, it’s not
just bruises, it’s all of those supporting the other and
indicating to you that that’s how you know he could be
the guy.
Let’s talk about the lineups. Again, this has to do
with, you know, being manipulated and being careful
about that. The DA wants to undercut, you know, his
own witnesses. They testified to this, they identified
this, and then the district attorney wants to spin that
around and okay, but you’re really not a reliable
witness. And, you know, he wants you to believe the

231
testimony that they give that helps their case, but he
doesn’t want you to believe the testimony they give
that hurts their case. And don’t let him parse it out.
You know, don’t fall into that trap. These
identifications were reliable enough nine years ago
based on arrest and prosecution. That’s pretty darn
reliable.
You don’t go out and arrest somebody because
lineup witnesses say I think that’s the guy or no, that
doesn’t really look like the guy, he was heavier or
[1523] something. They arrest people because they get
positive IDs. That’s what happened in 2006, not in
2015.
And Jimick told you that an interesting thing. He
told you that he chose these witnesses to view the
lineup because they were the best witnesses he had
available. These are the eyewitnesses. These are the
people that saw what happened. That’s why he chose
them.
His testimony concerning the lineup:
When you say those witnesses were chosen to look
at the lineup because you considered them to be the
best witnesses that you had available to what
occurred?
Answer: That’s correct.
And before those people, before these people and
before that determination was made, those witnesses
were interviewed by detectives participating in this
investigation? Correction. That a determination was
made that these are the people that were going to come
look at the lineup, correct?

232
Answer: Correct.
So Jimick is picking the best witnesses that he has
available to look at the lineup.
And then there was a lot of testimony about all the
pains they take to make sure the lineup is fair. They
don’t let the witnesses come together beforehand or
after [1524] this or witness can’t say hey, it’s number
two, when you go in there, just say number two. They
all look at it different. The lineup is made so it’s fair to
the accused, people that look the same so nobody
jumps out and they interview the person, make the
lineup as fair as possible and they do that to get, you
know, an accurate, reliable identification.
This is Jimick on the lineup:
Because we want to keep that lineup as fair as
possible. We want fair viewing of the lineup without
them believing that either we have the person that’s
under arrest or that they should be picking somebody
out of the lineup. It’s done as fair as possible for the
lineup.
Again, talking about the lineup:
You want to make viewers look at a person’s face,
not hairstyle, correct?
Answer: That’s correct. We want identification
being based on them being able to recognize face, not
clothing or hair.
So a lineup, the people are right there, they’re
close. Look at the faces. What happens? Not one, not
two but three witnesses separately and independently
identify Morris.

233
And let’s not kid ourselves, okay, the witnesses are
intelligent people. They know why they’re there, They
[1525] know it had to do with what happened two days
before. They know they’re going to a lineup that has to
do about the shooting.
When they identify Morris, in their minds, they’re
saying that’s the shooter, they’re not going to identify
somebody in a lineup that they just happened to see on
TV or down the block or whatever. They know what
they’re doing. These are intelligent people. They know
what the lineup is about. It’s about the shooter.
And so what happens? All three of them
independently pick the same guy as the person that
was in the altercation and was the shooter. And that’s
important that all three, that they do it independently
because what are the odds that three people see an
event all make the same mistake and go in and
identify number two? What are the odds of that?
Million to one? That’s never going to happen. Each
independently identified the same person, because
that’s the right person. That’s the only reasonable
explanation.
And based upon their identifications, Morris gets
formally arrested and charged.
Now, a whole lot of time was taken by the district
attorney with the Bronx 12 video, the video looked like
the shooter.
Now, none of us really know what’s going on when
[1526] they look at the video. You’ve all looked at the
TV and, you know, news, TV sometimes you’re paying
attention, half paying attention.

234
One of the witnesses, I think, Brenda Gonzalez,
said she wasn’t paying much attention, just saw
somebody in the car.
You know from your own experience that what you
catch on TV is completely different than being face to
face and in person like you are in a lineup like maybe
this far away. So what you might think is on TV is
completely different that the impression that you
already have when you look at somebody in person.
When you look at somebody in person, you get a feel
for that and you make identification. Don’t get bogged
down with the Channel 12 video.
You know, whatever the impressions were in
looking at the video, again, when they went to the
lineup, they knew what it was about. They knew. And
they said number two that they are identifying the
man from the altercation and the shooting.
And, again, it’s important when you think about
the identifications that we’re talking about an incident
that has two parts. Okay? There’s the initial words are
exchanged and altercation and that takes place about,
according to the witnesses, estimate, about ten
minutes.
[1527]
And then the shooting later on, no matter how
much the district attorney wants you to focus on the
moments of the shooting, you know, he suggests the
shooter was all the way over there, and we were
concerned and looking at the gun. They didn’t get good
a look. And you really can’t make an identification.

235
The identifications are not based entirely or even
maybe not very much on the momentary opportunity
to view the shooter but the fact that the shooter is the
same person involved in the ten-minute altercation
during which these people were face to face.
One of the witnesses got in between, tried to stop
the fight, argue, all that. So the witnesses had ten
minutes close up with the person they said was the
shooter. So don’t, don’t let it be suggested to you that
this identification is based on seeing him down the
block or across the street firing a gun. That’s the guy
from the fight, and we know it’s him, we saw him for
ten minutes, and that’s what our identification is
really based on.
So when they pick number two, what they’re really
saying is I know him, because he is, he’s the shooter,
and because I really know him because I got a good
look at him during the ten minutes that I spent
fighting with him.
So here’s Jose Castro. Yeah, of course, watching
somebody, you’re going to actually look at their face.
[1528] That makes sense. He shouldn’t — the sweater,
can you say this is the exact sweater worn by the man?
And there’s a lot of testimony that the shooter was
wearing something other than the blue sweater. He’s
shown the sweater in evidence. He says I couldn’t
remember. It’s light blue sweater. I don’t know if that’s
the exact one, just a light blue sweater. It’s similar, it’s
similar.
There are many sweaters like this, correct?
Yes.

236
So and about how long was it from the time you
first saw the tall, slimmer person, Burger, until the
altercation, initial altercation was from when the fight
was finished, was that about ten minutes?
Answer: Yes.
So there’s a long opportunity for these people to
observe who they’re dealing with.
And when the person came back, you recognized
that person as being the person within the altercation
and the fight?
Answer: Yes.
The same person you had seen for about ten
minutes or so before he ran off?
Answer: Yes.
You remember in the Grand Jury presentation,
again, this is still Castro, when Grand Jury testimony
[1529] being asked questions about Nicholas Morris:
Do you remember in the Grand Jury testimony
referring to the name Nicholas Morris?
Yes.
Did you do that throughout your testimony?
Yes.
They kind of know who they’re dealing with.
Again, these aren’t — they’re not stupid people. They
know what they’re doing, who they’re identifying and
what’s at stake.
Jon-Erik Vargas did testify in the Grand Jury on
the lineup.

237
Did you pick anyone out of the lineup?
Yes, I chose number two, same number.
At the time, what did you say number two did, if
you remember?
Number two.
You picked out number two?
Yes.
Did you tell the police — did you tell the police he
did something?
I said that’s the guy that I was fighting.
So, again, that’s who they’re really identifying is,
they’re identifying somebody that they got plenty of
time to get a good look at.
[1530]
Again, talking about the lineup, Jon-Erik Vargas:
And right to say you wanted to do the right thing in
terms of what happened?
Yes.
When you looked at the lineup, you identified
number two? You told the district attorney it’s the
guys that you had been fighting with on Easter
Sunday?
Yes.
And when you identified that guy, number two, as
the guy you had been fighting with, I assume you do
not mean Burger, you meant the other guy, the guy
that came back shooting?
His answer is yes.

238
Brenda Gonzalez, she’s not your best witness. She
got a problem with her eyesight. She can see well
enough to get around, go shopping, do the things she
has to do but, you know, she had some trouble seeing.
She also sees the whole ten-minute altercation. At one
point, she gets in between Jon-Erik and the person he’s
fighting, which is very close. She wasn’t paying much
attention to the Bronx 12 video.
And even when you look at her testimony, again,
this is how things change years and years later, she
was a lot more confident when she said nine years ago
than what she’s saying now.
[1531]
When you looked at the lineup, it was about the
shooting?
Yes.
Detectives told you that?
Yes.
You went down to the precinct? Could you see the
people sitting there?
That’s — you were about as far as me and you.
Before you viewed the lineup, you were given some
instructions.
Take a careful look at the people sitting,
something like that. Tell us if you recognize anybody.
And then they said, do you recognize somebody?
And they didn’t tell you the number to pick, and
you picked number, you picked the number you
recognized?

239
She said yes.
So even Brenda is recognizing, you know, from the
ten-minute altercation who it was that she was
involved with.
She’s asked about her Grand Jury testimony, what
did you see happen. Then all of sudden, I seen more. I
was standing in the corner, and he was shooting.
So these witnesses, you know, again, they’re good
people. They’re doing their best.
And it’s at the time when all this happened and
[1532] that’s their best shot at making accurate
identification in a situation that they know the person.
Did you actually look at the people who were
sitting there in the lineup, and did you understand this
was an important event?
Yes.
You looked at those people, and you said you
recognized number two?
Number two we know was Morris.
And, again, you know, can I prove Morris did the
shooting? I don’t know. I think I’m doing a pretty good
job. I don’t have to do that. It’s possible he did the
shooting. If that’s a reasonable explanation, then you
know what your verdict has to be.
Marisol Santiago, she’s a pretty good witness. She
knows what’s she’s doing. I don’t know if you have
recollection of her. She knows what’s she saying,
talking about. She’s referring to a person not to be fed
words on or manipulated. She’s asked these questions:

240
Do you recall, about her Grand Jury testimony,
being asked some questions, and did you see him,
meaning, in response to the questions, did you say,
sorry, where it — did you see him with the weapon?
Yes.
What kind of weapon?
[1533]
It was a silver gun. That’s all I seen. He cocked it.
Other than seeing the skinny man with the silver
gun, did you see anybody else with a weapon?
No.
Had you previously identified the skinny man in
the lineup?
Yes.
Answer: Yes.
Did you identify him as being Nicholas Morris?
Answer: Yes.
Again, with Marisol — I’m little a bogged down. I
apologize for that.
Marisol Santiago, another witness, good witness,
asked questions back then.
Answer: Yes.
And do you recall being asked these questions and
giving these answers?
She says, yes.
Talking about the skinny man:

241
And are you sure he was the man you saw firing
the shots?
Yes.
Did you see anybody else with him?
Nobody else was with him.
[1534]
So Burger is not standing next to him. None of the
witnesses say that.
Then she goes on in her testimony:
Did you identify him as Nicholas Morris?
Answer: Yes.
That’s a long time before you met Mr. Oustatcher
about this case?
Answer: Yes.
So the point is that these are good witnesses with
plenty of opportunity to see what happened. And don’t
let it be suggested that these are just unreliable
witnesses to be written off. They’re good witnesses.
They all, were not all making the same mistake when
they picked Morris out of the lineup.
Getting there.
I want to talk about Jon-Erik Vargas. I’m sure you
have a distinct image of him. He was a witness later in
the case, one of the DA’s last witnesses, kind of stocky
guy, not heavy, tough, firm. Doesn’t get pushed
around. No one puts words in his mouth. If you want
someone you can rely on, I suggest that he’s the guy.
Did you pick anyone out of the lineup?

242
Yes, I chose number two.
At the time, what did you say number two did, if
you remember?
[1535]
Number two did?
You picked out number two, right?
He says, yes.
Did you tell the police number two did something?
Yes. I said that was the guy I was fighting with.
He’s a good witness and he knows, you know, what
he’s talking about and who he was fighting with.
Later on in the transcript, talking about some
questions from the district attorney, some questions
about when you looked at the lineup:
By that time, you knew that a child had been
killed?
Yes.
And you wanted to do the right thing in terms of
what happened?
Yes.
When you looked at the lineup, you identified
number two, you told the district attorney it’s the guy
that you had been fighting with on Easter Sunday?
Correct.
When you say you identified number two as the
guy you had been fighting with, you do not mean
Burger, you mean the other guy?

243
Yes, the guy that came back and started shooting.
So that’s, that’s Jon-Erik.
[1536]
This is all powerful evidence, which I think fairly
should in your minds create at least reasonable doubt
and probably a lot more than that.
So just recap on the identification points, you have
three positive identifications independently made by
people. You have, Gist, who knows the players 15 to 20
years, telling Jimick that day that it’s Burger and
Nick. You have Baez, Mr. Baez testified later on who
looks at an array. This is Defendant’s E. Looks at a
photo array that has Morris, number five. He doesn’t
identify him, but he says that looks like the guy. This
is in evidence. You can look at it.
You know, you just decide for yourself. These
people, you know, zeroing in on somebody. He could
have picked somebody else. He’s zeroing in on number
five. Happens to me all the time.
(Whereupon there was a telephone interruption)
MR. SEARS: He’s zeroing in on number — he
says he looks like the shooter and, again, you just
decide for yourselves if number five — you know, we
know Morris looks like the shooter and, you know, I
think you’re going to agree that this picture which is
in evidence People’s 103 really doesn’t.
So the evidence, I’m pointing to Nick Morris,
Nicholas Morris, suggesting Mr. Morris is the shooter.
[1537] Again, I’m not there. Doesn’t end there.

244
There’s some hard evidence. And you know, hard
evidence is good because you didn’t have to rely on
anybody’s memory or take Nick’s words for it. It is
what it is. And it’s not subject to human error. And just
see if the hard evidence supports and reinforces the
identification of Morris or whether it contradicts them.
I think when you look at the hard evidence, you’re
going to see that it reinforces the identifications. I’m
talking about two things that were discovered in the
initial investigation. This, again, is Jimick.
Question: So in addition to the eyewitnesses, you
also had some other evidence implicating Mr. Morris,
that, among your other evidence you had, you had done
a search of his apartment?
That’s right.
And you participated in that search. And in his
apartment, you told the district attorney you recovered
some ballistics evidence that you thought was
significant; is that correct?
I did.
And among the evidence that you recovered was a
nine-millimeter bullet, correct?
Correct.
And where was that in his apartment?
[1538]
It was like on the nightstand next to his bed.
Whose bed was that?
Nicholas Morris’.

245
So next to his bed there’s a little nightstand and on
that nightstand is a nine-millimeter bullet, correct?
Yes.
And that was significant in your investigation, was
it not?
It was.
All right. Was it your understanding that the
round that was recovered from the hospital that killed
baby
David Pacheco Jr., was a nine-millimeter bullet?
That’s correct.
So on the nightstand, Nicholas Morris’ nightstand,
when you execute this warrant in the early morning
hours of the 17th, some 12 hours after this incident, on
a nightstand in Nicholas Morris’ bedroom is the very
same type of bullet that killed David Pacheco?
Answer: Same caliber.
Same caliber capable of being fired by the same
gun?
Correct.
And would you think that somebody who has a
nine-millimeter bullet on his night table might also
have [1539] access to the weapon that fired a bullet?
Does that make sense?
Answer: That would be reasonable conclusion,
yeah.
So I mean, just step back for a second. This is 12
hours after a nine-millimeter bullet kills David
Pacheco, and what’s sitting on the nightstand, it’s not

246
even packed away somewhere. I don’t know. It’s in a
closet. It’s on his nightstand where he can just pick it
up, the same kind of bullet that killed the child. I
mean, is that like a coincidence? I don’t think so. I
mean, that would be stretching, stretching, stretching
your imagination too much to think it’s just
coincidence that when they immediately go over it’s
shortly after the incident, there’s a shooting with a
nine millimeter, that on the suspect, the same person
that Gist says is the guy, the guy was involved in the
fight, I know him 20 years, that same guy just happens
to have a nine-millimeter bullet on his nightstand.
That is too much of a coincidence.
The only reasonable explanation is that what
Jimick said, yeah, he’s got a gun that can fire that
bullet. That’s what he did.
What else do we find out about Nick, other than
that nine-millimeter ammo? Let’s go back to the fact
that this incident starts with a fight.
[1540]
And you folks know that when you have a fistfight,
you can get bruises on your knuckles, right? You don’t
have to be a genius to know that. And this tells you
something.
Let’s see what we have before we get to the
knuckles, you know, the nine millimeter and being on
his nightstand in that close to where, you know, Nick
has things. It tells you something about Nick, I think,
what kind of guy he is.
And bear in mind or you remember that this,
during the incident when there’s a spitting — you

247
know, Burger testified there’s a spitting — you know,
who is the first person who he calls when mention of
guns? Nick. The guy with the nine millimeter close at
hand.
This is questioning of Jon-Erik:
At some point during the events that you
described, you say you spit on Burger?
Answer: Yes.
He said something at that point?
Yes.
What did he say?
He said, I will shoot you.
So that’s what Burger says. And this is Gilliam
referring to that same spitting thing:
He called me a couple of names, tried to spit on
[1541] me.
I said listen, go get your gun, I’m going to kill you.
So I called Nick. I call Nick.
This is more questioning of Gilliam:
One of the people you were fighting with spit at
you or tried to spit at you, and you didn’t like that? You
didn’t like that?
No, sir, I didn’t.
As a matter of fact, you didn’t like it so much that
you said, I’m going to kill you?
Yes.

248
You said something like I’m going to get my gun or
go get your gun, right? You brought guns into the
conversation?
Answer: Yes, sir.
Because you had got spit at?
Answer: Yes.
(Continued on the next page)
[1542]
MR. SEARS: Well, as soon as he said what’s
the first thing you did when you said let’s do guns or
get your gun or I’m going to kill you, what’s the first
thing, who’s the first person you called?
Answer: Nicholas Morris.
And the reason you called Nick is that you knew
Nick was a guy who had weapons?
Yeah, and I knew he had weapons.
But it was the gun got mentioned or killing
somebody got mentioned, the first thing you do is call
your best pal Nick; correct?
Yes, sir.
And you know that Nick has guns, because you
have seen them?
Yes, sir.
And you know he has ammo because you’ve seen
that?
Yes, sir.

249
So that tells you something about Nick that’s
important, that when Burger and guns get mentioned,
the first thing that pops into his head, I’ll get Nick
because he’s the gun guy.
That brings me to where I was before, so which is
what Jimick notices when he arrests Nick on the 17th.
Do you observe any bruising anywhere on [1543]
Mr. Morris’s body?
Yeah, his right hand had bruising on it, the
knuckle area.
Um, he meets him at News 12.
Did you notice anything you noted because you felt
it was significant about his hands?
Again, this is Jimick. Yeah, he had bruising on his
knuckles.
And did that suggest to you that he had been in a
fight recently, like maybe the day before?
And he answers: It would be reasonable to
conclude that, yes, he was in a fight recently.
And, by the way, that’s what I said before about
Nana. Those are the same bruised knuckles that Nana
testified he saw on Nick later on the day of the
shooting, so bear that in mind when the DA suggests
that Nana is just crazy and coming in here to lie about
things.
So just, you know, when you think about whether
Nick might be the shooter, again, I don’t have to prove
that, just think about how the lineup identifications
are reinforced by the 9-millimeter and the bruising on
the knuckles and those things. Think about whether

250
that can all be a coincidence, that three people
coincidentally pick out the — the same guy they pick
out coincidentally just happens to have bruises and a
9-millimeter. It cannot just [1544] be a coincidence, so
I suggest to you that the evidence suggesting that
Nicholas Morris is the shooter, again, it’s not my job to
prove that, is stronger, much stronger, much more
reliable and much closer in time to the incident than
any of the evidence that you heard suggesting that
Darrel Hemphill was the shooter.
Okay, about halfway done. Just bear with me.
Obviously, this is — there is a lot at stake. It’s just
important that I cover what I think is important, even
if it takes a bit of time. I’m sure you all appreciate that.
Now, I’d like to talk to you about sweaters, shirts
and tattoos, and what the testimony was about those
things, and whether it supports the prosecution case
or, as I suggest, undercuts the prosecution case, or just
like many things raises more questions in this case
than answers. I think at the end of this case, we are all
going to be left with questions. That sometimes
happens.
So, let’s see if we can figure out, okay, when you go
into the jury room you might say — somebody might
say, okay, well, what was the shooter wearing, so let’s
see if we can figure out with any degree of certainty
what the shooter was wearing. This is a big part of
their case, because this is the sweater.
The sweater and Burger is pretty much what their
case is about, so let’s see if there’s any certainty on
[1545] that key issue, because if you can’t say for sure
then that is, you know, that’s important. If you can’t

251
say for sure that the shooter was wearing People’s 98C
— it’s in a bag somewhere. I could hold it up, you know,
and no witnesses said that that is the sweater that the
shooter was wearing. You know, if you can’t say for
sure that that’s what the shooter was wearing, then
the testimony about the sweater and the DNA and all
that is basically a distraction and is meaningless, and
let’s talk about that.
So, was the shooter wearing the sweater that is
People’s 98C? Okay. Let’s see what we have. You know
from what I have read before, this is Castro, and
Castro basically says that he saw, you know, just a
blue sweater, you know, and similar, there are many
sweaters like that, he can’t say, you know, if that’s the
one or not. So that’s, you know, it’s a fair summary
from Mr. Castro. Maybe, you know, the shooter was
wearing something like that, maybe not, lots of those,
I mean, blue sweaters around.
What else do we find out about the shooter and
what the shooter was wearing? This is again later on
with Castro.
Do you remember in the grand jury presentation
that — do you remember in the grand jury
presentation — no, this is actually a piece of paper that
doesn’t go [1546] anywhere. That happens sometimes.
Okay. There’s a suggestion from one of the
witnesses, and I don’t have it in front of me, but you
will recall testimony about — this had to do with
tattoos and things like that, that the garment,
whatever — oh, yeah, this paper does fit — that the
garment was short sleeves. Again, this is Castro.

252
Do you recall whether the garment that was
allowing you to see the right forearm tattoo, and we
will come back to that tattoo, because that is
important, was a short-sleeve garment, and he says
yes, so now we are starting to get an indication that
it’s not that sweater that is in evidence. That sweater
that is in evidence is kind of a loose sleeve falling
down, long-sleeve garment that’s not going to allow
anybody to see any — probably not going to allow
anybody to see any forearms, so we’re getting an idea
that it’s a short-sleeve garment.
Just bear with me. And you will recall that Gilliam
testified — I had to pull it out of him, that Nick was
wearing a shirt and changed when he got to the
apartment. This is Gilliam.
And when you went after the — and when you
went — and when you went after the shooting had
taken place and you went up to the apartment, Nick
asked to change clothes, did he not?
[1547]
He asked for a T-shirt. I gave him a white T-shirt.
So, Nick changed clothes when he goes up to the
apartment, and that’s really important because we
have this stipulation because that becomes a concern.
The stipulation I think is someplace. I’m sorry
about this. I could use a bigger place to spread, out. I
hate to take the time doing this, but — do you have a
copy of the stipulation?
In any event, I just read it. It’s People’s — it’s
Court Exhibit V. I’ll find it at some point, hopefully, in
my stack of papers.

253
The stipulation I just read to you this morning in
which Vasquez, the cop who was Jimick’s partner, he’s
in the apartment and a call comes in that he overhears.
Vasquez overhears the call, and the call is from
Ronnell to his brother William, who is in the
apartment with the cops at that time, and Ronnell is
calling and he says: Are the cops there? Did you get rid
of the shirt? And he says that twice. He emphasizes it.
Did you get rid of the shirt? And that’s so significant
that he puts it in a police document. It’s all in the
stipulation.
So the — so you have testimony from Gilliam
about Nick changing his shirt, and you have a
telephone call that the police substantiate that’s part
of the [1548] stipulation that Gilliam is concerned that
his brother William get rid of the shirt. It’s got nothing
to do with any kind of sweater. He doesn’t say in the
phone call, yeah, William, get rid of the sweater. He
says get rid of the shirt, and that’s an important piece
of evidence for you to consider.
So, none of the eyewitnesses identify that sweater.
There’s testimony that the shooter wore short sleeves.
And what else do we find out from witnesses about
that sweater? We find out a lot. I shouldn’t say about
that sweater, but about what the shooter is wearing.
And this is, again, Juan Carlos Garcia, who is a pretty
good witness. He’s a careful witness.
And he’s asked about this. The other guy you
initially were about — initially you were about to get
in a fight with, describe him as you remember him to
the jury.

254
Answer: He was wearing a blue shirt and a blue
cap.
Okay, a blue shirt which corresponds to Gilliam
calling up and said, Did you get rid of the shirt?
He goes on to say, describe the blue top that the
not Burger guy wore, as you remember, to the jury.
You’re asking about the skinny guy?
Yes.
Answer: He was wearing a golf shirt, a blue golf
[1549] shirt.
And you all know that blue golf shirts are way
different than that sweater that’s in evidence. Nobody,
especially a careful observer like Garcia, is going to
look at that sweater and mistake it for a blue golf shirt.
He was wearing a golf shirt, a blue golf shirt.
Why do you recall it was a golf shirt?
Because I remember it was a golf shirt and it had
three buttons on top.
I mean, look at People’s 98, if you want to, and, you
know, hold it up and see if you can in any way square
it with this description.
It was a golf shirt. It had three buttons on top. It
was a short shirt.
Short sleeve?
Answer: Short sleeve.
And, again, this is Castro.
When you look at him, tell the jury who you are
looking at.

255
At the shooter.
And how was the shooter dressed?
A blue shirt and blue cap.
And when you think about this blue baseball cap,
also that a number of witnesses I think they said blue
Yankee cap or blue baseball cap, when you looked at
the [1550] Channel 12 video of Morris, I mean there
wasn’t any sound at all, but you could see, and what is
he wearing on his head? Is that another coincidence, I
guess, like the 9-millimeter and bruised knuckles?
He’s wearing a blue Yankee hat just like witnesses say
the shooter was wearing.
So, you know, I pick up on that with Mr. Garcia,
because, you know, as I see it, and you judge the
witnesses, but I sense from his appearance and his
demeanor on the stand that he is a really good witness.
You know, he knows what he saw, he speaks his mind.
Nobody is putting words in his mouth. So I follow up
on this, because it’s important.
You impress me as somebody that does his best to
remain calm.
Remember, he said he was trying to calm everyone
down?
Yeah, that’s fair.
And during this incident you described for the
district attorney, you were doing your best to remain
calm, keep everybody calm?
That’s correct.
You didn’t want to — you didn’t want anything bad
to happen?

256
No.
And it was Easter Sunday.
[1551]
And you’re pretty observant, pretty careful about
what you know, what you see?
That’s correct.
And he talks about that he’s wearing reading
glasses, he didn’t need them then, his eyes were fine.
The incident that you described, did you have any
trouble seeing what it was that was happening?
No, I had no trouble.
And you described some people that were involved,
a group of people, and then there were two people.
Burger was about 400 pounds, and then there was
a skinnier person.
And you had a pretty good look. Did you have an
opportunity to get a pretty good look at both those
people?
That’s correct.
And you impress me as being a fairly observant
person, pretty much remember what you see?
Correct.
And for the taller guy, you got to see what that
person was wearing?
That’s correct.
You had a good look at that?
That’s right.

257
And you remembered that?
Yes.
[1552]
And it made an impression on you?
Yes.
And you described what he was wearing on top as
a blue golf shirt?
That’s correct.
Short sleeve?
Yes, with buttons, three buttons, that’s correct.
Now, Marisol Santiago, another pretty good witness.
Do you recall when you spoke to the police
describing the taller person, the skinnier person, that
he was wearing, saying that he was wearing a hat and
a blue shirt and blue jeans?
Answer: Yes.
And that was the same day that this occurred that
you gave that description?
Answer: Yes.
So none of the eyewitnesses say that the shooter
was wearing the sweater that’s been marked as
evidence. There are descriptions, detailed descriptions
from people that say they saw and remember what the
shooter was wearing, that it was a shirt. There is very
specific information about the type of shirt and the
buttons, things that stick in the person’s mind as he
says he remembers and that links up with the phone
call where Gilliam says get [1553] rid of the shirt.

258
You have Anthony Baez. Here’s another, you
know, in a case where you’re trying to find — someone
is asking you to convict beyond a reasonable doubt,
Anthony Baez gives yet another description of what
the shooter was wearing.
He’s the guy, you remember, that looks at the
photo array, says it looks like Nick, looks like number
five.
Baez talks about a sweater that’s completely
different from the one that’s in evidence. He’s
questioned.
You mentioned a bluish sweater with, I think you
said, some sort of embroidery going down.
Yeah, design, embroidery going down.
Going down both sides of the front of the sweater?
You’re indicating down your chest towards your
waist?
Yes.
And do you remember it going down both sides,
this embroidered design?
Yes, sir.
Do you recall whether this garment was short
sleeve or long sleeve?
[1554]
Long.
And did you see, for instance, the shooter’s
forearm?
Answer: No.

259
So you get a description from Baez of an entirely
different kind of sweater than the one in evidence, and
the description from Baez that contradicts the three
witnesses that say it was a short-sleeve shirt and all
that, and just, you know, your mind begins to wander
in all the problems and all the different questions that
are unanswered in this case.
Baez also tells you, while we are on him, the
shooter gets in a car after the shooting and disappears,
which would mean the shooter never ran up into
Gilliam’s apartment and all the other evidence that
Gilliam testified to.
He tells you that in his testimony, you recall, he
describes the heavyset gentleman.
And you say the heavyset gentleman told him to
hold up, meaning the shooter. He did not listen. He
just opened fire, and as soon as he finished the car
started leaving him. He went into the car and he
disappeared.
So, you know, it’s — you have so many different
versions of what occurred here that the district
attorney is asking you to somehow figure out and come
up with a way [1555] to convict Darrel Hemphill, and,
you know, you just can’t do that. It wouldn’t be right.
It wouldn’t be fair and it’s not your job to resolve all
those questions.
So, you know, if during your deliberations one of
you asks, you know, another one of you, so what was
the shooter wearing, was the shooter wearing that
sweater that’s in evidence, the best you can say is I
don’t know. The best you can say is I don’t know, and
the probable answer, given the testimony of the

260
witnesses and the description of the shirt and the
telephone call from Gilliam, is he probably was not
wearing that sweater.
And that links up with the police lab evidence that
tells you in so many words there ain’t no gunshot
residue, there ain’t no gunpowder, there ain’t no
overwhelming smell. There’s no evidence, no evidence
suggesting that the sweater was involved in the
shooting, so let’s put that aside.
And, you know, another thing, if you look at the
sweater, this is curious. You know, it’s an old dirty
sweater. It’s got a hole in it. It’s — they say they find
it up in a bag in a closet. It’s exactly, you know, Mr.
Gilliam’s testimony, and I think Ardell’s testimony
that Ronnell used to stay there a lot, you know, put
clothes and things there from time to time.
This is exactly the kind of sweater up in the bag
[1556] in the closet that is going to be laying there for
years that nobody is going to wear, especially on
Easter Sunday. And a very curious thing about that
sweater, I don’t know if any of you picked up on this,
in the bag when they send it to the lab it had those
metal fragments.
Do any of you remember that? Metal fragments in
the arms and in the bag, in the sleeves and in the bag.
And so, you know, the thought immediately is, well,
metal fragments must be gun bullet stuff, but the guy
from the lab told you no, no, no, it’s got nothing to do
with bullet stuff.
He said, you know, it’s got nothing to do with bullet
stuff, because bullet stuff is going to be either lead or
copper jacket stuff or something. That was some kind

261
of aluminum stuff, so it had no ballistics evidence. It’s
just metal stuff. How it got there, what it is, nobody
knows. But the point is, who is going to wear that
sweater?
If that sweater had just been involved in a fight
and running and all of that, you know, what is that
stuff going to be doing in a sleeve, or is it more likely
that that sweater has got nothing to do with the
shooting, which is what a lot of the witnesses say and
what the lab report indicates, and it’s just sitting up in
that closet for who knows how long.
[1557]
Now, I want to talk about tattoos. This is another
important part of the evidence.
Many, many of the witnesses spoke about tattoos.
We even had a display. Remember when Mr.
Hemphill sat over here? And it’s another part of the
evidence that makes you stop and say, you know, hey,
you know, just wait a minute. This is important.
THE COURT: Counsel, may I interrupt you?
MR. SEARS: Yes, sure.
THE COURT: Ladies and gentlemen, we are
going to continue this morning, but I understand that
somebody needs a break.
Any jurors who need to take a break right now, you
can step out. We’ll resume in five minutes. Would that
be okay?
THE COURT OFFICER: Jury exiting.
(Whereupon, the jury exits the courtroom.)

262
(Whereupon, there is a recess taken.)
(Whereupon, the following takes place on the
record, in open court, in the presence of the Court, the
assistant district attorneys, the defense counsel and
the defendant.)
THE COURT OFFICER Jury entering.
(Whereupon, the jury enters the courtroom.)
THE COURT: Case on trial.
[1558]
THE CLERK: This is the case on trial. The
record should reflect the presence of all counsel, the
defendant, and all jurors properly seated.
THE COURT: Ladies and gentlemen, good
afternoon. We are going to resume summations now.
Just so you know the plan — well, first of all, is
anybody here, by reason of blood sugar levels or
anything like that, does anybody here have to have
food now or in the next hour?
Everybody okay?
A change of plan, and that is we are going to finish
the summation now. It should be within the hour, and
then we’re going to go home.
We’re going to come back tomorrow, the DA
summation and my charge, so it’s a slight change of
plan but not a major one.
Right now, we are on a parallel track of what we
planned. We’re not on a totally different track, so I ask
you to give your attention to counsel and we will finish
up.

263
MR. SEARS: Thank you, Judge.
The stipulation that’s in evidence that I read
before, I did locate it, so that is available. That’s the
one about the phone call from Ronnell Gilliam, I
should say.
Okay, if you guys can’t hear me or if my voice
[1559] drops, just raise your hand or indicate some
way. I do —I am run down like everybody, but I will do
my best.
Okay, so I want to talk about tattoos, another
important part of the evidence, another part that
makes you stop and say, you know, hey, wait a minute,
what’s going on here, you know, how does this fit into,
you know, this case?
The witnesses say that the person that they
argued with, the person that they fought with, the
person who did the shooting had a lettered, and they’re
quite specific about this. It’s not me. It’s the transcript.
He had a lettered tattoo inside of the right forearm,
and that’s — you know, that’s not something that
they’re going to make up.
Nobody is going to, you know, make up that kind
of evidence. They’re saying that because, you know, it
made an impression on them at the time. It’s not
something that anybody is going to tell you to say. You
know, they didn’t all get together at a meeting and say
let’s say tattoo. They each say it independently, so it’s
believable.
And, you know, what does it mean? You know, I’m
not sure. But, again, it’s one of the questions in this

264
case. There’s a lot of things that we are just not sure of
where you have to be sure.
[1560]
Castro. Okay, this is Castro again. This is at the
beginning of the argument.
I tried to grab his arm. I was trying to calm him
down. I noticed — I noticed that he had a nice tattoo.
That’s his words, a nice tattoo, at the time. I didn’t
have any. I was thinking it’s a nice tattoo, that would
be a good tattoo to have. I would like that tattoo.
Okay? So, that’s Castro, a pretty good witness,
and, you know, this tattoo makes an impression on
him, because he says I’d like to have a tattoo like that
also. So, and, you know, it’s on, you know, his forearm.
And what does that also tell you in that there was
testimony — you remember that, you know, Mr.
Hemphill, and you saw on the video, that Morris
showed his forearms. He didn’t have a tattoo, so this is
all kind of curious. And you recall that Mr. Hemphill
came up and sat in front of you in a chair and he
showed his forearms, and he didn’t have any kind of
lettered tattoo.
He does have a tattoo, as you learned, up around
the top of his shoulder that says DA, like a nickname,
and then the zip code, 10457 or 10458. I forget exactly
what it is, but it says DA and it’s not anything anybody
would see if you’re wearing even a short-sleeved shirt,
because it would be covered, and it has a zip code.
And the thing to keep in mind is that when Castro
[1561] says he saw the tattoo, he thinks that’s a nice
tattoo, that would be a good tattoo to have, he’s not

265
going to be seeing a tattoo that has a zip code and
somebody else’s initials and say to himself, hey, that’s
a nice tattoo, I wish I had a tattoo like that, so you
know that the witnesses aren’t talking about the tattoo
that Mr. Hemphill has on his upper shoulder and that
is — that should be clear.
And I asked, you know, he’s asked where the tattoo
was, and he says it’s on the forearm. Okay.
Castro again, he says: A taller slimmer person who
had the gun, were you able to see his forearm?
Yes, he had a tattoo on his forearm.
And you were — what the tattoo looked like, you
were able to see that he did have a tattoo on his
forearm?
Answer: Yes.
Whether the tattoo is on the right forearm or the
left forearm, he is even specific about that, it’s on his
right forearm.
And he’s asked about the garment that the person
was wearing, was that a short-sleeved garment, and
he says if I saw the tattoo it should have been, yeah, a
short-sleeved garment.
So, again, we’re getting further and further away
also from the sweater that’s in evidence.
[1562]
This is Juan Carlos Garcia, and he also talks about
that.
Do you recall whether the garment that was
allowing you to see the forearm tattoo was a short-

266
sleeved garment, and he says yes, and that is on direct
examination from the district attorney.
Did you see any scars, tattoos, et cetera, et cetera?
He had a right tattoo written on it. It was a script.
Okay, very different kind of tattoo than Mr.
Hemphill has on his shoulder, right arm, forearm,
tattoo. It was written in script.
This is Garcia later on.
You described the person. Were you able to observe
a tattoo?
Yes, on his right forearm.
Forearm?
Yes, forearm.
Okay. Were you able to read it?
No, it was just script. I seen it was script.
And you were able to see that and you remember
that?
Answer: Correct.
Then you have Marisol. She also talks about a
[1563] tattoo.
Do you recall whether during this incident the
taller person, not the heavyset one, the taller person
having a tattoo?
And she says yes.
And you were able to see that, were you not?
And she says yes.

267
And that’s Marisol, so you have three. Again, it’s
not just one. It’s three witnesses describing a lettered
tattoo on the forearm of the person they had the fight
with. And, you know, what are the odds again that all
three witnesses are making the same mistake
independently about what they saw? Again, not very
great.
So, you have three witnesses. Again, just like with
the identifications, all saying the same thing. They’re
not all making the same mistake. They’re all
independent, reliable witnesses seeing a person that
they say had a short-sleeved shirt, not that sweater
that is in evidence, and a lettered tattoo.
And so if the shooter — if the shooter, the person
they were fighting with who comes back and does the
shooting, had a lettered tattoo on his right forearm, it
ain’t Darrel Hemphill.
Again, this is something to consider when you’re
thinking about whether the proof convinces you
beyond a [1564] reasonable doubt of what they’re
saying.
So, you know, where does that leave us? You know,
where does that put us? If someone said to you, you
know, and you sat through a long trial, there is some
conflicting evidence, what do you know for sure about
the shooter, if you were listening to that testimony you
would say, well, one thing I know for sure is he had a
lettered tattoo on his right forearm. It ain’t Darrel
Hemphill.
What else might you say? Well, I’m pretty sure
that he was wearing a short-sleeved shirt. Three

268
witnesses described that. You know, again, that is —
it wouldn’t be Mr. Hemphill.
It’s — you know, you saw again, you know, the
Bronx 12 thing and Morris doesn’t have a lettered
tattoo, so what does this mean? You know, who is the
shooter? What did he really look like? Did he have a
lettered tattoo? I don’t know.
Was it Morris? Yeah, maybe. A lot of witnesses say
that. I don’t know.
Is it Hemphill? It doesn’t seem like it. There ain’t
any much evidence against him.
Was it some lettered-tattoo guy? I don’t know.
But the point is you don’t have evidence on which
you can reliably convict another person of murder. You
just don’t have it.
[1565]
Again, you know, I just want to remind you, and
the Judge will give you a charge on the law, it’s never
a question in a criminal case with so much at stake
about guess work or what is possible or likely or could
have been. It’s about, you know, beyond a reasonable
doubt. Eliminate every reasonable possibility of
innocence, and you can’t just do that based on the kind
of evidence that we all saw in this courtroom.
Now, I want to talk about DNA. Okay? Because
that’s another thing that you can get misleaded about,
misled about, like with the sweater.
Now, on what DNA is and what it isn’t, what it can
tell you and what it does not tell you, and I want you
to put out of your mind all the CSI stuff and everything

269
else, you know, where they do magic science and, you
know, whatever they do and they pull solutions out of
a hat.
DNA in the right situation can be a handy thing.
It could tell you who the parents of a child are. It could
tell you if you’re going to be susceptible to some disease
in the future. That could be useful to know. In a case,
it can identify a suspect or it can eliminate a suspect.
It can be a good thing, but you have to see it in the
context of each individual case and what it contributes
or doesn’t contribute to that case.
All the DNA in this case can tell you, and [1566]
Yanoff, I think, was the person who testified about the
DNA. Anyway, whoever the criminalist was, maybe it
wasn’t Yanoff, was quite candid about this, because,
you know, the science people, they know what they can
say and what they can’t say is. All the DNA can tell
you in this case is that at some point in the life of that
sweater that is in evidence and at some point in the
life of Darrel Hemphill the two came in contact. That
is all it can tell you.
It can’t tell you when that happened, or how many
years ago it happened, or how long the sweater had
been laying in that closet before it was recovered, or
the circumstances under which that happened. It can’t
even tell you who the last person that may have worn
that sweater is, so, you know, don’t, don’t, you know,
just be carried away by just the words DNA.
And bear in mind, again, that we have already
seen from the lab evidence and the testimony of the
witnesses about what the shooter is wearing, that the

270
sweater that is in evidence, the one with the DNA,
probably has no connection to this shooting anyway.
This is — it is Ms. Yanoff from the — who did the
DNA.
One of the things that she told the district attorney
that DNA cannot tell you is when a particular DNA
sample got deposited on items.
[1567]
Is that correct?
That’s correct.
As a matter of fact, there have been cases where
DNA got examined from many, many years ago?
Yes.
So if the DNA, for example, is found on a sweater,
you can’t say whether that DNA was deposited a week
before you got the sweater, or a year before you got the
sweater, or ten years before you got the sweater or 20
years before you got the sweater; correct?
Answer: That’s correct.
So just to clarify from the DNA analysis that you
did, you’re not able to say when the DNA on the
sweater got deposited?
That’s correct.
And you’re not able to say the circumstances under
which the DNA got deposited?
Correct.
And you cannot even say the last person to handle
that sweater or wear that sweater?

271
I cannot.
Okay. As I say, she’s pretty candid about that, so
the bottom line on — oh, and another thing. She
doesn’t — she can’t even say whether there was not
other DNA on the sweater. That’s an interesting point.
[1568]
When you say on the sweater, you’re talking about
the one sample that you examined; correct?
That’s correct.
But it may have been on all the rest of the sweater?
I’m talking about DNA.
But DNA may have been on all the rest of the
sweater? You cannot say. You only examined that one
sample.
Answer: Correct.
So with all that other stuff that the DNA can’t tell
us, it can’t even tell us if there is other DNA from
somebody else on the sweater, because she only
examined the one sample.
So, the bottom line on the DNA is that, I submit —
you make your own evaluation — it tells you very little
about the sweater, concerning which all the other
evidence, the lab report, the witnesses, the
descriptions suggests that that sweater had nothing to
do with the shooting.
I have a note here about aluminum fragments
being on the sweater, but I think I already discussed
that.

272
Just to pin that down, this is Berger, who did the
work at the lab.
They didn’t contain the element composition we
[1569] expect to see from a possible bullet fragment.
So, again, the stuff in the sleeves, that had been
accumulating in the sleeves who knows for years, has
nothing to do with ballistics or bullet fragments or
anything else, and just think about whether that’s the
sweater that somebody had just worn that had been in
a fight.
Now, I want to talk about Burger. I’m sure you all
figured I’d probably do that at some point, because, you
know, if you didn’t — if you don’t swallow what
Ronnell is selling hook, line and sinker there is really
no case here, because, like I said, he is the only guy in
nine years, ten years, however long it is, to say that
Darrel Hemphill was involved here as the shooter.
No witness has come forward then or now to say
he is the shooter. He’s never put in a lineup or photo
array and asked if he is the shooter.
Even after Gilliam changed his story and said, no,
it’s not Nick, it’s Darrel, back in 2006, they didn’t buy
it. They didn’t arrest him. They didn’t want him. They
didn’t put him in a lineup. They weren’t interested in
asking anybody if he was the guy.
And, you know, it’s interesting that not even his
own lawyer, the person that they’re asking you to
believe as their primary witness, the only one to say
that Darrel [1570] is the shooter, is not even believed
back then by his own attorney. And there’s questions
about this.

273
You remember Vomvolokis testified and he said:
You said that when you first — and you recall he
had his first meeting with Mr. Gilliam, with Burger,
was on the steps of the other courthouse. Remember,
he came up and that was his first meeting before the
first time that Burger meets with the DAs and the
detective, where Burger goes in and says Morris is the
shooter, and that is where Vomvolakis meets him and
he’s talking about:
You said when you first — there was a time when
you first met Gilliam. I think you said near the old
courthouse?
Answer: Yes.
And that was prior to his initial meeting with any
law enforcement. That is the meeting in which he says
Morris did the shooting?
Correct.
And I think you said that you spoke to him and
that you had became comfortable with his honesty at
that point?
Answer: Yes.
So, here is Vomvolakis. He’s meeting with Burger.
It’s before Burger goes in, and he’s talking about what
he’s going to tell the police when he goes in for his
[1571] first meeting, that he’s going to say that Morris
is the shooter, and he’s talking about that with his
lawyer and his lawyer is comfortable with his honesty
at that point.
And then it goes on:

274
All right. Is it fair to say at some point later in the
series of statements you became uncomfortable with
his honesty?
And he says yes.
And I assume that was a result of the varying
statements and the inconsistencies that he was giving?
Answer: Correct.
So, his own lawyer, when he initially meets him
and Burger is saying Morris is the shooter, his lawyer
is comfortable with his honesty, and he’s an
experienced lawyer. You ask questions. You make
judgments like that.
But later on, when they go in and for the other
meetings and he changes the story to Hemphill, he
becomes uncomfortable with Burger’s honesty, just
like you should be uncomfortable with his honesty.
That tells you a whole lot. That’s his own counsel.
When you think about Burger, you know, just, you
know, step back a minute. You know, sometimes in a
long trial and all, we get a little caught up in the
process, you know, and a lot of this just has to do with
common sense and what you guys do in your everyday
life, and don’t [1572] lose, you know, sight of that.
When you think and you ask yourselves whether
Burger is somebody you can trust and whether you can
make an important decision like you’re going to have
to make in this case based upon what he says, I think
it fair that you ask yourselves, you know, if I had to
make an important decision, and we spoke about this
in jury selection, if I had to make an important
decision in my own life that would have a profound

275
effect on my future, you know, if I want to move to this
location, take this job, have a child, marry this person,
whatever, buy this property, you’re going to make an
important decision like the decision you’re going to
make here and you’re being asked to make that
decision based upon information given to you by
Gilliam, who is going to feel comfortable making that
decision? Anybody? I don’t think so. Not based upon
what we know about Ronnell. Just think about that.
It’s common sense.
So, let’s start off and see if Gilliam is someone you
should believe, someone that earns your trust. I asked
him some questions.
Have you told lies during this investigation of this
case? And I’m not asking him about lies out on the
street or white lies that he’s going to tell his, you know,
his partner or whatever. Lies during this
investigation.
Yes.
[1573]
When you told those lies, did you tell some of those
lies to people from the DA’s office?
Yes.
And did you tell some of those lies to detectives
that were investigating the case?
Yes.
And sometimes you tell lies to protect people, don’t
you?
Yes.

276
Sometimes you told us you lie in order to protect
people and sometimes you lie in order to do the
opposite, to hurt people; right?
Yes, sir.
And sometimes you lie because it’s good for you;
correct?
Yes, sir.
So, for starters, when you’re thinking is this the
guy I’m going — whose information I’m going to rely
on in this important decision, that he tells lies during
the investigation, he lies to the DA, he lies to cops, he
lies to help people sometimes, he lies to hurt people
sometimes and sometimes he lies because it’s good for
him, and this is their main guy, you know, the pillar of
their proof.
So, let’s see what’s good. Sometimes he lies when
it’s just good for him. Let’s see what is good for [1574]
Ronnell.
Well, he’s got this cooperation agreement. Okay?
Now, you guys, you’re smart people. You know, we
were careful about choosing you folks because you are
savvy. You know, you’ve been around. You’ve lived in
the Bronx. You know, you’re smart people. You know
what’s happening. And I probably don’t have to lay this
out for you, but, anyway, here is a guy who tells you he
lies, tells you he’s lied all over the place about this case
and sometimes he does that when it’s good for him.
It’s back — you know, back in 2010, he is doing
time. He’s in jail. I’m not sure why, but, you know, he’s
in jail. He’s been in there, you know, a zillion time out

277
at Rikers. Nobody wants to be out at Rikers. We
understand that, and I don’t know why he’s in jail.
He tells you, and we’ll come back to this when he
talks about his plea, he didn’t do anything. You know,
he was in a fight, so something’s not right. What’s he
doing in jail? He’s not a shooter. He didn’t kill anybody.
Anyway, he really, really wants to go home, and all
he’s got to do is make a deal, just come on, you know,
what you said back in 2006 when you changed your
story, you said Darrel, you know, you said Darrel did
— we didn’t believe you back then, your lawyer didn’t
believe you back then, but if you say that now you go
home.
[1575]
Now, that’s a powerful incentive, especially for a
person who is in the habit of kind of lying if it’s in his
best interest. So, Ronnell, he’s no fool. He weighs his
options, and he says to himself, well, if I go back to my
original story that I told my lawyer and we went in and
I said that it’s Nick, I do 25 years. If I stay with my
Darrel story, which nobody really took me seriously
about back then, you know, then I go home.
You know, I mean is that going to be a hard choice
for Burger? It would take a stronger person than him
to stand up to that kind of pressure.
And this, you know, this tell the truth stuff, you
know, I only get the deal if I tell the truth, you know,
it’s all up to the judge or whatever, that’s nonsense and
I’m sure you all understand that. You know that’s
nonsense.

278
The truth, you know, the quote truth is what is
good for the prosecutor at the moment, and we know
from the history of this case that that truth changes
over time, so what was the truth when they were
prosecuting Morris is not the truth now. Now, the
truth is what works for this case.
And if you want a really big example of this, of how
the truth gets manipulated to whatever is good for
Ronnell Gilliam, just take a look at his guilty plea
which he’s got to do in order to get the deal. If he
doesn’t do [1576] that, he doesn’t get the deal, boom,
25 years, good-bye Ronnell.
Okay. I’m asking him questions.
Have you ever in the various lies that you told in
this case, have you ever lied in court to a judge?
No, sir.
I think you told the assistant district attorney in
your questioning this morning, first of all, you never
had a gun; right?
No, sir.
That day? And you never — it was just a fight as
far as you were concerned; right?
Yes, sir.
And it was pretty much kind of over with; right?
Yes, sir.
And you didn’t shoot anybody; right?
No, sir.
And you didn’t want to kill anybody?

279
No, sir.
You just wanted to kind of keep it at what it was
without getting worse; right?
Yes.
And I think you said when you saw a gun you said
first it was Nick, then it was Darrel, whatever. When
you first saw a gun, whoever had it, you said don’t do
that?
[1577 1576A]
Answer: Hold up.
Hold up, don’t shoot?
Yeah.
(Continued on the next page . . . )
[1577]
MR. SEARS: And you didn’t intend for
anybody to get shot?
No.
And you certainly didn’t intend for anybody to get
killed?
No.
But you took a plea, did you not? You took a plea?
Yes.
That was back around the time of this cooperation
agreement?
Yes.
When you took that plea, did the judge ask you did
you intend to cause the death of David Pacheco?

280
Now, bear in mind he just told you he didn’t intend
to kill anybody, he didn’t shoot anybody. He told the
shooter to stop. Okay?
When you took the plea, did the judge ask you did
you intend to cause the death of David Pacheco, Jr.?
The judge asked you that?
I’m not sure, sir, if the judge did.
He’s kind of hedging, getting a little worried here.
He’s pressed on this.
Well, I’m going to show you this. I will show him
— I get out his plea transcript. Okay. And I’m reading
[1578] from the transcript.
Referring to when you entered the plea to
Attempted Murder in the Second Degree, do you recall
when that happened?
Yes.
Do you recall the judge asking you and you giving
this answer: Under that count of the indictment, Mr.
Gilliam, it’s alleged on the 16th of April 2006 here in
the Bronx you, acting in concert with another, Nick,
whatever, with the intent to cause the death of another
person did in fact cause the death of David Pacheco?
The Court goes on to say: With the intent to cause
the death of another person, you, acting in concert with
another person, caused the death of David Pacheco,
Jr.?
And all this acting in concert talk, there’s no
mention of Darrel Hemphill he’s acting in concert
with. The judge is questioning about his intent to

281
cause the death of David Pacheco, Jr., but he just told
you he had never intended to do that.
Do you recall being asked that by the judge?
Yes.
Is that allegation against you true, Mr. Gilliam?
And you answer yes.
And when you gave that answer about intending
to [1579] cause the death, that’s a different answer
that you just gave me when I asked you questions
about whether you intended to kill anybody or not.
That’s a different answer?
Yes.
And did you do that, did you have to do that, take
that plea and say what I just said in order to get your
cooperation agreement?
Yes.
Now, before you signed your agreement, where
were you living?
In Riker’s Island. I’ve been in Riker’s for four
years.
And I assume, like most people, you wanted to get
off Riker’s?
Yes.
You wanted to go home?
Yes.
And when you took the plea and gave those
answers to the judge so you could get that plea and you

282
signed your cooperation agreement, that you get out of
jail?
Answer: Yes.
You went home?
Yes, yes.
You’ve been out of jail ever since?
[1580]
Yes.
So here’s a guy who would say anything, anything
to a judge, just goes through I didn’t do anything. I
didn’t shoot anybody. I told the shooter to stop. I didn’t
want anybody — I didn’t have any intent to kill
anybody. He enters a plea in which he tells the judge,
this court, under oath, yeah, I intended to do all that.
He takes that plea. Why does do it? Not because it’s
the truth, he does it because he wants to go home.
That’s the guy you’re being asked to rely on in this
case, the only person that says Darrel Hemphill was
the shooter.
Another way you know that he’s lying, I mentioned
this before, he tells you he’s standing next to the
shooter when the shooter shoots. And this is a big, you
know — you know Burger, everybody knows Burger,
all the witnesses, some of them even know him by
name, 400-pound guy with the braids and bad eye or
something like that. Okay,
He says I’m standing next to the shooter when the
shooter fires. Okay. You know that’s a lie, because no
witness, none of the lineup witnesses, anybody else,

283
says that standing next to the shooter when he was
shooting was 400-pound Burger.
Another example, there’s so many to choose from.
[1581] There’s the .357. He talks about .357 gun that
now in this version for you he says Nick had it, as
opposed to the nine millimeter. He knows he can’t say
the nine millimeter, because that’s the shooting gun,
the one that Nick has the ammo for. We’ll come back
to Nick in a minute.
So Nick at some point enters a plea, we’ll talk
about this, to possession of the .357, plea that’s entered
against his lawyers advice for which there was no
evidence. Nick ends up pleading to possession of the
.357 for which there was no evidence, that the district
attorney couldn’t prove the case. He just enters the
plea because he wants to go home. We’ll come to that.
Whole thing kind of just smells bad.
So you would think, anyway, if Nick really did
have the .357 back on April 16th of ‘06 and not nine
millimeter for which he just happened to have the
ammo, Ronnell Gilliam, having mentioned that
somewhere in the three different statements that he
gave back in April and May, especially when he says
he’s trying to get his — you know, you got Nick
arrested, now he’s trying to get him unarrested, only
he never did mention that.
In all the lies about the nine millimeter and the
different things he said happened and different people
he said got arrested, nine millimeter, it never —
remember, [1582] at one point he says — he put the —
took the nine millimeter to Clemente Park and threw

284
it in the water. At some point, he said somebody else
got rid of it.
No, I used — took it where I used to deal drugs. In
all of that he never mentions, by the way, Nick had a
.357. Okay. And he was asked about that. This is
Gilliam on cross:
You mentioned a .357. The first time that you
mentioned a .357 and Nick as being any way involved
in this case, I meant .357 with Nick, was in 2010,
around the time of your plea and cooperation
agreement; is that right?
So he said, typical Burger: On paper, yes.
You know, he’s hedging, suggesting yeah, I said
that but none of the cops wrote it down. As if that’s
likely, he says yeah, it’s the first time I stated on
paper.
So I asked him:
Question: On paper? And in your three original
statements you gave, including the two where you said
you were coming clean, there was no mention of a
second weapon?
Answer: No, sir.
Correct?
I made sure his answer is what I think it is.
[1583]
I am correct, right?
He says, yes, sir.

285
Okay. There was no mention of a second gun, no
mention of a .357, because it didn’t exist, not until this
trial.
Morris pleads to .357, kind of hooks up with that,
what Gilliam is making up, pleads to .357 against the
advice of his lawyer and knowing that there’s no
evidence to prove it for the same reason that, that
Ronnell makes his deal, and that’s to get out of jail.
Okay. Let’s take a look at that and see if there are
any resemblances. Okay.
This is questioning from the transcript of the plea
that can you please read from the transcript, etc., etc.
This is his lawyer. This is when Morris is taking his
plea. He indicates that: Over my strong advice, he will
take the plea. Just so the record is clear, it’s my
understanding that the district attorneys — the
nature of the proof that exists with respect to this gun,
supposed .357, never mentioned by Burger, proof that
exist with respect to this gun count that my client is
about to plead to is not sufficient for them to obtain an
indictment.
You can’t even be charged with, never mind a
conviction.
[1584]
The only way they will be able to make out the
limits, hope he doesn’t mean limits, elements of this
crime, my client’s admission, which I suppose he will
be willing to make, it seems, so that he can get out of
jail today.

286
So Morris to get out of jail is entering a plea to a
gun against his lawyer’s advice and for which there is
no evidence that the DA has that he ever possessed.
And the Court says — his lawyer goes on:
Thank you, Judge. I also understand that the
Court is going to release, Morris, today on his own
recognizance.
That’s what’s going to happen. So he’s not even
going to have to go back into prison, get checked out or
whatever, he’s going to just walk out by admitting a
plea that is nonexistent weapon, for which there was
no proof and against the advice of his attorney, just
like Ronnell enters his plea so he can go home.
And this kind of evidence, I submit should really,
really bother you. I mean, it should be offensive to you,
pleading to things there’s no evidence, other pleas with
deals in the offering. You know, whatever it takes.
Luckily, we have jurors that can sort this out and
make a determination as to what’s reliable and what’s
not.
[1585]
And you know, by the way, while we’re talking
about Nick, if he’s such a big part of the DA’s case, why
ain’t he here, you know?
And what about William?
MR. OUSTATCHER: Objection.
THE COURT: Sustained.
MR. SEARS: What about William?
MR. OUSTATCHER: I request a curative.

287
THE COURT: Yes. Disregard. Disregard that
comment. Counsel.
MR. SEARS: Well, what —
THE COURT: Counsel, no. Come up.
(Whereupon, there is a discussion held off the
record, at the bench, among the Court, Mr. Sears and
the Assistant District Attorneys.)
THE COURT: Ladies
and
gentlemen,
disregard the argument regarding Nick and whether
or not Mr. Morris is or is not available in this case.
That is not your concern whatsoever. Disregard the
argument.
MR. SEARS: That’s fine. It’s withdrawn. If I
said something I shouldn’t have said, I apologize, but
I think you get the point that I’m making about the
plea and the .357 and the rest of the things that I’ve
said to you. Again, it’s your view of the evidence that
counts, it’s not mine.
[1586]
And so coming back again to Gilliam, he makes
this statement implicating Nick to the detectives, and
DA’s first statement of his lawyer, and he’s asked
about whether he’s just protecting his cousin by
implicating Nick. And, you know, he described how
painful it is for him to actually do that and how hard
it is for him.
As a matter of fact, in the first statement that you
made, you were asked, are you just saying that to
protect your cousin, meaning, Mr. Hemphill?

288
And you told him how you would never do that,
because this is such a hard thing for you to do, to say
something about Nick, right?
Answer: Yes.
And that was a hard thing for you to do, was it not?
Answer: Yes, yes.
At the time, you knew Nick was in custody, already
been arrested?
Answer: Yes, sir.
What does he say? His hard thinking, giving up his
lifelong best friend, his initial statement which his
lawyer credits. And what does Ronnell say the reason
for doing such a hard thing? He says, I did that
because Darrel told me to do that.
Well, you just make an evaluation as to whether,
[1587] whether Ron Gilliam is going to give up his
lifelong best friend because Darrel said to do that.
And, you know, his best friend Nick, he ain’t very
happy about his giving up, because he’s sitting in jail.
And he tells Burger, you know, you better fix this,
man, get me out.
So two weeks later, Burger goes and makes the
second statement where he says Mr. Hemphill. And by
then, Mr. Hemphill is in North Carolina. You know, he
probably figures, well, Darrel is in North Carolina, if I
say something about him, he’ll be okay. I got to get
Nick out.
So he goes to the precinct to make that second
statement and implicate Hemphill, and that’s going to

289
be okay with Nick. Only Nick wants to make sure that
that’s what’s happening.
And this is another incredible thing. Ask
yourselves if this is coincidence. The witness and
ballistics evidence and everything else about Nick,
while he’s asked at the precinct — okay. This is from
the transcript:
In the second of those conversations, that would be
on May 9th of 2006, while Ronnell was — this is
Jimick. While Ronnell was at the precinct, while
Ronnell was at the precinct, he was talking to you and
talking to you about [1588] this case, was he not?
Yes.
While that was happening, you said you received a
telephone call from Nicholas Morris, did you not?
That’s what he informed me.
Did he have a conversation with Nicholas Morris
in the phone call?
He had a conversation, never identified himself as
Nicholas Morris.
But he was saying it was Nicholas Morris, he had
a conversation with that person?
Correct.
And do you know where that person was calling
from?
Well, if it was Nicholas Morris, it would have been
from Riker’s Island but depending on who it was.
Okay. But that’s what you were being told who it
was?

290
Answer: That’s correct.
And as a matter of fact, I think you said, the
district attorney, based upon that assumption that’s
Morris calling, said I can’t talk to Morris, he’s got to go
through his lawyer?
That’s correct.
So I mean, is that just another coincidence? [1589]
While I mean — think about this. While Burger is
making the first statement, actually his second
statement, with the first one where he says it’s not
Nick and it’s Darrel, Nick calls him. He knows he’s at
the precinct. What’s going on? Obviously discussed
this. Because he wants to make sure that Burger is
getting him off the hook.
Now, is that just a coincidence, or does that phone
call tell you what’s going on between the two of them?
So how many lies did Gilliam tell us? Not even he
knows.
I can read pages and pages of the transcript, but
I’m not going to. I got to move along. You can ask to
have it read back, cross-examination. I’m sure you
remember it.
He lied about what happened with the gun, lied
about how he got rid of it. He lied about how he got
back from North Carolina. He lied about who did the
shooting. He lied about his conduct to the judge when
he took the plea. He lied about not lying. He lied to
help other people, hurt other people, help himself.
In the end, what can you say about Gilliam?
Exactly what he says about himself.

291
It’s fair to say based upon the discussion that we
have been having that your idea of the truth in this
case has changed from time to time and statements
that you have [1590] made?
Answer: Yes.
So that’s the guy that you’re being asked to rely
upon in making a decision.
Like I said before, imagine you’re making an
important decision in your own life. He’s the guy you’re
being asked to rely upon.
Before we leave Ronnell, I want to talk a moment
about his grandmother, Ardell. Remember Ardell
Gilliam came in?
Now, the DA is a powerful fellow. They can bring
in whoever they want. They want to bring in Ardell
Gilliam, that’s fine. But I mean, how much confidence
do you think they have in their case? This is a woman,
I forget how old she is, she’s suffering from cancer at a
time that all this happened. You know, there’s
testimony about that. You know, is their confidence in
Ronnell’s testimony so fragile to bring this woman in
and, you know, what is it that she has to say?
Do you really think the recalling back nine or ten
years ago, she’s sick, medication, whatever, she
describes where she is in the apartment, which is a
different area, you know, that she’s really
remembering, you know, what occurred that day or if
she’s just kind of saying what her grandson is saying.
[1591] You know, so I asked her at one point, she
seemed a little confused:

292
The district attorney asked you a question about
what Darrel may have been wearing that day. Do you
remember him asking you that question?
And she says no.
Just a few minutes ago asked that.
Do you, as you sit here now, do you remember what
Darrel was wearing that day back in 2006?
She says no, I don’t.
Now, you know, in fairness, the DA comes back
and asks her questions and in response to the DA’s
questions few minutes later she says yeah, I do
remember, He was wearing a sweater.
Again, this is a sweater that the witnesses do not
say he was wearing, that the forensic evidence say
wasn’t involved in the shooting.
But anyway, she comes back and district attorney
asked, she says yeah, I remember now, he was wearing
a sweater, which consider whether she really
remembers and how reliable she is or if she’s just a
nice woman, you know, coming in and saying what her
grandson says.
Where she was in the apartment, she probably
couldn’t really see.
She says in her testimony: I didn’t see Nick come
[1592] to my apartment.
You know, there’s testimony from Ronnell that
Nick, was in the apartment, so she’s not seeing really
much about what’s going on.

293
Question: Is there a particular room or area in the
apartment that you would stay because you weren’t
feeling well?
My bedroom that’s facing Harrison Avenue.
Ronnell and William’s bedroom where most of the
stuff took place is facing Tremont. Okay.
I’m in the front, they’re in the back. Okay.
I don’t really have to say anymore. I don’t think
about Ardell. Nice woman.
I’m getting toward the end. I want to thank you
guys for hanging in with me and paying attention.
I want to say a few words about flight. The district
attorney mentioned that in his opening; I’m sure he
will again in his closing remarks. The judge is going to
give you a specific instruction about, instruction
consciousness of guilt and how you can consider that
and what kind of weight you should give that. I ask
you to listen to that instruction.
I want to caution you lots of reasons why people
you know, go places, do things, why people want to be
around someplace and may not want to be around
someplace.
[1593]
So when you have on that, you know, from Jimick
and, you know, from McSloy, McSloy didn’t have much
to say. He was the guy that went and took the swab in
2011. He goes and takes the swab, stops the car. Darrel
is in the car with his wife, his children, you know.He
hasn’t disappeared from the face of the earth. Talking
about some person that doesn’t want to be found, he’s

294
not hiding out, hasn’t changed his ID, not under a
different name. He’s in North Carolina. They know
where he is.
Jimick told you he has his information in his
memo, memo pad. They know where to find him. They
have his phone numbers.
His attorney speaks to the police with Jimick in
days after the investigation. They want a DNA swab,
they know where to go.
They stop his car, he cooperates, gets out of the car.
He’s with his family. When they want to arrest him in
2013, they know where to go to do that.
Just, you know, consider is this a person who’s
fleeing? If that’s what he’s trying to do, he ain’t doing
a very good job. You know, if he’s trying to hide, he’s
doing it like kind of in plain sight.
And even, you know, even after 2011 when they
take the swab, he cooperates, so he knows hey, they
took my swab, I’m a suspect. Why else they taking my
swab? Does [1594] he run away? Take off? Change his
name? Nothing. He’s at the same place in 2013 when
they go to arrest him two years later. He’s not hiding
out, etc., etc.
Another thing you should consider is what Ronnell
tells you, and I think it was that night that Darrel –
down in North Carolina, he said Darrel came to me
like yo, listen, I’m going to leave. This is Gilliam,
obviously.
Me, Aida, his then wife and my son, we going to go
back to New York, You going to stay here. I’m going to

295
find out what’s going on up there. And you going to be
a’ight.
So, you know, just ask yourself if this is somebody,
like a few days after the shooting, he’s in North
Carolina, he can stay there if he wants, whether
somebody who is fleeing from a homicide is going to go
back up to New York where with, you know, his wife
and kid, to quote, find out what’s going on? I think you
will conclude this is not a person who is running from
a murder case.
Well, okay, I’ve spoken for a long time. I’m
concluding.
I’m wrapping up now, Judge.
Maybe too long. I apologize. It’s great for you guys
staying with me. There’s a lot to say, long trial [1595]
and, you know, awful lot a stake. A man’s future.
I tried my best to talk about what parts of the
evidence I think are important. And I ask you to take
those into the jury room with you. And if those
arguments make sense, just talk about that. You
know, I hope some of what I said helps you to reach a
fair verdict. I tried to focus now and during the trial
and, I think, on the important issues.
I didn’t spend a lot of time with medical examiners
and crime scene guys. I tried to focus on the heart of
the case, whether there’s proof reliable beyond a
reasonable doubt, proof that Darrel Hemphill did this
shooting. I hope I managed to get the points that are
important in that consideration across to you.
And the truth is, I would submit to you, you know,
whether it’s popular or not, whether it’s going to sit

296
well with people or not, that the evidence in this case,
in this case, is just not convinced, not the DA’s fault,
it’s just the way it is, the way some cases that happens.
The law requires proof beyond a reasonable doubt,
and there are good reasons for that. We just don’t have
that in this case, not even close.
Now, the district attorney is going to go last. He’s
going to talk tomorrow right before the judge instructs
you, so what he says is probably going to be [1596]
fresher in your mind when you deliberate. I just ask
you to try and remember tomorrow when you
deliberate some of the things that I said.
And going last is a big advantage. Mr. Oustatcher
can talk about things that I said and say that stuff
Sears said about this, hey, what about this, here’s
another way to look at that. He can do that. I won’t
have that opportunity.
So in fairness, I ask you when you hear Mr.
Oustatcher and you think about things that he says,
ask yourselves, well, if the defense lawyer got up, you
know, would he have some reasonable response to
what’s been said. I think that’s only fair.
But, you know, nothing the DA says can change
the evidence. He wants you to believe everything that
helps his case, disregard the things that don’t help his
case and, you know, you can’t do that. Don’t be taken
in by that. The evidence is inconsistent as it is.
If there’s evidence that someone other than Darrel
Hemphill did the shooting, which this case is full of, so
be it.

297
If the evidence from Ronnell Gilliam is not credible
and something you’re comfortable relying upon, so be
it.
If a witness is not worthy of your trust, then [1597]
he’s not worthy.
If there are conflicts and unanswered questions
and things remain unresolved and things you can’t
square in the testimony, tattoo stuff, did he have, did
he not have, so be it.
It’s not your job to, you know, fix things that can’t
be fixed. It’s not your job to clear up discrepancies that
are there in the evidence.
The DA’s case, as I tried to talk about the sweater,
Ronnell, heart of their case is not just reliable. Ronnell
is certainly not somebody you’re going to bet your
house on. The sweater is beside the point, basically.
There’s no evidence it was involved in the shooting,
and the reliable witnesses described the shooter
wearing some other kind of garment.
Those photos which I suggested to you, those two
people simply don’t look alike.
Every criminal case, particularly in a murder case,
jurors have a right to insist, insist that before you’re
asked to convict another person of a serious crime that
you have reliable, consistent proof so that you’re
comfortable that there’s no reasonable possibility that
this man is not guilty.
I submit there’s no way you can come to that
conclusion in this case. The evidence is not just, isn’t
[1598] good enough.

298
What I said at the beginning, this case is a mess.
It’s not your job to clean it up. There’s a tragedy here,
tragedy for the family, these people, for the
community. Young child died. And we all, you know,
we all suffer a bit when something like that happens
in your midst, but to convict somebody on this kind of
evidence, you just add to the tragedy. It wouldn’t solve
it.
I ask you on behalf of the family and behalf of Mr.
Hemphill to bring in a verdict of not guilty, not because
I want you to give him a break or sympathy. We’re not
asking for that. We’re asking for fairness, your fair
evaluation of the evidence. And if you give us that, I’m
sure that that’s going to be your verdict.
I thank you again for paying close attention for all
this time.
THE COURT: Thank you, counsel. Ladies and
gentlemen, we’ll break for the day. I’m going to ask you
to be back tomorrow. I know I brought you in at ten
and kept you waiting. It’s sort of necessary, but I’ll give
a little extra room.
Is there a hardship for anybody coming in at ten
tomorrow? I’ll try to get started a little earlier than we
did today, depends little bit on, unfortunately, other
cases that I have to do, but if you all wander in here
****

299
[1600]
SUPREME COURT OF THE STATE OF NEW YORK
COUNTY OF BRONX: CRIMINAL TERM:
PART 60
THE PEOPLE OF THE STATE
OF NEW YORK,
- against -

INDICTMENT
NO.
1221-2013

DARRYL HEMPHILL,
Defendant.
265 East 161st Street
Bronx, New York 10451
December 3, 2015
BEFORE: HONORABLE STEVEN L. BARRETT,
ESQ., Justice of the Supreme Court (and
a jury)
APPEARANCES:
(Same as previously noted.)
****
[1604]
MR. OUSTATCHER: May it please the Court,
counsel, members of the jury. Good morning.
We are here today and we have spent the last
two months in this very courtroom because of one
person and one person only. It never should have come
to this, never.
If someone, if one person had taken a breath,
if one person had said, you know, it’s Easter Sunday,
it’s a beautiful day, I’m going to keep walking, if one
person, if one man, had just walked away we wouldn’t

300
have spent the last two months together in this
courtroom.
If one man had said, if one man had just
thought to himself, I got in a fistfight, I didn’t win, I’m
an adult, I’m going home, it’s not worth it, there would
not have been any of the agony, the pain and the
horror occurring over a period of years that you
witnessed in this very courtroom, but that didn’t
happen.
One man was not content to walk away. One
man was disrespected. One man was slighted. One
man was angry. For one man, it wasn’t enough to be
able to walk away from a fight without a broken nose
or a broken arm. One man, for reasons only he knows,
would not let it lie. For one man, what happened to
him on that corner was worth killing for, so one man
got a gun, not just a gun, but a loaded semi-automatic
9-millimeter pistol, the kind of gun you use when you
want to kill someone as quickly and [1605] efficiently
as possible, and that one man went back to the scene
of the crime, the scene of the fight with one thought on
his mind.
By his conduct that man was showing
everyone in that neighborhood that he was not one to
be trifled with, he’s not someone to be disrespected in
the street, in his neighborhood, where he has a music
studio. If you do, there are consequences.
There are men of words and there are men of
action and that man, that man in the blue sweater, in
that baseball hat, he was going to show everyone on
Harrison, in his neighborhood, that he was not going

301
to take getting beat up on the street, that he was a man
of action.
So, he went back to Harrison and Tremont. He
kept his hat on, because he’s not stupid. He pointed
that gun straight out from his chest and he unloaded
his clip. He wanted a body and he was going to get a
body. Someone, anyone, was going to pay. There would
be blood on the street, and he saw the man he got in
the fight with, a stranger named Juan Carlos Garcia,
right in the middle of the street, caught in the
intersection, and that man in the sweater, he pointed
the gun at Juan Carlos as Juan Carlos ran across the
street and scurried for cover, as that man, Juan
Carlos, with nothing but a bottle of water in his hand
ran across Tremont, and that man in the blue sweater
[1606] trained his gun on Juan Carlos. He didn’t just
squeeze the trigger once. He didn’t point the gun in the
air and fire a shot or two to scare people. He squeezed
that trigger over and over and over, spraying the block
with bullets, not caring that there was a church
nearby, children and mothers and fathers and
innocents all over that block, on the sidewalk, in their
cars, in their homes. It didn’t matter to that man in
the blue sweater with the baseball hat on.
At that moment, he had one thing and one
thing only on his mind, murder, plain and simple. He
wanted a body in the worst way. It didn’t matter who,
someone would pay for damaging his ego, for punching
him in the street, someone, anyone. And that man in
the blue sweater, he got a body. Yes, he did.
This isn’t just a murder, no, no, no, not by any
means. There are murders and then there are
murders. This was an execution, a cold-blooded,

302
premeditated, well-thought execution, nothing less.
And the man in the blue sweater executed his plan
perfectly. He got just what he wanted. No one would
ever mess with him again, and he walked away from
that murder scot-free.
That bullet accomplished just what the shooter
intended. It tore through the body of a human being,
at chest level for an adult, into the lung, through the
spleen [1607] and it severed the spinal column of the
victim. It caused an excruciating death within
moments of being fired, the kind of death an angry
person wishes to inflict upon someone who wronged
him, the kind of death that someone who points a gun
at another human being and pulls the trigger over and
over and over intends to, happen.
I don’t often respond to what other attorneys
say in their summations. I let them do their job and I
do my job, but I was actually struck, a little bit
stunned, yesterday, when I heard Mr. Sears make a
comment about sympathy.
You know, we spoke of sympathy during jury
selection, before any witness testified, and I thought
we got it out of the way, but defense counsel brought it
up in his closing argument yesterday, so I will touch
on it again.
As I’ve said throughout this trial, and from the
first moment we ever spoke, this case has nothing to
do with sympathy. I don’t need your sympathy. I don’t
want your sympathy. Mind you, I’m not too proud to
take your sympathy if it would bring back that little
boy from the cemetery and into his parents’ arms, but
that is not going to happen in this world.

303
And the reason I don’t need your sympathy is
because I’ve got the evidence. I have got his DNA. I’ve
[1608] got a woman who knew him since he was a kid,
who saw him in the fistfight in the blue sweater before
the gun came out. I walked his cousin into this
courtroom, and I haven’t just proven the murder, I’ve
exposed the well-planned coverup, the Manhattan
lawyer he hired to pin this crime on someone else, the
lifelong friend he got to lie in front of you and say he
was wearing a white T-shirt, earlier this week, and not
a blue sweater, and his mentee in Brooklyn, who saw
him and Burger off before they fled to North Carolina.
The defendant’s own grandmother walked onto that
witness stand and told you that he’s the man in the
blue sweater.
This case was never about sympathy and it is
not about sympathy, and the way defense counsel used
it in his closing argument yesterday, it’s as if he’s using
sympathy to get you to ignore the evidence implicating
the defendant in this murder, as if this child is being
used, the murder of this child, as if the defendant is
hiding behind that baby, as if calling this case a
tragedy makes everything okay so we can all go home,
except it doesn’t make it okay, not by any stretch of the
imagination.
That argument, by the defense invoking
sympathy, is an act of desperation. Don’t fall for it.
This murder, this execution, this intentional
murder of an innocent, it’s not just a single solitary act
that can be excused. This murder tore the fabric of this
[1609] community. This murder changed the fate of
everyone who was on the street that day, all these
strangers, Nick Morris, Ronnell Gilliam, Brenda

304
Gonzalez, Marisol Santiago, Joanne Sanabria, David
Pacheco, Sr., the father, Anthony Baez, Milagros
Pagan and their families and people who weren’t even
near the corner of Harrison and Tremont that day.
The moment the defendant fired those shots
the dye [sic] was cast. And the effects of this crime
didn’t last for just one day. Those effects have been far
reaching, reverberating over time and space to this
very moment, all because of one man and one man
only, one man in a blue sweater and a baseball hat, one
man’s choices, one man’s conduct, one man’s murder.
And now it comes to you, the jury, to hold that man
responsible for the choices he made and for his conduct
on that faithful day.
Twenty-nine witnesses, 120 plus pieces of
evidence and over 1,500 pages of trial transcript, you
might not appreciate it at this moment, but over the
course of these last two months, as you sat as jurors in
this very courtroom, you haven’t just fulfilled your
civic duty, you’ve received an education, an education
in real crime.
Whatever you thought you knew before you
walked into this courtroom, based on what you saw on
TV, you can forget it. You can wipe that clean. This is
reality. [1610] This is how it goes down in the street.
These are the witnesses, the people, the real
people who witness crimes. Some of them just
happened to be walking by or sitting in a car when
what went down went down, and some had a role in
what took place. Some had knowledge that something
was going to happen before it happened.

305
And this is the science. This is the science, the
forensic science, what it can tell you and what it can’t
tell you. It’s not like you see on TV. And what you saw
here in this courtroom over the last few weeks, this is
how it plays out in the courts in real life, years later,
when those same people who witness a crime are
brought in, some willingly, some forced into a
courtroom to say what they saw, what they remember,
what they knew.
Some are honest and open and some are hiding
something to this day, years later, and this is how a
murderer tries to cover up his crime.
This is not a pretty case. You were never
promised an easy case, wrapped in a pink bow,
presented neatly inside a gift box. This is real, nothing
more, nothing less.
What you have before you at this moment, all
of this evidence, is a great mask, a big ball of
information you will take with you into that jury room,
and within that [1611] mass of information lies the
truth, the truth of what happened on Harrison and
Tremont on that sunny Easter Sunday day.
And as much testimony as you have heard, as
much evidence as you’ve seen, the question put to you
in this case, the main question, the only real question
put to you is very simple: Who did it, Nick Morris or
Darrel Hemphill? And within that mass of information
lies the truth, so let’s get to it.
Nick Morris, the man who didn’t flee, the man
who didn’t run down to North Carolina like the guilty
people do, the man on television with the scar on his

306
face, what evidence is there linking Nick Morris to this
crime?
There is no forensic evidence, no DNA, no
videotape, no fingerprints, no confession to the police,
no identification by someone who knew him. He was
never picked out of a photo array, not a single tattoo
on his arms, neither his right or left.
We will talk about the ammunition in his room
later, but what evidence links Nick Morris to this
crime? The only evidence that links Nick Morris to this
crime is the word called a positive – defense called it a
positive identification, whatever that means, of three
people, Marisol Santiago, Brenda Gonzalez and John
Erik Vargas, inside a lineup room on April 18, 2006, so
it comes to you, [1612] the jury, to determine if these
people were picking out the actual shooter or were they
picking out the face of the man they saw on television,
that they saw on the newspaper just before they
walked into that room and looked at the lineup,
because there is no other evidence linking Nick Morris
to this crime.
Before I speak about what they saw and what
they did, Brenda, Marisol, Jon Erik, Jose and Juan
Carlos, let me say this. During jury selection we spoke
about fairness, fairness to the People, fairness to the
defendant, fairness to yourselves and fairness to the
witnesses.
When we – when I spoke of being fair to the
witnesses, these are the people I was referring to. They
didn’t ask for this. They were walking home on Easter
Sunday minding their own business. They were
approached, they were assaulted and they ended it.

307
They ended the fight. They could have kept going on.
They could have beaten the defendant and Ronnell
Gilliam to a pulp, because they were winning. Ronnell
and the defendant were outnumbered. But Jose, Juan
Carlos, John Erik, they didn’t.
As if that weren’t bad enough, after the fight is
over, when everything is quashed, when mature adults
would go home, get an ice pack and try to enjoy Easter,
they – [1613] they got shot at by someone who was
trying to kill them over what, a look, a punch? They
were unarmed. They were sitting outside their
building, catching their breath. It was over.
And then a child dies. A child dies because of a
fight they got into. They didn’t pull the trigger. They
didn’t have a weapon. They didn’t run from the police,
but they have it on their conscience. Because of their
fistfight, a child died. And then they’re pulled into this
chaos of the news on television and in the papers, and
the police, and so many statements to so many people,
and lineups and going into grand juries and
courtrooms for years, upon years, upon years. No one
could be prepared to go through what they were put
through, and all because of something over which they
had no control.
They never asked for this. They didn’t do
anything wrong. They weren’t invited to this. They
were forced into this.
We expect so much of our witnesses. Television
and the movies have heightened our expectations of
what witnesses should see, how they should look, how
they should talk, what they should remember, and if
they are anything less than perfect, if these people who

308
are plucked from their everyday lives and walked into
a courtroom in Supreme Court in New York State, the
highest trial court in the [1614] state, if they make a
single mistake, if in the innumerable statements they
made to God knows how many cops and prosecutors
and grand juries, if they make a single mistake, if they
can’t remember every single word they used almost ten
years ago, well, then they’re liars, they’re not
believable, they’re wrong, there’s reasonable doubt, so
let’s all go home. They get scoffed at and insulted
publicly.
Is that how it should be? Is that fair? Is that
just? Is that right? Not one of these people chose to be
here. Not one of these people volunteered and said let
me be shot at, let me be a witness.
The truth of this trial, the truth of every trial
in this courthouse, and it applies not just to Brenda
and Marisol and Jon Erik and Jose and Juan Carlos,
but every witness you saw during the course of this
trial, is that I don’t get to choose my witnesses. I don’t
get to sit back in an easy chair and look at a menu of
witnesses and say, well, on this case I want a school
teacher, a nurse and a Boy Scout.
You know who chooses the witnesses on my
cases? The criminal, the person who commits the
crime, the person who chooses that very moment, on
that day, at that corner, to pull out his gun and to open
fire. That’s the person who chooses the witnesses to
the crime. And it falls to me [1615] to find those
witnesses, whether they be strangers on the street,
people sitting in cars or members of the defendant’s
family, people he trusted, people to whom he revealed
what he did, people in whom he confided. It falls to me

309
to find these people and to bring these people into court
by saying please, serving a subpoena, entering a
cooperation agreement or having them arrested to be
brought into this courtroom, like Vernon Matthews.
Understand this as well, while these
witnesses, the group of five, Brenda, Marisol, Jon Erik,
Jose and Juan Carlos, while they testified in the
relative calm of a courtroom years after this incident,
these people, these citizens, were subjected to two very
quick violent acts.
It’s easier now to sit back and describe a
fistfight calmly, but when you’re getting punched in
the head and defending yourself, when you’re not sure
who is going to come after you next with what weapon,
it’s not so easy to pay attention to and remember every
single detail of what happened, so appreciate what
these people went through when you evaluate what
they told you from that witness stand. Give them a fair
shake.
And appreciate also that these differences in
what these people saw, in what they remembered, in
what they have said about what happened as they’ve
been questioned over the years, that which defense
counsel spent [1616] yesterday morning discussing
and calling a mess, these are differences in memory
and perception. And you can call them whatever you
want, the fact that people saw things differently and
remember things differently does not mean that the
incident never happened. I’m sure David’s mother and
father wish that it were so.
These differences in what people remember
and what they say, these differences are what you as

310
jurors or what we as people should expect when
different people with different vantage points and
different memories and different eyesights honestly
retell what they saw to a jury at a trial years later.
These differences in memory and perspective
and recollection are the hallmark of honest testimony.
This is what you should expect when different people
tell the truth as best they can, in their own words, both
inside a courtroom and in your everyday life.
Let me put it to you this way. You, the jury,
every single one of you sat in this same courtroom, in
this same jury box over the last two months, and each
of you saw the exact same witnesses testify to the exact
same things at the exact same moment it happened.
Right?
Not one thing happened at this trial without
all of you being here and having a front row seat to the
witnesses and seeing it together.
[1617]
When you walk back into that jury room, when
the Judge gives you this case, and you start discussing
what each of you saw and remembered over the course
of this trial, I guarantee that you will remember things
differently.
Understand this as well, you guys didn’t have
a gun being pointed at you and fired at you while you
sat in this box. You’re not being asked to remember
what you saw when you could have been killed.
Also, and this applies to every civilian on that
block, Anthony Baez, Justin Bautista and Milagros
Pagan, you guys had the benefit of opening

311
statements. You knew what was going to happen
before it happened. These people didn’t know what
was going to happen on that corner until the shots
rang out.
After the fistfight, it was peaceful. It should
have remained peaceful. These people, these
witnesses, were caught by surprise. No one knew what
the defendant was going to do until the very moment
that it happened.
So, back to you. Who was the fourth witness at
this trial? What happened on the fifth day of
testimony? What’s the 119th piece of evidence? If you
don’t know the answer to those questions, if when you
walk into that jury room and start discussing this case,
if one of you has a different memory than the other,
does that mean that you [1618] weren’t present in the
courtroom when that witness testified? Does that
mean this trial didn’t happen? Does that mean that
you couldn’t have seen what you claim to have seen?
Does that mean the witness never came before you?
Does that mean you’re a liar?
Under the logic you heard yesterday, that is
exactly what it means. To me, well, I submit to you, it
just means that you’re human beings, just like Brenda,
Juan Carlos, Jon Erik, Marisol and Jose, and that’s
how I ask you to treat them, as human beings. Don’t
expect them to be perfect, to be robots or computers.
Simply give them, give all the witnesses, a fair shake,
nothing less, nothing more.
Appreciate this as well, because this is very,
very important. Over the last two months, if you think
about it, you actually saw two trials in one. You saw

312
the trial of Nick Morris and you also saw the trial of
Darrel Hemphill. I didn’t have to, but I brought in
Brenda, Marisol, Jon Erik, the —
MR. SEARS: Objection.
THE COURT: Overruled.
MR. OUSTATCHER:
—
witnesses who
positively identified Nick Morris in that lineup back in
2006. I did that because it was important that each of
you saw these people for two reasons.
[1619]
Firstly, it goes to fairness, fairness to you,
fairness to the process and fairness to the defendant.
That evidence, what they saw, what they heard, who
they picked out of a lineup, who they didn’t, that
should not be hidden from you. No jury should make a
determination about the guilt of anyone charged with
this crime without knowing that someone else was
identified. That’s why I did it. It goes to fundamental
fairness.
MR. SEARS: Objection.
THE COURT: Overruled.
MR. OUSTATCHER: No matter how horrific
the crime, every defendant deserves a fair trial.
And, secondly, you, the jury, should also be
allowed to evaluate those witnesses. Look at these
witnesses with your own two eyes. Listen to what they
have to say. Reach your own determination as to if you
think they’re right.
No trial should ever be as simple as reading
from a piece of paper the witness said it’s number two,

313
that ends it, number two did it, or hearing a detective
say the witness positively identified number two
without letting the witness tell you, in his or her own
words, what they meant when they said number two.
To not let you see the witnesses with your own eyes
doesn’t let you do the job you swore to do.
[1620]
And if you find those witnesses credible and 2
accurate, if you find that Marisol and Brenda and Jon
Erik, that they got a good enough look at the shooter’s
face that they accurately picked him out of that lineup
on April 18, 2006, if you find that Nick Morris, the man
sitting in position number two, really is the shooter, if
you find that Brenda and Marisol and Jon Erik got it
right, you should walk the defendant. It’s that simple,
and it goes to fairness.
Let me say that again, so I can make sure you
heard it. The Judge is going to read you an instruction
about identification. Listen to it carefully. It includes
all the factors you should consider in determining if a
witness accurately identifies the perpetrator of a
crime.
If when you all get together in that jury room,
if you all think, if you all agree, hey, Brenda Gonzalez,
Jon Erik Vargas, Marisol Santiago, they got a good
look at the shooter’s face as the shooting happened and
they got it right when they positively identified
number two in that lineup, then I want you to walk the
defendant right out of the courtroom doors. That’s why
I brought those witnesses in, to let you see them with
your own eyes, to let you make that very important
decision.

314
But, appreciate this as well. Because this was
two trials in one, as you take a broad view of the [1621]
evidence, as you evaluate the evidence that came
before you, the witnesses, you can actually divide the
witnesses into two groups, those who know and those
who don’t know, those who are safe and those who
weren’t safe. And what I mean by that is that one
group of witnesses were strangers to the shooter. They
didn’t know him. And another group of witnesses knew
the shooter before the shooting happened. They
weren’t strangers to him. And one group of witnesses
were safe. They weren’t being fired at. They weren’t
running for their lives. And the other witnesses, even
though they might have been on the block that day,
they were in cars or bodegas. They weren’t being fired
at.
So, if you look at the evidence in that manner
you have the group of five, Brenda, Marisol, Jose, Jon
Erik and Juan Carlos, in the group that doesn’t know
and that weren’t safe. Everyone else is in the group
that knows and was safe.
And while we’re on this point, let’s talk about
the tattoo on the forearm or on the arm, the numbers,
the numerals.
Let’s get this out of the way quickly. This is
what came before you at this trial. On April 16, 2006,
some people involved in the fistfight saw a tattoo on
the forearm of the man in the blue sweater.
[1622]
On April 17, 2006, the day after the murder,
Nick Morris walked into Bronx 12, lifted up his sleeves
and showed the world that he had no tattoos on his

315
forearms or on his arms, either right or left. You saw
that on the television. It’s in evidence in the photo, too.
And when the defendant showed you his right
arm in this courtroom in October of 2015, over nine
years later, he had no tattoo on his right forearm, but
what you saw in court was that the defendant had the
initials DA and the numbers 10453 on his right arm.
And if you didn’t see it because of where you were
situated or because of the lighting in the courtroom,
ask the Judge in a note to see it again or for the
information or clarification as to what was on the
defendant’s arm. But the tattoo, it’s right there on his
arm; DA 10453, his zip code in the Bronx.
Now, the defendant’s sister-in-law, Lisa
Hemphill, she was subpoenaed to be here. She didn’t
want to be here, and when she was on the stand she
got a quick case of amnesia when I called her.
And when I say “got a quick case of amnesia,”
let me be clear. Some witnesses can’t remember details
of what happened years ago. That should be expected.
But some witnesses, and you saw this happen more
than once at this trial, fake not remembering so they
can get out of answering a question that they don’t
want to answer, [1623] because it would be harmful to
someone they’re looking out for.
You actually saw Vernon Matthews catch the
same amnesia when he couldn’t remember hearing the
defendant say that earlier in the day on April 16, 2006,
in the Bronx, some guys tried to rob the defendant and
the defendant fought them off, got his gun and was
airing it out.
MR. SEARS: Objection.

316
THE COURT: The
Proceed.

objection

is

overruled.

MR. OUSTATCHER: Page 1304 in
transcript, my question to him, Mr. Matthews:

the

“On April 16, 2006, in your home in Brooklyn,
did you hear the defendant, DA, say that some guys
tried to rob him and he fought them, and then he went
and he got a gun, and he shot at them, that he was
airing his gun out at them?”
Mr. Matthews’ answer: “Is
statement?”

that

in

my

My question: “I’m asking you.”
Mr. Matthews: “I don’t recall that. I don’t
remember that. That was very long ago.”
That’s a case of fake amnesia.
But back to the defendant’s sister-in-law. After
Ms. Hemphill caught that quick case of amnesia, she
then blamed me for telling her what to say. And then
as soon as Mr. Sears got up and questioned her, her
memory got much [1624] better immediately.
Her whole demeanor changed, and she said the
tattoo was on the defendant’s arm, maybe his right
forearm, maybe his right upper arm. She said it had
the numbers 10458 on it, but she didn’t know what
that meant. It’s curious how her memory became so
much better so quickly, but how she still wouldn’t
honestly admit to what was really on the arm of her
husband’s brother.
Here’s the thing about the tattoo, not the
tattoo, but the location of the tattoo. Does it really

317
matter? If the tattoo is on a different part of the
defendant’s arm, does it mean the defendant isn’t the
shooter? No. And if the tattoo was on his right forearm,
does it mean the defendant must be the shooter? Also,
it’s not true.
This case is not about picking out where the
tattoo was on someone’s body. This case is about
accurately identifying someone who is a shooter.
And, appreciate this as well. The witnesses
that confused the tattoo, Jon Erik, Marisol, Brenda,
Jose, Juan Carlos, the only witnesses who mention the
tattoo, the witnesses who say they saw a tattoo on the
man in the blue sweater’s arm, on a place where the
defendant doesn’t now have such a tattoo, these are
the witnesses the defendant is asking you to believe,
you to find credible and [1625] reliable.
These are the witnesses the defense is asking
you to say they got it right when they identified Nick
Morris, even though they weren’t wearing their
glasses.
And, beyond that, yesterday, in court, Mr.
Sears wasn’t sure if the tattoo on his own client’s arm
was a 10458 or a 10457. It’s 10453. And Mr. Sears was
standing right next to the defendant, inches from his
arm, when the defendant showed you his tattoo. Mr.
Sears wasn’t being punched or shot at. If Mr. Sears
and the defendant’s own sister-in-law can’t get the
tattoo right, how can you expect anyone in that group
of five to get it right?
That being said, let’s take the defense
argument to its logical conclusion; if these witnesses
are so unreliable as to not be able to properly identify

318
the location of a tattoo, how can you rely on them to
accurately identify someone who is a stranger to them
in a lineup?
Do you know what the tattoo establishes? It
proves to you beyond a reasonable doubt that you can’t
rely on these people the defendant is asking you to rely
on when it comes to identifying Nick Morris as being
the man in the blue sweater. The tattoo testimony
proves beyond a reasonable doubt that Nick Morris is
not the shooter.
And then the lineup, you know, you can’t crawl
[1626] into someone’s brain. You can’t tell exactly what
Brenda and Marisol were thinking after they saw Nick
Morris’s face on the television, on that Bronx 12
interview. You can’t tell what effect seeing that
interview so soon after the fight and before they saw a
lineup had on their brains, whether they’re conscious
of it or not.
No one can say what effect seeing Joanne and
David crying on TV, holding that SpongeBob doll, had
on these people who looked at the six pack of photos
and the lineups. Did it make those witnesses try
harder, try to do something they couldn’t really do?
There isn’t a scientific test to determine what
emotions were coursing through their veins, what
thoughts were running through their heads when they
positively identified number two. There’s no scientists
we can call to give you that information. We just don’t
have that capability in this day and age. But you, the
jury, you know because you saw it here before you,
because witnesses to the shooting testified to it.

319
Anthony Baez told you as much when he said
why he came into the precinct after seeing the parents
with that doll. He never saw the man in the blue
sweater’s face, but he was trying to do – he was trying
to help when the cops put that array in front of him.
And please understand, I’m not judging them.
I [1627] can’t say I wouldn’t have done the exact same
thing in their shoes. All I can tell you is that which is
so obvious based upon their testimony; you can’t rely
on their lineup identifications of Nick Morris. It’s
simple. It’s obvious. It’s logically irrefutable. You don’t
need me to tell you, Brenda, Marisol and Jon Erik are
just not reliable, and it’s not me saying so. They
actually told you themselves in this very courtroom.
And think of it this way, can you imagine if
Nick Morris was convicted of this murder based upon
the testimony and just testimony of Marisol, Brenda
and Jon Erik?
Brenda Gonzalez wasn’t wearing glasses when
the fight happened, couldn’t see the face of the guy in
the blue sweater, because he had a hat on, and she
couldn’t see beyond her arm even during the fistfight.
She never saw the shooter’s face. She wasn’t
wearing her glasses during the fistfight. She wasn’t
wearing her glasses during the shooting, and she
wasn’t wearing her glasses when she saw the lineup.
In her own words, she is almost blind without her
glasses.
Jon Erik, who never saw the shooting, was hit
by two cars, was feeling dizzy and wasn’t wearing
glasses that he needed to see distances back on Easter
Sunday 2006.

320
Then you have Marisol, who saw one shot,
never [1628] saw the shooter’s face and turned her
back to the shooter to save her own life.
Can you imagine if any jury convicted Nicholas
Morris based on the testimony of these three people,
because that’s the only evidence linking Nicholas
Morris to this crime.
And years ago, in the ‘60s, ‘70s or ‘80s, that
would have been enough. Nicholas Morris would have
been done. Three people positively identified number
two, it’s over, two-day trial. No DNA. No second
thought, and it would have been over. He wouldn’t
have had a chance. But we’re smarter now. We’re
better now.
MR. SEARS: Objection.
MR. OUSTATCHER: At least I hope we are.
THE COURT: Overruled.
MR. OUSTATCHER: It’s not just enough to
hear what number someone picked out of a lineup and
convict someone just based on that. You need to ask a
few more questions, like: Did you really see the crime
or are you just picking out the face you saw on TV?
Were you wearing glasses?
These questions, fairness and justice demand
that they be asked, and they were asked, finally, in
this courtroom, and you heard the answers.
And while we’re talking about Nick Morris, I’m
[1629] not going to use this monitor because of
logistical issues. He has this scar running all the way
down his face, from his right eye, just under his right

321
eye down to his jaw. It’s clear as day. You can see it in
both of these arrest photos taken on April 18, 2006.
No one describes the man in the blue sweater
as having a scar. Not one person describes the man in
the blue sweater as having this prominent scar. Why
is that? What does that tell you about whether or not
Nick Morris is the shooter?
And there’s something else, and this is
important, very, very important. This is why we went
on that bus trip to the crime scene.
This is not some small intersection. If you look
at this diagram, it looks like you cross the street in one
step going from the south side of Harrison over to the
north side of Harrison over Tremont.
You all stood right in front of the ramp where
Jon Erik was standing. You all stood on the corner
where Marisol was standing when the shooting
happened, before she turned around after the first
shot. You all looked across the street where they said
the shooter was standing when he fired these shots.
This is a wide, irregularly-shaped intersection,
and there is no way Brenda or Marisol or Jon Erik
could [1630] have seen anyone’s face from where they
were standing, especially if he’s wearing a hat,
especially if he has a gun pointed out from his body.
It’s just impossible.
And there’s something else, and it’s just as
important. They’re wrong. Every single one of them is
wrong, not just Marisol and Brenda and Jon Erik, but
Jose and Juan Carlos, too.

322
Look at this diagram. This cluster of circles,
and it’s hard – you’ve got the initials – but this cluster
on the northwest corner of Harrison and Tremont, this
is where they all said, all five of them said the shooter
was standing the moment he fired those shots, right
here (indicating).
You walked from the corner of – not just the
corner of Harrison and Tremont from the southwest to
the northwest, but you walked up to Morton, and those
shell casings, this is a long walk. It’s not as easy as it
seems in this diagram. The shell casings, and Ronnell
Gilliam actually put his initials over the box where the
crime scene officer put the arrow pointing to the
casings. All five .9-millimeter casings are all up here
all towards Morton. They’re nowhere near the location
of where everyone says the shooter was standing.
And, it’s not just that. That location where
those casings were found, that’s right where Milagros
Pagan [1631] said she parked her car, and I’ll come to
that again, when Justin Bautista, her son, saw the
man in the blue sweater. That’s right where Anthony
Baez said he was in his car right by those casings, and
that’s right where Ronnell Gilliam said the shooter
was, the defendant was, when the shooting happened.
The shooting never happened on the corner
where all those five people said it happened. It
happened halfway up Harrison, almost on Morton.
And it’s not just one or two casings that ended
up back up by Morton on the grass, that bounced there.
Every single casing that came out of the murder
weapon ended up in the grass up by Morton.

323
And then there’s this, these bullet fragments.
These are important. This is the bullet at the hospital
that killed the child. This is the bullet, the bullet
fragment, that was taken out of the utility box that
Detective Valenti said matched this bullet fired from
the same weapon, and that is the second piece of lead
that is recovered from the box.
I’m going to show you these photos, because
you haven’t had a chance to put this all together.
This is the utility box from where these
casings, these two bullet fragments were recovered,
right here, right by the number six (indicating).
[1632]
Where is that? When you put these together,
the bullets are recovered up on Harrison. The shooter
could not have been standing where all five said he
was, because how can you fire a bullet into a utility box
if you’re standing in front of the utility box?
It’s not just me saying it. It’s actually
impossible, so it tells you that all five of those people,
they all got it wrong, and I can’t explain to you why
they all think they saw what they saw. I can’t put my
finger on it psychologically, what was going through
their minds, how their memories have been affected,
how often they thought about it and now they view the
shooter as closer than he actually was.
All I can tell you is that the physical evidence
proves that the witnesses the defendant is saying
picked out the right guy, it proves they couldn’t have
seen what they claim they saw, that Nick Morris never
stood on the corner firing the gun that killed that child.

324
That man on that corner doesn’t exist. Never
happened. That’s what the evidence proved to you.
So, if you can’t trust them to be accurate as to
something as easy and simple as where the shooter
stood, how can you trust them, how can you rely upon
them to be accurate in picking out the face of a
stranger they saw for a few moments during a
fistfight? The answer is you can’t.
[1633]
And even if they were wearing their glasses, to
expect anyone to be able to see, to be able to look at, to
be able to recognize a stranger’s face from across a big
street when that person is wearing a hat, how big is a
face? When that face is blocked by a big gun, in the
movies it would be easy, because they zoom in on the
face and make everything go in slow motion. In reality,
it’s impossible.
And each of them saw the news. For Brenda
and Marisol it was television, for John Erik it was the
newspaper, in which Nick Morris’s face was displayed
to them just before they saw the lineup. He was the
man who was arrested. You saw cuffs being placed on
him on the same news programs they all saw.
To the extent it affected what was going
through their minds, we will never know. But we do
know that it was going through their minds.
And, please, don’t misunderstand me. That
doesn’t mean they’re bad people. It doesn’t mean
they’re not trying their best to do the right thing. It
does mean that they’re victims in this case, too.

325
We spoke back during jury selection about
three types of witnesses you see at a trial, honest and
accurate, honest and wrong and those trying to get
over on you. You don’t need me to tell you what type of
witnesses Brenda and [1634] Marisol and Jon Erik
are. They told you themselves in their own words.
They got it wrong. I’m not sure how long it took them
to realize it, but they know it and they have admitted
it to you from the witness stand.
MR. SEARS: Objection.
THE COURT: Argument, it’s allowed.
MR. OUSTATCHER: And they told you as
much in their own words.
It’s hard to admit you’re wrong on the best of
days. It’s even harder to walk into a public courtroom,
in front of strangers, take an oath and say out loud
that you were wrong. Don’t take what they told you for
granted.
But Jose and Juan Carlos are different.
They’re different than Brenda and Marisol and Jon
Erik. Jose wasn’t involved in the fistfight as much as
Jon Erik and Juan Carlos. Jose was holding the bags.
He wasn’t getting hit by the cars. He didn’t need
glasses that day. He doesn’t need them now.
He had the best view of the man in the blue
sweater from a safe distance before he got involved in
the fight.
Jose is the person defense counsel said was
very observant and got a good view of the man in the
blue sweater’s face in the fight.

326
Jose saw that television interview on Bronx 12
[1635] the day after the shooting. Jose never got to go
to the lineup because he was working that day, but as
soon as Jose saw that interview he knew, and this is
what he testified to, he knew that Nick Morris was not
the man in the blue sweater. That’s what he told you.
Then you have Juan Carlos Garcia, Juan
Garcia. He was the man in the middle of the street
when the shooting happened. Juan Carlos wears
glasses now for distance and for reading, but back in
2006 he just needed glasses for reading. He was the
closest to the shooter before the shots rang out. He was
right in the middle of the intersection.
He is the man defense counsel also said was
very observant, calm and collected. He was the
intended target. He was the man who was supposed to
take the bullet that killed the baby. He had the best
vantage point to see the shooter’s face.
Juan Carlos never saw TV, didn’t see anything
on the news or in the newspapers before he looked at
the lineup. He took his time looking at the lineup. He
looked at the lineup with Nick Morris sitting in
position number two, and he knew the shooter, the
man in the blue sweater, was not in that lineup.
That’s what he said back in 2006. That’s what
he said before you during this trial. So, if Juan Carlos
[1636] Garcia is as good a witness as defense says he
is, it’s impossible for Nick Morris to be the shooter.
I want to take a moment to address a very
important point defense counsel made yesterday. He
said that the evidence presented to you at this trial
was, and I quote, “manipulated.”

327
Understand what that means. Who presented
the evidence to you at this trial? I did. He’s pointing
the finger at me. By this argument, he’s accusing me
of manipulating the evidence that came before you.
This accusation came in two different points in
his summation.
MR. SEARS: Objection.
THE COURT: Overruled.
MR. OUSTATCHER: The first accusation of
me manipulating was when he spoke of showing
photos of the baby.
Those photos were shown because this child
was murdered. They were taken by the medical
examiner and the crime scene detective. That’s the
evidence in this case as much as any witness. I wish it
weren’t so. I wish I never had to see those photos, and
I can’t unsee those photos, but I had to show them to
you because that proves that a murder occurred in this
case.
And the second accusation made against me
was [1637] that I didn’t trust evidence that someone
else trusted back in 2006. And the thing about this
accusation is I can’t respond to it. The law does not
allow me. I can’t tell you what I did or didn’t do, what
I was thinking. I can’t tell you what my opinion is,
because that would make me a witness, not a lawyer,
and that comes straight from the Court of Appeals, so
this is what I’m going to ask you to do.
This is how I propose that you address the
allegations defense made against me, because they are
serious and they go to the essential fairness of this

328
trial, the process of this trial. I ask that you, the jury,
judge me. You decide —
MR. SEARS: Objection.
MR. OUSTATCHER: — if I manipulated the
evidence like defense counsel said I did.
MR. SEARS: That is not the district attorney
that I was referring to.
THE COURT: I’ll allow the argument.
MR. OUSTATCHER: Since the first moment I
met you, way back in jury selection, the first question
I asked you, really the only question I asked you was
can you be fair, can you be fair to each other, can you
be fair to the witnesses and can you be fair to the
defendant. That’s really all I asked of you, nothing
less, nothing more.
[1638]
I hold myself to that same standard. Not only
that, but you, the people of the Bronx, should hold me,
as an assistant district attorney in the Bronx, you
should hold me to that very same high standard, so
this is what I ask you to do. If you have seen me do
something, do anything by way of a comment, how I
treated anyone in this courtroom, how I acted at any
single moment in this trial – forget unfair, forget
manipulative, but even disrespectful or rude, I ask you
to hold it against me and my case.
You’re not going to hear the Judge tell you this.
It’s not the law, but I want you to hold me to a higher
standard than the law because that’s only fair and
that’s only just, and if I am guilty of —

329
MR. SEARS: Objection.
MR. OUSTATCHER: — asking questions —
THE COURT: No, I’ll allow it.
MR. OUSTATCHER: And if I am guilty of
asking questions no one else asked, if I am guilty of
asking witnesses questions that should have been
asked of these witnesses years ago, hang me high.
If I’m guilty of asking people to give thought to
what they said in the past, if I’m guilty of not taking
things at face value, if I’m guilty of not saying number
two was positively identified, case closed, let’s go
home, [1639] so be it. What happens on my side of this
courtroom, in every courtroom in this courthouse, with
lawyers across the country, it shouldn’t simply be
about winning. It should be about doing what’s right.
No one knows how many innocent men have
been jailed because no one thought to ask these
questions, because no one thought to look a little
harder at what a witness said, because a lawyer just
wanted to win at the cost of doing what was right.
Some people might call questioning the
reliability of the evidence against Nick Morris an act
of integrity. Some people might call it doing what’s
right, not doing what’s easy. That’s not for me to do, to
give this a name. It’s just another day in the office.
So, I submit myself to you, the jury. If you
think I fixed the evidence, if you
MR. SEARS: Objection.

330
THE COURT: I don’t believe counsel made the
argument that you fixed the evidence, Mr. Oustatcher,
but I’ll allow you to make the argument.
Ladies and gentlemen, I just want you to
understand that you should not attribute any ill
motives to defense counsel either.
Continue.
MR. OUSTATCHER: So I submit myself to
you, the [1640] jury. If you think I fixed the evidence,
if you think I manipulated it, made witnesses change
testimony, if I planted DNA evidence, if you think I
convinced the defendant’s grandmother to walk into a
precinct in May of 2006 and say that he was the man
in the blue sweater, if I framed him, if I’m that person
then walk the defendant, find him not guilty. It’s only
fair.
Let’s talk about manipulating evidence. Let’s
talk about what defense counsel said to you yesterday.
Defense counsel said that Mr. Baez testified
that he picked out number five in the array, this array,
right here, Mr. Morris, because Nick Morris’s face
looked like the face of the shooter.
Let’s see what Mr. Baez actually said. This is
page 1163 of the transcript.
“QUESTION: When you saw the six pack, tell
this jury what you were thinking.”
Mr. Baez: “I was hoping to remember most of
the guy’s face, but, again, I told the police officer at
that moment that I cannot remember his face. I can
just remember his physique, his, you know, being tall
and the sweater and stuff like that.

331
“QUESTION: After you told the officer this,
did that officer tell you anything else?
“ANSWER: He told me to pick out the one that
I [1641] think most resembles the young man I saw.
“QUESTION: And of those six photos, were
you able to narrow it down?
“ANSWER: I narrowed it down to four and
five,” number four and number five.
“QUESTION: And what about four and five let
you believe that looked like the shooter?
“ANSWER: Body type.
“QUESTION: But those photos are just head
shots; correct?
“ANSWER: Right.
“QUESTION: So just tell this jury what about
the body type you saw let you narrow it down to four
or five.
“ANSWER: He was lanky, skinny. The rest of
the other guys look a little too heavy for what I saw.
“QUESTION: So because you saw a lanky
person, you were looking for a thin face; correct?”
Mr. Baez, “Right.”
“QUESTION: Were you ever able on the day
after the shooting to say that guy number five, he is
definitely the shooter?
“ANSWER: No.”
So it turned out, Mr. Baez didn’t say what Mr.
Sears claimed he said yesterday.

332
MR. SEARS: Objection.
[1642]
THE COURT: Overruled.
MR. OUSTATCHER: And Mr. Sears also told
you that Miss Gist testified that Nick Morris was
involved in the fistfight before the shooting. This is
what Miss Gist actually said, page 354.
“QUESTION: Just going back to what
happened when you went down to the street after the
gunshots, did you see Nicholas anywhere?
“ANSWER: I seen him coming down Morton
Place when I went to go back to my car, ‘cause I was so
very nervous. When I went to jump back in the car
with my grandson I seen him coming down Morton
Place and I got in the car and I just jetted off.”
That was on direct. And this is what she told
Mr. Sears on cross. This is page 375.
“QUESTION: And when you spoke to Jimick
did you tell him that the two people that you had seen
in the altercation were Burgos and Nick, did you tell
him that?
“ANSWER: I told him – I told him that the
person that – it was Burgos and Nicholas and Darrel.
I told him three people.
“QUESTION: Oh, you told him three people.
And these three people you told him were involved in
the altercation with the other group; is that correct?”
Miss Gist: “Yes, but only two was involved
with [1643] the fighting. I didn’t tell him Nicholas was

333
involved in the fighting because I didn’t see Nicholas
there at the beginning.”
“QUESTION: Did you ever tell Jimick – did
you ever tell Jimick that the two people involved in the
altercation, not the Spanish, but the male blacks – was
it two male blacks?
“ANSWER: Yes, sir
“QUESTION: All right. Did you ever tell
Jimick that these two male blacks were Burger and
Nick? Did you ever tell that to Jimick, yes or no?
“ANSWER: No, I did not. I told? No, I did not.”
So, Ms. Gist never said what Mr. Sears said
she said yesterday. Again, not the truth.
And Mr. Sears again said yesterday that no
one placed Burger, Ronnell Gilliam, near the shooter.
No one, of course, except for Mr. Baez, the witness Mr.
Sears likes so much.
Page 1175, Mr. Anthony Baez.
“The fight broke up after a little while. I went
back to my car. I see a black vehicle, a third vehicle
cruise right up by me with a black female driving.”
(Continued on the next page...)
[1644]
The car went up a little bit on the block. A
lanky black male came out. While he was coming out
of the car, the heavyset black male came out of the
building on the right-hand side and said to him,
“That’s them over there, hold up.” The lanky young
man went across the street and opened fire.

334
So Mr. Baez places Ronald Gilliam right next
to the man in the sweater seconds before the shooting
happened.
Again, not the truth.
Mr. Sears said he had no idea why Ronald
Gilliam was in jail. You all know that because Jimick
told you and Ronnell Gilliam told that you he was in
jail because he had been arrested for the acting in
concert murder in this case.
So, again, not the truth.
Mr. Sears commented on how the first time
Ardell Gilliam said the defendant was wearing a blue
sweater was during this trial, when the truth is that
she, of her own free will, walked into the 46th Precinct
on May 9, 2006 to tell Ronald Jimick, Detective Jimick,
the same information.
Again, not the truth.
And you saw what happened during this trial
when Mr. Sears tried to get Brenda Gonzalez to admit
she said things before a grand jury in 2006 that she
never said. That’s why I had to call the grand jury
court reporter to [1645] prevent the facts from being
manipulated.
I am not the lawyer in this courtroom trying to
manipulate the evidence. Do not be misled.
So let’s now talk about or Ardell Gilliam and
Michelle Gist. Before we pivot away from Brenda and
Marisol, and the rest of the group of five, and go into
the defendant’s grandmother and Ms. Gist, one simple
fact should be noted. It’s so simple, it’s so obvious, but
at the same point there is no more important fact in

335
this case. Both Ms. Gilliam and Ms. Gist knew the
defendant before April 16, 2006. Unlike Brenda and
Marisol, and even Anthony Baez, and Milagros Pagan,
and her son Justin, the defendant’s grandmother and
Ms. Gist both new the defendant. And that is so
important because, when you’re identifying someone’s
face, it’s much easier to accurately identify someone
that you’ve known for years than a complete stranger.
And that’s why the defendant was never placed in a
lineup. His own family told the police he did it.
MR. SEARS: Objection.
THE COURT: The jury’s recollection will
prevail in this particular matter.
If counsel’s arguments are consistent with
your recollection of the evidence, you may accept those
arguments. If they are not consistent, you may reject
those arguments.
[1646]
Otherwise overruled.
MR. OUSTATCHER: Let’s talk about the
defendant’s grandmother first.
You don’t need me to tell you this. This was
obvious the moment when she took the stand. When
the overriding issue in your murder trial is whether or
not you were the guy in the blue sweater who fired the
gun that murdered the baby on Easter Sunday, 2006,
and when your very own grandmother, of her own free
will, walks through the courtroom doors, puts her
hand on the bible and swears to tell the truth, looks all
around the courtroom, picks you out, and says that you
were the guy on Easter Sunday, 2006, who wore that

336
blue sweater, this trial could have ended right there
and then, without DNA, without Ronnell Gilliam,
without any other evidence. I submit to you that at
that very moment everyone in this courtroom knew the
defendant was guilty.
And that moment that happened at the end of
defense counsel’s questioning of Ms. Gilliam that
defense commented on yesterday, that happened
because defense counsel lowered his voice. It wasn’t
intentional, but that’s —
MR. SEARS: Objection.
THE COURT: Overruled.
MR. OUSTATCHER: That’s what Ms. Gilliam
said, “I [1647] couldn’t hear what you said.” He called
him Darrell, not Darryl. And once she heard the name
of the person she was being asked about, the
defendant, she said that of course the defendant was
wearing the blue sweater, blue like her coat.
So the question put to you is this:
Is Ardell Gilliam a liar?
Because, of her own free will, on May 9, 2006
she walked into the 46th Precinct and spoke to
Detective Jimick.
Was she lying then and is she lying now?
Is that what you saw in this courtroom with
your own eyes?
And if she is lying, why would she lie?
I’ll come back to that in a second, because that
topic, that absence of evidence, that black hole in this

337
case is very important for all the witnesses, a motive
to lie or an absence of a motive to lie.
Let’s move to Michelle Gist for a second.
Ms. Gist’s testimony is important, not just for
what she said, but because of what happened in this
courtroom during her testimony.
Before I speak about Ms. Gist, I want to speak
about common sense; if not common sense, I guess you
can call it common experience, for those of us who’ve
spent our lives in the Bronx. I’m not sure where you
all grew up, but [1648] in my neighbored, on my block,
people sort of new each other, if not by name, by
nickname, or because you were the son or daughter of
someone, or the kid that lived in that building or that
house. Things have changed since I was a kid in the
Bronx, but that’s how it used to be. And when you were
bagging groceries in the supermarket in high school, it
wasn’t uncommon to have someone call you by your
name, and for you to look up and have no idea who they
were, only then to find out later they were someone’s
parents from the block who saw you grow up, knew
your face, knew who you were, even though you didn’t
know them.
So now Ms. Gist, she saw what happened
during that fistfight before the shooting. Her
testimony is consistent with every single other witness
who saw that fistfight up close and personal, right on
top of her car. She saw the fist fight. She knew the
players from the neighbored. She saw them all grow
up with her son, and she knew it was going to happen
before it happened. She knew the defendant. She knew
a gun was going to come out after the fistfight. That’s

338
why she hussled [sic] her grandchild up to the
apartment. She saw the defendant, “D,” to her, in that
blue sweater in that fistfight on Easter Sunday just
like the defendant’s grandmother. She saw the face of
someone she’s known in her neighbored for years, as
close as could be, before any guns came out.
[1649]
And you know what? She was right. She said
the guns were going to come out and they did. Looks
like she knew the defendant better than he thought
she knew him.
Now, we can quibble over what she said to
Jimick or didn’t say to Jimick in the moments after the
shooting. Understand that the statement defense
counsel spoke of yesterday was what someone else said
at a legal proceeding years ago, not what Ms. Gist
herself said. If this case comes down to someone’s
memory of what was said or not said in the quick
conversation over nine years ago in the very start of a
sprawling investigation, so be it. As I just read to you,
Ms. Gist told Mr. Sears what she told Jimick years ago,
and it’s the same exact thing she testified to at this
trial.
But the question I ask you again is this:
Is Ms. Gist lying?
Is that what you saw her do in this courtroom
one month ago, put her hand on the bible and lie,
perjure herself?
Because that’s the only logical conclusion to
the defendant’s argument, right?

339
Because, if she’s not lying, then the defendant
is the man in the blue sweater, right?
So then the next logical question is this:
Why would Ms. Gist lie at this trial?
[1650]
And this is very important. Don’t take it from
me. You’re going to hear the Judge read to you an
instruction on this. In law we call it a motive to lie.
What reason would Ms. Gist have for walking
into a courtroom, putting her hand on the bible, and
saying the defendant was the man in the blue sweater,
and I saw him in the blue sweater in the fistfight
moments before the shooting, unless he actually was
the man in the blue sweater?
Why would she do that, unless it was the
truth?
Did she have a beef with the defendant?
Does he owe her money?
Did they have some ongoing feud?
You didn’t hear any evidence as to why Ms.
Gist would falsely identify the defendant as the man
in the blue sweater, and that’s because no such
evidence exists.
Ms. Gist didn’t need glasses. She also [k]new
Ronnell Gilliam—although she called him “Burgos,”
not Burger—well enough to pick him out of an array.
She knew Nick Morris by “Nick,” and she knew the
defendant by “D.” If she is able to accurately identify
Gilliam as the perpetrator, then she’s able to

340
distinguish between Morris and the defendant, and
accurately identify the defendant as a perpetrator of
this crime.
You can call her a liar, call her inconsistent,
[1651] you can misstate her testimony while on the
stand, you can even yell at her while she’s testifying,
but the truth of what she revealed to you, the jury,
can’t be ignored. There is no reason for her to lie. She
is corroborated. She is corroborated by the defendant’s
grandmother, she is corroborated by the DNA
evidence. And once you, the jury, go back in the jury
room and determine she’s correct, then you’ve also
determined who the man who murdered the baby is.
Ms. Gist’s testimony is revealing for another
reason, too. Ms. Gist is not related to the defendant.
She didn’t view him as a mentor. She couldn’t hire
George Vomvolakis to represent her. You couldn’t try
to hide what she saw in a closet or throw it in a river.
Her testimony was revealing. Her testimony revealed
the defendant to be the man in the blue sweater.
And in this very courtroom the defendant
revealed himself to you to be a man with a short fuse,
who will do what he has to do to control a witness, in
court or out of court, to control a situation when things
don't go his way. I submit to you that’s why he yelled
at Ms. Gist on the witness stand.
Ms. Gift and Ms. Gilliam, these two women,
these two strangers, standing alone, taken together, or
viewed in the context of the other evidence at that
trial, provide you with irrefutable evidence of the
defendant’s guilt. That’s [1652] why the defense called
Nana Owusuafriyie, because they needed someone,

341
anyone, to say the defendant wasn’t wearing that blue
sweater before the shooting. They needed to make the
testimony of Ms. Gift and Ms. Gilliam disappear,
truthful as it was.
And if you walk Mr. Owusuafriyie into a
courtroom with his uniform, who wouldn’t believe him,
right? He has all the medals from the Navy.
Mr. Sears can apologize for what happened
earlier this week any way he wants, but don’t mistake
what happened with the last witness to appear before
you. The defense presented you with false testimony.
That man was lying to you as he lied in the past. He
was trying to help out his friend get away with murder.
If I didn’t find out about his criminal record, he would
have gotten away with it.
So now Ronnell Gilliam. Let’s talk about
Burger.
Before we do, understand this:
You all, you can ignore Ronnell. When you go
back into that jury room, you can ignore every single
thing he told you. You can throw out every piece of
information, big and small, everything he told you, and
there is still more than enough evidence before you to
convict the defendant, to prove that the defendant is
the man who murdered that baby, even without
Ronnell Gilliam’s testimony. You have Ms. Gist’s
testimony, the defendant’s grandmother; Milagros
[1653] Pagan; her son, Justin; Anthony Baez; the
DNA; the ballistics; Dr. Gill, the medical examiner.
You have the defendant at the scene during the fight;
you have the defendant in the blue sweater before the
fight; you have the gunman in that same blue sweater

342
halfway up the block; and then you have a fight and
the coverup that only someone who committed this
crime would have undertaken.
I have proven all the elements to convict the
defendant guilty of murder in the Second Degree even
before Burger walked onto that witness stand. So you
don’t even need his testimony. But I called him. I
called him for the same reason I called Brenda and
Marisol, and every other witness, cooperative and
uncooperative, throughout this trial. Because you
needed to see him with your own eyes; you needed to
hear what he had to say with your own ears. It’s one
thing for someone to write a statement, or for someone
to write down what someone else said on a notepad or
police report hours later, it’s another thing for you, the
jury, to get that information straight from a witness’
mouth, right in front of you. Because there is
information that you, the jury, get from a witness
beyond the words that come out of his or her mouth.
And Ronnell has information that no one else involved
in this incident, no one else in the world has, and that’s
why I called him.
What happened inside that apartment on
Harrison [1654] Avenue in the moments after the
shooting?
What happened that led the defendant to run
to North Carolina?
What happened in the weeks after the
shooting?
Only Ronnell Gilliam had this information.
Only Ronnel Gilliam experienced this. The truth had
to be revealed to you in whatever form, in whatever

343
fashion. And even in the lies that Ronnell told you,
there is truth that bears upon who committed this
murder.
And appreciate this as well:
I don’t like Ronnell Gilliam, never have, never
will.
MR. SEARS: Objection.
THE COURT: Sustained.
MR. OUSTATCHER: I didn’t ask for him to be
my witness. I didn’t ask for him to get rid of the guns
in this case. He was the defendant’s younger cousin
before I called him at this trial, and he will be the
defendant’s younger cousin after this trial ends. I
called him because, if there is one incontrovertible fact
in this case, it’s that Ronnnell was there for the fight,
it’s that he was there for the shooting. He had a frontrow seat to the shooting, he knew the shooter, and he
was the one person on the street that day at the time
the shooting happened who knew the shooter and who
knew there was going to be a [1655] shooting, even if
it was only a moment before the shooting happened.
You needed to see him. You needed to hear what he
had to say in order to determine what really happened
on Harrison that Easter Sunday.
Understand this as well:
I’m going to be the person standing before
Judge Gross on the sixth floor of this courthouse,
asking, demanding, that Gilliam go back to jail. If it’s
for five years or 25 years, in which case Gilliam gets
out of jail in his fifties—if he can last that long in State
prison as snitch—that’s on Judge Gross. If you want to

344
read the agreement, it’s 118 in evidence. It’s right
here.
I’m also the person that told you that Gilliam
was a liar. I told you as much during jury selection; I
told you in my opening statement; and I brought it out
when I questioned him. He lied. He lied more than
once. But just because he’s lied before doesn’t mean
you should ignore everything he told you at this trial.
I’m going to come back to this one in a moment,
but as you evaluate his testimony, think of it this way:
These court reporters here are fabulous at
catching every word every witness or lawyer says, no
matter how quickly I talk or how much I mumble, and
they create these transcripts, records of what is said
and done in this courtroom. But you, you, the jury, are
so important because [1656] for you, you sit here 5 feet,
10 feet, 15 feet from the 2 witnesses. You get to eyeball
the witnesses. For you it’s not just words on a page, the
way someone speaks. Their posture, their bearing, can
reveal as much about themselves to you as what they
say; it can reveal their actual truthfulness. For you it’s
not just words on a page.
What do you see here in court with Gilliam?
Was he evasive?
Did he say one thing to me and change his
testimony halfway through to defense counsel like
Vernon Matthews?
Did he blame someone else for his conduct like
Vernon Matthews?

345
Did he deny making prior statements even
though they were right in front of him in his own
handwriting like Vernon Matthews?
Everything Gilliam said, everything he did, he
owned, good, bad or indifferent. He’s never been
arrested for dealing drugs, never been convicted. He
wasn’t proud of it, but he walked in here, in open court,
put his hand on a bible, and admitted his choice that
he dealt drugs in the past. He didn’t have to.
MR. SEARS: Objection.
THE COURT: Overruled.
MR. OUSTATCHER: He could have lied and
no one [1657] could have proved him wrong. He called
himself a liar. Whether or not he did that has nothing
to do with who shot the child in this case.
And why did he do that? Why was he so
honest?
I submit to you because he had to, because he
has nothing left to lose.
Compare his testimony to what you saw with
Nana Owusuafriyie. He was great when defense
counsel was asking him questions, straight-backed,
firm and concise in his answers. But when the truth
was revealed about who he was and why he came into
this courtroom, his body language changed. He started
looking all around the courtroom. He needed help and
he knew it. He was looking for help. Who he was, what
he was doing on the witness stand had been exposed
to you and he knew it.
The measure of a man, of a witness, is not if
he’s done something wrong in the past, if he’s lied or

346
not, but how he answers for it. We’ve had presidents,
leaders of our country who’ve lied to us; Richard Nixon,
“I’m not a crook,” Bill Clinton, “I never had sexual
relations with that woman, Monica Lewinsky.” Those
things turned out to not be true. More recently, George
Bush refused to answer questions about past drug use;
he took the Fifth.
It’s hard to admit you did something wrong,
hard to admit you did something embarrassing to
another person. [1658] Forget being in a room full of
strangers and a judge at trial under oath.
Gilliam came before you and he was an open
book. He held nothing back, both in this courtroom and
beyond what he said in this courtroom. He pled guilty
to a murder that he did not commit. He never pulled
the trigger.
Do you know why he pled guilty to that crime?
It’s not that he was lying to a judge. He was
taking responsibility for his conduct. He didn’t intend
for this to happen, but he was taking responsibility for
his conduct that led to the death of that baby. He put
himself in jail, no one made him, for years.
And now defense says that makes him a liar. I
submit to you that’s wrong. You make up your mind.
What you saw Burger do in court two weeks
back, was that some master class in acting or was that
some poor kid from the street, put in a position he
never wanted to be in, giving it up, stopping the lies,
stopping the running, hiding, stopping the code of the
street and just giving it up?

347
Understand, also, that Burger gained nothing
by telling the truth.
MR. SEARS: Objection.
THE COURT: Overruled.
MR. OUSTATCHER: He gained nothing by
saying the [1659] defendant was the shooter, and he
lost everything. His life will never be the same. If he
kept his mouth shut, and kept saying it was Nick
Morris, or if his lawyer told him to take the Fifth, he
is still walking on the street today, no cooperation
agreement, no four years of jail in the past, no 25 years
hanging over his head. He signed up for a cooperation
agreement that will mark him every day on the streets
of the Bronx for the rest of his life.
That was his choice. So if you want to call him
a liar and dismiss him so easily, you can, or you can do
something else. You can be fair and impartial. You can
listen to what he said with an open mind. You can size
him up and give him, give this case a fair shake,
nothing more, nothing less.
And here’s another thing you’ll see just by
looking at him. He’s soft. He’s a patsie. He’s not a
criminal mastermind. He’s the kind of person who, if
you want to control him, you could.
When Mr. Sears was cross-examining him,
Ronnell didn’t fight back. Even when he was being
called a liar and insulted, and even with all the
comments defense counsel was making about him,
after Gilliam answered every question put to him, he
still called defense counsel “Sir.” He is the kind of
person who can be controlled by someone stronger

348
than him. And when the shooting went down, as the
news came [1660] over the radio and television that
Joanne and David were burying their child, Burger
was in over his head, and he was ripe for the picking
by someone with power over him, like an older cousin
who owned a music studio and had money.
Now is the time to talk about George
Vomvolakis. Because, as quickly as he passed before
you, you cannot underestimate the importance of him
to you as a witness at this trial. Despite everything,
despite his best efforts, he, Mr. Vomvolakis, a
professional lawyer, also revealed to you more than he
intended to.
And that’s why, I submit to you, he also
conveniently got amnesia on the witness stand as to
when he called the 46th Precinct, or who called him to
tell him to stop Gilliam from telling the truth to Jimick
on May 9, 2006, the day Ronnell went off-script and
walked into the precinct and admitted that the
defendant was the actual shooter.
The way it’s supposed to work, under the
constitution, is a lawyer represents the person he is
defending and isn’t controlled by the person paying his
fee. But Mr. Vomvolakis has a mortgage to pay. That’s
what he told you. And that’s why he really wasn’t
acting in Ronnell’s interest, not at all, not by a long
shot, not from the moment he met him in the park up
the street, not when Vomvolakis testified at the trial.
[1661]
Vomvolakis was working for Joe Tacopino
back in 2006, Bernie Kerik’s lawyer. Burger couldn’t
afford him. On the day that Burger met him in the

349
park, Burger had no wallet, had no phone, didn’t have
two nickels to scratch together. Only someone with
real money, with real power, could afford Vomvolakis.
Gilliam had nothing.
And they met far from Vomvolakis’ office on
Madison Avenue.
Why is that?
I submit to you that Vomvolakis had them
meet so far from watching eyes so no one can see what
you Vomvolakis was going to do with Gilliam.
If Vomvolakis really were acting as Gilliam’s
lawyer, he would have walked, actually ran, to the
46th Precinct doors to protect his client’s rights when
he got a phonecall from someone, not Gilliam, that
Gilliam decided to walk into the precinct to tell the
truth. The only other person who knew what Burger
was doing on that day and saying that Hemphill, the
defendant, was the actual shooter was the defendant’s
brother, Stephen Hemphill, who was sitting right next
to Burger with a phone as Burger was implicating the
defendant.
But instead of going to the precinct to protect
his client, Vomvolakis just called the precinct, found
out what was up on behalf of the person, the
defendant, who paid [1662] him.
And once Vomvolakis found out —
MR. SEARS: Objection.
THE COURT: Ladies and gentlemen, you will
consider the evidence that you’ve heard and make a
determination whether that argument’s based on the
evidence or not.

350
MR. OUSTATCHER: Once Vomvolakis found
out the jig was up, that Gilliam, Burger, couldn’t be
controlled, Vomvolakis covered up the coverup.
And that’s why Vomvolakis is having such
trouble remembering anything, and that’s why
Vomvolakis has no notes, not a single piece of paper on
a murder case, and that’s why Vomvolakis can’t find
any record of who paid him. Because, when you’re
committing a crime, when you’re covering up a crime,
when you’re setting up your client, a young kid, to take
a fall because someone is paying you to do that, you
make sure, especially if you are a lawyer, that you
leave no trace of evidence of what you did. That’s what
a good criminal defense lawyer will do for the man who
paid him.
So when defense counsel said yesterday, “Even
Vomvolakis thought Burger wasn’t telling the truth,”
That’s right. That’s because the defendant paid
Vomvolakis to make sure Gilliam didn’t tell the truth.
[1663]
MR. SEARS: Objection.
THE COURT: Same ruling.
MR. OUSTATCHER: Vomvolakis was paid by
the defendant, or his wife, possibly through Adam
Mayfair, the attorney, for this case for one reason and
one reason only, to walk Ronnell Gilliam into the arms
of the police, to frame Nick Morris for a crime Nick
Morris didn’t commit once the defendant got a
phonecall from Vernon Matthews. As much as any
other witness, Vomvolakis implicates the defendant in
this crime, because the only person who would go

351
through such lengths to frame someone else for this
crime is the actual murderer.
Understand, too, that before Gilliam was my
witness, he wasn’t just the defendant’s cousin, he
wasn’t just the defendant’s partner in crime, they
didn’t just go on the run together. Gilliam was the
defendant’s witness, bought and paid for. It was only
after Burger went rogue, after Burger saw what Nick
Morris said on those News 12 interviews, after Burger
saw Nick Morris didn’t snitch, it was only now that
they, the defendant and his attorney, call him their
witness, their blood, a liar.
They sacrificed Ronnell. He was garbage to
them. He was a pawn in their game. He trusted them,
and they walked him into the arms of the police. They
walked him into jail with a fake lawyer. They didn’t
care about him. [1664] Ronnell trusted him and they
paid him back.
Ronnell trusted him and they paid him back.
And now he’s a snitch. And that will follow him
every waking moment of every waking day as he looks
over his shoulder when he goes back to jail, when he
walks the streets of the Bronx, always looking over his
shoulder.
Vomvolakis walked out of this case when it
went south. He took money when he could no longer
control Gilliam and protect the defendant. And he let
some poor court-appointed lawyer clean up his mess.
And now they call him a liar after they’ve
made him a liar. This is the final piece of their plan, a
plan hatched after the defendant ran from the corner

352
with the murder weapon in hand, while Joanne drove
to the hospital in the back of that cab with Angelo
Cruz, trying to bring her baby back to life.
This coverup played out over years. And now,
yesterday, you heard the last gasp act of desperation
from the defense, a get-out-of-jail-free card. Because if
Gilliam told you the truth, if Gilliam is corroborated,
it’s over for the defendant. No more running, no more
hiding, no more lawyers to pay. It ends here, it ends
now, it ends with you.
So why should you believe Burger?
Why should you believe any witness in a trial?
There’s only one reason you should believe any
[1665] witness at a trial, because he or she is
corroborated. Corroboration is a magic word in every
courtroom in this courthouse. Because no matter how
nice someone looks, no matter how handsome or pretty
they are, no matter how soft their voice, everyone can
be wrong. Anyone can be mistaken. And the way you
tell if someone is right is if they are corroborated. If
other evidence, other witnesses, other forensic
evidence, other evidence that the witness has no idea
exists, proves what the witness is saying is true, it’s
correct.
Who corroborates Burger, Ronnell Gilliam?
Just about every other witness at that trial.
Ardell Gilliam puts Burger in the apartment
where he said he was Easter, that morning, with the
defendant. Ardell Gilliam puts the defendant in the
blue sweater just like Burger said. Michelle Gist calls
him “Burgos,” but she puts Burgos and the defendant

353
in the fight just where Burgos said he was in the fight.
And she puts the defendant in a blue sweater with the
baseball hat on his head, too.
Then you have the location where the shooting
happened. The group of five all incorrectly put the
shooter on that corner.
You know who doesn’t? Justin Bautista,
Anthony Baez and Burger. And those shell casings are
all up the block. Gilliam actually [1666] wrote his
initials over the box, showing where those casings are
on the diagram, right by where Milagros Pagan said
her son was sitting. Remember, Justin was younger
then. You have to look very closely. Milagros Pagan
put an “MP” right here, very small, where her car was
parked, where her son Justin was sitting, where he
said the shooter was right next to him. Burger right
here, Anthony Baez right there.
These witnesses, Baez, Bautista, Pagan,
Burger has no idea they exist. They all corroborate
him.
Even Baez, and I read it before, he heard
Burger say the exact same words to the defendant
before the shooting happened, “Don’t do it. Stop.”
Anthony Baez further corroborates Burger.
Even Vernon Matthews,before he got amnesia,
corroborated Burger. Matthews said Burger and the
defendant went home to Brooklyn that night, the night
of the shooting, Page 1259 of the transcript.
“Question: Who was in your home in Brooklyn
that evening?
“Answer: “D.”

354
“Question: Who else?
“Answer: And Burger.
“Question: And before they came over, who
was in your apartment, your home?
“Answer: My fiance at the time. Well, a female
[1667] at the time.”
So even the defense mentee corroborates
Ronnell Gilliam.
And what did that tell you?
Whether you like him or not, whether you
approve of the choices he made or not, it tells you that
Ronnell Gilliam told you the truth, nothing less,
nothing more. And it’s not me telling you this, it’s the
evidence.
You know what else corroborates Ronnell
Gilliam?
The forensic evidence, the DNA.
Let’s talk about the DNA for a moment. But
before I do that, let’s talk about the other forensic
evidence, the ballistics and the gunshot residue
analysis of the sweater.
The thing about forensic evidence is that
everyone thinks they know what it is based upon what
they see in movies and television. The reality is much
different.
The gunshot residue analysis of the sweater,
the scientific test done on the sweater is used to
determine muzzle to target distance. That test is used
on pieces of clothing to determine how far away a

355
shooter is when they are firing at someone, a target, a
victim. It is used on clothing, victims’ clothing, victims
who are being fired at. This test does not determine if
someone fired a gun.
NYPD, the lab, looked at the sweater to
determine if any of the explosives that come out the
front of the gun [1668] was found on the sweater. And,
as you'd expect, there was no evidence of that material
that comes out of the front of the gun on the sweater.
So the test they did on the sweater revealed that no
one fired a gun at the defendant when he wore the
sweater, nothing more, nothing less.
The test that might help determine if the
person who wore the sweater fired a gun, the NYPD
lab is not allowed to do that test. It’s called a primer
residue analysis. They’re not allowed by law. And,
even if they could do a test, no scientific tests actually
exist today to definitively determine if someone
wearing a piece of clothing actually fired a gun. That’s
fake science. That’s what criminalist Jason Burger
told you. That’s fiction. That’s what you see on T.V.,
not reality. So if the defense needs to resort so to
fiction, so be it. I prefer to stay with the truth and
reality.
The ballistics evidence, five shell casings all
from a 9-millimeter semiautomatic pistol. Two pieces
of ballistics, one from the child’s body, one from the
utility box fired by the same 9-millimeter
semiautomatic pistol. The other evidence was pulled
from the apartment, in the wall of the building, too
fragmented to do any meaningful comparison from. So
there's evidence of just one gun, one murder weapon,
a nine.

356
And, yes, Nick Morris had one 9-millimeter
round [1669] with ammunition in his apartment. That
is true. I told you that. I put that piece of evidence
before you. But he also had three rounds of 357
ammunition, a separate gun. You can’t fire 357
ammunition from a 9-millimeter pistol.
And also appreciate that these men, Gilliam,
the defendant and Morris, they were acting·as a team
that day on Easter Sunday, 2006. Morris was coming
to aid Gilliam in the fight Gilliam got into with the
defendant by his side. Morris lived up University. You
heard John Eric Vargas say he chased the man in the
blue sweater running up University before that man
came back with the 9-millimeter pistol.
Do you think it’s a coincidence, the fact Nick
Morris had a 9-millimeter in his bedroom?
It shouldn’t surprise you, because he lived in
the same direction the defendant went before he came
back with the murder weapon. It doesn’t exculpate the
defendant. It actually corroborates the fact these three
men were working together.
And in the end, Nick Morris, against the
defendant’s attorney’s advice, admits to possessing the
357 that day.
Do you know why?
Because that’s the crime he actually
committed on April 16, 2006. He didn’t get time served.
He spent over two years in jail for a crime he didn’t
commit, for a crime [1670] the defendant framed him
for. He didn’t have to plead guilty. He took
responsibility for the crime he committed.

357
And now we come to the DNA. The defense is
right. Not just in this case, but in almost every case.
DNA by itself never solves a crime. That’s something
you only see on television. Invariably, in this
courthouse and in courthouses all over the country,
DNA is just one piece of the puzzle.
But do not, under any circumstances,
underestimate the strength, the power of DNA on this
case. Because, while every witness gave you what they
remembered from their perspective, in their own way,
every.single person gave you a blue top. One called it
a golf shirt, one said it has an alligator on it, which the
sweater does. Everyone said it was a blue sweater,
some with a design, some with a pattern. This is the
sweater that the shooter wore. This is a light blue
sweater with a design on it.
It’s impossible for anyone to accurately say,
“Aha, that’s the sweater. That’s got to be the sweater
the shooter wore,” and that’s why I didn’t show it to
every single witness.
Ms. Gist said it was periwinkle. Ardell Gilliam
said it was blue like her coat. Some people said it had
a pattern on it, some said it was embroidered. But,
make no mistake about it, based on where it was found
and when it [1671] was found, and the path the shooter
fled in, this is the sweater the shooter, the murderer,
wore.
And the sweater has one person’s, and only one
person’s DNA on it, Darryl Hemphill, the defendant. It
took a while to get that DNA, because the defendant
fled and was using a fake name, Darryl Davis, the
alias, Darryl Davis, when he fled to North Carolina.

358
MR. SEARS: Objection.
THE COURT: Overruled.
MR. OUSTATCHER: If you need to hear that
again, Detective Modesto Asevato is the person, the
investigator who went down to North Carolina trying
to get the DNA out of the garbage, the wrong DNA.
And Mr. Sears brought out – not me, but Mr.
Sears brought out that in the computer checks based
on leases, the defendant was living with Aida Lanese
under a fake name, Darryl Davis. If you need that read
back, ask for it.
But that’s the thing about DNA. You can
change your name; your DNA doesn’t change. You
can’t hire a lawyer for DNA. DNA won’t get amnesia
on the stand or change the story.
The DNA evidence in this case points to one
person and one person only. You can think of DNA as
a silent witness on this case, sitting next to Ronnell
Gilliam and Ardell Gilliam, and/or Michelle Gist on
that witness stand, [1672] and pointing the finger
right at the defendant as the murderer. What DNA
does, and DNA does best, is it reveals what was
intended to be concealed.
And, if nothing else, the defendant has made
every effort to conceal his role in this murder. He had
everything in the Bronx, a girlfriend who was an EMT,
a studio on the side of a building on Andrews Avenue,
a family in the Bronx, and he had a zip code right on
his arm where it still is. From the evidence before you,
as of 1:30 on Easter Sunday, 2006, the defendant had
every reason in the world to stay in the Bronx.

359
So what caused him to run so far so fast?
It must have been something big, right,
something scary hanging over his head that made him
run down to North Carolina and to never come back.
He actually abandoned their daughter, left her, took
just the son down to North Carolina.
Why is he using a fake name down in North
Carolina?
When he wasn’t coming out of his house, when
the police had to go through the garbage, what could
have made him abandon everything he knew in the
Bronx in the middle of the day on Easter Sunday?
What spooked him so?
What was he running from?
[1673]
Why was he never ever coming back?
This isn’t some simple young kid running from
the cops because he is scared. This a man of means, a
man with a studio, a man with the money to hire a
high-priced lawyer for his coconspirator, a man who is
smart enough to know you can’t run forever. Let Nick
Morris take the heat for my body. This is a man who
knows that in the end his family will protect him and
give him the testimony he needs on the stand, and his
mentee, Vernon, will hold strong.
The evidence before you reveals what he was
running from. A murder. That’s it. There is no
innocent explanation for what he did on April 16, 2006.
This is a coverup, a well-thought, well-planned
coverup. This is a coverup that began on April 16,

360
2006, and continued in this very courtroom until two
days ago, the kind of coverup that only a very guilty
man would undertake.
But the defendant has been revealed by his
DNA, by his family, by his conduct. The running stops,
the hiding stops, the truth has been revealed. The
defendant, Darryl Hemphill, is a murderer, a coldblooded murderer of a child.
Again, that’s why they called Nana. That’s
why he was flown in from California. Because when all
the evidence points to you, when the elaborate coverup
to frame an innocent man has been revealed, what do
you do? You call your good childhood friend in the
military to walk into the [1674] courtroom and to try
to make all the evidence go away. That was the final
act, and it failed. It failed quickly.
But Nana did give you one piece of valuable
information, that bruise on Nick Morris’ hand. If Nana
saw that bruise on Nick Morris’ hand right after Nick
allegedly got in a fight with a group of five, there’s no
way a bruise would have become visible within
minutes after a fist fight, especially on the hand of an
African American man. So Nana actually provides
information to you that proves that Nick Morris could
not have been in that fist fight.
So now we come to you. At some point in this
trial you’ve heard me referred to as “the People.” I am
not the People. My name is Adam. You are the People.
I’ve been carrying this case, this child, David
Pacheco, Jr., for years, for too many years. As soon as
I sit down I will have given this case to you, the People,
and you will take this case. You will take little David

361
with you into that jury room. And what I ask of you is
simple. I ask you to give this case what it deserves. I
ask you to be fair. I ask you to do what’s right. I ask
you to do what’s just. I ask you to hold the defendant
responsible for the choices he made and for his conduct
on that corner back in 2006. And the way you, the jury,
do that is by your verdict.
How often do you see something in the news,
on [1675] television, that you think to yourself, “That’s
not right. That’s not fair. If I were in charge...”
You all have before you an opportunity, a rare
opportunity. You have a rare opportunity to do justice.
You can’t undo the pain. You can’t undo the agony that
was inflicted on that child, on that family, on this
community. You can’t undo what has already been
done.
But you can stand up in this courtroom, and
you can give a verdict that is righteous. You can look
at the evidence, listen to the law, and with one word,
just one word, you can do justice. You can call this case
what it is. You can call the defendant what he is.
It’s not enough to simply convict the
defendant. With one word, with one simple word, as
calmly and coolly as the defendant pointed his gun
across the street and emptied his clip, without caring
who was walking or driving by, with the ease with
which the defendant essentially walked over the dead
body of David Pacheco Jr., without a care in world, and
start a new life for himself down south, you can come
out of the jury room and, with one word, and with one
word only, you can give him the verdict he so badly
deserves. I asked you to call him what the evidence at

362
this trial has proven him to be, and what the law
requires, a murderer, a cold-blooded, cowardly
murderer of a child. And that one word is guilty.
[1676]
Thank you.
THE COURT: Counsel?
Ladies and gentlemen, I’m going to give you a
five-minute break, then I’m going to bring you out and
do the charge.
Do not discuss the case. The case has not yet
been given to you.
(Whereupon, the jury exits the courtroom.)
THE COURT: Let’s take five minutes.
Thank you.
MR. OUSTATCHER: Thank you.
(Whereupon, a brief recess is taken.)
****

363
COURT’S EXHIBIT III
November 20, 2015
Should the Court permit the District Attorney,
over defense objection, to offer into evidence the plea
allocution of Nicholas Morris entered on May 29, 2008,
the defense requests that the following portions of the
allocution be read:
Page 7, line 17, beginning with “he is willing” to
page 7, line 25
Page 15, lines 18 beginning with “just so the record
is clear[”] to page 15, line 25
Page 19, line 24, beginning
understand” to page 20, line 2

with

“I

also

Page 20, lines 17-24
Page 21, lines 12-25
Page 23, line 14, beginning “you will receive” to
line 15, ending with “to conditional discharge”
Page 23, line 21 to page 24, line 4

COURT’S
EXHIBIT NO. III
Identification /
Evidence
Date: 11/20/15

364
SUPREME COURT
STATE OF NEW YORK
BRONX COUNTY
JURY NOTE NUMBER

1

COMMUNICATION: We the Jury:
Request to view Cooperation Agreement, street
diagram, DNA comparison sheet, photo of nicholas
mugshot, grand jury testimony from Brenda Gonzalez
read by court reporter, view Darryl the defendants
tatoo

TIME: 2:01
SIGNED BY FOREPERSON: /s/ Parris Hancock
DATE: 12/3/15
_______________________________________________
DO NOT WRITE BELOW THIS LINE (COURT USE ONLY)

RE:

v.

PART: 60
JUDGE: Hon. S. Barrett
INDICTMENT/INDEX NUMBER: 1221-13
COURT’S EXHIBIT NO. 7
COURT’S EXHIBIT
NO. VII
Identification /
Evidence
Date: 12/3/15

365
SUPREME COURT
STATE OF NEW YORK
BRONX COUNTY
JURY NOTE NUMBER

2

COMMUNICATION: We the Jury:
Request instruction Ronell/Burger testimony, and
Adell grandmother’s testimony, crossexamination of
Brenda Gonzalez specific to previous testimony at
Grand Jury ______________________________________

TIME: 4:05 pm
SIGNED BY FOREPERSON: /s/ Parris Hancock
DATE: 12/3/15
_______________________________________________
DO NOT WRITE BELOW THIS LINE (COURT USE ONLY)

RE:

v.

PART: 60
JUDGE: Hon. S. Barrett
INDICTMENT/INDEX NUMBER: 1221-13
COURT’S EXHIBIT NO. 8

COURT’S EXHIBIT
NO. VIII
Identification /
Evidence
Date: 12/3/15

366
SUPREME COURT
STATE OF NEW YORK
BRONX COUNTY
JURY NOTE NUMBER

3

COMMUNICATION: We the Jury:
Request Ms. gist testimony, + lawyer volvokes(?),
pictures of street, sweater ________________________

TIME: 1:30 pm
SIGNED BY FOREPERSON: /s/ Parris Hancock
DATE: 12-4-15
_______________________________________________
DO NOT WRITE BELOW THIS LINE (COURT USE ONLY)

RE:

v.

PART:
JUDGE:
INDICTMENT/INDEX NUMBER:
COURT’S EXHIBIT NO.
COURT’S EXHIBIT
NO. IX
Identification /
Evidence
Date: 12/4/15

367
SUPREME COURT
STATE OF NEW YORK
BRONX COUNTY
JURY NOTE NUMBER [4]
COMMUNICATION: We the Jury:
Request a repeat of Instructions to evaluate
evidence + testimony, Baez testimony______________

TIME: 11:12
SIGNED BY FOREPERSON: /s/ Parris Hancock
DATE: 12-7-15
_______________________________________________
DO NOT WRITE BELOW THIS LINE (COURT USE ONLY)

RE:

v.

PART:
JUDGE:
INDICTMENT/INDEX NUMBER:
COURT’S EXHIBIT NO.
COURT’S EXHIBIT
NO. 10
Identification /
Evidence
Date: 12/7/15

368
SUPREME COURT
STATE OF NEW YORK
BRONX COUNTY
JURY NOTE NUMBER

5

COMMUNICATION: We the Jury:
request the photo line up where baez named 4 or 5,
separate head shots of nicholas and darrell ________

TIME: 1247
SIGNED BY FOREPERSON: /s/ Parris Hancock
DATE: 12/7/15
_______________________________________________
DO NOT WRITE BELOW THIS LINE (COURT USE ONLY)

RE:

v.

PART:
JUDGE:
INDICTMENT/INDEX NUMBER:
COURT’S EXHIBIT NO.
COURT’S EXHIBIT
NO. 11
Identification /
Evidence
Date: 12/7/15

369
SUPREME COURT
STATE OF NEW YORK
BRONX COUNTY
JURY NOTE NUMBER

6

COMMUNICATION: We the Jury:
have come to a verdict and need instruction on
completing the sheet that statess murder 2 Guilty or
not guilty _______________________________________

TIME: 2:15 pm
SIGNED BY FOREPERSON: /s/ Parris Hancock
DATE: 12/7/15
_______________________________________________
DO NOT WRITE BELOW THIS LINE
(COURT USE ONLY)
RE:

v.

PART:
JUDGE:
INDICTMENT/INDEX NUMBER:
COURT’S EXHIBIT NO.
COURT’S EXHIBIT
NO. 12
Identification /
Evidence
Date: 12/7/15

370
SUPREME COURT
STATE OF NEW YORK
BRONX COUNTY
JURY NOTE NUMBER

7

COMMUNICATION: We the Jury:
are ready to submitt verdit [sic] _________________

TIME: 2:42
SIGNED BY FOREPERSON: /s/ Parris Hancock
DATE: 12-7-15
_______________________________________________
DO NOT WRITE BELOW THIS LINE (COURT USE ONLY)

RE: v.
PART:
JUDGE:
INDICTMENT/INDEX NUMBER:
COURT’S EXHIBIT NO.

COURT’S EXHIBIT
NO. 13
Identification /
Evidence
Date: 12/7/15

371
CENTER FOR APPELLATE LITIGATION
120 WALL STREET –
28TH FLOOR, NEW YORK, NY 10005
TEL. (212) 577-2523 FAX 577-2535
ATTORNEY-IN-CHARGE
ROBERT S. DEAN

ASSISTANT ATTORNEYIN-CHARGE
MARK W. ZENO

SENIOR SUPERVISING
ATTORNEYS

SUPERVISING ATTORNEYS

ROBIN NICHINSKY
ARIELLE I. REID
BEN A. SCHATZ
MOLLY SCHINDLER
KATE SKOLNICK
MARIANNE C. YANG

ASSISTANT MANAGING
ATTORNEY

CLAUDIA S. TRUPP
BARBARA ZOLOT

BRITTANY N. FRANCIS

MANAGING ATTORNEY

CLAUDIA TRUPP
ctrupp@cfal.org
extension 512

DAVID J. KLEM

December 12, 2019
RE:

People v. Darryl Hemphill
APL-2019-00202
Rule 500.11 Submission

Clerk of the Court
Court of Appeals Hall
20 Eagle Street
Albany, New York 12207
Your Honor:
Appellant submits this letter under Rule 500.11.
Given the importance of the legal questions presented,
appellant respectfully requests full briefing.
INTRODUCTION
In April 2006, two-year-old D.P. was killed by a
stray bullet while riding in his mother’s minivan. The

372
shooting resulted from an earlier fight during which
Ronell Gilliam a/k/a “Burger” and a black man in a
blue top fought against others. The identity of the
shooter was the sole issue at trial.
Within hours of the shooting, based on multiple
witness interviews, the police identified Burger and
his best friend Nicholas Morris. When the police
searched Morris’s apartment they found guns and
ammunition, including a .9mm bullet – the type used
in the shooting. Upon arrest Morris had bruised
knuckles, consistent with his having been in a fistfight. Three eyewitnesses identified Morris in a lineup.
Another picked him out of a photo array.
The prosecution indicted Morris and proceeded to
trial in 2008, before a mistrial was declared. In
exchange for his immediate release, Morris pleaded
guilty to possessing a .357 caliber gun at the time and
place of the shooting.
In 2011, the prosecution obtained appellant’s DNA
to test it against DNA found on a blue sweater recovered from Burger’s apartment shortly after the incident. While appellant’s DNA was found on the
sweater, not a single witness identified the sweater as
the one worn by the shooter. At trial, not a single
eyewitness identified appellant as the shooter, except
for Burger, a cooperating accomplice who had initially
named Morris and repeatedly lied to the police.
Despite the lack of sufficient evidence, the jury
convicted appellant of murder. This case illustrates
that when constitutional protections and evidentiary
rules are disregarded, the verdict is unreliable.

373
STATEMENT OF FACTS
The Trial
Eyewitnesses
Describe
a
Ten-Minute
Altercation Culminating In the Shooting And
Subsequent Identification Of Nicholas Morris.
On April 16, 2006, Brenda Gonzalez, her daughter,
Marisol Santiago, and their respective partners, Jose
Castro and Juan Carlos Garcia, were returning home
from shopping in the Burnside section of the Bronx.
They were accompanied by Jon-Erik Vargas (A1023,
1572-1573, 1609, 1645-1646). 1 They encountered a
thin black man, speaking on a cell phone, who wanted
to fight Vargas. Burger, who Vargas knew, also
approached and Vargas began to fight both men
(A1645).
Gonzalez positioned herself between the thinner
man and Vargas, trying to break up the fight (A1211,
1610). Vargas and the thinner man faced each other
during this initial encounter. Milagros Pagan, her son
Justin Bautista and Anthony Baez also witnessed the
initial fight; Baez also tried to break it up (A1849,
1851, 1927, 1929).
Burger pushed Vargas into a car and Vargas hit
Burger and the thinner man (A 1650). Castro tried to
break up the fight and was punched, as was Garcia
(A1028, 1575).
When the initial fistfight ended, Vargas
unsuccessfully pursued the thinner man from
Tremont Avenue towards University Avenue before
Vargas returned to his friends (A.1651). Burger
remained in the area and Vargas again confronted and
1

Citations are to appellant’s appendix.

374
spat on him; Burger responded that Vargas would get
“shot for that” (A1652).
After this initial 10-minute encounter, the group
returned to Gonzalez’s building. Vargas was feeling
faint and Garcia went to get him water (A1652). As
Garcia crossed the street to bring Vargas the water,
shots rang out (A1654).
The shooter was the thinner man, who had
returned to the scene in a car and “opened fire”
(A1928). One of the bullets hit Joanne Sanabria’s
minivan, striking D.P. (A818-819).
The eyewitnesses all described the shooter as a
thin black man wearing a blue top and a hat, but the
description of the top varied from a short-sleeved golf
shirt with buttons to a blue sweater (A1049-1050,
1061-1062, 1210-1213, 1578, 1579, 1610, 1647, 1649).
Not a single eyewitness identified the sweater introduced into evidence as the one worn by the shooter
(People’s 98C).
Some of the witnesses described being able to see
the shooter’s forearm which had a tattoo, because the
shirt he wore was short-sleeved (A1061-062).
Appellant did not have a tattoo on his forearm; on his
right shoulder there was one that said “D.A. 10453.”
None of the witnesses were asked to view the tattoo;
appellant had to remove his shirt to display it to the
jury (A1199, 1202-1203).
The police canvassed the neighborhood and spoke
with Michelle Gist, who told them that she recognized
only two men from the initial fight, “Burg” and “Nick”
[Morris] (A1512-1513,1565,1567). While years later,
at appellant’s trial, Gist would insist she had also
mentioned seeing appellant, who she knew as “D,” at

375
the scene, this testimony was contradicted by the lead
detective whose reports reflected that Gist only identified Morris and Burger (A1143, 1512-1513).
The police searched Burger’s apartment and
recovered the blue sweater introduced into evidence.
While the police were in the apartment Burger called
his brother and told him to get rid of the “shirt”
(A2266). At trial for the first time, the lead detective
testified he smelled gunpowder upon recovering the
sweater, an observation not recorded in any
contemporaneous record (A1436,1511). Forensic
testing revealed no gunpowder residue on the sweater
(A1890).
Based on Gist’s identifying Morris, and his known
association with Burger, the police searched Morris’s
apartment on University Avenue within hours of the
shooting (A1437). Various types of ammunition were
recovered including a .9mm bullet consistent with the
type of weapon used during the shooting. Ammunition
for a .357 revolver was also recovered (A1448,1519).
The police arrested Morris the following day. His
knuckles were bruised, consistent with his having
been in a fight (A1490,1521).
Two days after the shooting, Vargas, Gonzalez and
Santiago identified Morris as the shooter in a lineup
(A.1237,1623,1636,1656). Baez was shown a photo
array the day after the incident and picked out Morris
as looking “like” the shooter (A1933,1940). At appellant’s trial, Santiago testified that although she had
been certain of her identification at the time, she
believed it might have been influenced through her
exposure to media accounts, including a News 12
interview with Morris (A1623). Gonzalez insisted that

376
she had not been wearing her glasses during the
incident or lineup (A1216,1237).
The Accomplice Testimony
Burger also originally named Morris, his
childhood best friend, as the shooter (A1782). By the
time of trial, Burger had entered into a cooperation
deal in exchange for his testimony against appellant
(A1739). According to Burger’s trial account, it was
appellant who fought with the group before fleeing up
University Avenue; Burger then called Morris to ask
for help (A1748, 1763). Before Morris arrived,
appellant returned and began shooting (A1749).
Burger and appellant then fled to Burger’s apartment where they saw Morris, appellant’s wife and
Burger’s brother, William (A1750). Appellant told
Burger to take his gun; Morris had also brought a .357
gun which Burger took (A1750). Appellant changed out
of the blue sweater he had been wearing; Morris also
changed clothes (A1772).
Burger, appellant, his wife, and young son left for
North Carolina. Within days appellant and his family
returned to New York. Burger subsequently returned
to implicate Morris at appellant’s urging (A1776,
1778). Appellant retained a lawyer for Burger prior to
his police interviews (A1779, 1798).
During his first statement Burger named Morris
as the shooter (A1782). Burger returned to the precinct two weeks later, spoke with Morris while there,
and gave a second statement naming appellant as the
shooter (A1785). Burger continued to lie about the
guns and did not mention Morris possessing the .357
because he did not want to implicate Morris (A1786,
1787). In his third statement, he continued to lie,

377
mentioning that only appellant possessed a gun which
was discarded in a park (A1807-1808).
Burger’s grandmother, who also considered appellant her grandson, claimed to remember that appellant wore a blue sweater on Easter morning 2006
(A1370, 1371). Neither Burger nor his grandmother
identified the blue sweater in evidence.
Following Burger’s testimony, the court allowed
the prosecution to introduce, over a defense
Confrontation Clause objection, minutes from Morris’s
guilty plea, during which he admitted possessing a
.357 caliber weapon at the time and place of the
shooting (A1901-1904, 1951-1955).
The Forensic Evidence
Appellant’s DNA was recovered from the collar of
the blue sweater (People’s Exhibit 98C). It was impossible to determine when the DNA had been deposited
(A1323-1343).
The Motion To Dismiss
At the close of the evidence, counsel moved to
dismiss due to the prosecution’s failure to prove
appellant’s identity beyond a reasonable doubt based
on the prior identifications of Morris and Burger’s
unreliability. The prosecution opposed and the court
denied the motion (A2096). The motion was renewed
at the end of the case (A2495-2496).
Charge, Deliberations, Verdict and Sentencing
The court submitted intentional murder based on
transferred intent (A2425, 2481). The jury deliberated
three days before announcing its guilty verdict
(A2557). The court sentenced appellant to 25 years to

378
life although he had no criminal history (A2583, 2589,
2591).
Appellate Proceedings
The Appellate Division affirmed (A2). Justice
Manzanet-Daniels dissented and granted leave to
appeal (A1).
ARGUMENT
POINT I
THE EVIDENCE WAS LEGALLY INSUFFICIENT.
Appellant was convicted of murder despite compelling evidence implicating Morris. In determining
whether the prosecution has presented legally sufficient proof, a reviewing court must consider whether
any rational trier of fact could have found the elements
of the crime beyond a reasonable doubt. Jackson v.
Virginia, 443 U.S. 307, 319 (1979). But the prosecution
cannot satisfy this burden by producing some proof
supporting guilt. People v. (Mary) Reed, 40 N.Y.2d
204, 208 (1976). Guilt cannot be established beyond a
reasonable doubt by the testimony of a witness “who,
is evidently, either from moral or mental defects,
irresponsible.” Id., at 209, quoting People v. Ledwon,
153 N.Y.10 (1897); People v. (Gregory) Reed, 64 N.Y.2d
1144, 1147-48 (1985).
Here, the evidence against Morris was strong. The
eyewitnesses interacted with the blue-clad shooter for
ten minutes, at close range, in broad daylight during
the initial encounter, a substantial period of time. See
People v. Berry, 27 N.Y.3d 10, 13 (2016)(describing 5
to 10 minute confrontation as “a considerable period of
time”). The next day, Baez picked Morris out of a photo
array. Within two days Vargas, Gonzalez and

379
Santiago had identified Morris in a lineup. Gonzalez
and Santiago subsequently testified in a grand jury
that they were certain of their identifications. While
at trial the witnesses expressed some doubt about
their identifications, their certainty closer to the time,
as opposed to years later, is compelling evidence of
Morris’s guilt.
Michelle Gist also identified Morris and Burger as
being present at the initial encounter. Gist’s mentioning Morris resulted in his coming under suspicion.
While at trial, Gist insisted that she also mentioned
seeing appellant during the original fistfight, contemporaneous police reports proved she mentioned only
Burger and Morris.
The weapons seized from Morris’s apartment and
his bruised knuckles further supported the contemporaneous identifications. The police recovered a
.9mm bullet from Morris’s apartment, the same type
used during the shooting, within hours of the incident.
At the time of arrest, Morris’s knuckles were bruised
consistent with his participating in the fistfight.
In contrast to this strong evidence of Morris’s
guilt, Burger’s testimony was inherently unreliable.
Burger was the only witness to identify appellant as
the shooter. The law views the testimony of an
accomplice with a “suspicious eye.” People v. Berger,
52 N.Y.2d 214, 218 (1980). Especially where the
motivation behind an accomplice’s testimony is the
hope of leniency, his testimony lacks the inherent
trustworthiness of a disinterested witness. Id. Not
only was Burger an incentivized cooperator, he too
named Morris as the shooter initially. He then
changed his account to help Morris, his best friend,
who called him at the police station to urge him on. At

380
trial, Burger admitted that he lied to the police about
the disposal of weapons throughout his three
statements to protect Morris.
In light of Burger’s highly questionable identification testimony and the compelling evidence of Morris’s
guilt, the forensic evidence did not sustain the
prosecution’s burden of proving appellant’s identity as
the shooter beyond a reasonable doubt. Not a single
witness identified the blue sweater introduced into
evidence as the one worn by the shooter. The shooter’s
top was inconsistently described as a short-sleeved
golf shirt with buttons, a “shirt,” and a sweater. While
a detective described smelling gunpowder during the
sweater’s recovery, that observation was not recorded
in a single report, and no gunpowder residue was
detected on the sweater. Also, the forensic testing
could not determine if the DNA was deposited on the
sweater years earlier and handed down to appellant’s
cousins.
The evidence of flight was ambiguous and was
provided mostly through Burger’s accomplice account.
Even by that account, appellant returned to New York
shortly after the incident, before relocating his family
down south.
In rejecting appellant’s sufficiency claims, the
Appellate Division relied on the DNA evidence despite
the variations in the descriptions of the top worn by
the shooter, in light of the detective’s testimony that
the sweater smelled of gunpowder when recovered and
because the police overheard Burger telling his
brother to “discard the sweater” (A9). This reasoning
is flawed. It was undisputed the sweater had no
gunpowder residue on it. It was also stipulated that

381
Burger told his brother to get rid of the “shirt” – not a
sweater (A2266).
The majority cited the “overwhelming evidence
demonstrating defendant’s consciousness of guilt.”
(A9). But this evidence came almost exclusively from
Burger and in any event “the limited probative force”
of consciousness of guilt evidence has long been recognized. People v. Yazum, 13 N.Y.2d 302, 304 (1963).
Next, the majority relied upon evidence that
multiple eyewitnesses had described the shooter as
having a tattoo on his right arm and appellant “did
indeed have a tattoo on his right arm.” (A10). This
finding is wrong. Appellant had a tattoo on his right
shoulder, making it physically impossible for the
eyewitnesses to have seen it if he were wearing the
long-sleeved sweater introduced into evidence. At
trial, appellant needed to remove his shirt to display
the tattoo.
The majority also deemed Burger’s testimony reliable, finding it adequately corroborated, but ignoring
that Burger was not just an accomplice, but admitted
repeatedly lying to the police, initially named Morris
and only recanted when urged by Morris to do so (A11).
The majority offered no explanation for why
Morris would have had bruised knuckles upon arrest
if he had not previously been in the initial fistfight.
The reasoning of the dissent, finding the proof
insufficient, accurately reflected the record (A19-23).
The dissent observed that appellant was not identified
by any of the eyewitnesses to the shooting. The only
witness to identify appellant was Burger, an accomplice who repeatedly lied to the police and was
testifying in the hope of leniency (A21). Not a single

382
witness identified the blue sweater in evidence as the
one worn by the shooter, Justice Manzanet-Daniels
observed, rejecting the notion that the sweater could
have smelled of gunpowder when no gunpowder
residue was detected on it and the detective’s observations were not recorded in a single report (A21-22).
In sum, as Justice Manzanet-Daniels concluded,
the evidence against appellant was insufficient to
establish his identity beyond a reasonable doubt. The
conviction should be reversed and the indictment
dismissed.
POINT II
THE DEFENSE DID NOT OPEN THE DOOR TO
TESTIMONIAL HEARSAY.
Relevant Facts
Before trial, the prosecution moved to preclude the
defense from eliciting that a trove of weapons was
recovered from Morris’s apartment within hours of the
shooting. Except for the .9mm bullet, any other
weapons were irrelevant, the prosecutor insisted
(A630). In addition to that bullet, .357 caliber ammunition, additional guns, and pictures of Morris brandishing guns were found (A631-632). The court ruled,
over defense objection, that only the .9mm bullet
would be admissible (A643-644, 683).
Pursuant to this ruling, during openings, the
defense alerted the jury that a live .9mm round,
consistent with the type of weapon used during the
shooting, had been recovered from Morris’s apartment
(A804). The prosecution did not object to this argument or suggest it was misleading in any way.

383
Following Burger’s testimony, because Morris was
not available to testify, the prosecutor sought to
introduce Morris’s plea colloquy where he pleaded
guilty to possessing a .357 caliber gun at the time and
place of the shooting (A1274-1281). The prosecutor
argued that because the statements did not directly
implicate appellant, their introduction did not violate
the Confrontation Clause; the prosecutor never
asserted that the defense had opened the door (A16631666).
The court ultimately ruled, over counsel’s
Confrontation Clause objection, that while the
statements were testimonial, the defense had opened
the door to the evidence by simply presenting a thirdparty defense:
It’s apparent from the examination of witnesses thus far and from the defense counsel’s
opening that a significant aspect of the defense
in this case is that Morris, who is originally
prosecuted for this homicide, was in fact the
actual shooter and that as such, [appellant]
was excluded as the shooter. There is,

however, evidence contrary to the argument
presented by the defense in this case that
[appellant] may have possessed a different
firearm than Morris and that Morris’s firearm
cannot be connected to this shooting.

Morris’s allocution during his plea relates to
his possession of a .357. The weapon that
caused the death in the case was a nine
millimeter.
In my judgment, the defense’s argument,

which in all respects is appropriate, and under
the circumstances of this case probably a

384

necessary argument to make, nonetheless
opens the door to evidence offered by the state
refuting the claim that Morris was, in fact, the
shooter (A1900-1901)(emphasis added).
At no point in articulating its door-opening theory
did the court even suggest that the defense had misled
the jury.
The prosecutor then called the court reporter who
had taken the statements to recount that Morris had
pleaded guilty, against the advice of his attorney
because there was no evidence that Morris possessed
the .357 gun (A1953). Morris pleaded guilty to secure
his immediate release from prison, stating that on
April 16, 2006 at approximately 2:00 p.m. in the
vicinity of the shooting he possessed “a loaded
operable firearm” (A1954). The prosecutor further
elicited that the firearm was a “.357” (A1954-1955).
On summation, counsel urged the jury to reject the
guilty plea evidence because it “smells bad” and
“should bother” the jurors (A2354, 2357). The prosecutor, relying on Morris’s plea statements, argued that
Morris had taken responsibility for the crime that he
had committed, “possessing the .357 that day”
(A2442).
The Appellate Division ruled that although
Morris’s guilty plea minutes were testimonial hearsay,
their introduction did not violate appellant’s
Confrontation Clause rights because “the defense
opened the door to this evidence (see generally People
v. Reid, 19 N.Y.3d 382, 387 [2012].” (A12). Unlike the
trial court, the Appellate Division ruled that “the
defendant created a misleading impression that
Morris possessed a 9 millimeter handgun, which was
consistent with the type used in the murder, and

385
introduction of the plea allocution was reasonably
necessary to correct the misleading impression.” Id.
But the Appellate Division never explained how the
defense created a “misleading impression.” Id.
The Defense Did Not Open The Door.
The only issue before this Court is whether the
defense opened the door to Morris’s testimonial
hearsay, as both the trial judge and the Appellate
Division recognized that these statements would
otherwise be barred by the Confrontation Clause. See
C.P.L. §§470.15(1), 470.35(1). The trial court erroneously applied the governing legal standard in ruling
that appellant had opened the door by advancing
“appropriate” and “necessary” (A1901) arguments that
did not mislead the jury, thus committing error as a
matter of law. People v. Cargill, 70 N.Y.2d 687, 689
(1987)(the failure to “apply the correct legal standard”
constitutes legal error). Further, the Appellate
Division’s ruling, that the defense created a
misleading impression by advancing evidence-based
arguments consistent with the court’s in limine
rulings, is not supported by the record. Accordingly,
the introduction of Morris’s guilty plea minutes
violated appellant’s Sixth Amendment right to
confront the witnesses against him. See People v.
Hardy, 4 N.Y.3d 192 (2005); Crawford v. Washington,
541 U.S. 36, 65 (2004).
The open-the-door inquiry is two-fold: 1) whether
and to what extent evidence or argument said to open
the door is “incomplete and misleading”; and 2) what
if any inadmissible evidence is reasonably necessary
to correct the misleading impression. People v. Reid,
19 N.Y.3d 382, 388 (2012)(emphasis added). Reid held
that the Confrontation Clause “cannot be used to pre-

386
vent the introduction of testimony that would explain
otherwise misleading out-of-court statements introduced by the defendant . .” Id. (emphasis added). The
Reid Court cited People v. Ko, 15 A.D.3d 173, 174 (1st
Dept. 2005), which recognized that the defendant, by
selectively revealing only helpful portions of a testimonial statement, opened the door to the remaining
portions of the statement to place those offered by the
defense in context. Id.
But this Court has never held that a defendant can
open the door to inadmissible evidence, particularly
testimonial hearsay, merely by advancing an argument that makes otherwise inadmissible evidence
relevant. Reid, 19 N.Y.3d at 388. Thus, in People v.
Maldonado, 97 N.Y.2d 522 (2002), defense counsel did
not open the door to the admission of a hearsay
composite sketch by merely mentioning the existence
of the sketch.
“Presenting a theory of the case that can be
effectively rebutted by otherwise-inadmissible evidence” “does not by itself open the door to using such
evidence; only partial, misleading use of the evidence
can do so.” United States v. Sine, 493 F. 3d 1021, 1038
(9th Cir. 2007). The doctrine “is not so capacious as to
allow the admission of any evidence made relevant by
the opposing party’s strategy.” Id. at 1037(original
emphasis).
Instead, an affirmative attempt to mislead the
jury must be found before the door can be opened to
otherwise inadmissible evidence. People v. Rojas, 97
N.Y.2d 32, 38(2001). In Rojas the defendant “abused
the initial favorable Molineux ruling” to advance
“misleading contentions” that he had done “nothing
wrong to deserve” solitary confinement; this mislead-

387
ing argument opened the door to evidence of his
uncharged assault on another inmate. Similarly, in
People v. Massie, 2 N.Y.3d 179, 184 (2004), the defense
could not introduce evidence of a suggestive identification procedure without opening the door to a
subsequent non-suggestive procedure to avoid creating a misleading impression. In People v. Mateo, 2
N.Y.3d 383, 427 (2004), the defendant converted a
favorable ruling shielding the jury from learning of
additional uncharged murders discussed during his
confession, into a sword to argue that he confessed to
the murder to cover for his wife. This misrepresentation of what transpired during the interrogation
opened the door to admission of the other murders
discussed. Id.
Here, as the trial court recognized, counsel’s
actions were “in all respects” “appropriate” (A1901).
There was nothing misleading about counsel’s opening
statement which adhered to the trial court’s in limine
rulings concerning the admissibility of the .9mm
bullet recovered from Morris’s apartment. The defense
did not rely on inadmissible hearsay to advance its
claims or create a misleading impression in doing so.
To the contrary, it was the admission of Morris’s
highly questionable plea admissions which undermined the trial’s truth-seeking function.
Tellingly, the prosecutor who had sought a ruling
prohibiting the defense from mentioning any of the
other weapons or ammunition recovered from Morris’s
apartment apart from the .9mm, never argued that
the defense had done anything misleading to warrant
the admission of Morris’s guilty plea statements.
Rather the prosecution argued that the plea minutes
did not violate the Confrontation Clause because they
did not mention appellant. Without any urging from

388
the prosecution, the court ruled that appellant had
opened the door merely by advancing a third party
defense where there existed evidence “contrary to”
(A1900) the defense arguments – adopting a pure
“relevance” test.
The Appellate Division, implicitly recognizing the
error in this analysis, then ruled that somehow “during the trial” the defense “created a misleading
impression that Morris possessed a .9 millimeter
handgun.” (A12). But the Appellate Division’s paying
lip service to the idea that the defense had misled the
jury was not supported by the record; the decision
could not specify any argument or action that did so.
Nor did any exist. Instead counsel adhered to all the
court’s rulings and merely advanced a “necessary”
(A1901) and obvious defense, known to all sides before
trial and discussed throughout the pre-trial in limine
proceedings.
The Appellate Division’s analysis equates presenting a valid, evidence-based third party defense with
misleading the jury, opening the door to testimonial
hearsay. But that approach represents a radical shift
never adopted by this Court and unjustifiably
undermines the right to Confrontation. See Reid, 19
N.Y.3d at 388. The Appellate Division’s analysis
allows the prosecution to readily resort to inadmissible
evidence whenever the defense advances its theory
through effective cross-examination or pointed argument. As a practical matter, the approach creates a
minefield for counsel in which the only way for the
accused to rely on the rules of evidence or constitutional protections is to remain mute. Such an approach
is absurd in the context of the Confrontation Clause,
the purpose of which is to afford the accused the right
to meaningfully test the prosecution’s proof.

389
With respect to the second prong of the Reid test,
admission of Morris’s testimonial hearsay was not
“reasonably necessary” to dispel any impression
created by the defense. People v. Reid, 19 N.Y.3d at
388. As the defense did not introduce any testimonial
hearsay to prove that Morris possessed a .9mm
weapon, at most, the prosecution should have been
permitted to elicit that other ammunition, including
.357 bullets consistent with the gun Burger testified
Morris possessed, was also recovered. See, e.g., People
v. Schlesinger Electrical Contractors, 143 A.D.3d 516
(1st Dept. 2016)(defense suggestion that defendants
were being selectively prosecuted allowed prosecution
to introduce evidence that others had been prosecuted,
but did not open the door to the co-defendant’s guilty
plea statements). It is not as if the defense referenced
Morris’s hearsay admissions to possessing a gun,
which could have properly been met with hearsay
admissions about the caliber of the weapon. Instead,
counsel relied exclusively upon physical evidence
indisputably recovered from Morris’s apartment
shortly after his arrest to support a valid inference
that Morris was the shooter. At most the prosecution
should have been allowed to rebut this inference by
admitting the .357 bullets they previously successfully
sought to preclude.
There can be no finding that the error was
harmless beyond a reasonable doubt given the
dissent’s conclusion that the evidence was insufficient.
See Point I. Accordingly, the conviction should be
reversed and a new trial ordered.

390
POINT III
THE COURT DENIED APPELLANT A FAIR
TRIAL BY PRECLUDING THE DEFENSE
FROM ESTABLISHING PRIOR INCONSISTENT
STATEMENTS IDENTIFYING MORRIS.
Relevant Facts
During the cross-examination of Brenda Gonzalez,
counsel asked if she remembered testifying in the 2006
grand jury that the skinny guy was “Mr. Morris”
(A1247). Gonzalez responded that she “never said
that.” The prosecutor refused to stipulate to the
accuracy of counsel’s reading from the grand jury
minutes (A1247). Gonzalez also denied ever testifying
before the grand jury that she was certain of her
identification of Morris. Again counsel read from the
minutes and Gonzalez denied making the statements
(A1256). She did not recall ever saying in the grand
jury that the shooter was Morris (A1258). She insisted
that somebody must have added Morris’s name to the
transcript because she never knew his name (A1265).
She claimed that she had told the police during the
lineup that Morris was “too big on the cheek” to be the
shooter (A1268). Once again counsel attempted to
confront her by reading from the transcript reflecting
that she identified Morris as the shooter, but Gonzalez
insisted she did not “say that” in the grand jury
(A1268). Counsel asked the prosecutor to stipulate to
the accuracy of the grand jury transcript from which
he was reading, but the prosecutor refused (A1247).
Following Gonzalez’s testimony, counsel objected
to the prosecutor’s refusal to stipulate to the
transcripts’ accuracy and the prosecutor said he
needed to read them before stipulating (A1274).
Ultimately the prosecutor refused to do so, arguing

391
that counsel had mentioned the 2006 grand jury but
had then read from minutes from a subsequent grand
jury presentation in 2007 (A1351). Counsel responded
that the difference in date was immaterial because he
had alerted Gonzalez to her specific statements
(A1354). The court disagreed, reasoning that there
would have been “more publicity” that would have
contaminated the witness by 2007, although Gonzalez
had never stated she was exposed to any such publicity
(A1355, 1356).
The prosecutor was permitted to call the 2006
reporter to establish that Gonzalez had not made the
statements attributed to her by counsel (A1382-1389).
While initially the court recognized the unfairness in
precluding counsel from calling the 2007 court
reporter to establish the inconsistency, ultimately the
court ruled that, because counsel’s statements only
referenced the 2006 grand jury proceeding when questioning Gonzalez, there was no basis for the defense to
call the 2007 grand jury reporter to establish the
content of Gonzalez’s 2007 grand jury testimony
(A1362, 1364, 1488). “I keep on coming to the conclusion that there is no basis for having the stenographer
from 2007 testify when there was no impeachment
regarding the 2007 minutes,” the court explained,
stating that it wanted to think about the issue further
(A1486-1488).
On summation, the prosecutor argued that
counsel “tried to get Brenda Gonzalez to admit she
said things before the grand jury in 2006 she never
said” and that the prosecutor had to call the grand jury
reporter “to prevent facts from being manipulated” by
the defense (A2417-2418). During deliberations, the
jurors repeatedly asked to rehear the testimony from
the 2006 grand jury reporter (A2493, 2507).

392
Counsel protested at length that he had been precluded from calling the 2007 grand jury reporter,
leaving the jury with a misleading impression that
Gonzalez had never identified Morris in the grand jury
(A2499-2500). Neither the prosecutor nor the court
disputed counsel’s characterization; to the contrary,
the court responded “I understand your position. You
have an exception” and referred to “the ruling [it]
made earlier” (2500, 2501).
On appeal, the majority found that appellant had
failed to preserve and abandoned his request to call
the 2007 grand jury reporter because the court “never
actually ruled against defendant on the issue” (A15).
The court deemed counsel’s protest during deliberations a request to recall the 2007 reporter. (A15). In
the alternative, the majority found the defense had
never confronted Gonzalez with her 2007 statements
before seeking to call the 2007 reporter (A15).
The dissent found that precluding the defense
from calling the 2007 reporter “left the jury with the
impression that the witness had never previously
identified Morris as the shooter and that the defense
was fabricating evidence.” Combined with the prosecution’s arguments which “were designed to mislead
the jury to conclude that the witness had never
identified Morris as the shooter under oath,” the
preclusion ruling deprived appellant of a fair trial
(A25-26).
The Foundation For Impeachment
Sufficient As A Matter Of Law.

Was

The court violated the state and federal constitutions, as well as New York evidence law, by blocking
counsel’s request to call the 2007 stenographer,

393
because the foundation for that request was established as a matter of law. Delaware v. Van Arsdall, 475
U.S. 673, 680 (1986); People v. Hudy, 73 N.Y.2d 40, 5657 (1988); People v. Dachille, 14 A.D.2d 554 (2d Dept.
1961)(court unduly restricted cross-examination of
witness by precluding evidence that he had previously
testified he was unable to identify the defendant’s
voice, contrary to his testimony at trial); People v.
Bradley, 99 A.D.3d 934, 937 (2d Dept. 2012)(court
improperly excluded evidence that wife previously
stated her husband caused her injuries accidentally,
where counsel never specified date of prior statement
or to whom it was made); People v. Collins, 145 A.D.3d
1479 (4th Dept. 2016)(reversal due to court’s precluding testimony that complainant told a defense witness
she did not think defendant “did this”); Sloan v. New
York Central Railroad, 45 N.Y. 125, 127 (1871) (“to lay
the foundation for contradiction [by prior inconsistent
statements], it is necessary to ask the witness specifically whether he has made such statements.”); Larkin
v. Nassau Electric R. Co., 205 N.Y.267, 269 (1912);
People v. Wise, 46 N.Y.2d 321 (1978).
Here, by reading verbatim from the minutes and
alerting Gonzalez that her statements were made
before a grand jury, counsel adequately laid the
foundation to establish the inconsistencies by calling
the 2007 court reporter. Counsel’s brief confusion
about the year of the grand jury presentation was
immaterial in light of his quoting Gonzalez’s statements by reading them aloud. Sloan, 45 N.Y. at 127.
The court’s insistence that the date mattered because
Gonzalez was exposed to additional media accounts
between the 2006 and 2007 presentations, was not
supported by the record and was, in any event,
irrelevant to the foundational analysis. Accordingly,

394
as Justice Manzanet-Daniels found, the court’s precluding the defense from calling the 2007 court
reporter, combined with the prosecution’s misleading
arguments about Gonzalez’s prior statements to the
grand jury, which were seized upon by the jurors,
denied appellant a fair trial.
The majority wrongly found the issue abandoned.
The court precluded the defense from calling the 2007
court reporter and was fully aware of the defense’s
desire to call the witness. The court’s suggestion that
it had to think about the issue further, left the onus on
the court to change its ruling precluding the witness,
not on the defense to continue to assert its clearly
articulated desire to do so. C.P.L. §470.05(1)(no duty
to continue to protest once a party has expressly or
impliedly requested a ruling and the court has denied
the request or failed to rule on it).
That conclusion is supported not only by the trial
court’s denying counsel’s requests, but by the exchange
during deliberations. When counsel reminded the court
that it had precluded the defense from calling the
witness, neither the court nor the prosecutor denied
that the court had done so. Contrary to the majority’s
ruling, counsel was not seeking at that point to call the
witness, but rather to clarify what had transpired. The
court acknowledged it had precluded the defense from
calling the 2007 reporter, by stating it understood the
defense position and granting an exception to its
earlier ruling. Accordingly, the record “taken as a
whole” supports the dissent’s view that the error was
preserved and warrants reversal. People v. Le Mieux,
51 N.Y.2d 981 (1980); People v. Mezon, 80 N.Y.2d 155
(1992).

395
POINT IV
THE COURT APPLIED THE WRONG LEGAL
STANDARD IN DENYING COUNSEL’S SINGLE
ADJOURNMENT REQUEST TO FURTHER
INVESTIGATE A C.P.L. §330.30 MOTION
ALLEGING SERIOUS JUROR MISCONDUCT.
Relevant Facts
After the verdict, counsel learned that the jury
foreman had an undisclosed relationship, and had,
during the trial, spoken with one of the prosecution’s
witnesses, Elisa Hemphill, appellant’s estranged
sister-in-law (A2568-2569). Counsel sought a single
adjournment to file a C.P.L. §330.30 motion, both in
writing and when the matter was initially on for
sentencing (A2569). The court refused to grant the
request, ruling that although counsel was acting in
“good faith,” counsel could put in the “same claims” in
a C.P.L. §440 motion (A2570). Counsel protested that
the two motions were procedurally distinct and that he
needed to file the C.P.L. §330.30 motion prior to
sentence (A2570). The court responded that the exact
same claims could be raised via C.P.L. §440 (A2570).
Counsel protested he was not ready to proceed to
sentence without a pre-sentencing submission (A25712572). Counsel sought a month to file the 330 motion,
arguing that no one would be prejudiced (A2571). The
court voiced skepticism of all claims involving allegations of juror misconduct and insisted the family of the
deceased was entitled to “closure” (A2571-2572). After
giving counsel “a couple of minutes” to prepare, the
court sentenced appellant to the maximum sentence
without the benefit of a defense pre-sentencing
submission (A2575, 2589, 2591).

396
The Court Applied The Wrong Legal Standard
In Denying The Defense Adjournment Request.
Counsel’s request for a single adjournment to file
a motion alleging serious juror misconduct implicated
appellant’s core constitutional right to be tried by an
impartial jury. People v. Neulander, 34 N.Y.3d 110
(2019)(reversing where juror’s texts and dishonesty
during trial infringed defendant’s right to a fair trial,
reaffirming that “nothing is more basic to the criminal
process than” “trial by an impartial jury”)( quoting
People v. Branch, 46 N.Y.2d 645, 652 (1979)). “When
the protection of fundamental rights has been involved
in requests for adjournment” a court’s discretion to
deny the request is more narrowly construed. People
v. Spears, 64 N.Y.2d 689 (1984).
Here the court denied counsel’s request for a single
adjournment, despite finding he was acting in good
faith, based on its mistaken view that motions made
pursuant to C.P.L. §§ 330.30 and 440 were essentially
identical. But as counsel properly protested, there are
important procedural differences between these
motions. Claims raised via 330 are part of the record
on appeal and are subject to review as a matter of
right. In contrast, a defendant must petition for permission to appeal the denial of a C.P.L. §440 motion.
C.P.L. §§450.15(1), 460.15. Additionally, while criminal defendants have a right to counsel on C.P.L. §330
motions, no such right exists for C.P.L.§440 motions.
Coleman v. Thompson, 501 U.S. 722, 753 (1991).
Moreover, C.P.L §440.10(3)(a) would have acted as a
procedural bar to a post-verdict motion since the facts
were known prior to sentence and therefore could have
been placed on the record.

397
These distinctions were critical here where the
court expressed skepticism of all claims involving
juror misconduct. People v. McGregor, __A.D.3d__,
2019 N.Y. Slip Op. 08283 (1st Dept. 2019 (reversing
trial court’s denial of C.P.L. §330 motion where juror
developed a relationship with a prosecution witness
during the trial). The court then forced counsel to
proceed to sentencing without preparation, further
compromising appellant’s rights.
In any event, the court’s belief that a C.P.L.
§440.10 motion was available was irrelevant. Criminal
Procedure Law §330.30(2) expressly authorizes a postverdict, pre-sentence motion to “set aside the verdict”
on the grounds of “improper conduct by a juror.” That
legislative determination is sensible because a court
should not conduct a wasteful sentencing proceeding
until it has first determined that the verdict itself is
valid. Appellant thus had an absolute right to pursue
pre-sentence relief. The trial judge lacked the
authority to shut the courthouse door simply because
he preferred appellant to employ a distinct, post sentencing forum via C.P.L. §440.
As the court’s decision was grounded in legal error,
it was not an exercise of discretion. People v. Williams,
56 N.Y.2d 236, 239 (1982); People v. Aphaylath, 68
N.Y.2d 945, 947 (1986)(court committed legal error
because its “ruling was not predicated on the appropriate standard”). Accordingly, the matter should be
remanded for de novo sentencing proceedings.

398
POINT V
THE INTEGRITY OF THE GRAND JURY
PROCEEDINGS WAS COMPROMISED.
Prior to trial, the defense moved to dismiss the
indictment because it was undisputed that the prosecution had not presented or alerted the grand jury to
any of the exculpatory evidence that resulted in
Morris’s indictment (A174-177). The court denied the
motion, finding that the prosecution had broad
discretion in presenting its case to the grand jury and
did not have to present evidence to exculpate the
accused. (A176, citing People v. Mitchell, 82 N.Y.2d
509 (1993)).
But a prosecutor’s discretion in presenting his case
to the grand jury “is not unbounded” because he “performs a dual role of advocate and public officer,
charged with the duty not only to secure indictments
but also to see that justice is done.” People v.
Lancaster, 69 N.Y.2d 20, 26 (1986). This Court has
recognized that in order for the grand jury to perform
its proper functions of “both investigating crimes and
protecting individuals from needless and unfounded
prosecutions,” the grand jurors “ought to be well
informed concerning the circumstances of the case
before” them. Id., at 25.
The prosecutor cannot procure an indictment he
knows to be based on misleading evidence. People v.
Thompson, 22 N.Y.3d 687, 697 (2014). His duties to
deal fairly with the accused and of “candor to the
courts” extends to the prosecutor’s submission of evidence to the grand jury. Id.
As misidentification is a complete defense that
would prevent an unfounded prosecution, the failure

399
to submit the evidence that Morris had been identified
– where those identifications and other evidence supported Morris’s indictment – warrants dismissal of the
indictment returned against appellant. See, e.g,
People v. Lee, 178 Misc. 2d 24 (Sup. Ct. Nassau
County 1998)(dismissing indictment due to prosecution’s not disclosing that a witness had identified
another); accord People v. Hogan, 144 N.J. 216, 236
(1996)(grand jury cannot be denied access to evidence
that is credible, material, and clearly exculpatory ).
POINT VI
THE COURT’S RULINGS SKEWED THE TRIAL IN
FAVOR OF THE PROSECUTION AND DENIED
APPELLANT DUE PROCESS.
With respect to remaining issues, appellant
renews his claims and relies upon the arguments
made in Points IV, V, VI, VII, VIII, IX, XI, and XII of
his Appellate Division Brief. (A146-174, 180-193; 22
NYCRR §500.11 (providing that SSM appeals “shall be
determined on the intermediate appellate court. . .
briefs. . . and additional letter submissions on the
merits”)).
Respectfully submitted,
/s/ Claudia Trupp
Claudia Trupp
cc:

ADA Nancy Killian
Bronx District Attorney’s Office

400
CENTER FOR APPELLATE LITIGATION
120 WALL STREET –
28TH FLOOR, NEW YORK, NY 10005
TEL. (212) 577-2523 FAX 577-2535
ATTORNEY-IN-CHARGE
ROBERT S. DEAN

ASSISTANT ATTORNEYIN-CHARGE
MARK W. ZENO

SENIOR SUPERVISING
ATTORNEYS

SUPERVISING ATTORNEYS

ROBIN NICHINSKY
ARIELLE I. REID
BEN A. SCHATZ
MOLLY SCHINDLER
KATE SKOLNICK
MARIANNE C. YANG

ASSISTANT MANAGING
ATTORNEY

CLAUDIA S. TRUPP
BARBARA ZOLOT

BRITTANY N. FRANCIS

MANAGING ATTORNEY

CLAUDIA TRUPP
ctrupp@cfal.org
extension 512

DAVID J. KLEM

March 6, 2020
RE:

People v. Darryl Hemphill
APL-2019-00202
Rule 500.11 Submission

VIA EXPRESS MAIL
Clerk of The Court
Court of Appeals Hall
20 Eagle Street
Albany, NY 12207
Your Honor:
Pursuant to Rule 500.11(e), we respectfully
request permission to reply to Respondent’s
submission to this Court, which this office received on
February 27, 2020. We also renew our request for the
matter to be put on full course briefing.

401
POINT I
RESPONDENT’S CLAIM THAT THE EVIDENCE
WAS LEGALLY SUFFICIENT IS BASED ON ITS
MISREADING OF CRITICAL PORTIONS OF THE
RECORD.
Respondent argues that the blue sweater
containing appellant’s DNA fully corroborated
Burger’s
accomplice
testimony
(Respondent’s
Submission “RS.” at 5). That is not true because not a
single witness identified the sweater recovered from
the apartment as the one worn by the shooter. The
sweater’s relevance therefore was extremely minimal.
See People v. Dashawn Deverow, __A.D.3d __, 2020
N.Y.Slip 01359 (2/26/20) (error to admit gun recovered
5 to 7 blocks away within hours of the crime where no
witness was ever asked to identify the revolver as the
same one used in the shooting).
Contrary to Respondent’s contentions, Jimick did
not mention the smell of gunpowder in his request for
laboratory analysis of the sweater. His testimony was
precisely the opposite (A385).
Respondent also misrepresents that Burger asked
his brother to get rid of the blue sweater (RS. at 6). The
parties stipulated that Burger urged his brother to
discard a “shirt” (of unspecified color), not a sweater, a
fact Respondent is not free to disregard on appeal
(A384).
Respondent unsuccessfully attempts to portray
Burger as a credible, consistent witness, rather than
what he was – an accomplice cooperator receiving
extremely lenient treatment who repeatedly changed
his story (RS. 4-5). Burger did not provide a credible
explanation for “his only” discrepancy during his

402
testimony (RS. 4). Rather, Burger identified Morris,
then changed his story to name appellant as the
shooter; he failed to tell the police that Morris
possessed a different gun, the .357; he lied when he
said appellant disposed of the murder weapon in the
river. He then insisted that he had “come clean” during
his third police interview, but then admitted on cross
that he lied about throwing the gun in the river
himself (A21). Such inherently contradictory testimony by an accomplice cannot support a finding of
proof beyond a reasonable doubt.
Respondent’s reliance on the flight evidence is also
misplaced (RS. 7). Indeed, Respondent concedes that
the details of the alleged flight were provided by
Burger and cannot be divorced from his accomplice
status. Id. (conceding that “Burger was the source of
many of these details” concerning the alleged flight).
Contrary to Respondent’s claims, it was not appellant’s burden to rebut the evidence of flight. Id.
Consciousness of guilt evidence has consistently
been viewed as weak because even an innocent person
might flee to avoid a wrongful conviction. People v.
Bennett, 79 N.Y.2d 464, 470 (1992). This case is not
one like People v. Cintron, 95 N.Y.2d 329 (2000),
where appellant led the police on a high speed chase.
Rather, some time after the incident, appellant drove
his cousin out of town; he returned a short time later
and retained an attorney to interface with the police.
This evidence of “flight” was even less convincing than
the jury was led to believe.
In comparison to Burger’s contradiction-riddled
testimony, the evidence against Morris was strong.
Apart from the multiple eyewitness identifications,
given after a prolonged encounter in broad daylight,

403
Respondent has never been able to explain why Morris
had bruised knuckles at the time of arrest – if he had
not participated in the fight preceding the shooting
(RS. 8). Even now, Respondent can offer no explanation for this compelling evidence inculpating Morris.
Respondent now concedes that appellant did not
have a tattoo on his right arm, arguing that he had
time to have it removed (RS.7). But Respondent
expressly argued before the Appellate Division,
contrary to the evidence, that appellant had a tattoo
on his right arm (A276). Appellant, on reply observed
this misstatement of the record (A399). But the
Appellate Division was misled and found that appellant “did indeed have a tattoo on his right arm.” (A10).
Respondent has thus now conceded that the Appellate
Division erroneously considered a critical fact in
upholding this conviction.
In sum, while a rational person might believe that
appellant is possibly guilty, it is irrational to conclude
on this record that all reasonable doubt of appellant’s
guilt has been eliminated. Accordingly, the conviction
should be reversed and the indictment dismissed.
POINT II
THE DEFENSE ARGUMENT CONSISTENT WITH
THE COURT’S IN LIMINE RULINGS DID NOT
MISLEAD THE JURY SO AS TO OPEN THE DOOR
TO TESTIMONIAL HEARSAY VIOLATING THE
CONFRONTATION CLAUSE.
As Respondent acknowledges, the prosecutor and
the court agreed that the .9mm bullet recovered from
Morris’s bedroom within hours of the shooting was
relevant to his identity as the shooter (RS. 8); see also
People v. Negron, 26 N.Y.3d 262, 269 (2015)(evidence

404
that third party arrested in close proximity to the
crime “possessed weapons and ammunition including
the type used in the shooting” was relevant to supporting third-party defense). Respondent suggests that
there was something misleading about counsel’s
opening statement (RS. 9), but it did no more than
properly alert the jury to inferences the defense sought
it to draw from the evidence the court and prosecutor
agreed was relevant. Nor was counsel’s questioning of
Jimick (RS. 10), in any way misleading. 2 The trial
prosecutor never objected to either counsel’s opening
or any of the questions about which Respondent now
complains. This silence is telling, for certainly if the
prosecutor believed that the defense was unfairly
exploiting a favorable ruling to mislead the jury, he
would be expected to object.
Respondent urges this Court to adopt a dooropening doctrine based solely upon relevance (RS. 1315 & fn.6). According to Respondent even “appropriate” and “necessary” argument can “fairly open the
door to rebuttal evidence.” Id. Thus, Respondent
advances a rule that by raising a valid defense, a
criminal defendant opens the door to inadmissible
evidence if it is relevant to rebut the defense. Id. But
that has never been the law in New York. See People
v. Reid, 19 N.Y.3d 382 (2012); see also Crawford, 541
To the extent Respondent now attempts to argue that the
admission of uncross-examined statements made during a guilty
plea do not violate the Confrontation Clause those arguments
have been squarely rejected by the United States Supreme Court.
Crawford v. Washington, 541 U.S. 36, 64, 65 (2004)(ruling such
statements to constitute testimonial hearsay). This Court has
also directly addressed the issue in People v. Hardy, 4 N.Y.3d 192,
198 (2005)(“there can be little debate over whether a plea allocution” is “testimonial”).
2

405
U.S. 36 (prosecution could not rebut self-defense
claims through testimonial hearsay of unavailable
witness).
Tellingly, none of the door-opening cases upon
which Respondent relies supports such a rule (RS. 14).
In People v. Massie, 2 N.Y.3d 179, 185 (2004) counsel
sought an in limine ruling about whether he could
elicit a suggestive photographic array without opening
the door to a non-suggestive lineup. The trial court’s
ruling, upheld on appeal, found that introducing only
the suggestive procedure would provide an incomplete
and misleading picture concerning what had
transpired during the pre-trial identifications. Id. In
People v. Santos, 150 A.D.3d 1270 (2d Dept. 2017), the
contested statements were not admitted for their
truth, but to explain the circumstances surrounding
the confession. Finally, in People v. Taylor, 134 A.D.3d
1165 (3d Dept. 2015), the defense elicited favorable
hearsay statements from a non-testifying codefendant, opening the door to his inculpatory statements to prevent the jury from being misled. These
cases do not involve fact-based arguments relating to
the admission of physical evidence recognized as
relevant by both the court and prosecutor pursuant to
the court’s in limine rulings.
As Respondent also concedes, prior to admitting
the testimonial statements in Morris’s plea allocution,
the court had already reversed it prior ruling and
allowed the prosecution to admit the .357 caliber
ammunition recovered from Morris’s bedroom (RS.
15). While Respondent characterizes the defense
objection to this reversal as evidence of counsel’s
intent to mislead the jury (RS. 15), counsel was
obviously upset that the court’s shifting rulings

406
impeded his ability to chart the course of the defense
and appear forthcoming with the jury.
Appellant’s complaint does not “boil down” to the
court’s failure to mouth the words “misleading” prior
to admitting the evidence, as Respondent contends
(RS. 15). The complaint is that presumptively unreliable evidence was placed before the jury deciding
appellant’s fate. See Crawford v. Washington, 541 U.S.
at 67 (“the Constitution prescribes a procedure for
determining the reliability of testimony in criminal
trials, and we no less than the state courts, lack
authority to replace it with our own devising”). While
the court cited to Reid, it did so only to support the
general proposition that a party could open the door to
testimonial hearsay; the court did not invoke the
operative aspects of the opening-the-door doctrine (RS.
15). Instead, as Respondent acknowledges, the court
deemed counsel’s actions “appropriate,” not misleading (RS. 15). While Respondent argues that the
court was merely being polite in describing counsel’s
actions, the court’s statement and its ruling reflect a
basic misunderstanding of the Reid doctrine. (RS. 15).
The error cannot survive constitutional harmless
error analysis, contrary to Respondent’s arguments
(RS. 16). Respondent cannot and does not argue the
proof of guilt was overwhelming, the first prong of any
harmless error analysis. As the evidence was
insufficient, there can be no finding that the error was
harmless beyond a reasonable doubt. Accordingly, the
conviction must be reversed and a new trial ordered.

407
POINT III
COUNSEL PRESERVED HIS REQUEST TO CALL
THE 2007 GRAND JURY REPORTER AFTER
ESTABLISHING THE FOUNDATION FOR
IMPEACHMENT.
The record does not support that counsel
abandoned his claim to call the 2007 court reporter
after establishing the foundation for impeaching
Brenda Gonzalez with her prior grand jury testimony
identifying Morris as the shooter, contrary to
Respondent’s claims (RS. 19). Counsel specifically
alerted the court that most of his questions relating to
Gonzalez’s testimony before the grand jury did not
mention the year of the presentation (A1482). “All of
the questions, other than the first one. . . do not refer
to a date of the grand jury testimony,” counsel stated
(A1483). The court responded that there was an
“implied sense that this all occurred in 2006, which is
not the correct conclusion” (A1486). Counsel then
requested that if the prosecutor refused to stipulate
that Gonzalez had testified in 2007 before a grand
jury, the defense be “given access to the reporter and
ask and have her testify that she was the grand jury
reporter in 2007 and there was a proceeding in regard
to this case and that Ms. Gonzalez was asked the
following, was asked these questions and gave those
answers, similar to what the district attorney
did”(A1485). The prosecutor opposed, objecting that
the proper foundation had not been established to
permit the impeachment (A. 1485).
The court then ruled:
Counsel cannot impeach this witness by
reference to the 2007 grand jury minutes or
stenographer, because he did not present the

408
question in a way that confronted the witness
with 2007, identified as 2007 minutes, and,
therefore, given the questions that pertain to
2006, the witness’s answers would technically
be correct and not impeachable. . . . I keep on
coming to the conclusion that there is no basis
for having the stenographer from 2007 testify
when there was no impeachment regarding
the 2007 minutes (A1487).
The court advised that it would think about the issue
further (719).
Thus, contrary to Respondent’s argument, the
court did not “repeatedly side with counsel” on this
issue (RS. 21). The record belies this claim.
That the court was open to reconsidering its
ruling, did not mean that the preservation
requirements were unmet. See People v. Cantave, 21
N.Y.3d 374 (2013)(to preserve an issue for review,
counsel must register an objection and apprise the
court of the grounds upon which such objection is
based at a time of the erroneous ruling or when the
court had an opportunity to change the same). Here,
counsel made his position known to the court in plain
terms – he sought to call the 2007 court reporter. The
court ruled that counsel could not do so. Criminal
Procedure Law §470.05(2) sets forth that “a party who
without success has either expressly or impliedly
sought or requested a particular ruling or instruction,
is deemed to have thereby protested the court’s
ultimate disposition of the matter. . . sufficiently to
raise a question of law with respect to such disposition
or failure regardless of whether any actual protest
thereto was registered.” Given counsel’s specific
request to call the 2007 reporter and the court’s ruling

409
on the issue, the court was apprised of counsel’s
request and the issue is preserved as a matter of law.
Respondent also incorrectly argues that the
dissent did not “take issue” with the majority’s
preservation analysis in ruling that this error
warranted reversal (RS. 20). To the contrary, the
dissent specifically found that the court “prevented
counsel from cross-examining a critical witness to
establish that she had identified Morris unequivocally
as the shooter in testimony before the grand jury” and
that “the court’s ruling left the jury with the
impression that the witness had never previously
identified Morris as the shooter and that the defense
was fabricating evidence” (A23, A25)[emphasis
added].
Respondent’s argument that counsel engaged in “a
calculated decision to trip up the witness” makes no
sense (RS. 22). Counsel had every incentive to
establish the impeachment clearly. It has never been
disputed that counsel read the 2007 grand jury
minutes to Gonzalez accurately and even attempted to
show them to her so that she could accurately recall
her grand jury testimony during which she repeatedly
identified Morris as the shooter. It was the prosecution that objected to counsel’s attempts to refresh
Gonzalez’s memory of her prior testimony. As the
dissent correctly found, the prosecution’s efforts “were
designed to mislead the jury to conclude that the
witness had never identified Morris under oath to the
grand jury” (A25). Accordingly, as the dissent found,
the error denied appellant a fair trial and warrants
reversal (A26).

410
POINT IV
APPELLANT’S SINGLE REQUEST FOR AN
ADJOURNMENT IMPLICATED HIS FUNDAMENTAL CONSTITUTIONAL RIGHT TO AN
UNBIASED JURY AND THE COURT APPLIED
THE WRONG LEGAL STANDARD IN DENYING
THE REQUEST.
Respondent characterizes appellant’s request for a
single adjournment as “last minute” and argues that
the court acted within its discretion in denying that
request because it did not implicate any constitutional
concerns (RS. 23). In all respects these arguments are
wrong.
Regarding timing, the jury returned its verdict
December 7, 2015 (A115). The court placed the matter
on for sentencing January 6, 2016 (A116). Prior to that
date, counsel learned of the juror misconduct and
wrote to the court to apprise it of the issue (A. 2574).
Because of the court’s holiday schedule, it did not
receive counsel’s letter requesting an adjournment
until the day before the scheduled sentencing date. Id.
Accordingly, the request for adjournment was not “last
minute,” but made prior to the sentencing date as soon
as counsel became aware of the issue (RS. 23, 24).
Respondent is also wrong that the request did not
implicate appellant’s right to a trial by an impartial
jury (RS. 23). Most recently, this Court recognized that
claims of juror misconduct implicate a criminal
defendant’s most “basic” constitutional right to an
impartial jury. People v. Neulander, 34 N.Y.3d 110
(2019). Respondent simply ignores this authority.
Similarly, Respondent ignores the procedural distinctions between C.P.L.§330.30 and §440.10 motions

411
and concedes the court’s failure to recognize them (RS.
25, fn.10). But the court’s erroneous equating of the
two motions meant it applied the wrong legal standard
in assessing counsel’s request. As such, the court’s
denial was not an exercise of discretion but was
grounded in legal error.
Respondent’s argument that the court denied the
single adjournment request because the motion lacked
merit makes no sense (RS. 25). The court could not
judge the sufficiency of the allegations prior to
reviewing the motion.
There was no lack of diligence on counsel’s part.
Within a matter of weeks, during the holiday season,
he had managed to obtain an affidavit from the
witness and the contact information for the juror. Only
the holidays had prevented counsel from completing
the investigation. Respondent recognizes that the
investigation was essentially complete and counsel
simply needed time to draft the motion (RS. 25). Under
these circumstances, it is unlikely that the defense
would have sought additional delay, contrary to
Respondent’s suggestion (RS. 24).
As the request for adjournment was timely made,
in good faith, and implicated appellant’s fundamental
right to a fair jury, the court’s denial of the request
based on its application of an erroneous legal standard
warrants remanding the matter for de novo sentencing
proceedings.

412
POINT V
THE PROSECUTION DOES NOT HAVE
UNFETTERED DISCRETION TO WITHHOLD
EXCULPATORY EVIDENCE FROM THE GRAND
JURY.
Respondent urges this Court to adopt a standard
that would allow the prosecution to withhold all exculpatory evidence from the grand jury, dismissing this
claim as merely “an evidentiary matter” (RS. 27). This
argument ignores that a prosecutor exercises a dual
function before the grand jury, to secure indictments
and “to see that justice is done.” People v. Lancaster,
69 N.Y.2d 20, 26 (1986).
Respondent argues that there is no appellate
authority on this issue, but does not dispute that the
lower trial courts have dismissed indictments due to
the prosecution’s failure to disclose exculpatory
eyewitness identification evidence (RS. 27). Given that
the trial courts are called upon to decide motions to
dismiss, without the guidance of “appellate decision
from this State,” full briefing should be ordered on this
issue (RS. 27).
At the very least, where another grand jury has
indicted someone else, making a finding of probable
cause to believe that person committed the crime, the
prosecution should be duty-bound to present exculpatory evidence to any subsequent grand jury considering the same charges. Such a rule is consistent with
the prosecution’s duty of fair dealing and candor to the
courts. See People v. Thompson, 22 N.Y.3d 687, 697
(2014). The rule of unfettered prosecutorial discretion
in evidentiary matters espoused by Respondent

413
undermines the grand jury’s basic function to protect
the individual from unfounded prosecutions. 3
Respectfully submitted,
Claudia Trupp
cc:

ADA Noah Chamoy
Bronx District Attorney’s Office

Appellant again asks to this Court to review all the issues
mentioned in Point VI of his initial submission.
3

